<html>
<title> - COMMITTEE ON APPROPRIATIONS</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                    INTERIOR, ENVIRONMENT, AND RELATED
                     AGENCIES APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                              _______________

       SUBCOMMITTEE ON INTERIOR, ENVIRONMENT, AND RELATED AGENCIES

                     BETTY McCOLLUM, Minnesota, Chair
                     
        CHELLIE PINGREE, Maine			DAVID P. JOYCE, Ohio
	DEREK KILMER, Washington		MICHAEL K. SIMPSON, Idaho
	JOSE� E. SERRANO, New York		CHRIS STEWART, Utah
	MIKE QUIGLEY, Illinois			MARK E. AMODEI, Nevada
	BONNIE WATSON COLEMAN, New Jersey
	BRENDA L. LAWRENCE, Michigan   
	
NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full committee,
	and Ms. Granger, as ranking minority member of the full committee, are 
	authorized to sit as members of all subcommittees.
	
		RITA CULP, DONNA SHAHBAZ, JOCELYN HUNN, PETER KIEFHABER,
			KUSAI MERCHANT, JANET ERICKSON, and TYLER COE
		             Subcommittee Staff
					
				__________	
					
					
			          PART 7	
	
          Testimony of Interested Individuals and Organizations
          
								Page
Americans for the Arts, February 26, 2019 ....................... 1
National Council of Indian Health, March 6, 2019 .............. 265
Quinault Indian Nation, March 7, 2019 ......................... 483
Members� Day Hearing, March 27, 2019 .......................... 749
Written Testimony From Individuals and
Organizations ................................................. 769          
          
  
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                               __________



        Printed for the use of the Committee on Appropriations
        
                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
36-774                     WASHINGTON : 2019       
          

_______________________________________________________________________

                                
 
                      COMMITTEE ON APPROPRIATIONS

                                ---------- 
                                
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio				KAY GRANGER, Texas
  PETER J. VISCLOSKY, Indiana			HAROLD ROGERS, Kentucky
  JOSE E. SERRANO, New York			ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut			MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina		JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California		KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia		TOM COLE, Oklahoma
  BARBARA LEE, California			MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota			TOM GRAVES, Georgia
  TIM RYAN, Ohio				STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland		JEFF FORTENBERRY, Nebraska	
  DEBBIE WASSERMAN SCHULTZ, Florida		CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas				JAIME HERRERA BEUTLER, Washington
  CHELLIE PINGREE, Maine			DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois			ANDY HARRIS, Maryland
  DEREK KILMER, Washington			MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania			MARK E. AMODEI, Nevada
  GRACE MENG, New York				CHRIS STEWART, Utah
  MARK POCAN, Wisconsin				STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts		DAN NEWHOUSE, Washington
  PETE AGUILAR, California			JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida				JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois			 WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

                 Shalanda Young, Clerk and Staff Director

                                   (ii)


     DEPARTMENT OF THE INTERIOR, ENVIRONMENT, AND RELATED AGENCIES 
                        APPROPRIATIONS FOR 2020

                              ----------                              

                                        Tuesday, February 26, 2019.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                              


                         AMERICANS FOR THE ARTS

                                WITNESS

ROBERT L. LYNCH, ARTS PRESIDENT AND CEO, AMERICANS FOR THE ARTS
    Ms. McCollum [presiding]. Good morning, and welcome to the 
first of two public witness hearings being held today for the 
non-tribal programs under the jurisdiction of the Interior, 
Environment Appropriations Subcommittee. I am pleased to be 
joined by our ranking member, David Joyce of Ohio, our vice 
chair, Congresswoman Chellie Pingree of Maine, and my other 
colleagues, Mr. Stewart and Mr. Amodei.
    As chair of the subcommittee, I want you to know I am 
really excited to bring back this important tradition of public 
witness days. While we have continued to hold annual public 
witness hearings for American Indians and Alaska Natives, this 
is the first public witness hearing dedicated to non-tribal 
programs held by this subcommittee since March of 2015.
    And today we will hear from more than 40 witnesses, and it 
is composed of a diverse range of partners, including public, 
nonprofit organizations, State and local agencies. And this 
testimony is going to cover a diverse range of topics related 
to the jurisdiction of this committee: the arts and the 
humanities, the environment, public lands, and wildlife. I am 
ready to learn more about all of your priorities, and I look 
forward to the discussions on these issues because I believe it 
will help inform us to develop the 2020 appropriations bill.
    Now, before I turn to Mr. Joyce, I would like to cover the 
hearing logistics. Each witness will have 5 minutes to present 
testimony, and we will be using a timer to keep track of the 
time. When the light turns yellow, the witness will have 1 
minute remaining to conclude his or her remarks. When the light 
blinks red, I will lightly tap the gavel--I mean lightly--so 
the next witness can begin.
    And I know 5 minutes can go so very fast, but we need to be 
fair. We need to get through a lot of testimony. As I said, I 
am very excited about it, and as I mentioned to some of you 
earlier, your written testimony will be submitted for the 
record, and I have read all of it. So I am really excited to 
hear our question and answer part, which will also be part of 
what we will do at the end of the whole panels' testimony.
    I would like to remind those of you in the committee 
hearing room about the rules. We prohibit the use of cameras 
and audio equipment during the hearing unless you are presented 
with House press credentials. So other than that, no pictures, 
please.
    When this morning's hearing concludes, we will adjourn, and 
then we will reconvene at 12:45 for the afternoon hearing. And 
with that, I am very happy and honored to yield to my friend, 
Mr. Joyce, for his remarks.
    Mr. Joyce. Thank you, Madam Chair, for calling this 
important hearing to get input from the public on a wide array 
of programs under the subcommittee's jurisdiction. I look 
forward to working with you in the days and weeks ahead to do 
what we can to evaluate the effectiveness of these programs and 
to make the difficult, but necessary choices, among competing 
priorities. Since we have a full day of testimony ahead of us, 
I am glad to yield back at this time.
    Ms. McCollum. Ms. Pingree, any remarks.
    Ms. Pingree. Absolutely none. We will have a good day.
    Ms. McCollum. All right. All right. Well, I am going to 
turn to our first panel now covering the arts. Mr. Lynch, 
president and CEO of Americans for the Arts, you are recognized 
for 5 minutes, sir.
    Mr. Lynch. Thank you so much. Good morning, and let me just 
say, Chair McCollum, and Ranking Member Joyce, and co-chair of 
the Congressional Arts Caucus, Congresswoman Pingree, and 
members of the subcommittee, I thank you for the opportunity to 
testify today in support of Federal funding for the National 
Endowment for the Arts at no less than $167.5 million for 
fiscal year 2020. That is a $12.5 million increase over fiscal 
year 2019 funding.
    The arts are exploding across America bringing human, 
social, and economic benefits, and I thank this committee for 
helping to lead that effort. This committee has been in the 
forefront of that effort. Americans for Arts works to advance 
the arts and arts education in America, representing and 
serving the more than 5,000 local arts agencies in every State. 
And together with those agencies, we work to ensure that every 
American has access to the transformative power of the arts. 
And it has been my honor to be there for 34 years.
    I know that I speak for the entire arts community in our 
appreciation for the bipartisan work from this committee and 
Congress in appropriating the additional $2 million last year 
and an increase in 2018 as well. I thank you for that. It has 
made a huge difference. These consecutive years of incremental 
funding enhanced the National Endowment for the Arts' 
investment in every single congressional district in our 
country. And according to the U.S. Bureau of Economic Analysis, 
this now contributes $764 billion to the arts and culture 
industry in America, $4.2 percent of the annual gross domestic 
product, bigger than tourism itself, amazingly. The Nation's 
arts and culture industry supports $4.9 million direct jobs and 
yields a $21 billion trade surplus for our country, so this 
investment is a good deal for America.
    Every National Endowment for the Arts grant dollar 
leverages also at least $9 in private and other public funds, 
generating more than $500 million in matching support. And this 
leveraging power is the chief value, I think. It far surpasses 
the required non-Federal match of 1 to 1. It is unique to this 
industry and very valuable to the growth of our industry.
    For fiscal year 2020, we hope that the National Endowment 
for the Arts will receive funding at the same level as the 
recent high point of $167.5 million, which Congress 
appropriated on a bipartisan basis back in fiscal year 2010, so 
a while back. Would like to see it returned.
    We estimate that this $12.5 million increase, based on 
current NEA programming, would provide, first, an increase for 
direct endowment grants by about $6 million; secondly, an 
increase of $4 million to the NEA's state partnership 
agreement, which would result in about 2,000 additional State 
grants across the country, and with the National Endowment for 
the Arts' estimate of 9 to 1 return, each direct grant dollar 
will leverage an additional $40 million in non-Federal matching 
support. So that is the main thing that we are looking for and 
the arts community, many of my colleagues here, are looking for 
in that growth.
    But today I would also like to highlight one very important 
National Endowment for the Arts initiative. That is the 
Creative Forces Program. An increase in funding for the 
National Endowment for the Arts is vital in order to sustain 
and expand important work that serves the needs of military 
service members and veterans, many of whom are just around this 
table I have heard today. But many of whom out there in the 
community have been diagnosed with traumatic brain injury and 
psychological and physical health conditions.
    Much of this work is being supported through targeted 
programs, such as the National Endowment for the Arts Creative 
Forces Military Healing Arts Network, which we are proud is 
administered through a cooperative agreement with Americans for 
the Arts, as well as many community arts engagement programs 
receiving Federal grants with State and local arts agencies.
    The Creative Forces Program currently has been expanded 
with your help to 11 clinical sites and utilizes creative arts 
therapists who are integrated into interdisciplinary treatment 
teams, providing art therapy, music therapy, dance and movement 
therapy, and creative writing instruction for service members. 
In 2018, more than 16,000 patient encounters took place, and 
over 3,000 new patients were served.
    This work is being documented and networked through the 
Americans for the Arts National Initiative for Arts and Health 
in the Military, and several examples that I have here are 
administered and take place in your districts or districts of 
members here. So the Arts Bellum Foundation in St. Paul, 
Minnesota is one with research-based art therapy programs for 
veterans and their families. The Vet Arts Project in Akron, 
Ohio, specializing in storytelling and focusing on women. The 
Museum of Glass in Tacoma, Washington, which uses glass blowing 
and Hot Shop Heroes Healing with Fire Program. And the Reno 
Veterans Photo Group in Reno, Nevada, focusing on photography 
and lighting and framing and printing. So an awful lot is 
happening.
    Eighty-five percent of military patients say art therapy is 
helpful to their healing, and military patients consistently 
rate art therapy among the top four treatments out of more than 
40 health interventions offered. Shortly you will hear about 
this life-changing program from the gentleman next to me, and I 
won't go into his credentials. You will hear about it 
yourselves, but it is an honor to be sitting here with him.
    So thank you for your consideration and support of at least 
$167.5 million for the NEA in the fiscal year 2020 budget. And 
we stand ready to assist and remain focused on getting the 
Endowment fully funded again in the coming months. Thank you.
    [The statement of Mr. Lynch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Christopher Stone, master 
gunnery sergeant, United States Marine Cops, Retired. Welcome 
home.
    Master Gunnery Sergeant Stowe. Thank you very much.
                              
                              ----------                              

                                        Tuesday, February 26, 2019.

                       UNITED STATES MARINE CORPS


                                WITNESS

MASTER GUNNERY SERGEANT CHRISTOPHER STOWE, UNITED STATES MARINE CORPS, 
    (RETIRED)
    Master Gunnery Sergeant Stowe. Chair McCollum, Ranking 
Member Joyce, who is also a fellow Ohioan, and members of the 
subcommittee, thank you for the opportunity to testify in front 
of you today in support of Federal funding for the National 
Endowment for the Arts. I would like to echo Mr. Lynch's 
comments of a budget line of no more than $167.5 million for 
fiscal year 2020, with a $12.5 million increase over fiscal 
year 2019 funding.
    As mentioned earlier, I am a retired Marine master gunnery 
sergeant who has served with multiple conventional and special 
forces units as an explosive ordnance disposal technician, 
deploying 6 times to Iraq and Afghanistan, as well as multiple 
locations in Africa, Kosovo, Macedonia, and other CENTCOM 
command locations in the Middle East over the course of my 24-
year career. I have also served in these halls as a 
congressional fellow for then chairman of the House Veterans 
Affairs Chairman, Jeff Miller, as a Wounded Warrior fellow on 
his committee, working on veterans' legislation and oversight 
of the Veterans Affairs Department in 2013. Today I am 
testifying at the invitation of the American Art Therapy 
Association, a 501(c)(3) not-for-profit, nonpartisan, 
professional and educational organization dedicated to the 
growth and development of the art therapy profession.
    I appreciate the opportunity to provide public comment on 
the budget request for the NEA, specifically in support of 
creative arts therapies and community arts engagement programs 
like Creative Forces, the NEA Military Healing Arts Network, a 
partnership of the NEA, the Departments of Defense and Veterans 
Affairs, and state and local arts agencies that serves the 
special needs of military service members and veterans with 
traumatic brain injury and psychological health conditions, as 
well as their families and caregivers.
    Creative arts therapies, including art therapy and music 
therapy, and community arts engagement programs have completely 
changed how I view therapeutic treatment. The use of creative 
arts therapies as part of an integrative approach to healing my 
combat injuries helped me move towards a more whole of person 
approach to therapy and helped me succeed. I fully believe that 
no single form of therapy is the be-all and end-all. One 
individual may or may not respond well to traditional forms of 
therapy, but will accelerate greatly in his or her healing when 
creative arts therapy, or as in my case, is applied in concert 
with more traditional therapies.
    A mask-making exercise is typically done as one of the 
first exercises in the art therapy program at the National 
Intrepid Center of Excellence at Walter Reed. As many of you 
can attest and seeing the National Geographic special that was 
done in their magazine as well as the TedMed speech that was 
done by the Creative Arts therapist there, Ms. Walker. I can 
attest to the mixed emotions that can be felt during this mask-
making exercise: guilt, fear, and self-loathing, self-doubt at 
first, and then while moving through the making of the mask, 
feelings of exhilaration, freedom, resolution, and 
accomplishment can start to emerge. I know that it helped show 
the way for me as it pertained to how I personally viewed 
myself, normal on the outside, kind of a demon and little bit 
broken on the inside.
    I also feel that this nonverbal tool allows the member to 
expose themselves in a safe and controlled setting with an art 
therapist, without having to belabor long talk therapy sessions 
in order to draw out the key pieces that a member needs help 
dealing with, while creating a very visceral trust experience 
and exercise with the art therapist and the member in a very 
non-judgmental way. Creative self-expression has long been a 
form of healing throughout cultures around the world, and we 
are fortunate that the creative arts therapies are being more 
widely recognized in the medical community.
    The readily apparent benefits of increased confidence, 
mental acuity, physical dexterity, improved self-worth, and 
decrease in depression have all been wonderfully positive 
aspects to me that were and are derived from art therapy. 
However, the incidental positive consequences of art therapy in 
Creative Forces as well as engaging with traditional 
nonmilitary communities, such as local art communities, have 
been equally beneficial to me. Some of these positive 
consequences for me have been increased interaction with other 
people, as in the case today, a much greater appreciation of 
people that have never served and what their lives and opinions 
look like, a healthier overall appreciation for human life and 
perspectives, as well as a deepened and renewed commitment to 
help my fellow service members through the advocacy of art 
therapy. I can state unequivocally that art therapy has helped 
me to be a better human, husband, father, and friend. I can 
also state without a doubt that art therapy has helped save my 
life.
    As a testament to how creative art therapies have 
positively affected me and how I interact with the world, I 
found in the first community-based arts program to partner with 
the James A. Haley VA in Tampa, Florida at the Maury Arts 
Center in St. Petersburg called Operation Art of Valor. Much 
like the West Coast version, Hot Shop Heroes, this 
collaborative project between the NEA, the VA, and the local 
arts community teaches the art of glass blowing to veterans and 
military members free of charge. This program wouldn't be 
possible without funding opportunities from the NEA's military 
and veteran-focused program, Creative Forces, and their 
guidance and resource education have been invaluable to me so I 
can continue to serve.
    I sincerely hope the subcommittee and Congress as a whole 
will continue to support creative art therapies and access to 
more community-based arts engagement programs for service 
members, veterans, their families and caregivers by increasing 
the NEA's funding for fiscal year 2020 to at least $167.5 
million. And once again, thank you all for allowing me to 
testify here this morning, and I am happy to answer any 
questions you may have.
    [The statement of Master Gunnery Sergeant Stowe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you for your testimony. Dr. Ford Bell, 
who, in full disclosure, is from Minnesota. Welcome. 
[Laughter.]
    Dr. Bell. Thank you very much.
                              ----------                             


                                        Tuesday, February 26, 2019.

                      AMERICAN ALLIANCE OF MUSEUMS


                                WITNESS

FORD W. BELL, DVM, AMERICAN ALLIANCE OF MUSEUMS
    Dr. Bell. Thank you very much. Thank you. Chairwoman 
McCollum, thanks to you, and Ranking Member Joyce, and members 
of the subcommittee for inviting me to testify today. My name 
is Ford Bell, and I am the immediate--sorry--immediate past 
president and CEO of the American Alliance of Museums here in 
Washington. AAM represents all types of museums from art to 
natural history museums to zoos, and I am especially delighted 
to testify before you today, which is Museums Advocacy Day on 
Capitol Hill.
    I am here to request the subcommittee provide at least 
$167.5 million each in fiscal year 2020 funding for the 
National Endowment for the Arts and the National Endowment for 
the Humanities, as well as sufficient funding for the 
Smithsonian Institution. We also request your support for the 
Historic Preservation Fund, including at least $60 million for 
state historic preservation offices, $20 million for tribal 
historic preservation offices, $15 million for competitive 
grants to preserve the sites and stories of the Civil Rights 
Movement, and $15 million for the Save America's Treasures 
Program.
    Museums are economic engines and job creators. U.S. museums 
support more than 726,000 jobs and pump $50 billion annually 
into our economy. Their economic activity of museums generates 
more than $12 billion in tax revenue, one-third of it going to 
State and local governments. The financial impact museums have 
on Minnesota's economy is $917 million each year, including 
13,781 jobs. For Ohio, it is $1-and-a-billion impact, 
supporting almost 26,000 jobs. This impact is not limited to 
cities. More than 25 percent of museums are in rural areas.
    The import of these data is not the numbers alone, but the 
point that museums give back tremendously to their communities 
in numerous ways, including economically. The Federal funding 
for NEA, NEH, and other government programs does not stay in 
Washington, DC, but goes back to communities across the Nation, 
and it is leveraged many times over by private philanthropy and 
by State and local investments.
    Increasing investments in these agencies and programs will 
enhance museums' work to enrich their communities and preserve 
our many heritages. My testimony today focuses on the NEH and 
NEA. The Humanities Endowment supports museums as institutions 
of lifelong learning and exploration and as keepers of our 
cultural, historical, and scientific heritages that can foster 
critical dialogues on challenging issues of our time. Many of 
NEH's divisions and offices support museums, and we applaud the 
Office of Challenge Grants for offering matching grants to 
support much-needed infrastructure projects at museums.
    Here is one example of how NEH funding was used to support 
museums' work in your communities. The Minnesota Historical 
Society in St. Paul, Minnesota received an exceptional $600,000 
award to implement a traveling exhibition, website, and public 
programs examining the history of World War I and its impact on 
America, that opened at the Museum in 2017 and is now traveling 
nationally.
    The Art Endowment's grants to museums help them exhibit, 
preserve, and interpret visual material through exhibitions, 
residencies, publications, commissions, conservation, 
documentation, and public programs. Since 2010, the NEA has 
collaborated with Blue Star Families and the U.S. Department of 
Defense on Blue Star Museums, a really great program which 
provides free museum admission to active duty military and 
their families all summer long. In 2018, more than 2,000 
museums in all 50 States participated, reaching on average more 
than 900,000 military families.
    In 2018, the NEA provided more than 100 awards directly to 
museums totaling over $3.73 million. Here is just one example 
of how NEA funding was used to support museums work in your 
communities. The Cleveland Museum of Art in Cleveland, Ohio 
received $40,000 in 2017 to support a research project designed 
to answer questions on how best to use new visitor engagement 
technology to help the museum build and sustain new audiences 
in the community. In addition to these direct grants, NEA's 
Arts and Artifacts Indemnity Program allows museums of all 
types to apply for Federal indemnity for major exhibitions, 
saving them as much as $30 million in insurance costs every 
year, and making many more exhibitions available to the public, 
all at virtually no cost to the American taxpayer.
    In closing, I highlight a recent national poll showing 95 
percent of voters would approve lawmakers acting to support 
museums, and 96 percent want Federal funding for museums to be 
maintained or increased. People love their museums, and our 
country is better because of them.
    I invite members of the subcommittee and your staff to 
attend our museum's Advocacy Day reception from 5:00 to 7:00 
p.m. this evening in the Capitol Visitor Center cafe. I 
appreciate the opportunity to testify, and I am happy to answer 
any questions you may have.
    [The statement of Dr. Bell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you very much, Mr. Bell. Ms. Jessica 
Unger, Foundation of Advancement and Conservation. We are 
anxious to hear what you have to say.
                              ----------                             


                                        Tuesday, February 26, 2019.

               FOUNDATION FOR ADVANCEMENT IN CONSERVATION


                                WITNESS

JESSICA UNGER, EMERGENCY PROGRAMS COORDINATOR, FOUNDATION FOR 
    ADVANCEMENT IN CONSERVATION
    Ms. Unger. Chairman McCollum, Ranking Member Joyce, members 
of the subcommittee, good morning, and thank you so much for 
the opportunity to speak with you all today. My name is Jessica 
Unger, and I serve as emergency programs coordinator at the 
Foundation for Advancement and Conservation, also known as the 
Foundation for the America Institute for Conservation. I am 
here today to testify on behalf of the National Humanities 
Alliance for the National Endowment for the Humanities.
    Firearms from the Civil War covered in mud sat on the banks 
of the Mississippi Gulf Coast in the days after Hurricane 
Katrina. Costumes, props, and programs from the famed Martha 
Grand Dance Company floated in the storm surge-inundated 
storage room in the hours following Hurricane Sandy. And swirls 
of mold covered the walls from floor to ceiling of a Puerto 
Rican library in the weeks after Hurricane Maria. The sense of 
loss that accompanies disasters is acute. That sense is 
heightened when our collective cultural heritage is imperiled 
as well.
    We rely on objects to learn from past generations and to 
carry our own legacy into the future. Books, letters, records, 
photographs, film, works of arts, whether located in our 
Nation's great museums or in the cedar chest at home, our 
tangible cultural heritage is fond in objects that are at risk 
of decomposing. It is the job of cultural heritage conservators 
to slow down the processes of decay working with museums, 
library, and archives collections staff to provide the best 
environmental conditions possible and perform treatments on 
objects as needed.
    Conservators are an impressive bunch. Versed in art 
history, studio art, and chemistry, they go through rigorous 
training in order to do the essential work of preserving our 
cultural heritage. In my role at the Foundation for Advancement 
of Conservation, I work with a team of conservators and 
collections care professions who volunteer their time and 
expertise to help collections affected by emergencies and 
disasters. This team, known as the National Heritage 
Responders, have done incredible work to salvage items when it 
seemed that all was lost.
    The team's work has been consistently supported by the 
National Endowment for the Humanities. The Agency has funded 
research projects and, likewise, informed response protocols in 
support of innovative publications. NEH has likewise supported 
the deployments following major disaster events, providing 
these volunteers with the equipment and resources needed for 
their success.
    National heritage responders have the knowledge of 
materials on the molecular level that helps drive their 
decision-making processes. For example, while mold is a major 
threat to objects exposed to damp environments, some of the 
items can actually be frozen in order to create a hostile 
setting for mold growth. These objects can later be thawed and 
dried. Research and equivalent of techniques in this area have 
moved forward in leaps and bounds over the past several 
decades, and NEH has played an important role in supporting 
this response work.
    Although while having measures in place to effectively 
respond to disasters is essential, those activities don't take 
into account the full scope of a disaster cycle. Preparedness 
and mitigation require foresight, innovation, and cooperation. 
The Foundation for Advancement in Conservation manages a 
program called Alliance for Response, which aims to bring 
together collections professionals with emergency managers and 
first responders on the local level.
    These communities form cooperative disaster networks that 
work together to achieve collective goals. The network in 
Seattle has a mutual aid agreement in place to support each 
other during the big one. In Salt Lake City, the network has 
collaborated with state agencies to write an annex to the 
State's emergency plan that included cultural resources, and 
the network in Minneapolis-St. Paul developed a guide to 
working with first responders. NEH has been supporting the work 
of Alliance for Response since 2010. The Agency's investment in 
the program has allowed for the launch of new networks across 
the country and has provided resources for the existing 
networks, such as training opportunities.
    Collaborating on the local level is essential as each 
region faces their own challenges in terms of natural hazards. 
Increasingly extreme weather patterns are changing these 
hazards as well. California institutions face an increased risk 
for wildfires, and hurricanes gather more power over warmer 
water, threatening those in their path. Local networks are 
nimble in responding to these changing risks.
    NEH has through their history of funding recognized the 
importance of supporting collecting institutions as they 
prepare for, respond to, recover from emergencies and 
disasters, and the impact of these efforts is significant. When 
Hurricane Irma hit Florida in 2017, the Vizcaya Museum and 
Gardens in Miami, located on Biscayne Bay, suffered significant 
storm surge damage. However, just 4 months prior, the museum 
hosted an NEH-funded workshop in disaster response with the 
South Florida Alliance for Response Network, and after the 
storm, the mum's conservator knew to call the National Heritage 
Responders for assistance, which helped the Vizcaya staff 
quickly stabilize the environment and minimize the impact of 
mold.
    Conservators and collections care professionals face 
significant challenges in protecting our cultural heritage for 
future generations. There is ample evidence to show that the 
strategic funding by the NEH has laid important groundwork, and 
there is still much work to be done. With increased funding, 
NEH can support the networking and training that are essential 
in protecting cultural heritage from emergencies and disasters. 
And this important work must continue to make sure that the 
human story is preserved.
    Thank you so much for your time, and I am happy to answer 
questions.
    [The statement of Ms. Unger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Well, thank you for the testimony. We were 
reminded of how important our arts, our history, and our 
culture are, and we also learned some new information here. I 
don't have any questions for the panel, but before I move on, I 
would encourage anyone who would like to go out to Walter Reed, 
we can arrange for that to happen through this committee. I am 
also on the Defense Subcommittee. It is absolutely amazing what 
is going on out there, so if you haven't had an opportunity and 
you would like to do that, if a group of us would like to go 
together or something like that, we can make that happen. So 
thank you all very much for your testimony.
    Mr. Joyce.
    Mr. Joyce. I have no questions either, but I appreciate the 
offer to do that.
    Ms. McCollum. Ms. Pingree.
    Ms. Pingree. Just briefly. Thank you all for your 
testimony, and I look forward to our visit to Walter Reed. I 
have heard about the program before, and thank you for your 
testimony. That was very personal and moving. So thank you.
    Thank you to Americans for the Arts. I am looking forward 
to being the co-chair with my Republican colleague of the Arts 
Caucus and working with you. I really appreciate all you to do 
to advocate both for funding, but all the activities around the 
arts and I learned a lot about conservation there, thank you 
very much. We have lots of tiny museums in Maine, and we love 
them all. thank you. [Laughter.]
    Ms. McCollum. Mr. Stewart.
    Mr. Stewart. I will be very brief. I would just like to 
reiterate----
    Ms. McCollum. Mr. Stewart, could I ask you to turn on your 
microphone? Thank you.
    Mr. Stewart. Sorry.
    Ms. McCollum. We want to hear every word.
    Mr. Stewart. OK. I will start over. [Laughter.]
    I would just like to thank the witnesses, but especially 
Chris as a veteran myself, as a member of a family of veterans, 
and as someone with family who is serving and deployed now. I 
think you bring up a point that is often overlooked, and that 
is we typically think of veterans and those who, you know, need 
a little help when coming home and the challenges that many 
face. There is a little bit of a box that we often put them in, 
and this is outside of that box. And it can be very effective, 
very cost-efficient, and we appreciate your efforts to 
highlight that.
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair. And, Mr. Stowe, I just 
want to say thank you for your service, and I want to thank you 
for testifying to the benefits of the Hot Shop Heroes Program 
with the Museum of Glass in Tacoma. It is probably one of the 
coolest hours I have had in this job was getting to visit with 
some of the vets who are participating in that program. I had 
one of them say to me, you know, I learned how to break a bunch 
of stuff, and this has been really cool to get to form a bunch 
of stuff and to create something.
    And as they spoke to the therapeutic benefits, it was 
incredibly powerful and highlights the importance of fighting 
for funding for the NEA.
    Master Gunnery Sergeant Stowe. Thank you, Congressman. I 
would just like to add, too, that Hot Shop Heroes and the 
partnership with Creative Forces, their program was the 
template that I used with Greg Owen out there at the Tacoma 
Museum, and that is how we got our program started with a 
collaboration between both coasts through the NEA and Creative 
Forces as the conduit. So thank you very much, sir.
    Ms. McCollum. Mr. Amodei.
    Mr. Amodei. Thank you, Madam Chair. I would like to ask, 
just two things real quick. One is let us kind of take with a 
grain of salt my colleague from Utah's comments because he was 
in the Air Force, not the Marines. [Laughter.]
    Mr. Amodei. However, as a former Army guy, which I know 
isn't as good as where you hang from, but it was the best I 
could do under the circumstances. But I don't want to limit the 
hearings and the value of your testimony to the fact that arts 
therapy could also be a very good treatment methodology for 
members of Congress as well as those who have your background. 
[Laughter.]
    And with that, I will yield back, Madam Chair.
    Ms. McCollum. I second that. Mrs. Watson Coleman.
    Mrs. Watson Coleman. Thank you. I am sorry I was late. I 
was delayed. I am glad that I heard as much as I have heard, 
and thank you. Thank you for coming before us.
    Ms. McCollum. Well, thank you.
    Mrs. Watson Coleman. Thank you, Chair.
    Ms. McCollum. I just want to comment on something I thought 
was really important in the testimony that I heard today. 
Visitation and audience trends are up. They are up in our 
museums. They are up in our cultural institutions, and people 
want to have the experience and the touchstones. I think the 
fact that all four of you are here to talk about the importance 
of that match that we do through this committee to amplify the 
experience of healing, enjoying, creating, and sharing is so 
very important.
    So I thank you all, and, Mr. Bell, thank you for the invite 
to the world to come to the reception tonight. [Laughter.]
    Dr. Bell. To the world.
    Ms. McCollum. Thank you so very much. As the next panel 
comes up, I would just like to offer people who are here today, 
we mean no disrespect if you see members come to and fore in 
this hearing, as there are other Appropriations meetings taking 
place, and some members will be speaking in committees or 
preparing for testimony on the floor. So thank you very, very 
much.
    The other thing I am going to do, because we are all in 
this together, I am going to share in introducing the panels. 
Mr. Joyce and your team, get ready if you are here. Ms. Pingree 
is going to introduce our next panel and lead that discussion. 
If our next panel would come forward, and, Ms. Pingree, they 
are right here.
    Ms. Pingree. OK. It looks like we are reassembled. Thank 
you very much, Madam Chair, for giving me this opportunity. 
Hopefully I will get your names correct. And we will start with 
Pam Breaux, the CEO of the National Assembly of State Arts 
Agencies. Thank you, Ms. Breaux.
                              ----------                              

                                        Tuesday, February 26, 2019.

                NATIONAL ASSEMBLY OF STATE ARTS AGENCIES


                                WITNESS

PAM BREAUX, CEO, NATIONAL ASSEMBLY OF STATE ARTS AGENCIES
    Ms. Breaux. Very correct. Good morning. Good morning, 
everyone. Chairwoman McCollum, Ranking Member Joyce, and 
members of the committee, thank you all for the invitation to 
deliver this testimony regarding Federal appropriations for the 
National Endowment for the Arts.
    The National Assembly of State Arts Agencies, also known as 
NASAA, is the organization that represents and serves the 
Nation's 56 state and jurisdictional arts agencies. Today I am 
here to thank the members for their tremendous support for the 
National Endowment for the Arts and urge the committee to 
consider funding it at $167 million in fiscal year 2020, or to 
be in exact tandem with my colleague, $167.5.
    In the funding bill passed by Congress earlier this month, 
the subcommittee supported an increase of $2 million in funding 
for the Agency. The States and NASAA are extremely grateful for 
this, particularly given the Administration's proposal to 
eliminate the Agency. We recognize that committee members work 
together in a bipartisan manner to support the NEA and its 
important contributions to our Nation.
    As you look to the next budget, NASAA hopes you will once 
again consider increasing funding for NEA, which continues to 
make a substantial impact in communities throughout the U.S. 
Through its highly effective Federal-State partnership, the NEA 
distributes 40 percent of its programmatic funds to State and 
regional arts agencies each year. The resulting $49.4 million 
in 2018 helped to empower States and regions to address their 
unique priorities and served far more constituents than Federal 
funds alone could reach. The report accompanying last year's 
Consolidated Appropriations Act, affirmed Congress' support for 
this important partnership and the 40 percent allocation, and 
we sincerely thank the committee for this acknowledgement.
    State arts agencies use their share of NEA funds, combined 
with funds from State legislatures, to support approximately 
22,000 grants to arts organizations, civic organizations, and 
schools in more than 4,500 communities across the U.S. Twenty-
one percent of State arts agency grant awards go to non-
metropolitan areas supporting programs that strengthen the 
civic and economic sustainability of rural America. Twenty-nine 
percent of State arts agency grant dollars go to arts 
education, fostering student success in and outside of school, 
as well as building the critical thinking, creativity, and 
communications skills necessary to meet the demands of today's 
competitive workforce.
    Congress' continued support of the 40 percent formula is 
essential to state arts agencies, boosting their ability to 
ensure that the arts benefit all communities regardless of 
wealth or geography. Should Congress support an increase for 
the NEA, State arts agencies will be in a position to expand 
their meaningful work to help communities thrive as fulfilling 
and productive places to live, conduct business, visit, and 
raise families. They will also maintain their commitment to 
engaging the public in decision-making about their programs, a 
hallmark of state arts agencies' service.
    NASAA and States also applaud the NEA's many services to 
the country, including its leadership in developing the 
noteworthy program for military personnel and veterans. In 
partnership with the Departments of Defense and Veterans 
Affairs, the NEA, of course, established Creative Forces, its 
military healing arts network, which now has 11 clinical sites 
in 9 States for creative arts therapies. Proudly, State arts 
agencies now work with Federal, State, and local partners to 
expand the reach of the program to benefit veteran and military 
family populations in community settings. Partners also 
continue to work in solidarity to help military personnel and 
veterans return to their homes, their missions, and their 
families whole, mentally fit, and emotionally ready for 
whatever comes next. And to this end we certainly heard an 
eloquent and poignant earlier testimony that attests to these 
benefits.
    Thank you again for the opportunity to appear before you 
today. NASAA sincerely appreciates Congress' strong bipartisan 
support for the National Endowment Arts and Federal funding for 
the arts. We look forward to continuing to work productively 
with this committee, and we stand ready to serve as a resource 
to you. Thank you.
    [The statement of Ms. Breaux follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much. Flordelino Lagundino from 
the Park Square Theater.
                              ----------                             


                                        Tuesday, February 26, 2019.

                          PARK SQUARE THEATRE


                                WITNESS

FLORDELINO LAGUNDINO, ARTISTIC DIRECTOR, PARK SQUARE THEATRE
    Mr. Lagundino. Thank you very much. Thank you. Chair 
McCollum, Ranking Member Joyce, and members of the 
subcommittee, it is both an honor and a privilege to speak to 
you today in support of the National Endowment for the Arts in 
its mission to celebrate our Nation's diverse cultural 
heritage. The public interactions that the NEA supports are 
necessary to our Nation as they deepen our understanding of 
ourselves and our community, cultivate respect for our varied 
beliefs and values, and open us up to a wider world view. This 
is the work of the arts and the work that the arts does best.
    The experiences of my career have shown me how the arts as 
a public practice strengthens our society by engaging adults 
and by enhancing the understanding of the generations of 
diverse young people who comprise the future of our country and 
our world. Through my experiences in theater, I have seen 
people be inspired, change their personal viewpoints and grow 
their communities.
    Personally, theater has enabled me to supplant the image of 
the Filipino as little brown brother that was found in my 
history textbooks with an energized, forward-looking sense of 
self. I am the artistic director of Parks Square Theater, the 
largest producing theater in St. Paul and the third-largest in 
the Twin Cities region of Minnesota. We have over 3,000 
subscribers, and more than a hundred thousand people see our 
shows every year. This theater produces 9 shows and 3 shows as 
a part of our award-winning education program which serves over 
30,000 students annually.
    In a recent conversation with Mayor Melvin Carter, the 
first African-American mayor of St. Paul, he identified stories 
that highlight our differences to be of the utmost importance 
to building a thriving city. By sharing a multiplicity of 
perspectives we connect and learn how from our seemingly 
dissimilar backgrounds we actually have shared struggles and 
experiences.
    The support of the NEA is essential to our art making as it 
enables Park Square to share stories that might not otherwise 
be heard. This past summer we received a $10,000 NEA Challenge 
America Grant, which funded the world premiere of the Korean 
drama, Addict's Guide to Losing Her Virginity, by a Hmong 
playwright, May Lee-Yang. This play is a contemporary comedy 
about a Hmong Minnesota woman attempting to find love in order 
to rid herself of ghosts from the past. We co-produced this 
play with Theater Mu and Asian-American Theater Company in the 
Twin Cities. With the NEA's contribution, we funded talk back 
discussions with the artists, produced a series of panel 
discussions about contemporary Korean and Hmong culture, and 
offered pay-as-you-can tickets for the entire 3-week run, 
making performances accessible. The community response from 
this new play was overwhelming with the entire run being sold 
after the first weekend. The NEA was important to the success 
by alleviating some of the financial risk involved in producing 
this new play and providing platforms for community engagement.
    In addition to our main stage adult programming, for over 2 
decades Park Square Theater has had at its core the mission the 
presentation of great literature to teenage audiences in 
Minnesota and neighboring States. With support from the NEA, 
these live presentations challenge teens with complex human 
situations and questions, stoke their intellects, and give them 
a window into different worlds by making literature human and 
immediate.
    This past fall, Park Square presented A Midsummer Night's 
Dream that featured Asian-American actors in the three of the 
lovers' roles. The response from the Asian-American students 
was of enjoyment and joy as they were able to see 
representations of themselves as lovers, being strong, 
vulnerable, impetuous, and very, very silly. They saw the 
Asian-American images on stage reflected back to them as their 
fullest selves, of who they are, of what they could be in the 
future.
    These stagings engender a sense of belonging in our society 
and community. Our core values at Park Square of inclusive 
casting allows our students the important opportunity to see 
themselves on stage. The ability to see oneself on stage and to 
see stories from own's culture reflected is such a powerful 
experience, especially for people who are often denied complex 
representations of their identity.
    Theater has given me the opportunity to lift up and 
complicate representations of my ethnic culture and uplift the 
multiplicity of stories from the communities in which I have 
lived. I have been fortunate to work for many NEA-supported 
theaters during my career, all of which were imbued with a 
sense of community commitment. At Mixed Blood Theater in 
Minneapolis, Minnesota, I acted in Qui Nguyen's Vietgone, which 
upended stereotypes of Asian men, that Asian men can't be sexy, 
that people who speak English with a foreign accent are 
ignorant. In La Jolla Playhouse, we created a veterans writers' 
workshop that help people tell their stories, the service men 
to tell their stories. The act of writing helped them to 
process their time in service, assisted in their acclimation to 
civilian life, and built a sense of mission and camaraderie 
within the group.
    In Perseverance Theater in Alaska, I was given the 
opportunity to perform in The Long Season by Chay Yu, which was 
about Filipino canary workers fighting for equal pay. These 
types of roles, roles that show under represented people with 
complex inner lives and intelligence, are rare in traditional 
theater.
    Thank you. Please, I thank this subcommittee for this 
opportunity to speak and respectfully urge you to support the 
Agency at the level of $167.5 million in fiscal year 2020. 
Thank you very much.
    [The statement of Mr. Lagundino follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you so much. Alexander Tittle, board 
member from the Minnesota Humanities Center. Thank you.
                              ----------                             


                                        Tuesday, February 26, 2019.

                      MINNESOTA HUMANITIES CENTER


                                WITNESS

ALEXANDER TITTLE, BOARD MEMBER, MINNESOTA HUMANITIES CENTER
    Mr. Tittle. Thank you. Chairwoman McCollum and members of 
the subcommittee, I thank you for the opportunity to present 
testimony on behalf of the State Humanities Council, the State 
affiliates of the National Endowment of the Humanities. My name 
is Alex Tittle, and I am a member of the Board of the Minnesota 
Humanities Center, the Minnesota affiliate of the National 
Endowment for the Humanities.
    I am here to request $167.5 million for the National 
Endowment for the Arts and $53 million for the Federal and 
State Partnership for fiscal year 2019. I am the disparity 
reduction director for Hennepin County, which is a county 
within the Minneapolis-St. Paul area. Prior to that, I was the 
vice president of Business Connect and Corporate Affairs for 
the Minnesota Superbowl 2018. Before that, I was the equity 
director for the Minnesota Sports Facilities Authority, an 
agency responsible for the design and construction of the U.S. 
Bank Stadium in Minneapolis, and before that, civil rights 
director for the Minnesota Department of Transportation. I cite 
my business and government affiliations simply because I 
believe that it helps illustrate the wide variety of 
individuals who believe so strongly in the role that the 
humanities play in the communities across our Nation that they 
are willing to volunteer their time to helping these most 
important programs to thrive.
    It should come as no surprise that our country is in dire 
straits as it relates to disparities. By 2025, kids of color 
will be the majority of U.S. high school students. The State 
that we are in as a country needs to change, and I believe and 
I am confident as I see and sit in the board meetings at the 
Humanities Center that we are making a tremendous ground and 
moving the dial around that.
    As a proud member of the Humanities Center board of 
directors since 2015, I have seen the impact of the work of the 
State Humanities Council upon individuals, neighborhoods, 
States, and regions. The state councils are the local face of 
the humanities, developing and delivering the programs that 
address the issues of greatest concern to their communities, 
helping them explore their history and culture, and sharing the 
stories of many of our diverse populations. The councils are 
also a measured source of grants to local educational, 
cultural, and historical organizations for public programming 
in places where a small grant of several hundred to a few 
thousand dollars can make an enormous difference in the lie of 
our communities.
    I am also, as many of my predecessors that came to speak 
this morning, am a veteran of the United States armed services. 
In that capacity, I have been a direct beneficiary of the 
Minnesota Humanities Center programs. I participated in the 
center's first Veteran Voices Program, which draws on the 
humanities to call attention to veterans' contributions and 
stories, allowing veterans to express themselves through 
storytelling, art, theater, discussion groups, and other 
activities. The program helps us veterans give voice to our 
experiences and to promote a better understand between the 
military and civilians.
    Basically just as the master gunnery sergeant spoke 
earlier, that it is an effort to ensure that our vents, our 
brothers and sisters in arms have an understanding of the 
suicide rates that are happening. This is serious business and 
really regular medical treatment doesn't always help. The work 
that we are doing at the Humanities Center is making all the 
difference. It has made a difference in my life, and I see it 
making a difference in the lives of my brothers and sisters who 
have recently returned from theater on a regular basis.
    It is to continuing to expand programs such as this in our 
communities and Nation that I am asking for the funding levels 
of $165 million from the NEA and $53 for the councils. The 
State humanities councils are stretched thin in their ability 
to meet local needs and requests and to collaborate with local 
businesses, cultural organizations and institutions, such as 
schools, libraries, museums, after-school programs, and many 
other groups seeking to better the lives of those in these 
communities.
    I have sat in Humanities Center board meetings in which we 
have deliberated for hours about how to allocate scarce 
resources among the legitimate demands that are presented to us 
from a wide range of deserving populations. Councils are also 
experts, however, at using our Federal funds to attract other 
funding. On average, over the past few years, councils have 
been able to leverage $4 at the local level for every Federal 
dollar granted.
    Serving is important. Serving is important to all of us. I 
would like to just reiterate the fact that as a veteran of 10 
years in the United States armed services that this program, 
the Veteran Voices Program, started a number of years ago, 
makes all the difference to the veterans in the State of 
Minnesota because we are not a large veteran community, and we 
need that program to continue. And it also relates to the 
humanities in the fact of education, education for our young 
people, more so education for our teachers. We collaborated 
with the University of Minnesota recently with a professor by 
the name of Alex Pate. Alex Pate was the author of the book, 
Amistad, and basically what he recognized that there is a 
diverse population shortage in our country from teachers' 
perspective, OK?
    We can't change that, but one thing that we know is a 
concept that he has developed called Innocent Classrooms. One 
that he has mentioned to us is that kids within the first 5 
minutes of meeting a teacher know whether or not they care 
about them or not. And that is something that we are giving to 
these teachers from the Humanities Center that is making all 
the difference.
    So, again, I plead, I ask that we consider the financial 
grant for the humanities. Thank you. I stand ready for 
questions if you might have them.
    [The statement of Mr. Tittle follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you all for your testimony. Really 
wonderful to hear from all of you, and thank you for your 
service and for reminding us again how important the programs 
are for returning veterans, both in the arts and humanities. I 
will just reiterate, from my perspective, the State arts 
councils and the people who do those jobs are just critically 
important. Any increase we can have in funding makes a huge 
difference, at the State level. I appreciate all of you sharing 
your great work with all of us.
    I will say that is very exciting to have a chair from 
Minnesota since I grew up in Minnesota through high school. 
[Laughter.]
    Although I represent Maine and I am very proud to. 
[Laughter.]
    Mr. Joyce.
    Mr. Joyce. Thank you for your testimony, and thank you for 
your service.
    Ms. Pingree. Mrs. Watson Coleman.
    Mr. Joyce. Thank you very much for your testimony and your 
service.
    Mr. Tittle. Thank you.
    Ms. Pingree. Mr. Amodei.
    Mr. Amodei. Thank you, Madam Vice Chair. Ms. Breaux, I want 
to thank you for your testimony. And I know that the 
chairwoman, the vice chair, and the ranking member have never 
used the phrase ``patron of the arts'' and my name in the same 
sentence. [Laughter.]
    Mr. Amodei. However, starting with my State legislative 
career, when you talk about the program that State arts 
agencies, grants, and stuff like that, it is one of the few 
times I can recall in over however many years of legislative 
service that when we funded that from the State level and from 
the national level, your organization was phenomenally unique 
in having people, especially at the State level, write a 
handwritten note saying those two magic words, ``thank you.''
    Patron of the arts, yeah, but everybody has got their own 
style. To get those notes from those people who got, like, a 
$5,300 grant, stuff like that, was phenomenally powerful. When 
you talk about appropriating funds at a State or now the 
Federal level, to have somebody come back and go, hey, thanks 
for that program that you supported is phenomenally powerful. 
So I just wanted to publicly say whoever's idea that was, and 
it isn't a new one, it is a phenomenal legacy to have somebody 
come back and just say thank you.
    So I just wanted to make sure that, like, those notes were 
not lost on this guy who didn't graduate from high school in 
Minnesota, but did, I believe----
    [Laughter.]
    Mr. Amodei [continuing]. Get a high school diploma--I will 
check and make sure--in Nevada. And the last thing I want to 
say is what branch did you serve in, Mr. Tittle?
    Mr. Tittle. U.S. Army.
    Mr. Amodei. That a boy. All right. [Laughter.]
    Ms. Pingree. I will recognize the chair and yield back, and 
thank you for letting me introduce the panel.
    Ms. McCollum. Certainly. Thank you. I think what you 
attested to builds on what we heard earlier, but it is about 
how the arts bring us together, allow us to explore one 
another, sometimes in uncomfortable situations, to learn, to 
grow, to heal. I am going to throw something out there and then 
maybe ask you to quickly respond on it. And I am going to use 
some of the information that you shared.
    Forty percent formula and how important that is to the 
States, because that gives an opportunity for you to focus on 
Year 2025, where the majority of our students are going to be 
students of color. I am a social studies teacher by trade. In 
your written testimony, you refer to 2050, the Declaration of 
Independence, we are going to have another big celebration. Why 
treaties matter, how important that was in healing back home. 
And Park Square Theater, established 1972?
    Mr. Lagundino. Yeah.
    Ms. McCollum. Yeah, the year I graduated from high school. 
[Laughter.]
    When Park started and moving forward. Could you just talk 
about how important it is to have the flexibility that you get 
from the arts organizations to develop programs close to your 
communities? And I am going to ask you all collectively to do 
that in about a minute a piece because I think it is important 
to hear your voices.
    Mr. Lagundino. Go ahead.
    Ms. Breaux. I am happy to begin. And so my response will be 
broader because of the reach of State arts agencies. You 
mentioned the 40 percent share of the NEA's grant dollars. The 
40/60 split is so incredibly important to the arts nationally 
as well as at the local level. What the 40 percent side does, 
the state side does, that the 60 percent doesn't is it responds 
very specifically to State-articulated needs. Citizens 
participate in strategic planning for state arts agencies, and 
so their needs are articulated by them and met by the 40 
percent side.
    On the 60 percent side, national competition certainly 
helps organizations leverage new private dollars. But the 60 
percent side also has a value in that it demonstrates National 
Endowment for the Arts' leadership opportunities. The very 
creation of Creative Forces as leadership role of the NEA and 
its ability to invest in that on the 60 percent created then 
opportunity for States and locals to engage and match after 
this demonstration project was created and funded nationally. 
So distinct parts of the equation, both really important down 
at the local level.
    Ms. McCollum. Thank you. Do you gentlemen want to add 
anything?
    Mr. Lagundino. Go ahead. Go ahead.
    Mr. Tittle. Well, I think--thank you. Thank you. 
Flexibility, so how does this help around flexibility, simply 
because when we start working with our communities, 
particularly as you, Chairwoman, as you mentioned about 
treaties matter and looking at our Native American communities, 
when we start to unpackage the challenges inherent in those 
communities, they become vast. And we have to nimble when we 
see those things. We can't just say this money is just for this 
or this money is just for that.
    It is important that we actually address the challenges 
that we see. And those folks who are on the ground, those 
teachers, those individuals who represent those communities, 
they have to be flexible. And I think that through the 
education effort that happens within this programming, we are 
able to do that. We are able to take a far reach into rural 
Minnesota, in our area in rural Minnesota, and address teachers 
who don't have resources because those sovereign nations aren't 
equipped or aren't supported like other public school systems. 
In some cases, some would say some public school systems aren't 
equipped enough.
    Ms. McCollum. Yeah.
    Mr. Tittle. So we have to do additional things to make sure 
that entire state is supported.
    Ms. McCollum. OK. Thank you.
    Mr. Lagundino. Hi.
    Ms. McCollum. You get the last word.
    Mr. Lagundino. I just want to say I am here by the request 
of the Theater Communications Group. And I just want to say 
that in terms of the funding, the flexibility, it allows us to 
have conversations, for example, with Mayor Carter and say what 
are exactly the conversations that you are wanting to have with 
the community. And we can, like, then go and move with the 
funding that we have to be able to have a direct dialogue with 
the people or their audiences and not have to, you know, have a 
2-year or 3-year window in which to raise funds.
    It allows us the opportunity to be immediate, which is, I 
think, one of the wonderful things about theater. It can move 
quickly if we have the funding to do that.
    Ms. McCollum. Thank you.
    Mr. Lagundino. Thank you.
    Ms. McCollum. Thank you all for your testimony. And, Mr. 
Joyce, I will let you introduce the next panel.
    When you are ready, Mr. Joyce.
    Mr. Joyce. Thank you for being here. I know Madam 
Chairwoman brought it up before, but it bears repeating. There 
are only 4 of us on this side. Three of us are also part of the 
Financial Services Subcommittee which is meeting. Chris Stewart 
is also on Intel and Mr. Simpson is a ranking member. So don't 
worry, we are taking copious notes to make sure everybody on 
our side hears your testimony as well.
    I would like to recognize Dr. Cromar for 5 minutes, please.
                              ----------                              


                                        Tuesday, February 26, 2019.

                       AMERICAN THORACIC SOCIETY


                                WITNESS

KEVIN CROMAR, PH.D., AMERICAN THORACIC SOCIETY
    Mr. Cromar. Thank you, and I had a chance to speak with 
Representative Stewart, so I am not offended in any way. 
[Laughter.]
    Chair and Ranking Member, thank you. My name is Kevin 
Cromar. I am testifying on behalf of the American Thoracic 
Society to share our recommendations on funding and policy 
issues facing clean air issues and the Environmental Protection 
Agency.
    I want to thank the committee for level funding from the 
majority of EPA Clean Air programs in fiscal year 2019. We 
haven't seen a budget for fiscal year 2020 yet, so it is hard 
to comment on what is what the priorities will be for next 
year. But I think we safely look at to earlier budgets to see 
that there is not a high value being placed on the work being 
done in EPA. That is disappointing because EPA is really doing 
good work in our communities, and I am going to share some 
examples in my home State of Utah, if that is OK.
    I currently serve on the Utah Air Quality Board. It is a 
governor-appointed board made up of business and local 
government, health, and nonprofit community members. We are 
charged developing plans to meet Federal air quality 
regulations and to generally protect the quality in the State.
    As a board member, I am personally aware of the essential 
role that EPA-targeted airshed grants played in helping us 
improve air quality. In 2016, Utah received an EPA grant to 
purchase 33 new school buses and initiate a vehicle repair and 
replacement program to assist in repairing vehicles that failed 
to meet emissions standards.
    These programs have been successful. They remove 
approximately 131 tons of NOx emissions, 11 tons of PM 
emissions, 99 tons of VOC emissions over the lifetime of the 
vehicles. In 2018, Utah received an additional $3 million in 
EPA funding to address diesel truck emissions. The program is 
still being implemented, but it is expected that it will reduce 
nearly a hundred tons of pollution each year. And then the most 
important aspect is based on the success of these EPA-funded 
efforts, the Utah legislature is currently considering 
allocating a hundred million dollars of State funds to continue 
and expand these programs. So a small investment from EPA is 
leading to a larger investment from the State.
    These targeted airshed grants are economically efficient. 
They help communities with severe air pollution problems 
improve air quality, communities like Fairbanks, Alaska, L.A., 
California, and Salt Lake City just name a few. Unfortunately, 
in the past 2 years, the Administration has proposed steep cuts 
to these programs, and we encourage you guys to see the value 
in these programs. The Administration has also proposed steep 
cuts in the EPA Clean Air science programs, enforcement 
programs, climate programs, indoor air programs, and I urge 
this committee to see the wisdom in continuing to support these 
valuable programs.
    While the proposed budget cuts are concerning, there are 
other steps Administration has taken that threaten our Nation's 
air quality. I understand that for this next year the priority 
will be deregulation of EPA, and while that might save some 
firms some money, I can't speak to political value. From an 
economic perspective it may be a little shortsighted, and 
hopefully I can explain that just a little bit.
    A non-exhaustive list of proposed rollbacks include the 
Clean Power Plan, Mercury Air Toxins Rule, wood stove and new 
source performance standards, glider kits rules, and vehicle 
tailpipe and fuel efficiency standards. And the reason it is 
shortsighted from an economic perspective is there are 
jurisdictional issues in the Clean Air Act, so some of the 
major sources of pollution can only be addressed at the Federal 
level. And if we roll back these regulations, what States have 
to do is they have to look for places to cut the emissions in 
other places. Often these other cuts we have to make are more 
expensive, and they have a larger inverse impact on local 
businesses and citizens. So I urge you to think about the 
broader economic impacts of some of these rollbacks.
    Finally, I want to bring the committee's attention to a 
critical issue that is an urgent need that we need to address, 
namely the health impacts from wildfires. Wildfires have long 
been a source of air pollution, but their frequency, intensity, 
and proportional contribution to particulate air pollution has 
increased in the last 10 years. Wild land fires now contribute 
up to a third of the annual average PMS in the U.S., and 40 
percent of new home construction since 1990 has been in the 
wild land urban interface.
    Currently, wildfires and controlled burns are in the 
purview of the Department of Interior, the Bureau of Land 
Management, but there has been limited coordination and 
interaction with sister agencies. There is a lot we still don't 
know about the health effects from wildfires and a lot we don't 
know about practical issues, things like are masks and indoor 
cleaners effective to reduce exposures, what symptoms should 
people expect or be aware of in order to request help, and how 
do we effectively communicate to the public about wildfire 
public health issues?
    Responding to the challenges of wildfires requires a 
multidisciplinary cross-agency effort, and this is best 
moderated by the EPA given its prime health directive. To this, 
the ATS is asking and recommends new funding, new $15 million 
of EPA funding over the next 5 years to address wildfire 
issues, and we have broken it down in the written testimony on 
how that can best be accomplished.
    In conclusion, I strongly urge the subcommittee to maintain 
funding for the wide range of effective EPA Clean Air science 
enforcement and grants programs. I further recommend the 
committee provide an additional $15 million for EPA to better 
respond to the growing public health crisis posed by wildfires. 
And communities across the country, including my home State of 
Utah, Representative Stewart's home State of Utah, will benefit 
from this investment in clean air programs. Thank you.
    [The statement of Mr. Cromar follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you very much. Next we will hear from Dr. 
Rizzo.
                              ----------                            


                                        Tuesday, February 26, 2019.

                       AMERICAN LUNG ASSOCIATION


                                WITNESS

ALBERT RIZZO, M.D., FACP, CHIEF MEDICAL OFFICER, AMERICAN LUNG 
    ASSOCIATION
    Dr. Rizzo. Dr. Rizzo. Good morning, Chair McCollum, Ranking 
Member Joyce, and members of the committee. Thank you for this 
opportunity to testify. My name is Dr Albert Rizzo, and I am 
the chief medical officer for the American Lung Association, 
whose mission is to save lives by improving lung health and 
preventing lung disease. For this reason I am here to urge the 
subcommittee to increase its investment in the programs of the 
U.S. Environmental Protection Agency that protect the public 
health from air pollution. It is also critical that this and 
all appropriation bills are free of any harmful policy riders 
that would weaken EPA's ability to protect the public health.
    We truly appreciate the name of this session, Environment 
with a Public Health Focus. EPA's programs, many of which are 
protected by the Clean Air Act, are critical for protecting the 
Americans, especially those with lung disease, from harmful air 
pollution. Specific funding requests or in my written comments, 
but today I want to convey the sense of urgency of increasing 
funding overall for EPA's clean air and climate change work.
    In addition to my work with the American Lung Association, 
I am a practicing pulmonary physician in Delaware, and air 
pollution is lethal and cleaning it up protects my patients, 
your constituents, from an array of health harms, such as 
asthma attacks with missed school days and missed work days, 
heart attacks, and premature deaths.
    Air pollution affects everyone, but there are those at 
higher risk: patients with lung disease, children, seniors, 
pregnant women, those in low-income communities, and many 
communities of color. My location in Delaware illustrates the 
critical role that the Federal government plays in protecting 
Americans from air pollution.
    Delaware has worked tirelessly to reduce its emissions, and 
we have stringent controls on power plants and other industrial 
facilities. We have adopted low emission standards for our 
vehicles. But we are at the mercy of States upwind of us. Over 
90 percent of Delaware's unhealthy ozone levels originate from 
out-of-State power plants with weaker pollution controls that 
emit dangerous pollution that ends up in our lungs. That is why 
it is so critical that this Nation continues to invest in the 
EPA. All of our States need strong support from the Federal 
government to protect their residents. EPA needs more resources 
to implement and enforce the lifesaving protections in place 
under the Clean Air Act, and to work with States, local 
governments, and tribes to monitor and reduce emissions across 
the country.
    Thanks to the Clean Air Act, the Nation has made enormous 
strides in reducing harmful outdoor air pollution. It is 
estimated that in 2020 the Clean Air Act amendment will prevent 
over 230,000 premature deaths. However, that progress is at 
risk for two key reasons. First, despite the clear mandate of 
the EPA to protect human health from air pollution, proposals 
by the Trump Administration would weaken, delay, or rescind 
clean air protections. These include repealing the Clean Power 
Plan and replacing it with a rule that could be worse for 
health than doing nothing at all. It would also call for 
gutting carbon standards for new plants, undermining limits on 
mercury and other air toxics, rolling back limits on greenhouse 
gases from vehicles, allowing more super-polluting trucks on 
the road, censoring the health science, and cherry picking the 
data that supports these rollbacks. Despite these proposed 
rollbacks, the staff at EPA are still doing the lifesaving work 
of helping protect human health from air pollution across the 
country, and we must support this critical work.
    The progress toward healthy air for all to breathe is also 
at risk because of climate change. Climate change is a public 
health emergency. Wildfire smoke, extreme heat increased levels 
of ozone pollution, disruption to medical care during extreme 
storms, and health hazards of the disaster cleanup are all part 
of the substances that put lungs at risk.
    I would lie to close with a story that a woman from 
Pennsylvania, Claudia, shared with our staff recently. Her 
teenage son, Jesse, was diagnosed with asthma as a toddler. 
Claudia makes every effort to control for possible asthma 
triggers inside her home, but she can't control the quality of 
the air when Jessie steps outside. She checks for air quality 
alerts on her phones every day and knows that on hazy, hot, and 
humid days, the ozone smog level is going to be high, and Jesse 
has to limit his time outside. Claudia's message to you, our 
legislators in Washington, is to know that families can do 
everything they can at home to keep their kids healthy, but we 
need your leadership.
    Madam Chair, the American Lung Association often says when 
you can't breathe, nothing else matters, and thanks to your 
investments in EPA, our Nation has made enormous progress in 
reducing harmful air pollution. We call on you now to further 
fund the EPA and its lifesaving work, implementing and 
enforcing protections of the Clean Air Act, and ensure that 
your bill does not contain any harmful policy riders that would 
undermine this work.
    Thank you for the opportunity.
    [The statement of Dr. Rizzo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. Mr. Keogh, you are 
recognized for 5 minutes.
                              ----------                            


                                        Tuesday, February 26, 2019.

               NATIONAL ASSOCIATION OF CLEAN AIR AGENCIES


                                WITNESS

MILES KEOGH, EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION OF CLEAN AIR 
    AGENCIES
    Mr. Keogh. Thank you so much. Thank you, Mr. Chairwoman, 
Ranking Member, and members of the committee. My name's Miles 
Keough. I am executive director of the National Association of 
Clean Air Agencies, which convenes 154 of the 170 State and 
local clean air agencies across the country. Today I am going 
to be making three asks of you all and on behalf of all the 
clean air agencies in every State of the country, so benefiting 
your constituents no matter where you are.
    The three asks, I will explain more fully in brief remarks, 
one to increase the Federal grants to State and local air 
agencies to make up for 15 years of essentially level funding 
for those agencies of an additional $82 million over what is 
currently funded, for a total of $310 million. Second, to 
provide flexibility for agencies for how they use the funds to 
address the highest priorities rather than focus them on areas 
that are lower priorities. And third, retain grants for 
monitoring fine particulate matter under the authority of 
Section 103.
    So thank you for listening to this testimony this morning. 
I think that there this is an important step to really 
understand where we are. A good national air quality program is 
a hell of an investment in America. The Clean Air Act's 1990 
investments, depending on how you read the cost benefit 
analyses, have returned between 30 to 1 or 90 to 1 in terms of 
the payoff. I think anyone who I said if I give you a dollar 
now and you have to give me $90 later would recognize that is a 
great return on investment. And this is really important. It 
has really done great strides to improve public health, but by 
some estimates air pollution still shortens more lives of 
Americans than gun violence and car crashes put together. So we 
still have a lot of work to do in this arena.
    The State and local agencies work in partnership with EPA, 
and the responsibilities facing these agencies have continued 
to grow while the Federal funding has stayed fairly stagnant 
for some time. The Federal grants to State and local air 
quality agencies under Sections 103 and 105 of the Clean Air 
Act were $228 million in fiscal year 2019. That is the same 
number as in fiscal year 2004. Everything costs a lot more than 
it did in 2004. We did an analysis about 12 years ago about the 
need for increases, and trust me, it is a lot more than $310 
million even then, but this would be a critical investment just 
to keep pace with the change in the purchasing power of the 
dollars that would be afforded to these agencies.
    Secondly, we need the funding for the States to have and 
locals to have the flexibility to use funds for the highest 
priority programs. And third, for monitoring equipment, 
especially for fine particulate, to remain in section 103 
authority rather than moving to section 105 authority because 
105 requires matching funds by the States, and it is a real 
disincentive for some States that are really, you know, sitting 
on 15 years without a change in their funding as to whether 
they will improve that equipment or whether they will just hold 
it together with duct tape.
    The Clean Air Act originally envisioned Federal government 
support for about 60 percent of the funding, and today it is 
about 25 percent of what State and local agencies use, in some 
cases much less. But the work that we are taking on is a lot 
different than it was 15 years ago. Wildfires, new kinds of air 
toxics, PFAS, certainly climate change. The public assimilates 
information via social media that didn't exist 15 years ago. 
The changes are really tall. And no matter how you feel about 
the regulatory reforms being undertaken by EPA, it is 
impossible to argue that they do not shift the balance of 
responsibility to State and local agencies. So we really need 
your help.
    So how would we use these funds? We would bring more areas 
into attainment with clean air standards. We would reduce the 
concentration of fine particulates. We would improve small 
business compliance assistance. We would modernize our modeling 
tools, increase the frequency of our inspections, improve our 
monitoring, develop better risk assessment capabilities, and 
improve our communications with the public so that they can 
protect their health. All these activities are critical to our 
mission.
    So in conclusion, NACAA urges Congress to increase Federal 
grants to all State and local air agencies by $82 million over 
fiscal year 2019 levels for a total of $310 million to give us 
the flexibility to solve the problems that need the most 
solving and to retain grants for our monitors under the Section 
103 Authority. Thank you very much for this opportunity to 
testify today. I am happy to answer any questions.
    [The statement of Mr. Keogh follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. Now we will hear 
from Ms. Shepard. You have 5 minutes to address us.
                              ----------                             


                                        Tuesday, February 26, 2019.

                    WE ACT FOR ENVIRONMENTAL JUSTICE


                                WITNESS

PEGGY SHEPARD, EXECUTIVE DIRECTOR, CO-FOUNDER, WE ACT FOR ENVIRONMENTAL 
    JUSTICE
    Ms. Shepard. Good morning, Chair. I am the executive 
director of We Act for Environmental Justice. We are a 31-year 
old membership organization based in Harlem in New York City. 
We work to build healthy communities by organizing residents of 
color and low-income to engage in the creation of environmental 
health and protection policies at a city, State, and local 
level.
    Environmental justice is respective that all communities 
deserve equity and environmental protection, enforcement of 
existing laws, citing of noxious facilities, and consultation 
in the development of government policies and regulations. 
Environmental justice places human health at the center of 
environmental struggles, understanding that communities of 
color and low income are home to more susceptible populations, 
that children in their early stages of development are more 
vulnerable, and that multiple environmental exposures must be 
addressed by studying their cumulative impact and synergistic 
effects on health.
    Why is that necessary? Because permitting of polluting 
facilities is established facility by facility. When there is a 
multitude of these sources in one community, there is a 
cumulative impact on the residents, and this cumulative impact 
is not measured or regulated despite the fact that the National 
Environmental Protection Act, or NEPA, calls for an assessment 
whether or not a Federal action has the potential to 
individually or cumulatively have a significant effect on the 
human environment. However, that assessment doesn't happen 
because the EPA has never developed a final guidance on 
cumulative impacts. Yet this is at the heart of environmental 
justice concerns due to the disparate impact of pollution in 
those communities. This subcommittee should consider holding 
hearings to catalyze Federal policy on cumulative impacts and 
synergistic effects on these communities.
    Now, we know that increased exposure to air toxics can 
begin in the womb due to the mother's exposure across the 
placenta and result in results such as low birth weight, 
developmental delays, asthma attacks, and genetic alteration. 
The Columbia Center for Children's Environmental Health, where 
I've served as a co-principal investigator for the past 20 
years, has developed these cutting-edge studies and research, 
and we need to continue the investment in these 11 centers 
around the country that is funded by the EPA and the National 
Institute of Environmental Health Sciences.
    Now, we know that place matters. Your zip code is 
determinant of your health status. The crisis in Flint reminds 
us that we must invest in lead-free homes, but without 
financing for low-income homeowners, public housing 
authorities, and moderate income housing, this toxic legacy of 
lead in gasoline and paint still persists. So we must support a 
healthy homes initiative that eradicates mold and lead from 
homes of the most vulnerable, like those in Cancer Alley, a 
hundred-mile stretch of land between Baton Rouge and New 
Orleans where former agricultural plantations have been 
replaced by oil refineries and 175 heavy industrial plants.
    In Houston, Oakland, and Newark, the transportation impacts 
from ports' and goods' movement terrorizes areas of people of 
color with truck movement and emissions that exacerbate asthma 
and heart disease. In New York City, public housing is home to 
over 600,000 people of color and low-income residents living in 
shameful conditions of mold, pests, and housing deterioration 
that may be causal and contributes to the appalling incidence 
of chronic disease. Farm workers and their children and 
pregnant women are working in fields sprayed with 
chlorpyriphos, which has been banned by the EPA for residential 
use, but is still allowed to be used in agriculture. And it was 
about to be banned by the EPA when the new administration moved 
in and rolled that back.
    The Gwich'in Tribe of Arctic Village in Alaska faces 
drilling in the Arctic National Wildlife Refuge. It will risk 
the future of their village and the caribou herd which they 
depend on for food, clothing, community, and culture. Their 
homes are currently threatened by global warming, seen in 
permafrost and river changes, and drilling proposals. These 
sacrifice zones are a moral outrage. We must pledge to end this 
dichotomy of two Americas of throwaway communities, of the 
acceptance that we will always have winners and losers. So we 
must lift up the struggle for climate justice and reject the 
cap and trade mechanism that results in environmental justice 
communities not getting reductions in toxic air emissions.
    So I want to thank you for the opportunity to share with 
you some of the challenges that our underserved communities are 
facing. Back in 1994, President Clinton issued an executive 
order, 12898, on environmental justice which needs to be fully 
implemented and codified into law. And to achieve these goals 
we will need leadership, commitment, and strong oversight. 
Thank you.
    [The statement of Ms. Shepard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. Last but not 
least, Ms. Roberts, you are recognized now for 5 minutes.
                              ----------                            


                                        Tuesday, February 26, 2019.

    ENVIRONMENTAL JUSTICE HEALTH ALLIANCE FOR CHEMICAL POLICY REFORM


                                WITNESS

MICHELE ROBERTS, NATIONAL CO-COORDINATOR OF EJHA, ENVIRONMENTAL JUSTICE 
    HEALTH ALLIANCE FOR CHEMICAL POLICY REFORM
    Ms. Roberts. Thank you. It is wonderful following my dear 
friend, Dr. Peggy Shepard. I agree with everything she said, so 
I can add on to my statement.
    Good morning. My name is Michele Roberts, and thank you for 
inviting me to testify before you. I come before you as the 
national coordinator of the Environmental Justice Health 
Alliance for chemical policy reform. We are a collective of 
fence line groups who live under some of our Nation's most 
egregious operations. They live fence line, and their health, 
as you heard Peggy Shepard and others speak, their health is 
compromised as a result of that and many forms of disparities, 
beginning with the State where I am originally from, that being 
Wilmington, Delaware.
    We are also happy to be able to also in our network be part 
of what is called a larger collective, the Coming Clean 
Collective, where we have a collective of science advocates, 
policymakers, and others who support the capacity building that 
our communities need. And equally, we are pleased to say that 
one of our ally members is here with us today, and that is the 
Center for Earth Energy and Democracy, which is based out of 
Minneapolis, Minnesota. We are happy also to work with our 
friends out of New Jersey, Dr. Nikki Sheets, and the New Jersey 
Environmental Justice Alliance.
    You know, the communities that we represent are those who 
are impacted first and worse during industrial and natural 
disasters. As I said, we agree with everything that Peggy 
Shepard just read. But what we wish to speak to today is the 
fact that many of our communities are impacted by disasters. 
They are the canary in the minefield, as you say. I come before 
you to encourage you to ensure all forms of safety protections 
under your jurisdictions are fully funded. This is necessary to 
protect communities, such as those represented in EJHA.
    Our communities have organized and pushed hard for many 
years to achieve and gain the modest gains that they have 
today, such as the Executive Order 13656, securing chemical 
facility safety and management systems. We need that actual act 
EO codified. In addition to that, our communities, like 
Charleston, West Virginia, folks over in Wisconsin who were 
impacted by the Husky refinery fire, that could have impacted 
Minnesota in many ways. The folks in Mossville, Louisiana, who 
have lost their homes and their land and their lives and their 
culture to big energy and refineries, and their health as well 
have been compromised. People in Charleston, West Virginia, who 
are still purchasing $5 bottles of water, as Ms. Sue Ferguson 
said at Institute West Virginia, just to bathe herself on the 
heels of the Elk River disaster.
    Where I am from, Wilmington, Delaware, where the Croda 
facility shut down the Delaware Memorial Bridge for 6 and one-
half hours on both sides of the bridge, Delaware and New 
Jersey, thereby leaving communities to aimlessly wander through 
the nights wondering what was going on as the highways rolled 
through their communities on the Sunday following Thanksgiving, 
one of the most highly trafficked time of the year; leaving 
also volunteer fire departments and others to actually have to 
deal with these fires. And so, therefore they need funding and 
training.
    This particular facility in Delaware actually emitted 
ethylene oxide, and to today, the community members are to this 
moment wondering how their health was compromised, and what it 
is they must do for remediation, in addition to understanding 
that they are living on what is called the industrial corridor, 
thereby having other, as Peggy Shepard alluded, cumulative 
impacts in their communities, all the reasons we need the 
Environmental Protection Agency and the Chemical Safety Board 
to be fully funded.
    In addition to that, our communities are proliferating with 
these cheap dollar stores, 99 cents, and dollar stores bringing 
toxic products and stocking shelves of toxic products, to which 
we need the consumer safety protection standards actually 
implemented.
    Our communities, to save time, we have actually sent and 
shared many of our documents with you--there is a whole host of 
them--because of the fact that, again, our communities must 
prove the fact that they are first and worse, must prove the 
fact that they have higher disparities, must prove the fact 
that they need cumulative impacts analysis before any and all 
permits are offered.
    Again, we thank you for the opportunity to be able to 
testify and ask that you fully fund the EPA's enforcement 
especially and that of the Chemical Safety Board. Thank you 
very much, and I welcome any questions.
    [The statement of Ms. Roberts follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. I would like to 
recognize first my distinguished colleague, Mrs. Watson 
Coleman.
    Mrs. Watson Coleman. Thank you. Thank you. Welcome to you. 
It is good to see you, Peggy Shepard. It is good to hear Nicky 
Sheats' name mentioned. I often get visits from him from around 
the corner just to bring me up to date. It is good to hear from 
you, Dr. Rizzo.
    I am a lung patient. I just left my pulmonologist which is 
why I was late. And I believe that a couple of things. It is 
that we need to fully fund those programs to keep our air, and 
our water, for that matter, safe, usable, breathable, 
drinkable. And I also think that we need to be concerned that 
we will EPA, we need EPA to do the work it is supposed to do.
    I am concerned about something that you mentioned, Dr. 
Shepard, and that was you said that there is a requirement for 
a cumulative assessment, but that it has never been done 
because EPA has never developed an instrument or has never held 
anyone accountable for that.
    Ms. Shepard. They have never developed a guidance for 
State, and as a result, States and judges say, well, we don't 
know how to measure or assess cumulative impact. So when an 
environmental impact statement is being done, the cumulative 
impact part of that just isn't addressed.
    Mrs. Watson Coleman. So that is something that I am glad 
that I know about now, and I will talk to my chairman about 
such a thing. But our major concern is not that we won't fund 
EPA, but that EPA will get to do the work that it is intended 
to do. So I thank you very much for all of you for all of your 
testimony, and I thank you for yielding to me. I yield back.
    Mr. Joyce. Thank you. Madam Chairwoman.
    Ms. McCollum. Thank you, Mr. Joyce. I am going to put a 
couple things together, and I reflect my colleague's statements 
about the accumulative exposure. The power that it has to be 
destructive in your body is something as a State 
representative, as a mom, just as a citizen, it is something 
that you really worry about, especially the fact that we don't 
have good science on how some of these toxic chemicals really 
affect children, both prenatal and in their development stages.
    So thank you for raising that, and that is something that I 
know this committee would like to look into more in the coming 
months. And thanks for all the extra homework. I am a former 
teacher, so thanks for the links, Ms. Roberts. I didn't have 
time last night to click on everything because I was afraid of 
how many pages they were going to be, and I didn't want to be 
up too late. But I really do look forward to looking at the 
extra reports that you added on.
    Could I just talk about some of the things that you are 
seeing as a lack of emphasis, you mentioned the accumulation 
exposures. Things that you mentioned, wild land fires, that we 
need to look into. What are some of the emerging issues that 
this committee should be looking at making sure that we are 
thinking and asking when EPA comes in where they are on things? 
So and not to put you on the spot. You can contact us a little 
more later. But just one emerging issue or something that you 
think we are negligent on, just one thing, and I will go down 
the panel.
    Dr. Rizzo. Well, I think it was touched on. The emerging 
thing is we have great standards right now. They need to be 
improved, but they also cannot be rolled back. So making sure 
that the Clean Air Act is set to be enforced the way it is 
meant to. And as the Lung Association, we often urge it along 
to help make sure they are doing what they are doing because 
those changes are going to be more important as climate change 
makes all these things worse, wildfires and ozone.
    Ms. McCollum. OK.
    Mr. Keogh. Seconded exactly what Dr Rizzo said. Also adding 
there are a number of emerging toxins. There are a number in 
the air toxic space, some for which new RTRs and other 
procedures need to be done, some which, like PFAS, for example, 
we need to understand better how it moves, how the exposures 
work, and a much more serious investment in that space would be 
very a good investment.
    Mr. Cromar. I am going to double down on wildfires. If you 
look at the largest unmet need and the biggest current issue, 
we can actually make a big difference here with an investment 
in this area. It is something that we need across the whole 
U.S. So wildfires is an area we should encourage the EPA to 
embrace. To date they don't really do anything on wildfires. 
They just look at exceptional events, and can we excuse States 
from their regulatory responsibility if there is a wildfire. 
But in terms of the thing about health impacts, it is something 
we need invest in.
    Ms. Shepard. Yeah, TSCA reform, which should be happening, 
be implemented at the EPA is not really being implemented. And 
the fact that most of our chemicals are not really studied and 
assessed is a continuing problem. We have phthalates and PFAS, 
which is ubiquitous. Phthalates in our food, in all of our 
consumer products, and consumer products and cosmetics are not 
regulated.
    I would also just double back on something you said. We do 
have very good research on the impact of environmental 
exposures on children, and we just need to take action. If we 
look at the results from the 11 or 17 children environmental 
mental health centers that have been funded for the past 20 
years, there is groundbreaking evidence. We just are not taking 
action on it.
    Ms. Roberts. In addition to that, I agree with all of those 
points that were raised. We really need to hone in on these 
cumulative impacts because until we look at that and address 
that of the multiplicity of chemicals that have proliferated on 
this market, we are really setting ourselves up for enormous 
failures. We cannot allow for certain populations to be at 
risk. That is morally unconscionable. We need to have the moral 
and political consciousness to be able to really dig deep and 
really pass a robust a TSCA reform package that addresses 
legacy communities and factors and that of cumulative impacts. 
No one, no one, absolutely no one should be at risk, especially 
in the disproportionate numbers that we have today. Thank you 
very much.
    Ms. McCollum. So one theme I heard come through was climate 
change, and looking at the way climate change is going to put 
at risk not only our air quality, but our water quality as 
well, and these extreme weather patterns that we are seeing and 
the way that we are now talking, whether it is fires or 
whatever, you know, for air quality for people, to be aware, to 
be safe. But we don't know what we are telling them to be aware 
of, what, at what level.
    So I want to thank all of you for your testimony. And with 
that, I will yield back to you, Mr. Joyce, if Mr. Simpson has a 
question.
    Mr. Joyce. Thank you very much. I would like to recognize 
the former chairman of this subcommittee and my distinguished 
colleague, Mr. Simpson.
    Mr. Simpson. Thank you. Just a couple quick questions. You 
asked for $82 million more, I understand that. You all asked 
for full funding. I don't understand what that is. I don't know 
what number we are looking at. I don't know what full funding 
refers to. Is there a----
    Ms. Shepard. We can get back to you with numbers.
    Mr. Simpson. Yeah, I would appreciate that. The second 
thing, you want to get EPA involved in wildfires?
    Mr. Cromar. Yeah, particularly----
    Mr. Simpson. We are having a tough time getting the Forest 
Service involved in wildfires. [Laughter.]
    Mr. Cromar. Yeah. Any time you have an issue where there is 
a split responsibility, so you have OSHA who studies the 
facemasks and whether they work or not, and then the Department 
of Interior deals with the management issues. But no one is 
addressing the health impacts and the risk communication. And 
because EPA has an expertise in the air health field, they are 
a natural place to lead this multi-agency effort to address 
wildfires. It is a big issue that is not being addressed, and 
in our view, the EPA is the best place to house that effort.
    Mr. Simpson. Well, it is a huge issue in the West.
    Mr. Cromar. In the West, in the Southeast.
    Mr. Simpson. I can't breathe in August in Idaho about half 
the time.
    Mr. Cromar. Yeah, and there is a precedent for this. In the 
90s there was a big investment to study particle air pollution, 
and they set up some centers to study it. And that is when we 
really learned about these health impacts. We think that model 
would work for wildfires as well, and we have some details on 
how that could happen.
    Mr. Simpson. A, we know all the smoke in the air from 
wildfires is bad. It is not good to breathe it. The answer is 
don't have wildfires. Other than that, the EPA could spend a 
lot of money saying how bad it is, but I don't know what that 
does for us other than we know we need to reduce the amount of 
wildfires in the country.
    Mr. Keogh. If I could just respond to that just for a 
moment. One thing we can do----
    [Laughter.]
    Absolutely. No, no, one thing that we can do, a lot of what 
the State and local agencies that have been on the front lines 
of trying to communicate about wildfires have been doing is 
trying to do things like place mobile monitors so we know where 
the air is good and where it is bad. But we don't have that 
many of those, the EBEM units that can be moved around. Improve 
our ability to communicate with the public about when air 
quality is impacted by these things, targeting communications 
to people who can then take action to protect themselves, 
figuring out what works and what kind of protective measures 
work as well.
    A lot of the State and local agencies, especially in States 
like Idaho, Utah, California, and the like, out in the West in 
particular, have really been doing great strides to try to put 
together good strategies with the equipment and with the 
knowledge base that they have got. Not to plug my ask again, 
but catching them up for 15 years' worth of level funding would 
really improve their ability to be partners with EPA in being 
effectively responsive in those conditions.
    Mr. Simpson. Thank you.
    Ms. McCollum. Mr. Chair, I have more of a comment. So 15 
years' level funding. We have seen more fires, if we are just 
going to focus on air quality and fires, and less resources 
being available for local communities, for cities, for States, 
for our national government to understand its overall effect on 
healthcare. I think, in and of itself, if you just figure 
inflation, let alone, we are seeing more and more episodes of 
this happening. It really speaks to you, looking at the 
numbers.
    Just for the record, I have asked for a larger amount of 
money for this committee because of all the unmet needs. I know 
that you dealt with it as chair, and that Ken did, and the rest 
of us. We just haven't had a very substantial allocation, I 
think, to do a lot of the work that we would like to do on both 
sides of the aisle for many of these issues. So thank you.
    Mr. Simpson. Well, I appreciate that, and I am not 
disagreeing with what you all are saying. I am just trying to 
envision what exactly it would be. I mean, every night I go 
home, especially in August. You turn on the TV and the weather 
station will tell you what the air quality is that day. We have 
high schools canceling football games and colleges canceling 
football games because of air quality. The answer to that is 
put out wildfires before they become huge conflagrations, and 
that is the Forest Service's responsibility.
    I've seen too many times when you get several agencies 
involved in something, nothing gets done because they all think 
they are in charge. I would hate to see that become the case in 
something like this. But I don't disagree with what you are 
talking about in monitoring air quality. So, thank you.
    Ms. McCollum. Thank you. So thanks very much. The next 
panel. I am sorry. Did you have a question? You didn't go. You 
have a question.
    Mr. Joyce. No, I was just going to tell Mr. Keogh that this 
is his moment.
    Ms. McCollum. Well, do it on the record.
    Mr. Joyce. This is your moment to plug your activities. 
[Laughter.]
    I am glad you are doing so while you are here. There is no 
need to be embarrassed by it.
    Ms. McCollum. Our next panel up, Mr. Chad Lord who used to 
work in my office----
    [Laughter.]
    Healing our Waters Great Lakes Coalition, and Howard 
Learner, executive director for Environmental Law and Policy 
Center. Chad, did I give you a slight heart attack?
    Mr. Lord. A little bit. [Laughter.]
    Ms. McCollum. You are a two-person panel. So you are up and 
the next one. You just stay there. So, Mr. Learner?
                              ----------                             


                                        Tuesday, February 26, 2019.

                   ENVIRONMENTAL LAW & POLICY CENTER


                                WITNESS

HOWARD A. LEARNER, EXECUTIVE DIRECTOR, ENVIRONMENTAL LAW & POLICY 
    CENTER
    Mr. Learner. Good morning. I am Howard Lerner. I am the 
executive director of the Environmental Law and Policy Center. 
Thank you, Chair McCollum and Ranking Member Joyce, for 
inviting us to testify this morning.
    We have worked for many years together to protect the Great 
Lakes. We are engaged with many colleagues and public officials 
in both creating, establishing, and building the Great Lakes 
Restoration Initiative. We recognize, we commend this 
subcommittee for the strong bipartisan support over the years 
for the Great Lakes Restoration Initiative and to make it work 
well.
    And I will be making three points this morning. First, this 
is a vitally important and successful program. It is a model 
Federal program providing great benefits. It is working well on 
the ground and on the waters. Second, the Appropriations 
Committee should provide at least continued support of $300 
million annually for the program as it has been doing over the 
past years. Third, the committee should work to increase 
funding for the Great Lakes Restoration Initiative to $475 
million annually. That is the funding level the program began 
with, and because of the problems and challenges, it is time to 
come back to the original funding for the program.
    As you understand, the Great Lakes Restoration Initiative 
and the Great Lakes themselves face challenges: harmful algal 
blooms in western Lake Erie, Lake Superior, and Lake Michigan, 
and throughout the Great Lakes, and the impacts of climate 
change that exacerbate the problems in the Great Lakes. The 
Great Lakes are a global gem. They contain 21 percent of the 
world's fresh water supply, safe drinking water for 42 million 
people in the United States and Canada. They support a $7 
billion fishing industry. They provide recreation, and they 
draw in millions of tourists for everything from sports fishing 
to other outdoor recreation. In short, if you live in the 
Midwest, the Great Lakes are where you live. They are where you 
work. It is where we play.
    So let me turn, if I could, to my first point. The Great 
Lakes Restoration Initiative is a commonsense program. It is 
working well. It supports more than 4,000 projects to protect 
shorelands and coastal wetlands. It has cleaned up settlements 
in the St. Louis River area of concern in northern Minnesota, 
and it is helping to clean up nutrient runoff in western Lake 
Erie. It has funded and supported projects across the States to 
improve water quality so that we have safe water to drink, 
fisheries and aquatic habitats, and beaches across the lakes 
have been restored for swimming. In other words, fishable and 
swimmable in the Great Lakes.
    For more than 25 years, there were plans to restore the 
Great Lakes, but they were constrained by significant Federal 
funding. The Initiative was a breakthrough. The program was 
initially planned for $500 million annually, and a vision it 
would add two existing programs. It has been working well.
    Let me turn if I could to my second point. The full House 
has consistently voted to appropriate $300 million of annual 
funding with strong bipartisan support from this subcommittee, 
from the full committee, even when the President's budget has 
cut it back significantly. Hopefully this year and next we can 
move beyond keeping the funding in place to the higher level of 
funding where the program began and what is fully justified.
    And that is my third point. This subcommittee should work 
to increase funding to $475 million annually. That was the 
original funding level. That money is useful. It is needed. The 
needs are great, and as we have harmful algal blooms not just 
in Lake Erie, but in Lake Superior, in Lake Michigan, the other 
shallow water bays, we need to focus more resources on solving 
that problem.
    So last year the Senate proposed in the Water Resources 
Development Act to increase funding up to $390 million in a 
couple of years. This year and next, the House should seize the 
leadership and the opportunity to move up to $475 million, 
which is where the program began. Focus on toxic algal blooms 
in the shallow water pays, the impact which scientists are 
telling us about climate change on the Great Lakes, making 
problems worse. We have a report coming out by a group of 
leading Midwest University scientists on the impacts of climate 
change and some of the solutions directed toward the Great 
Lakes.
    This is a successful program. It has been a model for 
Federal and State and local cooperation. The time has come to 
move the funding back to the right level. It is where we live, 
work, and play. Thank you for inviting my testimony, and after 
Chad, I would be pleased to address any questions you might 
have.
    [The statement of Mr. Learner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Mr. Lord, welcome.
                              ----------                             


                                        Tuesday, February 26, 2019.

               HEALING OUR WATERS--GREAT LAKES COALITION


                                WITNESS

CHAD LORD, POLICY DIRECTOR, HEALING OUR WATERS--GREAT LAKES COALITION
    Mr. Lord. Thank you, ma'am. Thank you, everyone, for 
inviting us to testify today. My name is Chad Lord. I am the 
policy director for the Healing Our Waters Great Lakes 
Coalition. Thank you for the opportunity to share with you a 
good story about what is happening because of the Great Lakes 
Restoration Initiative, where Federal restoration investments 
are benefiting the environment and economy.
    Securing a strong plan to restore and protect the Great 
Lakes and the funding to implement have been our coalition's 
guiding principles since our inception. For 15 years we have 
harnessed the collective power of more than 150 groups, 
representing millions of people whose common goal is to restore 
and protect one-fifth of the surface water on our planet and 
the source of drinking water for more than 30 million 
Americans.
    As I said, we have a good story to tell and the story 
involves you. Because of your support, we are cleaning up toxic 
caught spots, restoring wetlands and habitat, controlling 
invasive species, and addressing polluted farm runoff, setting 
an example for the entire country. Problems that have plagued 
the area for decades are now being addressed thanks to the 
GLRI.
    Consider this. Because of the GLRI, Michigan's Two Hearted 
River has seen increased recreational and fishing opportunities 
thanks to stabilized river banks. This work connected 35 miles 
of river and reduced sediment pollution by more than 600 tons 
per year. In Duluth, a Conservation Corps project improved 
stream health and habitat while providing jobs for 14 
unemployed or underemployed Duluth residents. The project 
worked with 175 landowners to plant more than 18,000 trees and 
shrubs, which improved water quality as well as property 
values. Northpoint Marina beach in the Chicagoland area is 
safer now for residents to swim in. In 2007 the beach was 
closed for over three quarters of the swimming season due to 
bacteria buildup from gulls. But by planting native plants and 
grasses on the expanse of beach, the ecosystem is no longer 
hospitable to these birds, and bacterial pollution has 
decreased.
    Not only are we seeing these kinds of ecological results, 
the positive impacts from the GLRI on the regions' and Nation's 
economic wellbeing is also clear. An economic report last fall 
demonstrated that the GLRI's ecological investments are 
resulting in significant economic ones as well. The study 
showed that for every $1 invested through 2016 produces more 
than $3 in economic activity region wide, and that will be 
through 2036. The GLRI is creating new real estate and 
commercial development, particularly in waterfront areas. 
Water-based outdoor recreation is resurging, and tourism is 
increasing across the region. Housing options and home values 
are going up, and an increasing number of young people are 
staying in or relocating to Great Lakes communities.
    The report documented that cleaning up the Great Lakes 
resulted in 27 new businesses opening since 2010 to serve 
growing numbers of waterfront visitors to Ashtabula, Ohio. It 
helped set the stage for opening a multimillion dollar 
entertainment complex in Buffalo on an old industrial site. It 
created the conditions that allowed a Detroit kayak outfitter 
and tour company to see its business increase 500 percent since 
2013.
    Even with all these results, the Great Lakes face serious 
threats. Nineteen U.S. areas of concern are still contaminated 
with toxic sentiment. Harmful runoff from farm fields continues 
to pollute our waters, habitat loss and aquatic invasive 
species continue to damage our region's outdoor way of life, 
and Asian carp are still swimming towards Lake Michigan. Many 
of these threats disproportionately impact people that have 
historically borne the brunt of environmental injustice, and 
our changing climate is exacerbating all our region's problems.
    This is why we need you to continue your support to protect 
and restore the Great Lakes. Maintaining funding is necessary 
to continue building on these results, and we are ready for 
these investments with projects that are ready to break ground. 
Local non-Federal partners are ready and willing to do their 
fair share, but without GLRI funding, these local investments 
could be left on the table. To keep restoration on track, we 
hope the subcommittee will provide at least $300 million for 
the GLRI again in fiscal year 2020.
    The GLRI of course works best when both existing Federal 
agencies and programs as well as the GLRI have the funding they 
need to support each other. So we also urge you to maintain 
base budgets and programs at EPA, the Department of the 
Interior, and other agencies in order that the work we 
undertake together is carried out as efficiently and 
effectively as possible. Our work is producing results, but 
serious threats remain. Cutting restoration funding now will 
only make projects harder and more expensive the longer we 
wait.
    Thank you again for your support and the opportunity to 
share our views with you today.
    [The statement of Mr. Lord follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you. Mr. Learner and Mr. Lord, you have 
both stated our case very well. The Great Lakes are an 
international treasure, an economic powerhouse, and the GLRI is 
a model program for Federal, tribal, State, and local 
cooperation. Protecting the Lakes is not a Republican or a 
Democrat issue. Members from both sides of the political aisle 
understand the important role the Lakes play in our lives and 
understand the importance of protecting them for current and 
future generations.
    Despite the progress we are witnessing in the region, there 
is still work to do to protect and restore the Great Lakes. 
Asian carp are on the verge of doing to the Great Lakes what 
they have done to the Ohio and Illinois river(s). Now is not 
the time to cut carp out of the budget at Interior. We must 
continue our efforts to prevent this invasive species from 
devastating the $7 billion Great Lakes fishing industry that we 
have.
    Now, Mr. Lord, could you briefly describe the important 
work being done by the U.S. Fish and Wildlife Service and U.S. 
Geological Survey to address this threat?
    Mr. Lord. Yes. Both agencies have a number of things they 
are undertaking, coordinated through the Asian Carp Regional 
Coordinating Committee, which was set up a number of years. For 
example, the Fish and Wildlife Service works with local 
partners, such as in Illinois, but also even the upper 
Mississippi and Ohio River Valleys, to coordinate activities 
that address and help manage fish populations throughout both 
systems. So working with fishermen and women to do over fishing 
and other types of activities, also monitoring activities and 
that sort of thing.
    USGS' role is a little different. They are more focused on 
the research side of things, and so they are developing 
technologies that will allow the managers at Fish and Wildlife 
Service and Illinois Department of Natural Resources and other 
State agencies to use new tools that will hopefully control 
these fish. So things like I refer to as bio-bullets, which 
only Asian carp will eat and then hopefully die, and other 
types of activities. Apparently they are not very good to eat, 
so I don't know. [Laughter.]
    Ms. McCollum. You haven't tried them.
    Mr. Lord. I have not tried them, no. But other technologies 
like that. They have also developed different types of 
monitoring. They are developing different types of monitoring 
technologies with DNA and other types of technology that will 
allow for better and more faster monitoring so we can monitor 
the populations. And so all of those resources are being 
developed for these things, and that honestly can be exported 
to other parts of the country.
    Mr. Joyce. One day I was getting on the elevator, and there 
were three young ladies in there with their sushi for lunch. I 
said, what do we have today, Asian carp, and they all started 
laughing because they worked in Madam Chair's office. So they 
knew exactly what Asian carp was. [Laughter.]
    Mr. Learner, did you bring up algal blooms?
    Mr. Learner. Yes.
    Mr. Joyce. Algal blooms are not limited to the Great Lakes. 
I was down in the Everglade, and they are having a huge 
problem. God forbid, Lake Okeechobee ever breaches because it 
would really devastate the Everglades as well.
    Mr. Learner. As a matter of fact, there will be a meeting 
latter part of March at the Wing Spread Conference Center in 
Racine, Wisconsin, for the first time really bringing together 
groups from the Everglades, the Great Lakes, Chesapeake Bay to 
begin looking at it on a much more cross-regional basis. You 
are exactly right.
    Mr. Joyce. Thank you. I yield back.
    Ms. McCollum. Mr. Simpson.
    Mr. Simpson. I am not going to pretend to know more about 
the Great Lakes Restoration Initiative than you two do. 
[Laughter.]
    So I just do what these guys say. [Laughter.]
    Mr. Learner. On this one they are both. [Laughter.]
    Mr. Lord. I would like to note something you said earlier 
in terms of the coordination among Federal agencies. And one of 
the highlights I always like to suggest for this is that there 
is an orchestra leader. It is the U.S. EPA, but they don't do 
it alone, and they help really work and try and coordinate the 
goals and activities of the other U.S. Federal agencies.
    And so from our perspective, you know, this is a model to 
get to the issue that you raised earlier on fire, and that we 
do think it does seem to be working pretty well, and I think 
the GAO and other reports have borne that out. So I just wanted 
to point that out that at least in this region, we are trying 
to address some of the problems that you addressed for other 
issues.
    Mr. Simpson. Well, it is a really important issue. I will 
tell you that when I came to Congress 21 years ago, 20 years 
and 2 months ago, for about 4 years before that, they had been 
relicensing a couple of dams on the Snake River.
    Mr. Learner. Right.
    Mr. Simpson. They are still relicensing them. You have got 
the Forest Service. You have the BLM. You have the EPA. You 
have all these agencies, and there is not one boss, and so 
consequently, all they do is fight. One agency thinks this, 
another agency thinks that, and consequently it never gets 
done. It has taken 24 years so far to relicense them, and they 
are not relicensed yet, and it cost 3 times as much money as it 
did to build the dams. That is crazy.
    Ms. McCollum. Well, that is one of the reasons why when 
Asian carp became a topic here in Washington, DC, that we 
worked really hard. I had some legislation to kind of 
coordinate and have one group, and we didn't do that alone. All 
the Great Lakes legislators worked on that together. Could I 
ask you gentlemen just to comment on two things really quickly? 
Mr. Lord, you mentioned some of the vibrance that has come 
along, especially in the Duluth-St. Louis River area with the 
clean-up. Talk about that for a second.
    And then talk about climate change because we hear a lot 
about climate change, and people don't think of the freshwater 
of the Great Lakes. We have watched Lake Superior's level 
drastically go up and down. There is a new map that was just in 
the Star Tribune, the big paper in Minnesota just showing how 
Minnesota could be prairie in a couple of decades, moving 
towards prairie. And how is that going to affect the Great 
Lakes? So if you could just give us a minute on revitalization, 
the economy, and a minute on climate change because we are 
going to drill down more on that. But people don't think of 
climate change affecting the Great Lakes and affecting our 
fresh drinking water.
    Mr. Lord. Right. Yeah. So to start with Duluth, that is a 
really good story to tell because it does point to the 
partnerships that are created between the Federal agencies, 
like the U.S. EPA and State and local partners. Minnesota 
bonded for, I believe, $25 million which they are applying to 
the clean-up project in the St. Louis area of concern, and they 
are moving forward with that work. They have already completed 
a number of projects, which has resulted in a number of new 
hotels in the Duluth area, and they have a number of projects.
    They have already identified the other projects lined up. 
And those projects are dependent upon additional Federal 
resources, as I think you know. And, you know, once they get 
all that done they will continue to see the increased 
recreational opportunities that are bringing tourism and other 
businesses opportunities to the northern shore, that whole 
coastal area up there in Minnesota. So it is a really great 
story to tell on what is going on in Duluth.
    And in terms of climate change, you know, as I think Mr. 
Learner noted, you know, they are going to have their report 
coming out in a couple of weeks. But what we have seen is that 
because of the change in hydrologic cycles, you know, the Lakes 
have fluctuated over time. But people generally think that 
instead of the oceans rising, the Lakes will decline over time. 
But not only that, the increase or the unpredictability of 
precipitation, the heavier rains happening at different times 
of the year, could all influence these harmful algal blooms, 
for example. So with heavier rains, you have greater runoff. 
Greater runoff could push more of those nutrients into our 
waterways, and then combined with the heat that we would 
anticipate because of the changing climate, we could see even 
worse harmful algal blooms that we are already seeing.
    And not only worse, but in different places. I think even 
in Lake Superior now we are beginning to see these habs which 
we haven't seen because Lake Superior generally has been too 
cold to support them. And so we could expect that those kinds 
of things would be likely to occur on a more frequent basis.
    Ms. McCollum. Mr. Learner.
    Mr. Learner. Yeah, on the climate change issue, we have 
convened some of the leading scientists from University of 
Minnesota, University of Wisconsin, Ohio State, University of 
Illinois, University of Michigan, Michigan State, Indiana, 
Purdue, to come together and do the first recent comprehensive 
assessment of the impact of climate change on the Great Lakes. 
And it deals with public health, and infrastructure, and Fish 
and Wildlife, and the regional economy. We will be releasing 
that report March 21st, and we will be glad to provide to the 
subcommittee members.
    Two key points on climate change with regard to the 
practical effects Mr. Lord was talking about. First of all, 
higher and lower water levels. Lower water levels mean marinas, 
intake valves, docks being stranded. Higher levels involve more 
flooding. What the science on this seems to be is that the 
impact of climate change and more extreme weather is more 
deviations from the norm, if you will, summers in which water 
levels are much higher when there have been wetter winters and 
springs, and much lower when it is relatively low in terms of 
precipitation in winter and spring. And it is hot in the summer 
when there is more evaporation. What that means is all 
shoreline-related activity is under a lot of stress.
    When it comes to the algal blooms, overall hotter 
temperatures, in effect, cook the nutrient runoffs, whether it 
is Lake Erie or Lake Superior or Lake Michigan, Green Bay and 
the shallow water bays. The science here is that climate change 
will exacerbate the algal bloom problems. Simply put, when you 
are dealing with a shallow water bay with relatively lower 
water levels and more phosphorus and nutrients coming into the 
bay, the hotter temperatures cook the water, more evaporation. 
That leads to worse algal blooms. Climate change exacerbates 
the problem.
    Ms. McCollum. Thank you. Mr. Joyce and I have our work cut 
out for us. As well as for the other regional water bodies that 
this committee funds. Thank you very much.
    Mr. Learner. You are welcome.
    Ms. McCollum. Mr. Joyce, do you want to introduce the next 
panel?
    Mr. Learner. We appreciate your leadership and your 
support.
    Mr. Joyce. The next group, please take your seats. Thank 
you. We will start in order to try to stay close to schedule. I 
recognize Ms. Kasey White for 5 minutes.
                              ----------                             


                                        Tuesday, February 26, 2019.

                   THE GEOLOGICAL SOCIETY OF AMERICA


                                WITNESS

KASEY WHITE, DIRECTOR OF GEOSCIENCE POLICY, THE GEOLOGICAL SOCIETY OF 
    AMERICA
    Ms. White. Good morning, Chairman McCollum, Ranking Member 
Joyce. Thank you for the opportunity to testify today in 
support of the U.S. Geological Survey's budget on behalf of the 
Geological Society of America. GSA is a professional society 
with 22,000 members from across the globe with the mission to 
advance geoscience and discovery, service to society, 
stewardship of the earth and the geoscience profession.
    GSA applauds the work of the subcommittee to reject the 
cuts proposed to the USGS in the Administration's fiscal year 
2018 and 2019 budget, and instead provide increases for the 
Agency. We thank the committee for their recognition of the 
important work of the Survey to protect lives, property, and 
national security.
    GSA asks Congress to provide USGS with $1.2 billion in 
appropriations for fiscal year 2020. GSA also asks Congress to 
ensure that any proposed changes to the organizational 
structure or location of the USGS and its staff are fully 
vetted to ensure that the changes support, rather than hinder, 
the ability of the USGS to serve the Nation with its research 
and partnerships.
    The USGS is one of the Nation's premier science agencies 
with a distinctive capacity to engage truly interdisciplinary 
teams of experts to gather data, conduct research, and develop 
integrated decision support tools about our earth. In addition 
to underpinning the science activities and decisions of the 
many agencies within the Department of Interior, this research 
is used by communities and businesses across the Nation to make 
informed decisions regarding land use planning, emergency 
response, natural resource management, engineering, and 
education.
    Bipartisan congressional and executive branch support 
exists for USGS as shown by the advancement of recent 
legislation, including the enactment of the National Earthquake 
Hazards Reduction Program Reauthorization Act in December 2018. 
Soon the House will consider a lands package that includes a 
hazards and mapping title that would establish a national 
volcano early warning and monitoring system at the USGS, and 
reauthorize the USGS National Cooperative Geologic Mapping 
Program.
    USGS research addresses many of society's greatest 
challenges, for example natural hazards, including earthquakes, 
hurricanes, tsunamis, volcanic eruptions, and landslides, or a 
major cause of fatalities and economic losses in 2018. 
Decisionmakers in many sectors rely upon USGS data to respond 
to these natural disasters. For example, USGS volcano 
monitoring provides information to enable decisions that ensure 
aviation safety. The USGS network of stream gauges is used by 
the National Weather Service to issue flood and drought 
warnings. USGS earth and space observations are necessary to 
predict severe space weather events which affect the electric 
power grid, satellite communications, and space-based position, 
navigation, and timing systems. GSA urges Congress to support 
efforts for the USGS to modernize and upgrade its natural 
hazards monitoring and warning systems, including additional 
high-quality typographic and other mapping and earthquake early 
warning systems.
    In 2017 President Trump signed an executive order entitled, 
A Federal Strategy to Ensure Secure and Reliable Supplies of 
Critical Materials that highlights the vulnerability created by 
the Nation's reliance on foreign sources for many minerals. GSA 
supports increases in mineral science research, information, 
data collection, and analysis. GSA appreciates congressional 
support for the new Three-Dimensional Mapping and Economic 
Empowerment Program, or 3-DEEP, which will provide new 
resources and leverage current data by building upon the 
existing and successful 3D Elevation Mapping Program and the 
National Cooperative Geologic Mapping Program.
    USGS research on climate change is used by local 
policymakers and resource managers to make sound decisions 
based on the best possible science, including key USGS research 
on past changes to our climate. The Climate Adaptation Science 
Centers provide scientific information necessary to anticipate, 
monitor, and adapt to the effects of climate change at regional 
and local levels, allowing communities to make smart, cost-
effective decisions. For example, the North Central Climate 
Adaptation Science Center recently supported the development of 
a new experimental tool on drought monitoring and warning 
called the Landscape Evaporated Response Index, adding to the 
USGS resources on understanding of surface water.
    The land satellites have amassed the largest archive of 
remotely-sensed data on the world, a tremendously important 
resource for natural resource exploration, land use planning, 
assessing water resources, and the impacts of natural disasters 
in global agriculture. GSA supports interagency efforts to 
ensure the continuation of this vital monitoring. All of these 
important endeavors are supported by the core system sciences 
facilities and science support, which provide critical 
information, data, and infrastructure to underpin this 
research.
    Thank you for the opportunity to testify about the U.S. 
Geological Survey. I would be happy to answer any questions.
    [The statement of Ms. White follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. I appreciate it. Dr. Devlin, you are 
recognized for 5 minutes.
                              ----------                            


                                        Tuesday, February 26, 2019.

                NATIONAL INSTITUTES FOR WATER RESOURCES


                                WITNESS

DAN DEVLIN, PRESIDENT, NATIONAL INSTITUTES FOR WATER RESOURCES
    Mr. Devlin. Chair McCollum and Ranking Member Joyce, good 
morning. I am Dan Devlin. I am a professor and director of the 
Kansas Water Resources Institute located at Kansas State 
University. Thank you for this opportunity to testify on behalf 
of the National Institutes of Water Resources in support of the 
Water Resources Research Act Program, a program funded as part 
of the U.S. Geological Survey's budget.
    I would to start by thanking the subcommittee for its 
continued support for the Water Resources Research Act and 
request that the subcommittee fund the program in fiscal year 
2020 at $10 million. The Water Resources Research Act, enacted 
in 1964, is designed to expand to provide more effective 
coordination of the Nation's water research. The Act 
establishes a water resources research institutes at lead 
universities in each State, as well as for the District of 
Columbia, Guam, Puerto Rico, the Virgin Islands, the Federated 
States of Micronesia, the Commonwealth of the Northern Mariana 
Islands, and American Samoa.
    Congress created the institutes to fulfill three main 
objectives. First was to develop through research new 
technology and more efficient methods for resolving local, 
State, and national water resources challenges. Two, train 
water scientists and engineers through on-the-job participation 
and research; and three, facilitate water research coordination 
and application of research results through dissemination of 
information and technology transfers. Since 1964, the 
institutes fulfill these objectives in partnership with the 
U.S. Geological Survey.
    Each institute is managed by a director in each State, 
generally at the land grant university. The program is the only 
Federally-mandated research network that focuses on applied 
water resources research, education, training, and outreach. 
The institutes partner with universities, local governments, 
industry, and non-governmental organizations to help solve a 
variety of regional water challenges. Each State contributes a 
minimum of a 2 to 1 non-Federal to Federal match of funds, thus 
ensuring that local and regional priorities are addressed and 
the impact of Federal dollars is maximized. The institutes also 
ensure coordination between State, regional, and national 
interests by collaborating with 150 State agencies, 180 Federal 
agencies, and more than 165 local and municipal offices.
    The following are several examples of research conducted by 
institutes across the country. My institute, the Kansas Water 
Resources Institute, is an institute at Kansas State 
University. Research projects being funded help determine why 
and when conditions are ripe for harmful algal blooms to occur 
in surface water reservoirs. Researchers are assessing how 
different nutrient levels and forms affect the development of 
harmful algal blooms, and they are also developing models that 
will allow forecasting when conditions are favorable for 
harmful algal blooms to occur. Results of this work will help 
agencies predict harmful algal bloom formation and protect 
human health.
    Another example is at the Minnesota Water Resources Center, 
who is supporting a team of researchers developing techniques 
for nearly continuous monitoring of over 12,000 Minnesota lakes 
using satellite imagery. Although Minnesota has a well-regarded 
water monitoring program, only a small fraction of the State's 
lakes are currently monitored author regular basis. The new 
data will be high resolution and frequent for all lakes, 
allowing agencies to target field monitoring where needed, 
while also providing new data to manage aquatic habitats.
    There are two grant components of the USGS Water Resources 
Research Institutes Program. One is State water research 
grants, which provide competitive seed opportunities for State 
institutes that allow us to focus on State, local, and 
community water resources. The other is the National 
Competitive Grants Program that focuses on issues between USGS 
and university scientists that focus on national priorities. 
For fiscal year 2020, the National Institutes for Water 
Resources recommends the subcommittee provide $10 million 
dollars to the USGS for the Water Resources Research Institute 
Program.
    Thank you on behalf of all the institute directors for the 
opportunity to testify and for the subcommittee's strong 
support of the Water Resources Research Program.
    [The statement of Mr. Devlin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. I appreciate it. Now we will 
recognize Mr. Palatiello.
    Mr. Palatiello. Very good. Correct.
    Mr. Joyce. Thank you. You have 5 minutes to address us. 
Thank you.
                              ----------                            


                                        Tuesday, February 26, 2019.

                 JOHN M. PALATIELLO & ASSOCIATES, INC.


                                WITNESS

JOHN PALATIELLO, PARTNER, MILLER WENHOLD CAPITOL STRATEGIES, JOHN M. 
    PALATIELLO & ASSOCIATES, INC.
    Mr. Palatiello. Thank you. Mr. Joyce, Madam Chair, I am 
John Palatiello, and it is my pleasure to speak to you today on 
behalf of the USGS 3DEP 3D Elevation Program. The 3DEP 
coalition is comprised of a broad cross-section of 
stakeholders, including over 35 organizations in surveying, 
mapping, geospatial real estate, homebuilding, flood 
management, emergency response, environment, science, mining 
insurance, telecom, agriculture, infrastructure, and others. 
What this should give you a bit of an insight into is the very 
broad range of applications that the 3DEP Program supports.
    3DEP is satisfying a growing demand for consistent, high-
quality, topographic data across the country, as I said, to 
meet a wide range of applications. The USGS has identified more 
than 600 applications of the data on that which has been 
collected to date. These have included flood risk management, 
infrastructure, landslides, and other hazards, a variety of 
different water resources, both water supply and storm water 
runoff, aviation safety, telecom, homeland security, emergency 
response, precision agriculture, energy pipeline safety, 
climate, and many others.
    The 3DEP data promotes economic growth, facilitates 
responsible environmental protection, resource development and 
management, and assists with infrastructure improvement and 
generally enhance the quality of life of all Americans. I 
wanted to show you a couple of USGS posters that give you an 
idea of how 3DEP is being used. This coincidently is in 
Minnesota. This is the Red River on the border between 
Minnesota and North Dakota, and it becomes a very effective 
tool for both preparedness and response with regard to floods. 
With regard to an infrastructure program that Congress may take 
on, this becomes the underpinning for all infrastructure 
management. This data becomes part of the planning, the design, 
the construction, the operation, the maintenance of every piece 
of infrastructure.
    To put LIDAR in layman's terms, remember that the pointers 
that we use in presentations. A LIDAR sensor is basically one 
of those pointers that is sending millions of pulses per second 
to the ground. It knows the altitude of the airplane, and it is 
measuring the time it takes for that pulse to hit the ground 
and register back up to the sensor. And as it goes along from 
an aircraft, it is picking up that and picking up the height of 
the mountains and the depth of the valleys, and gives you a 
very modern version of the old traditional USGS topographic 
maps.
    The program was initiated with a vision of funding at $146 
million per year. At that rate, the USGS estimated in the study 
they did in partnership with the private sector that it could 
remap the country on an every 7-year year cycle. This is where 
we are thus far in the program that started in 2014. You can 
see by the light green is through partnerships in 2018. The 
lighter green is other forms of lot of LIDAR that may or may 
not meet the national standard that USGS seeks. The gray is 
lesser parts of LIDAR data that is available, I would note, in 
particular, Ohio and Minnesota.
    And particularly look at the public lands west. The USGS is 
virtually the only Interior Department agency that is 
contributing to this program. And so when you look at virtually 
every interested party that will appear before you today and 
every program and activity in which they have an interest, 
LIDAR becomes the underpinning. It is the foundation data to 
all of the land management infrastructure and other 
applications that we will be discussing today.
    There is a cooperative program. There are other agencies 
that are contributing to 3DEP, down but it is still not meeting 
the $146 million. FEMA is the largest contributor because the 
data supports their Flood Mapping Program, but that is not a 
consistent or reliable source of data from one year to the 
next.
    In our view, this is not a program that should be funded by 
USGS going around and passing the hat. This is something that 
should be funded for the interest of the country at large. With 
that, I would will be happy to answer any questions. Thank you 
for the opportunity.
    [The statement of Mr. Palatiello follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. We will now hear 
from Mr. Bardin.
                              ----------                           


                                        Tuesday, February 26, 2019.

                          INDIVIDUAL CAPACITY


                                WITNESS

DAVID JONAS BARDIN, INDIVIDUAL CAPACITY
    Mr. Bardin. Good morning, Chair McCollum, Ranking Member 
Joyce. I am David Jonas Bardin, and I very much appreciate the 
chance to appear in person as your witness on two issues 
involving USGS, their Geomagnetism Program, which should be 
expanded, and the completion of the 3-Dimensional 
Magnetotelluric Survey, which was started by the National 
Science Foundation. Their contribution was finished last year, 
and a group of agencies--the space weather agencies 
collectively--have decided that the appropriate manager of that 
program--it was NSF in the past--ought to be USGS, but that 
depends on funding. So I am here to talk on funding for both of 
those issues.
    Let me start by thanking you from the bottom of my heart 
for this subcommittee's actions and leadership in the last two 
appropriations cycles as far as the USGS Geomagnetism Program. 
God bless you. Now, we are hoping that we will see something in 
the President's budget. When it comes, I just want to volunteer 
now to work with your able staff on the details of that. But I 
think what I am talking about today reflects a consensus of 
national policy certainly on space weather and space weather 
prediction as well as other related issues. I don't think there 
is anything partisan. I don't think there is anything 
particularistic. These agencies have gotten together. They have 
come to their decision as to what is the best way to do it, and 
I think that is what I am advocating for.
    Your report last year in May pointed out that the 
Geomagnetism Program of USGS is part of the U.S. National Space 
Weather Program, an interagency collaboration that includes 
programs in the National Aeronautics and Space Administration, 
NASA, the Department of Defense, the National Oceanic and 
Atmospheric Administration, NOAA, and the National Science 
Foundation. The program provides data to these agencies, to oil 
drilling service companies, to geophysical surveying companies, 
and to electric transmission utilities. My personal interest 
has been particularly with the electric power grid and 
protecting it from solar storm events on the one hand and the 
possibility, which we hope won't happen, of a high-altitude 
nuclear explosion and the electromagnetic pulse that would 
result from that.
    The map at the end of my prepared testimony shows you where 
our USGS magnetic observatories are. And, frankly, everybody 
who has looked at this knows it is a huge, huge gap. We don't 
have enough. Now, what is sufficient we can discuss, but 
between Fredericksburg, Virginia, and Boulder, Colorado, and 
the Stennis facility in Mississippi, we don't have anything. It 
is where most Americans live, and then we have to go to Canada 
to the Ottawa station in northern Ontario to make up for it. We 
need more magnetic observatories, and we probably need other 
kinds of magnetometer stations.
    What is being provided by USGS is real-time, 24 hours a 
day, accurate, quality information upgrading equipment, and it 
is used for all kinds of different things, right? This time 
asked me about the wandering North Magnetic Pole and that whole 
issue, which is not part of my prepared testimony. We need more 
stations, right.
    I am advocating take the $1.9 million, which has been in 
the line for the Geomagnetism Program, and raise it to $4 
million. Keep in mind when I am saying that that the Air Force 
has announced that it is going to withdraw, stop the $560,000 
contribution which comes from their budget. So it is really not 
as much of an increase as I am advocating as it seems. But NOAA 
has responsibility for predicting space weather events for the 
civilian economy and civilian agencies. The Air Force has it 
for the whole defense establishment. The loss of this money is 
a serious thing that I think your subcommittee ought to think 
about. Frankly, I don't really understand where the Air Force 
and defense establishment is going to get the data that they 
are now getting from USGS, but that is a different question, 
and perhaps other subcommittees ought to look into that.
    Now finally, on the Geomagnetic Survey, two-thirds of the 
country had been surveyed. One-third has not. Some of the 
extreme hazardous response identified so far as in northern 
Minnesota, and that gets American transmission companies 
interested and involved, and in southern Maine that gets 
Central Maine Power involved. But the entire southern tier, 
starting with the panhandle of Florida all the way to most of 
California and all of Texas and Oklahoma in between, we have no 
data.
    Now, there is a very exciting development and a high 
priority for improving the models that use these 3D 
magnetotelluric data, but it would be shocking if one-third of 
the country can't do it. NOAA has told this committee and the 
Senate Appropriations Committee that it won't be able to 
provide accurate forecasts of storm weather unless the survey 
is completed. Thank you.
    [The statement of Mr. Bardin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. I certainly appreciate your testimony 
today. I apologize because I was negligent in not telling you 
about the 5-minute limitation before we started.
    Mr. Bardin. Well, Mack had warned me. I apologize for 
exceeding.
    Mr. Joyce. Madam Chair, do you have any questions.
    Ms. McCollum. I do, but I can yield to you.
    Mr. Joyce. I always yield to the lady.
    Ms. McCollum. Thank you both for your testimony, and I have 
got it all marked up and we will follow up. But I have a couple 
of questions on the mapping because some of the things that you 
two gentlemen talked about are also occurring in other 
committees with mapping and you mentioned the Air Force.
    I am on the DOD's appropriation subcommittee, so I am going 
to find out. I will talk to the Air Force about what is going 
on with that and this committee will look into it because we 
have to be frugal with every penny. So if there some way we can 
use open source information and make sure that it is shared, we 
are going to make sure that that happens. But you raised a good 
point about making sure that NOAA has the information it needs, 
NOAA is not under the jurisdiction of this subcommittee, we 
would need to talk to our Subcommittee on Commerce, Justice, 
and Science.
    I would like to talk about the LIDAR data for a second. You 
were very brave to hold up a map basically showing Mr. Joyce 
and I having nothing been scanned. So Ohio and Minnesota are 
big blanks on there. I am not going to count the Red River 
Valley because I looked very carefully. It was more in the 
Fargo area. So that kind of leads me to just a general question 
about, there were decisions that were made that all of Alaska 
has been mapped, and that other states have been mapped.
    You don't have to tell us why our States are blank. Maybe 
they are just perfect and they don't need to be mapped. But how 
are decisions being made? And I know there are other 
technologies out there kind of doing 3D. Can we get all the 
mapping done with another technology and then does LIDAR have 
something a little more unique where we need to pinpoint it and 
use it in certain occasions? But for getting the overall 
mapping done, are there other technologies that are out there.
    Mr. Palatiello. First of all, great credit has to go to 
USGS that when they launched this program they developed an 
executive committee across the Federal government. And so there 
is participation from other agencies. Additionally, each year 
they go out with a broad agency announcement, a BAA, and it is 
basically an invitation for State and local government, other 
interested parties and stakeholders, to submit proposals for 
cost sharing and cooperative mapping.
    When those requirements come in from the other agencies, 
from the State and local partners, that establishes the 
priorities. So I don't know whether Minnesota or Ohio have 
submitted proposals under the BAA, but what this map shows is 
the progress of work based on that cooperative, strategic 
approach and the input from the different constituent and 
participating agencies.
    Ms. McCollum. So the Department of Agriculture and others, 
and we need to find out how much of the bill that they are 
footing versus what we are footing on there, because you and I 
both know we have a lot of pressures on the few dollars that we 
do have. So LIDAR is done by plane. There are satellites. What 
is the difference in costs between the two?
    Mr. Palatiello. There is always a tradeoff between the 
scale and resolution of the mapping and the altitude of the 
sensor that you are using. So LIDAR is much more effective than 
satellite imagery because you can get at a much higher 
resolution much better scale of mapping. And what the 3DEP 
Program did when USGS started to investigate this is they, 
again, reached out to the stakeholders and said what is the 
common denominator of data quality of scale and resolution that 
would meet the greatest number of users and requirements. And 
those were the standards that they established for 3DEP.
    There is a different sensor called IFSAR that is used for 
Alaska, and that is because of the terrain and the weather and 
the difficulty in capturing that kind of data. So the IFSAR is 
flown at a much higher altitude, but that is the only 
exception. The rest of the country, the goal is a very 
consistent data set across the entirety of the country.
    So when you look at conventional photogrammetry, which is 
mapping from aerial photographs, when you look at remote 
sensing satellite imagery, when you look at all of the 
different types of sensors and type of mapping that can be 
done, the conclusion that USGS and its partners came to was 
LIDAR at a consistent standard is the optimal solution for the 
country.
    Ms. McCollum. Thank you. Mr. Joyce, I think what I would 
like to do is, talk to USGS and figure out what we need for our 
committee, and being partners with other agencies, but that 
everybody is contributing to it. Because the increases that are 
talking about being needed, we need to make sure we are getting 
the biggest bang out of that dollar for our committee, and that 
we are not, you know, helping out others.
    And I also think we need to bring in the DOD with USGS and 
see if there is a blend. And I am going to be asking them how 
much the cost of LIDAR is producing on a square-mile basis 
versus some of these others, to hone down. I am not saying 
LIDAR is not valuable, but we need to hone down and make sure 
that this committee's funding for what we are getting out of 
it, and that the other committees, whether it be FEMA or the 
rest, that they are paying their fair share. So thank you.
    Mr. Palatiello. Any help that you can lend towards our goal 
is the GS number of $146 million. Obviously if you can fund the 
entirety of that in your bill, we would be delighted. But if we 
can get $146 million with contributions from different 
agencies, we would be happy with that as well, too.
    Ms. McCollum. Well, there was discussion when I was first 
on this committee of taking some of it totally out. So I want 
to make sure that we are cost effective in getting the mapping 
that USGS needs. So thank you, Mr. Chair--excuse me--Mr. Joyce. 
[Laughter.]
    Mr. Joyce. The longer I sit here, the more I am rising in 
this committee.
    Ms. McCollum. Yeah. [Laughter.]
    Mr. Joyce. Thank you all.
    Ms. McCollum. Well, since it is public information, it is 
all co-equal.
    Mr. Joyce. Thank you all for the opportunity to listen to 
the things that you have to say and to hear from you directly 
about the resources necessary to continue to do the great work 
you are doing. Thank you.
    Mr. Bardin. Can you indulge just one half minute?
    Ms. McCollum. We were supposed to be done, and we have 
another panel. Thank you very much, though, sir.
    Mr. Bardin. Thank you very much.
    Ms. McCollum. If Mr. Cassidy for the National Trust for 
Historic Prevention, Jim Lightenhizer.
    Mr. Joyce. Lighthizer.
    Ms. McCollum. Lighthizer. Boy, you have got that down, Mr. 
Joyce, from your district. [Laughter.]
    American Battlefield Trust, and Sara Capen from the 
National Alliance of National Heritage Areas. So we will first 
hear from the National Trust for Historic Preservation. If you 
would introduce yourself for the record, please.
                              ----------                             


                                        Tuesday, February 26, 2019.

               NATIONAL TRUST FOR HISTORICAL PRESERVATION


                                WITNESS

TOM CASSIDY, VICE PRESIDENT FOR GOVERNMENT RELATIONS, NATIONAL TRUST 
    FOR HISTORICAL PRESERVATION
    Mr. Cassidy. Thank you, Chair McCollum, also Ranking Member 
Joyce.
    Ms. McCollum. Microphone on?
    Mr. Cassidy. Yes, now it is red. OK. Chair McCollum, 
Ranking Member Joyce, members of the subcommittee, I appreciate 
the opportunity to present the National Trust for Historic 
Preservation's recommendation for fiscal year 2020 
appropriations. My name is Tom Cassidy. I am the vice president 
of government relations. The National Trust is a privately-
funded nonprofit organization chartered by Congress in 1949.
    The most important words that I can convey to the 
subcommittee are thank you. In recent years, the subcommittee 
has made significant investments in key programs that bring our 
shared history to life, and also investments that ensure the 
story of all Americans are told. I will focus on only a few 
programs addressed in my testimony.
    First, the Historic Prevention is the principal source of 
funding to implement the Nation's historic preservation 
program. The Trust is enormously appreciative of last year's 
historic funding level of $102.6 million. The remarkable growth 
in HPF funding over recent years has largely been because of 
increase in competitive grant programs. And thank you, Chair 
McCollum, for your leadership in reviving the Save America's 
Treasures Program.
    I would also like to draw attention to three other HPF 
programs. The first is the smallest. We are recommending a 
million dollars for competitive grants for the survey and 
nomination of properties associated with communities that are 
currently under represented on the National Register and the 
National Historic Landmarks. The committees began funding this 
program in fiscal year 2015 at a half million dollars a year 
when less than 8 percent of National Register and NHLs included 
communities considered under represented, including African-
American, Latino, Native Americans, and women.
    The program has been successful. For example, in fiscal 
year 2015, the Minnesota Historic Society received a grant for 
$60,000 to expand the stories told at Fort Snelling, to include 
not only military history, but also significant stories about 
Native Americans, African-Americans, and Japanese-Americans, 
including the enslavement of Dred Scott to an Army officer back 
in the 1830s.
    Second, working with Congressman Clyburn and Congresswoman 
Terri Sewell, we are recommending an enhancement and expansion 
of the successful African-American Civil Rights Program, which 
was funded at $14 and a half million, to an expanded under 
represented Community Civil Rights Program funded at $30 
million, to ensure that we have grants important to civil 
rights for all Americans. And the third would be a new $5 
million program of competitive grants to State and tribal 
historic preservation officers to invest in 21st century GIS 
mapping and digitization of historic resources.
    As we see a tsunami of pressure rising to promote 
infrastructure, such an investment would improve the 
identification of historic resources at the very earliest 
stages of project planning, leading both to the protection of 
historic sites and also promoting more efficient delivery of 
infrastructure projects.
    We are also enormously appreciative of the committee's 
commitment to the deferred maintenance needs of the National 
Park Service, including the repair and rehabilitation and 
cyclic maintenance programs. In 2019, these two accounts 
received $110 million over fiscal year 2015 levels, an increase 
of 62 percent. We urge the committee to continue these 
investments, just as we also work to secure a dedicated funding 
source as provided in the bipartisan Restore Our Parks and 
Public Lands Act. We are grateful for the introduction of this 
by Representatives Kilmer and Bishop and the co-sponsorship of 
the chair and other members of the subcommittee.
    It also related to mapping actually, and in part because if 
you don't map it, you can't save it. And we recommend $20 
million for the Bureau of Land Management's Cultural Resource 
Management Program, an increase of $3 million over enacted 
levels. The BLM oversees, it is nowhere near Minnesota nor 
Ohio, but it oversees the largest, most diverse and, 
importantly, scientifically important collection of historic 
and cultural resources on Federal lands. Increased funding 
would also support updated predictive modeling and data 
analysis to increase the BLM's ability to have large-scale 
planning.
    And if I had another 50 seconds, I would say believe 
whatever this man says. I used to vote for him and fund his 
requests.
    [The statement of Mr. Cassidy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Lighthizer. That is pretty good.
    Ms. McCollum. Happy to have you here today, sir, to talk 
about the American Battlefield Trust.
    Mr. Lighthizer. Thank you, Madam Chair.
                              ----------                           


                                        Tuesday, February 26, 2019.

                       AMERICAN BATTLEFIELD TRUST


                                WITNESS

JIM LIGHTHIZER, PRESIDENT, AMERICAN BATTLEFIELD TRUST
    Mr. Lighthizer. Madam Chair and Ranking Member Joyce, a 
University of Dayton graduate, I might add. We went to the same 
school about 60 years apart. [Laughter.]
    But he got rich and famous. Anyway, I am president of the 
American Battlefield Trust, and it is an honor to be here and a 
pleasure.
    Just two messages. One is thank you. Starting in 1998, the 
United States Congress made a decision that an earmark, now and 
authorized program, to fund the Battlefield Land Acquisition 
Grant Program. And what is, it is authorized at $10 million, 
and in the last 4 years have funded it at $10 million. It 
authorizes the purchase of Civil War, Revolutionary War, and 
War of 1812 battlefield acquisition by way of a Federal dollar 
has to be matched by a dollar someplace else, usually the 
private sector. It has been an incredibly efficient program.
    I cannot think of another one as far as land acquisition 
goes where the Federal government gets a bigger bang for their 
buck because every Federal dollar has to be matched by a 
dollar, and it usually ends up being $2, $3, $4. The land that 
is saved, acquired, does not become the property of the United 
States government, so you don't have to maintain it. So there 
is another bonus to it. It is strictly from willing sellers. It 
is a competitive program. It is administered by the National 
Park Service, and it is allowed us to save over 32,000 acres of 
American heritage.
    And if you buy the idea that place-based teaching is 
important, specifically going to taking to the places where 
American history was created, where this country was created 
and defined, it has been a remarkable program. And so I thank 
you for the wisdom the Congress has shown in funding it as much 
as they have over the years, and respectfully ask you consider 
full funding this time as you have the last 4 years.
    [The statement of Mr. Lighthizer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Ms. Capen from the Alliance of the 
National Heritage Areas.
                              ----------                             


                                        Tuesday, February 26, 2019.

                THE ALLIANCE OF NATIONAL HERITAGE AREAS


                                WITNESS

SARA CAPEN, CHAIR, THE ALLIANCE OF NATIONAL HERITAGE AREAS
    Ms. Capen. Good morning. My name is Sara Capen. I am the 
director of the Niagara Falls National Heritage Area and the 
chair of the Alliance of National Heritage Areas, which is an 
organization that represents the vast majority of authorized 
National Heritage Areas.
    National Heritage Areas are funded through the National 
Recreation and Preservation account, and represent considerably 
less than 1 percent of the total National Park Service budget. 
I would like to begin by just thanking this committee for 
supporting the National Heritage Area Program for the past 
several years.
    The National Heritage Area Program is one of the Department 
of Interior's most cost-effective initiatives, and relying on a 
public-private partnership in which every Federal dollar is 
matched with an average of $5.50 in other public and private 
funding, very similar to my colleague next to me. Often that 
match to the Federal investment comes from the contributions of 
volunteers who commit their time and expertise within 
individual National Heritage Areas to support our programs, 
maintain trails, and assist with community conservation 
projects.
    In 2017 alone, National Heritage Areas benefitted from over 
38,000 volunteers, contributing over 800,000 hours for heritage 
area projects, which was roughly a $19 million value.
    We are designated by Congress. National Heritage Areas are 
lived-in landscapes that tell nationally-important stories that 
honor our Nation's diverse heritage through shared resources, 
partnerships, and direct community involvement. National 
Heritage Areas are catalysts in our communities. They are 
located in vulnerable communities who have suffered economic 
setbacks due to declining industries. Utilizing a grassroots, 
community-driven approach, NHAs work with these communities to 
build a new economic platform based on heritage tourism and 
outdoor recreation that revitalizes the economy and instills 
pride for the people who live there.
    What makes National Heritage Areas different from other 
programs is that people and partners who live within NHAs are 
the key participants in the decision-making process. We work 
directly with the people who live in the communities. National 
Heritage Areas have direct impact and involvement with 
communities like Akron, Ohio and Muscle Shoals, Alabama, 
bringing the National Park Service mission out from behind the 
enclaves of Federal lands, and directly to the people. Few 
Federal programs epitomize the democratic principles our Nation 
was built on like National Heritage Areas. National Heritage 
Areas truly are of the people, by the people, and for the 
people.
    In addition to fostering collaboration within National 
Heritage Areas, National Heritage Areas often collaborate with 
each other to address shared history or collaborative landscape 
conservation, and we work with our partners who are at the 
table today. An example of this is the participation by a 
majority of National Heritage Areas in Operation Pollination, 
which actually began in the Midwest, which works with 
volunteers, schools, and partners in our communities to address 
declining pollinator populations through pledged supports that 
raise awareness, commitment, and engagement to the issue. The 
result of this multi-regional collaboration will be focused 
attention on the pollinator crisis in hundreds of communities 
across the United States.
    While the Heritage Area Program currently models the type 
of efficiency we need to see in more Federal programs, we 
believe it can be modernized to better ensure long-term 
sustainability and savings. As the attached chart demonstrates, 
funding levels have not kept pace with the growth and 
popularity of the program, and the chart explains it all right 
there. So while we increased by a hundred percent, our funding 
has not. It has actually been less than 50 percent. This has 
resulted in significant underfunding of the program to 
individual National Heritage Areas. It should be noted that 
just recently the Senate passed S. 47, which added six new 
National Heritage Areas, and this is going to further 
exacerbate an already underfunded program.
    To bring appropriations into alignment with the number of 
congressionally-authorized National Heritage Areas, we are just 
respectfully requesting an increase in funding to $32 million. 
In closing, I hope that this committee will further support our 
great work that we are doing in communities across the United 
States.
    [The statement of Ms. Capen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you all for 
being here today and for what you do. I certainly appreciate my 
fellow Dayton Flyers and the work that he has done as well, as 
a constituent. I want to thank you for being here, Ms. Capen. 
The Ohio and Erie Canalway National Heritage Area helps 
preserve the trails and towns that sprung up along the Ohio and 
Erie Canal in the 19th and 20th centuries, promotes outdoor 
recreation, and supports local jobs and economic opportunities 
in northern Ohio.
    Since receiving its national heritage area designation in 
1996, the Ohio and Erie Canalway has leveraged more than $350 
million in Federal, State, local, and private investments. 
Those of us in Congress should promote public-private 
initiatives like the National Heritage Area Program, and I will 
continue to work with my colleagues to support this program. I 
appreciate you testifying before this subcommittee today. I 
yield back, Madam Chair.
    Ms. Capen. Thank you.
    Ms. McCollum. Thank you. I know there has been a lot of 
interest about doing a heritage trail on the St. Croix. We need 
a little more interest in Wisconsin, so anything you can do to 
help us out with that would be great. Mr. Cassidy, your 
testimony at the end just kind of took everything and brought 
it together from national parks to just everything, deferred 
maintenance of a lot of things that we will be talking about 
more in this committee. But I would like you to touch on just 
for a minute on the international component----
    Mr. Cassidy. Yes.
    Ms. McCollum [continuing]. And why that is important, why 
this committee should be paying attention to it. If you would, 
please.
    Mr. Cassidy. So world heritage sites are sites around the 
planet that recognize--I am coming into my memory--sites of 
universal human value. Many of them are natural. Others are 
historic, such as Independence Hall, Monticello, Statue of 
Liberty. And the National Park Service Office of International 
Affairs funds the U.S. participation in this program. We were 
one of the leaders initially when it was stated.
    So right now there are nominations moving forward that the 
Park Service should be shepherding for World Heritage 
designations that would support such things as Frank Lloyd 
Wright homes, or civil rights, or Hopewell cultural Indian 
mounds in the Ohio River Valley. So the Administration has 
proposed very drastic cuts to this program last year. The 
committee rejected that, and we would hope that you do that 
again this year.
    Ms. McCollum. Thank you. Well, thank you very much, and 
thank you for being so patient and waiting because we were 
running late. So thank you all very much for your testimony.
    Mr. Joyce, the subcommittee is adjourned, and with that, I 
thank everyone.
                                        Tuesday, February 26, 2019.

                           AFTERNOON SESSION

                              ----------                              


                        PUBLIC LANDS FOUNDATION

                                WITNESS

EDWARD W. SHEPARD, PRESIDENT, PUBLIC LANDS FOUNDATION
    Ms. McCollum [presiding]. Good afternoon, and welcome back 
to our second public witness hearing covering non-tribal 
governmental programs under the jurisdiction of the Interior, 
Environment Appropriations Subcommittee. This morning we have 
heard great testimony, I just have to say, from a number of 
advocates for the arts and the humanities. We discussed some 
real critical environmental issues that are facing our Nation. 
So this afternoon we are going to change our focus a little bit 
on issues related to our public lands, and we will be hearing 
from the remaining 20 witnesses.
    Before I begin, I want to touch briefly on hearing 
logistics. We have bills up on the floor. We have other 
committees meeting, both appropriations and policy committees, 
which our members are coming in and out of. Everybody has your 
full testimony available to them. Mine is marked up with lots 
of great notes on it, so no disrespect is to be felt at all by 
people coming in and out.
    What I will do is I will call each panel up. We have our 
first panel already up here. And each witness will have 5 
minutes to present their testimony. Now, we are going to use a 
timer in order to be fair, and when the light turns yellow, it 
means you have 1 minute remaining and you should be concluding 
your remarks. When the light blinks red, one of us will gently 
tap the gavel and ask the witness to conclude their remarks so 
the next witness can begin. And as I said, 5 minutes goes 
really fast, but we have your full testimony loaded with lots 
of notes, and we know how to get back to you if we have any 
questions.
    There is very likely going to be votes called during the 
hearing, so we will take a brief recess for members to vote. 
And I hear, Mr. Joyce, it might be up to four votes in this 
series.
    Mr. Joyce. Wow.
    Ms. McCollum. Yeah. So let's hope not a lot of votes are 
asked for right away. We are going to come right back and we 
will pick up where we left off. But I would ask witnesses to 
stay close to the hearing rooms during the rest of these votes, 
and we have two able-bodied staff members if you need to know 
where to go for a quick cup of coffee that won't take you too 
far off the beaten path. They are very happy to help you with 
that.
    I would like to remind people here in the hearing room that 
the committee rules prohibit the use of cameras and audio 
equipment during the hearing by individuals without House-
issued press credentials. And with that, I would like to turn 
to my dear friend, Mr. Joyce, for any remarks he would like to 
make.
    Mr. Joyce. Thank you, Madam Chair. I would just like to 
reiterate what I said this morning. I look forward to working 
with you during the fiscal year 2020 appropriations process to 
evaluate the effectiveness of the programs discussed today and 
make those difficult, but necessary, choices among competing 
priorities in the Interior bill. I yield back.
    Ms. McCollum. OK. And with that, we will start on our 
testimony right away. We will start with Mr. Shepard, and if 
you would introduce yourself.
    Mr. Shepard. Thank you. Chairman McCollum, Ranking Member 
Joyce, my name is Ed Shepard, and I am president of the Public 
Lands Foundation. The PLF is a national nonprofit organization 
comprised principally of retired BLM employees. Collectively, 
our members have thousands of years of experience, expertise, 
and knowledge in public land management. We don't know what 
priorities are included in the President's budget for 2020, so 
our statement represents the priorities of the Public Lands 
Foundation.
    PLF supports BLM and its programs, but we are independent 
in our views and requests. The BLM manages the most diverse 
landscapes in the Nation's portfolio, providing stewardship to 
approximately 247 million acres of surface land, 700 million 
acres of mineral estate. And these lands provide many social, 
ecological, economic benefits to the people of the United 
States. Economically, the country as a whole received revenues 
in excess of $96 billion and 468,000 jobs in 2017. These lands 
are vital to the rural communities throughout the West that 
these lands are intermixed with.
    PLF believes the BLM budget should prioritize programs, 
provide for a healthy, resilient landscape, conservation of 
species dependent on diverse habitats the BLM manages, economic 
benefits to the Nation of rural communities dependent on BLM-
managed lands, all forms of energy production and associated 
transmission infrastructure, and the safety of the public and 
the communities these lands surround, including fire management 
and active forest and rangeland management to reduce fire risk 
and its severity.
    PLF is supportive of budget requests that support the 
sustainable and balanced development of traditional and 
renewable energies, including solar, wind, and geothermal, 
sometimes referred to as all-of-the-above energy development. 
Adequate funding should be provided to do the necessary land 
use planning, NEPA reviews, and inspections and compliance 
monitoring.
    Another priority of PLF is the management of diverse 
habitats that BLM manages to provide for the conservation of 
species. The sage brush steppe habitat is one of special 
concern. This particular habitat covers wide swathes of BLM-
managed lands across several States that is home to the greater 
sage grouse. This species has seen a population decline as the 
use of public land has increased and habitat alteration from 
wildfire and development has increased.
    The BLM, in conjunction with other Federal agencies, has 
worked with the affected State wildlife agencies to develop 
plans to conserve the sage grouse and its habitat, and PLF 
recommends that significant funding be provided to BLM to 
continue to work in lockstep with State agencies. This work 
will help reverse some of the losses from wildfire, weed 
invasion, and development. The work will benefit not only sage 
grouse, but hundreds of other species. It will also help to 
maintain vibrant ranching communities dependent on these lands 
and a thriving and growing outdoor recreation economy.
    Another area of concern is over population of wild horses 
and burros. Population on the range is past the critical point, 
and it is doing irreparable harm to the land, vegetation, and 
water resources, wildlife, livestock, and horses and burros 
themselves. And the problems and the damage continues to grow. 
The PLF has been working as part of a broad coalition of 
diverse stakeholders looking for solutions, and we are 
cautiously optimistic that a long-term, non-lethal solution can 
be found, but it is going to take a significant investment.
    This past summer and fall, we all watched the terrifying 
and deadly wildfires in California and across the West. The 
loss of life and the damage to property and resources is 
unbelievable, and all studies seem to point to a continuation 
of this problem and a need for action. There are many 
communities across the West that are potentially the next 
Paradise.
    More aggressive active forest and rangeland management and 
fuel reduction work needs to be done to address this. The 
President and Secretary of Interior issued orders to do this, 
and we are hoping that they will be included in the budget, but 
we are asking that this subcommittee do what it can to help 
fund those priorities.
    We appreciate the hard choices that the subcommittee has to 
make. Everybody wants money to solve a lot of challenges that 
need to be faced that take a lot of funds, and we are 
appreciative of your work. But these public lands are a good 
investment, and we are hoping that you will consider those 
because they are the lifeblood of the communities and provide a 
lot of economic development to the country and to the local 
counties in the West.
    With that, I will be glad to answer any questions when you 
are finished with the panel. Thank you.
    [The statement of Mr. Shepard follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Baker, the Society of American 
Foresters.
                              ----------                              

                                        Tuesday, February 26, 2019.

                     SOCIETY OF AMERICAN FORESTERS


                                WITNESS

TERRY T. BAKER, CEO, SOCIETY OF AMERICAN FORESTERS
    Mr. Baker. Good afternoon, Chairwoman McCollum and Ranking 
Member Joyce. The more than 11,000 professional members of the 
Society of American Foresters appreciate this opportunity to 
share the Society's fiscal year 2020 priorities with you today. 
As a former Federal employee who has recently accepted the SAF 
CEO role in addition to being excited to be here with you 
today, I have direct experience working to promote forest 
resilience on our Nation's Federal lands.
    Challenges exist, but if agencies are given the tools to 
have the capacity for targeted investments that yield a 
sustained return on investment, improvement opportunities 
abound. Funded by Gifford Pinchot in 1900, SAF is the premiere 
scientific and educational organization in the United States, 
promoting scientific-based sustainable management and 
stewardship of the Nation's public and private forests.
    SAF always has more interest than may fit in 4 pages of 
written testimony or 5 minutes before you today, but here are 
the Society's fiscal year 2020 emphasis areas. Number one, 
increase USFS forest and rangeland research to no less than 
$310 million, with no less than $83 million for forest 
inventory and analysis. Number two, increase pace and scale of 
Federal forest management to improve forest health and reduce 
wildfire risks. Number three, maintain funding for USFS State 
and private forestry programs at or above the fiscal year 2019 
funding levels. And number four, fund the Bureau of Land 
Management public domain forestry and Oregon and California 
railroad grant lands at no less than $10 and $113 million, 
respectively.
    In research, targeted Federal investments leveraged through 
partnerships with universities and private/public consortiums 
are critical to the future of forest health and sustainability. 
Without this investment and USFS leadership, these needs would 
not be fulfilled. Continuing the trend or reduced USFS R&D 
budgets will result in knowledge gaps, missed opportunities, 
poor management of resources at a time of unprecedented threat 
from wildfire, drought, insects, disease, and invasive species, 
as well as the U.S. ceding its position as a leader in forestry 
research. SAF supports a funding level of $310 million for the 
USFS R&D, with emphasis on prioritization of research projects 
uniquely suited to R&D expertise, furthering Agency and partner 
objectives.
    In regard to forest health and resilience, SAF supports 
continuous commitment to increasing the pace and scale of 
management on Federal lands by setting aggressive, but 
reasonable, targets for harvest, reforestation, risk 
mitigation, and infrastructure improvements. SAF urges this 
subcommittee to encourage use of all tools to meet and outpace 
forest plan goals.
    SAF is encouraged by the progress of the environmental 
assessment and decision-making effort to streamline processes, 
to improve forest and community resilience. We ask the 
subcommittee to support this effort and insist on continued 
focused on finding and implementing efficiencies.
    In regards to State and private forestry, the urban and 
community forestry, landscape scale restoration, forest 
stewardship, and forest health management programs provide 
important technical and financial assistance to private 
landowners and the resources managers responsible for managing 
more than 60 percent of America's forests. Cutting funding for 
these programs would have profound adverse impacts on 
communities, particularly rural communities, and will 
jeopardize the benefit forest offer to all citizens of this 
Nation. SAF recommends that these programs be at least 
maintained at the fiscal year 2019 funding level of $337 
million.
    In regards to support of the Bureau of Land Management, 
public domain forestry, and Oregon and California railroad 
grant lands, SAF also asks this committee to extend the Forest 
Ecosystem Health and Recovery Fund authorization beyond 2020, 
and asks the subcommittee to also expand the 3,000 acre insect 
and disease categorical exclusion through designation of the 
Interior Secretary in coordination with the States to the BLM. 
SAF supports $10 million for the Public Domain Forestry Program 
and also the ONC Program.
    Finally, for healthy forests to thrive, we need trained 
professionals present to perform duties. A commitment to 
consistency and budget and appropriations cycles would be a 
tremendous help in securing that. Breaking the pattern of 
unresolved funding bills and continuing resolutions would 
improve the certainty resource managers need to meet the goals 
set before them. They can better plan for the field seasons, 
provide necessary direction and resource deployment to address 
critical needs.
    In previous spending bills, Congresswoman McCollum and 
others have advocated for inclusion and reported language 
recognizing the importance of participation of professional 
societies for employee development. We appeal to this 
subcommittee to consider adding similar language in the 2020 
bill.
    [The statement of Mr. Baker follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you.
    Mr. Baker. Thank you.
    Ms. McCollum. OK. So you tell me how to say your name, and 
then I will say it correctly.
    Mr. Imbergamo. Imbergamo.
    Ms. McCollum. Imbergamo, that is just like it looks.
    Mr. Imbergamo. Just like it looks which you wouldn't 
believe what it looks like to some people.
    Ms. McCollum. Good to meet you, Mr. Imbergamo.
    Mr. Imbergamo. Thank you.
    Ms. McCollum. Thank you.
                              ----------                              

                                        Tuesday, February 26, 2019.

                   FEDERAL FOREST RESOURCE COALITION


                                WITNESS

BILL IMBERGAMO, EXECUTIVE DIRECTOR, FEDERAL FOREST RESOURCE COALITION
    Mr. Imbergamo. Thank you, Madam Chairwoman and Ranking 
Member Joyce. My name is Bill Imbergamo. I am with the Federal 
Force Resource Coalition, on behalf of my member companies and 
our partners around the country who rely on the Forest Service 
and BLM lands for our livelihoods, recreation, and water 
supplies, I want to thank the subcommittee for your leadership 
in addressing the challenges that face these important lands.
    My members purchase, harvest, and process national forest 
and BLM timber into products Americans use every day from 
lumber, to paper, to biomass energy. And in addition to 
supporting this budget, this subcommittee had displayed 
leadership on such issues as expansion of stewardship 
contracting and acting on the critically important fire 
borrowing fix as part of last year's omnibus bill, as well as 
fixes to the Good Neighbor Program and others.
    These provisions have all given the Forest Service many, 
but not all, of the tools it needs to increase the pace and 
scale of forest management and engage in shared stewardship on 
our national forests. Today we implore this subcommittee to 
continue exercising leadership on the two issues that can do 
the most to improve the health and vibrancy of our national 
forests and the communities that rely on them.
    First, as some of my colleagues here have referred to, 
stable and timely appropriations are paramount to effective 
management of our public lands. Simply put, managing a $6 
billion a year enterprise requires a thoughtful investment 
approach. Forest products companies plan and execute investment 
strategies over dozens of years, and those amortization 
schedules cover additional decades. Managing the national 
forest and BLM lands requires at least that much foresight.
    And while this subcommittee, and indeed this House, has 
routinely completed its appropriations bills in a timely 
fashion, ultimately the appropriations process has bogged down, 
delaying final allocation of the budget to the field. In the 
last decade, the Forest Service has been funded by more than 50 
different funding measures, including continuing resolutions, 
omnibus bills, and full-year CRs. In 4 of the last 10 years, 
the final spending bill hasn't been adopted until at least 
midway through the Federal fiscal year.
    This approach has not yielded savings to the taxpayer, nor 
has it helped increase forest management. It should go without 
but for the sake of better forest management, Congress should 
adopt timely appropriations bills by the start of a new Federal 
fiscal year. Weeks or day-long CRs and shutdowns interrupt the 
normal course of business as well as efforts to craft rules and 
guidance for the very laws this Congress enacts. And we want to 
do everything we can to help you return to regular order. Doing 
so will help the Forest Service plan and execute long-term 
forest management projects.
    Second, you can help rebuild the rural infrastructure 
needed to effectively manage our forests as well as provide 
access for recreation and firefighting. By beginning to restore 
the capital improvement and maintenance budget, you can go a 
long way towards this goal. Funding to maintain, repair, and 
replace aging roads has largely been flat since the 2013 
sequester. Without the consolidation of the legacy roads and 
trails line item in the fiscal year 2019 fiscal year, current 
road funding would sit at about $178 million, or 21 percent, 
below the unadjusted figure from a decade ago.
    Failure to adequately fund roads leaves forests less 
accessible and leaves forest values, including water quality, 
at increased risk. My industry largely built the road system on 
a national forest when the forest held a much larger timber 
sale program. Even if they were double from where they are now, 
that would still leave a significant unmet need for 
construction and maintenance. We are seeking a 9 percent boost 
in funding for the roads line item, and we hope that Congress 
will include Forest Service roads as part of a rural 
infrastructure package if and when an infrastructure bill moves 
through this Congress.
    We also urge you to adopt a 4.6 percent increase in the 
timber program budget with a goal of a $4 billion board foot 
timber sale program. NFS timber is vital to my members' 
competitiveness and their ability to create jobs in our rural 
communities, including some in your home State of Minnesota. 
Congress should be aware that current forest plans contemplate 
a timber sale program more than double the current level, and 
my members all report to me that they are pressed for wood. 
That demand can help pay for needed management and restoration 
across much of the national forest system.
    Lastly, we appreciate this House taking action to repay the 
over $700 million in fire borrowing that took place during 
fiscal year 2018, and we impress on your colleagues in the 
other chamber to follow suit.
    In conclusion, we appreciate the support the subcommittee 
has provided to the Forest Service, and my members are willing 
and able to compete for the increased timber outputs from that 
Agency and the BLM. This competition can help the Forest 
Service meet important land management challenges. Thank you.
    [The statement of Mr. Imbergamo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Ms. Murdoch, American Forests.
                              ----------                          


                                        Tuesday, February 26, 2019.

                            AMERICAN FORESTS


                                WITNESS

ALEXANDRA MURDOCH, VICE PRESIDENT OF POLICY, AMERICAN FORESTS
    Ms. Murdoch. Thank you. Chairwoman McCollum, Ranking Member 
Joyce, members of the subcommittee, thank you for the 
opportunity to be here today. My name is Alex Murdoch, and I am 
the vice president of policy for American Forests.
    American Forests was established at a pivotal time in the 
Nation's history, barely 10 years after the Civil War, during a 
period of tremendous development and industrial expansion. 
Forests were being cut down at an alarming rate to make way for 
new farms, towns, and railways, and timber barons were 
exploiting what seemed like an inexhaustible resource. Since 
that time, we have advocated for using science to manage and 
conserve our forest lands so they will be with us and work for 
us for generations. We help developed the U.S. Forest Service 
and the national forest system.
    We have funded over 1,000 forest restoration projects 
across the country. We have planted nearly 60 million trees, 
and we have expanded the tree canopy in dozens of major cities 
and urban areas. And we sincerely thank the committee for the 
fiscal year 2019 funding levels which provide the Forest 
Service with important tools and resources to manage all of our 
Nation's forests.
    Year after year, the Nation is witnessing loss and 
destruction from wildfire at levels we have never seen before. 
And our forests are struggling to adapt to a new normal of 
extremes: extreme drought, low humidity, high winds, shortened 
cold spells. And these extremes produce dramatic tree mortality 
and high-intensity wildfire in the West, and changing tree 
species composition and declining forest health in the East. To 
adapt forests to this new normal will often require more active 
forest management, including harvesting dead and dying trees, 
reforestation, reintroducing controlled fire, and other 
measures. More active forest management will require increased 
Federal and private investment and a level of effort sufficient 
to halt this crisis.
    Consider California's forests where over 147 million trees 
have died since 2010, with roughly 85 percent of those located 
in Sierra Nevada. The best hope for sustaining forests like 
those in the Sierra will be to thin areas with dead and 
declining trees while restoring more resilient forests and 
using controlled burns more frequently. But it is not only in 
western forests. In southeastern forests we see a changing 
mixture of tree species in response to prolonged drought, and 
in New England we see dangerous forest pests reaching farther 
north due to a changing climate.
    The fire funding fix was a critical step forward. It will 
free up Federal resources to support forest restoration on 
America's national forests. But to adapt forests to this new 
normal, we must do much more, yet Federal funding for forestry 
assistance programs has declined over the past 15 years. 
Adjusting for inflation, fiscal year 2018 funding levels were 
32 percent lower than fiscal year 2004 levels. So today we 
respectfully ask the committee to reverse this trend. In our 
written testimony we have identified six Forest Service 
programs and levels of funding we believe are critical to 
addressing this crisis.
    The Forest Service is a critical partner and steward of our 
Nation's forests, and if we act quickly and work together, we 
can help our forests adapt to the new normal, and then they 
will be with us and work for us for generations. Thank you.
    [The statement of Ms. Murdoch follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Well, I certainly appreciate all of your 
testimony today, and I agree with you. There is only a finite 
amount of resources we have here, but I am sure that we will 
allocate them effectively. Thank you. I yield back, Madam 
Chair.
    Ms. McCollum. Ms. Pingree.
    Ms. Pingree. Sorry. I came in late and missed some of your 
testimony, but I will look forward to reading it. And thank you 
for the work you are doing and certainly for highlighting the 
importance of sustainable forests and some of the challenges we 
have, wildfires and also you mentioned New England, invasive 
species and bugs that we don't want to see there anymore. That 
we don't want to see moving in. Thank you.
    Ms. McCollum. Mr. Amodei.
    Mr. Amodei. Thank you, Madam Chair. I am not a guy who says 
more money is the answer to everything, but I am also the guy 
who says I think the last resource administration was the Teddy 
Roosevelt Administration. So that is a very bipartisan 
criticism. [Laughter.]
    And I appreciate your testimony. It is confounding, 
especially in the part of the Nation that I am from where the 
Federal government is the majority landowner, that its 
stewardship of its estate and the resources there, and not all 
of them are forest lands, although thank you for mentioning the 
Sierra Nevada. And the chair has been there and the ranking 
member will get an up close and personal look at the Sierras 
this weekend. And the vice chair was supposed to come with the 
chair to visit the sage hen folks, but that is not in the 
forest. But anyhow, we will get that fixed up.
    Ms. McCollum. They don't show up. [Laughter.]
    Mr. Amodei. And I guess the most frustrating part is this. 
What we spend on natural resources as a part of the Federal 
budget is not extravagant or even a lot, and yet we continue to 
watch the funding trends go down. And so it is not like 
somebody is going to have to do without to even level that, God 
forbid, increase it. And the benefits paid in terms of 
relatively modest increases in the context of the Federal 
budget is, as you folks have pointed out, is phenomenal.
    And so I look forward, Madam Chair, under your leadership 
to seeing what we do about those agencies and giving them some 
money to do some serious management of the Federal estate and 
the private estates in the eastern part of the country. Thank 
you, and I yield back.
    Ms. McCollum. Thank you. Ms. Pingree and I both serve on 
the Agriculture subcommittee, and you have a lot more expertise 
in that than I do for your years of service. But one thing that 
has come up a lot in the testimony that you will see when you 
refresh it again is there is a lot of talk about some of the 
language that was in the recent ag bill that was passed, the 
policy bill. Maybe we can take a look and see if we can do some 
forestry work together on that jointly. So I look forward to, 
that is part of my learning curve now being on the Ag 
subcommittee, and one of the reasons I wanted to get on it was 
the interface between the Forest Service and being on both 
committees.
    I would like to just get a few thoughts from you on Forest 
resiliency and water quality. Sometimes people don't think of 
forests and waters going together. In northern Minnesota, we 
think of forests and waters around Voyager's National Park and 
around the Boundary Waters Canoe Area Wilderness, of going 
together. The Forest Service owns what is on top of the soil, 
but then we deal with another group below the soil. And so I 
think understanding the impact on that between water and the 
forest health and the quality of water is something we need to 
focus on more.
    But in the interest of time, I am going to narrow this down 
a little more and talk about climate change, or the new normal, 
or sea level rise, or whatever anybody wants to call it. We 
have to deal with what is in front of us. You mentioned forest 
pests. Fire has come up again. There was a startling map that 
was on one of the front sections of the Star Tribune paper in 
Minneapolis, Minnesota's paper. Pioneer Press is St. Paul's. 
But this was a big map of what Minnesota looks like now with 
our forests and what Minnesota could look like in 2050.
    We are no longer a forest State. So what are your 
organizations talking about, scientific information that is out 
there, what is radically going to change? I mean, we need to 
work on roads, I agree with that. There are lots of things we 
need to do, but if we don't get our research right on climate 
change and what it is doing with pests, and how we are watching 
the prairie come into Minnesota, what happens with our forests? 
Are there things that this committee should be looking at? If 
you could just give us one or two indicators of how much more 
money and research. We need to be addressing climate change? If 
you feel comfortable talking about it--I know some folks 
don't--and you might have a personal opinion, but you are here 
representing an organization. I will start with you.
    Ms. Murdoch. I will just point to in our testimony the 
Forest and Rangeland Research Program. There is an incredible 
amount of research being done now through the climate hubs and 
the other areas of the Forest Service where they have this data 
and this information for decision-making purposes. But using 
that data and plugging that into programs, we need the 
translation from theory to practice where we have enough assets 
within the Forest Service to begin to get practices on the 
lands they are following that are preparing forests for the 
future climates that they will be encountering.
    So it is this terrible feedback loop where if you have the 
data but you can't use it, you can't use it, and then you 
continue to see problems on the landscape that you can't plan 
for. And we would like to reverse that trend by making sure 
that the research line item is fully and strongly funded, and 
then there are also implementation funds available so that that 
data can be used.
    Ms. McCollum. Thank you.
    Mr. Imbergamo. We don't really touch on this in our 
testimony, but I can tell you that, you know, in other parts of 
the country that are more weight constrained, in a lot of cases 
the Forest Service has the most overstocked forest stands. And 
you have got 3 to 400 trees per acre and forests that are 
adapted to have 80 to a hundred trees per acre. And, you know, 
that is an artifact of past management decisions and aggressive 
fire suppression.
    And that what leads to in the case of forest fires, you 
know, pretty significant carbon emissions. I think we need 
better research on what those emissions actually amount to, and 
then we also need to help those communities prepare by getting 
those forests adapted, frankly, to the climate they evolved in 
and to the climate that they are going to face. A lot of water 
authorities in the West have already dealt with this where they 
knew they had an overstocked watershed. They were unable to get 
it managed, and then the watershed burned, and it cost the 
water authority and the rate payers a significant amount of 
money to try to repair all that damage.
    Ms. McCollum. Thank you. Mr. Baker.
    Mr. Baker. Sure thing. I think in our written testimony we 
go in depth about the importance of the research programs that 
are basically the foundation as the U.S. Forest Service R&D 
Program. Also the Forest Inventory Analysis Program, and I 
think both of those programs are critical to at least creating 
the baseline data that infer a lot of the questions that you 
brought forward.
    Having worked in the West and worked in Colorado recently 
where Mr. Imbergamo talked about the impacts to water 
companies, this is a reality. And I agree with you, it is one 
that is a big challenge. But the strong funding of research and 
the ability to at least have the baseline foundation. And 
through the forest inventory analysis, that actually gives us 
the ability to say where we are seeing changes. You know, are 
insects spreading, how fast are they spreading, you know, to at 
least create a timeline and a projection of how we can try to 
get in front of them and what are the tools that we can get in 
front of them with, or how prairies are moving into forested 
areas.
    So the dedication and funding at the levels we requested or 
even at higher levels would be significant in maintaining that 
work so that we can at least have the baseline data to get in 
front of some of these things.
    Ms. McCollum. Thank you. Mr. Shepard.
    Mr. Shepard. Building and maintaining resiliency in the 
forests really answers both the climate change and the water 
issues. As has already been spoken to, a resilient forest at 
the right species, at the right stocking levels releases a lot 
of water into the system, and also reduces the risk and the 
severity of wildfires when they do hit, and they are going to 
hit. We are not going to stop wildfires, but when they do 
strike we need to have an opportunity to manage those fires, to 
suppress those fires, and keep the damage on the ground the 
least amount possible, you know, and provide for the ecological 
needs of the forests out there. So resiliency is, I think, our 
forests need a number of things, climate change and water and 
air and carbon.
    Ms. McCollum. Mr. Shepard, just a quick follow-up on your 
written testimony. I don't where the situation lies right now 
with Acting Secretary Bernhardt's confirmation and moving 
forward. As we know, at one point Secretary Zinke was looking 
at doing a massive reorganization. In your testimony, if I am 
reading this right, only 3 percent--3 percent--of the workforce 
at BLM is in DC, and it kind of fluctuates in and out, going in 
and out. If you would talk about the DC workforce for a second 
to make sure that I understand it correctly. I have heard 
different things from different people.
    Mr. Shepard. The number is somewhere around 3 percent, and 
of course it changes almost daily. But primarily, the functions 
for BLM in the Washington office is budget, policy, oversight, 
working with the Hill, working with other stakeholders like 
folks at the table here. And those belong in the Washington 
area, in our view with the PLF. We don't support moving the 
organization west. We have most of the folks in the West now. 
The decision-making authority rests in the West.
    Ms. McCollum. OK.
    Mr. Shepard. And we need to maintain the structure we have 
here. That is not to say that some people couldn't be moved 
west, but for the majority, I think it ought to be left here.
    Ms. McCollum. Thank you. Thank you very much. OK. We will 
have the next panel come up.
    Mr. Joyce. Good afternoon. We appreciate your being here 
today. We will start and recognize Ms. Onley for 5 minutes.
                              ----------                             


                                        Tuesday, February 26, 2019.

                         THE NATURE CONSERVANCY


                                WITNESS

KAMERAN ONLEY, DIRECTOR OF GOVERNMENT RELATIONS, THE NATURE CONSERVANCY
    Ms. Onley. Thank you very much for the opportunity to 
submit recommendations for fiscal year 2020. My name is Kameran 
Onley, and I lead the U.S. government relations team for the 
Nature Conservancy.
    The Nature Conservancy is an international nonprofit 
conservation organization working around the world to protect 
ecologically-important lands and waters for nature and people. 
We would first like to thank those on the subcommittee who have 
worked with the Conservancy on policy initiatives and on-the-
ground efforts over the years.
    Chairwoman McCollum, you are a long-time champion of the 
Land and Water Conservation Fund, and we appreciate your 
advocacy for LWCF dollars to facilitate the buyout of State 
school trust lands in the Boundary Waters Canoe Area. Those 
purchases have helped make this iconic recreation area enjoyed 
by visitors from around the globe healthier, stronger, and 
whole.
    And just this past August, you, Ranking Member Joyce, 
visited our Grand River Conservation campus in Ohio. We are 
grateful for the time you took to see some of our work 
restoring habitat and improving water quality around Lake Erie, 
and to talk to us about the threats to the Great Lakes. These 
are just two examples of the many partnerships we have had with 
members of the subcommittee, partnerships that are essential to 
continuing the kind of conservation work our country needs, and 
we look forward to working with all of you in the years ahead.
    As we enter into this budget cycle and another year of 
challenging fiscal environment, our budget recommendations 
reflect a balanced approached and funding levels consistent 
with fiscal year 2018 and fiscal year 2019 funding levels. Our 
written testimony details our full budget recommendations, but 
I will highlight just a few examples of important opportunities 
for effective conservation investment.
    We are poised to celebrate the House's expected passage 
today of permanent reauthorization of the Land and Water 
Conservation Fund. This is a momentous achievement for the 
long-term preservation of our country's most pristine 
landscapes, and we thank those on the subcommittee for their 
steadfast support for the America's Best Conservation Program 
permanent.
    With LWCF's future secured, we must now look how to best 
fund it. The Conservancy supports $600 million in discretionary 
appropriations for LWCF's fiscal year 2020. The Land and Water 
Conservation Fund has strong bipartisan support, and we look 
forward to working with this subcommittee and the authorizing 
subcommittees to find a permanent funding solution for LWCF.
    We also strongly support funding for habitat and wildlife 
conservation programs, like the Cooperative Endangered Species 
Fund and State and tribal wildlife grants. These and other 
investments are essential to ensuring strategic action to 
prevent species from being listed as threatened or endangered. 
Notably, the Conservancy requests continued investment to 
restore and conserve sage grouse habitat and greater sage 
grouse across Federal, State, tribal, and private lands.
    We need these resources to implement on-the-ground projects 
and facilitate partnerships and science necessary for effective 
conservation. We hope that all our work together can avoid the 
need to list the sage grouse. We are also supporting funding 
practical innovative climate solutions to create an energy 
future that is cleaner, more secure, and gives consumers 
greater energy choice.
    Investing in nature brings strong returns for our security, 
the economy, and our communities and our families. The 
Conservancy is focused on supporting programs and investment 
that ensure economic and environmental benefits are enhanced 
today and made sustainable for tomorrow.
    I will close by thanking the subcommittee for its support 
of the fire funding fix in the omnibus appropriations bill last 
year. The passage of this much-needed funding solution means 
that dollars appropriated by the subcommittee can be used for 
their intended purposes and not to be drained to fight 
catastrophic wildfires in the upcoming fire season. Our forest 
management funding request seeks to reinvest savings resulting 
from a fire fix, which would reduce the future of wildfire 
risk. By investing in strategies, like the proactive hazardous 
fuels and restoration treatments, we can leave forests in a 
more natural condition resilient to wildfires.
    Again, thank you for the opportunity to submit the Nature 
Conservancy's recommendations for fiscal year 2020 
appropriations. Thank you.
    [The statement of Ms. Onley follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you, and I believe we had President Drake 
from Ohio State on that tour as well.
    Ms. Onley. Yes. We would love to take any of you to lots of 
great areas around the country.
    Mr. Joyce. And a bunch of OSU kids, too. They showed them 
the projects as well.
    Ms. Onley. Oh, nice. Nice. Good. Thank you.
    Mr. Joyce. So I appreciate it. Mr. Dinsmore, you have 5 
minutes.
                              ----------                             


                                        Tuesday, February 26, 2019.

                   MINNESOTA CONSERVATION FEDERATION


                                WITNESS

JASON DINSMORE, EXECUTIVE DIRECTOR, MINNESOTA CONSERVATION FEDERATION
    Mr. Dinsmore. Wonderful. Thank you. Madam Chair, Ranking 
Member Joyce, honorable members of the subcommittee, my name is 
Jason Dinsmore, and I am the executive director of Minnesota 
Conservation Federation. I am a resident of Rochester, 
Minnesota. I am also a licensed attorney, small business owner, 
husband, father of two wonderful boys, hunter, angler, camper, 
enthusiastic enjoyer of the out-of-the doors, and a public land 
owner.
    Ms. McCollum. Minnesotan.
    Mr. Dinsmore. And a Minnesotan, yes. [Laughter.]
    Not by birth, but by choice. Thank you for the opportunity 
to present this testimony in support of the Land and Water 
Conservation Fund in the fiscal year 2020 Interior 
appropriations bill. Few things are more important to the 
Nation's booming $412 billion outdoor recreation economy than 
publicly-accessible land and water. Without an easy way to 
reach the woods, waters, and wildlife, the 49 percent of the 
U.S. population that participates in outdoor recreation would 
be left uncertain where or when they would be able to swim in a 
lake, fly a kite in a local park, chase grouse in a national 
forest, or pursue their preferred way of connecting to the out-
of-doors. As a result, they simply will participate less.
    Our Nation's public lands ensure the democracy of hunting, 
fishing, trapping, and outdoor recreation. Everyone who wants 
to has a place to do so. Regardless of class, culture, 
socioeconomic status, or any other societal bucket you find 
yourself within, you have access to and are truly an owner of 
millions of acres of publicly-accessible land. This vast 
network of lands and waters and the economy it supports depend 
on the State and Federal programs, like LWCF.
    Strong funding for LWCF is paramount to keeping our 
thriving outdoor recreation economy and our heritage alive. 
Conserving our natural resources while meeting the present-day 
needs and challenges put upon them is a daunting task for us 
all. To succeed, all stakeholders--forestry, farming, private 
landowners, and public users--must work together to take on 
this challenge, balancing population growth and development 
pressure to keep pace with conservation needs and demands for 
access to the outdoors.
    The LWCF encourages voluntary conservation partnerships 
with private landowners to keep working lands working, forests 
growing, and ranching and production. LWCF helps meet the 
climate challenge and brings needed funding to rural areas. For 
every dollar spent or invested through LWCF, $4 are returned to 
the local economy.
    The LWCF is essential to water, land, and wildlife, whether 
in a national park keeping our natural history alive, or having 
a wildlife refuge for natural reproduction of fish and 
wildlife. It has helped protect at-risk species, including 
pollinators, as well as habitat for fish, wildlife, and fur 
bearers.
    In addition to the permanent reauthorization being voted on 
in the House this very day, I respectfully ask the committee to 
provide increased funding for LWCF in the fiscal year 2020 
Interior appropriations bill. It is imperative that Congress 
provide long-term funding security for the LWCF, ensuring that 
the asset-for-asset promise made to the American people to 
reinvest their offshore energy revenues and land and water 
conservation is honored.
    Although LWCF is authorized for up to $900 million per 
year, it has rarely reached half of its potential funding level 
in the recent years while remaining funds have been diverted 
elsewhere. I understand the financial constraints facing our 
Nation today, but I also believe that we can't afford to lose 
the conservation opportunities that LWCF addresses and the 
activity it interjects into local and state economies. I 
respectfully ask that you support an appropriation of $600 
million a year for LWCF in fiscal year 2020.
    Two-thirds of the program's authorized funding level, it 
represents a careful investment that spreads our limited 
resources wisely across urgent and diverse priorities. It also 
makes real progress toward the goal of fully funding this 
critical program. Last year, about $40 million of recently-
appropriated U.S. Forest Service LWCF acquisition funds were 
borrowed to pay for wildlife costs. Fire borrowing is not a new 
concept. In the past years, the annual appropriations included 
a chunk of funds to repay Forest Service accounts, including 
LWCF.
    We want to thank the House for including the funds and the 
authority to repay U.S. Forest Service accounts, including 
LWCF, as part of the supplemental appropriations bill that was 
passed in the House in late January, and hope this subcommittee 
can work with its Senate counterparts to make sure a solution 
is worked out. Minnesota LWCF lands and opportunities are 
counting on it.
    One such project that is pending, LWCF funding is vital for 
the Superior National Forest to continue its multi-phased 
Minnesota School Trust Fund's project, the chairwoman is well 
aware of, which helps resolve the decades-old land management 
issue resulting from more than 80,000 acres of State School 
Trust lands being imbedded within Superior National Forest's 
BWCA, Boundary Waters Canoe Area wilderness. Embraced by local 
governments, conservationists, school districts, and timber 
companies, the project is being implemented by the Conservation 
Fund through a unique solution that will secure more than 
40,000 acres for sustainable timber harvesting and increased 
School Trust revenue while protecting 50,000 acres within the 
BWCA for enhanced hiking, canoeing, camping, and fishing 
opportunities.
    Madam Chair, honorable members of the subcommittee, I 
reiterate our support for the Land and Water Conservation Fund 
in the fiscal year 2020 Interior appropriations bill, and thank 
you for your time and attention to this important matter.
    [The statement of Mr. Dinsmore follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you, sir. I appreciate your testimony. 
Lastly, Mr. Ring, you have 5 minutes to address this committee.
                              ----------                            


                                        Tuesday, February 26, 2019.

             COALITION TO PROTECT AMERICA'S NATIONAL PARKS


                                WITNESS

RICHARD RING, EXECUTIVE COUNCIL MEMBER, COALITION TO PROTECT AMERICA'S 
    NATIONAL PARKS
    Mr. Ring. Thank you. Representative McCollum, 
Representative Joyce, and members of the committee, thank you 
for the opportunity to appear before you today on behalf of the 
Coalition to Protect America's National Parks, and to share our 
views on the fiscal year 2020 budget for the National Park 
Service. I have served on the executive council of the 
Coalition for the past 5 years, and I retired from the National 
Park Service in 2004 after 35 years of Federal experience, 33 
with the National Park Service where I worked for 20 years as a 
park superintendent and for 4 years as an associate director of 
the Service.
    The coalition has more than 1,600 members with more than 
35,000 years of experience in managing and protecting national 
parks. As you know, national parks host hundreds of millions of 
visitors annually who come to enjoy the spectacular natural 
scenic and cultural resources that the parks preserve. The 
National Park Service also touches the lives of even more of 
our citizens through a number of partnership grants and 
technical assistance programs.
    This work would not be possible without regular annual 
appropriations from Congress to support over 23,000 employees 
and 400,000 volunteers who are dedicated to preservation and 
guiding the enjoyment of these special places. The Coalition is 
relieved that the 2019 budget for the National Park Service was 
finally enacted after the long Federal government shutdown. We 
are particularly pleased to see that Congress rejected the 
large budget cuts presented by the Administration and instead 
produced a bipartisan Department of Interior Appropriations Act 
as part of the consolidated Appropriations Act which provided 
$3.22 billion for the National Park Service.
    It is somewhat unusual to be appearing before the 
subcommittee to discuss the upcoming fiscal year 2020 and 
National Park Service budget without having a proposed budget 
from the Administration to review. Thus, our request will be 
based on the recently-enacted appropriations bill of fiscal 
year 2019.
    We continue to hear so much discussion about the 
maintenance of the National Park Service that we worry that the 
deferred maintenance backlog may be the only issue facing the 
NPS that is getting attention from members of Congress and the 
public. Parks still suffer from significant reductions in 
staffing over the past decade due to decreased annual 
appropriations over that period of time.
    To put this in perspective, appropriations for the National 
Park Service were $3.27 billion in fiscal year 2009, a full 10 
years ago. That is just $53 million more than was just 
appropriated in fiscal year 2019. Over that time, inflation 
increased by $17.3 percent. The NPS would need essentially 
$3.84 billion in appropriations this year just to stay even 
with inflation.
    In addition, appropriations have also been spread thinner 
as Congress continues to increase the responsibilities given to 
the National Park Service through the addition of new parks and 
programs. Over the past 10 years, NPS has been directed to 
manage 27 new parks, five more national trails, five new wild 
and scenic rivers, and to coordinate assistance for three new 
affiliated areas and nine National Heritage Areas along with 
eight grant programs.
    Park visitation remains very high with 331 million people 
visiting the parks in 2016, having an estimated impact of $18.2 
billion in direct economic benefit to local gateway 
communities, and almost double that when you add indirect 
economic impacts as well. Effectively managing the demands that 
the Park Service is placed with is proving more and more 
challenging with funding that has not kept up with the Park 
Service's costs. Thus, the Coalition requests that the 
committee consider increasing the Park Service's budget by at 
least $565 million to bring the fiscal year 2020 NPS back 
towards the levels of service the Agency had in 2009.
    I have several other points, but I see I have run my time, 
and I would be happy to continue to work with the committee and 
answer any questions you may have.
    [The statement of Mr. Ring follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. We appreciate your sticking to the 
time. There are obviously many people waiting behind you. Madam 
Chair, do you have any questions?
    Ms. McCollum. One of the comments that was in some of the 
testimony goes to the reason why we need to preserve, protect, 
and enhance is, when it comes to forest properties, it was like 
they compete to be second homes. We certainly saw a lot of that 
happen in northern Minnesota when I was in the state house 
around Lake Vermillion, and, therefore, we came up with a way 
to make sure there was public access on Lake Vermillion. And I 
watched that in the metropolitan area just growing up where 
farmland became primary homes. So the work that you do as 
conservancy is really important, and I just wanted to just 
highlight that.
    The other thing I am glad you talked about is the Park 
backlog and the maintenance backlog and everything that is 
going on. You know, I would just like to remind people that the 
Arlington Memorial Bridge is part of the National Park System 
that is being repaired. And there was a lot of give and take, 
back and forth between two States. Not two States. One State 
and the District of Columbia about how that was going to 
happen. That was a real thoughtful move that the Department of 
Transportation had by making that bridge part of the National 
Park System.
    And so we have bridges like that all across the country, 
and so I think we ought to be real good friend with the folks 
over in Transportation appropriations and see if we can work 
out a bridge swap so we have some more money for national park 
land. With that, Mr. Joyce, I will let you go to the other 
committee members.
    Mr. Joyce. Thank you. Mr. Amodei, any questions?
    Mr. Amodei. Yeah, I had some until that intimidating 
comments from the chair. Let me gather my wits about me for a 
minute. [Laughter.]
    I don't think I had anything to do with that, but I feel 
guilty for some reason. [Laughter.]
    Ms. McCollum. What is your other committee? [Laughter.]
    Mr. Amodei. I don't know right now. I can't tell you. I 
appreciate hearing the comments, and especially from the Nature 
Conservancy. And you mentioned my bird with a face only a 
mother could love, the sage hen as I call it in Nevada, 
although I know members of this committee have said, well, how 
do they reproduce if they are all hens, but that is for a 
different meeting.
    So let me just tell you this. I am very open-minded to the 
funding request that you folks have all proposed, but kind of 
being experienced with bridges, here is an experience with this 
committee. A couple of cycles ago, giving Interior $65 million 
for sage hen habitat, you know, I mean, it all started out as 
habitat loss and fragmentation. And the Federal government 
hadn't asked for anything, and they were going to look for 
other people which is fine, but they hadn't asked Congress.
    Congress gave them $64 million. We followed it up a year 
later, and $35 million of it, according to the Bureau of Land 
Management, stayed inside the beltway. And it is a frustrating 
thing to talk about habitat loss and restoration. And by the 
way, that was preceded by fiscal years where there were 10 
figures worth of study money getting to the point where there 
were solutions. So it is not like, hey, we didn't really know 
what the problem was there. It is, like, well, you never stop 
learning, but to have the majority of the money stay inside the 
beltway when you are talking about habitat loss and 
fragmentation was phenomenally frustrating, at least to me.
    So as we talk about whether it is parks, whether it is 
wilderness, whether it is endangered species, I mean, I am kind 
of thinking one of the things we need to look at is we've got 
to start building some fences around that money. And I am not 
talking about defense money. I am talking about resource money. 
So I would just add that for when the time comes to say, well, 
if we really want to do something for parks or we really want 
to, you know, for the maintenance backlog or whatever it is 
for, that probably as a function of our experiences, we ought 
to take a look at what has been done with the money so far and 
where we are down the road with respect to the resource.
    And so if I can, I would like to follow up with you and say 
where do you think we are at on this because in a State that 
burned 10 million acres over the last 20 years, it is like, you 
know, that restoration stuff is kind of important, as important 
in sage brush country as it is in forest country. So we will 
look forward to working together. I yield back, Mr. Ranking 
Member.
    Mr. Joyce. Thank you for yet another lesson.
    Mr. Amodei. It is a gift. [Laughter.]
    Mr. Joyce. Ms. Pingree.
    Ms. Pingree. Thank you all for your work and your testimony 
today. Obviously in the State of Maine, we care deeply about 
our relationship with the Nature Conservancy and conservation 
organizations, and we love our parks. So thank you for your 
work and the Park Service.
    Mr. Joyce. Thank you. Mr. Kilmer, any questions at this 
time?
    Mr. Kilmer. I will keep it very brief. First, I just want 
to thank the Nature Conservancy for its partnership in 
Washington State. We are very grateful for that. And then, Mr. 
Ring, I just want to appreciate the point that you made. As we 
try to address the maintenance backlog as later today the House 
takes up a bill that broadens more parks and heritage areas, 
ensuring that there is funding for staffing and programmatic 
support for the NPS, I think, is really important. I appreciate 
you making that point.
    Mr. Joyce. Great. Thank you all for being here today. I 
appreciate your testimony.
    Ms. Pingree. Welcome. I have the pleasure of introducing 
the next panel. I know we are just trying to confuse you all 
today which direction to look at. And we are very pleased to 
start with Randy Petzel----
    Mr. Petzel. Petzel.
    Ms. Pingree. There you go, from the Refuge Friends, 
Incorporated. Thank you very much for being here today.
                                        Tuesday, February 26, 2019.

                          REFUGE FRIENDS, INC.


                                WITNESS

ROBERT (RANDY) PETZEL, PRESIDENT, REFUGE FRIENDS, INC.
    Mr. Petzel. Chairwoman McCollum, Ranking Member Joyce, and 
members of the committee, I want to thank you for the 
opportunity to testify. I am Randy Petzel, president of the 
Refuge Friends, Incorporated, which is the friends 
organizations that is affiliated with Minnesota Valley National 
Wildlife Refuge.
    In the midst of 4 million people down the road from the 
largest shopping mall in America, a neighboring major 
international airport sits a critical piece of Minnesota 
wilderness. The Minnesota Valley National Wildlife Refuge was 
created in 1976 to provide habitat for a large number of 
migratory water fowl, fish, and other wildlife species 
threatened by industrial and commercial development, and to 
provide environmental education, wildlife recreational 
opportunities, and interpretive programming for Twin Cities 
residents. Considered one of the premiere urban refuges in the 
National Wildlife System, the 14,000-acre refuge is part of 
corridor of land and water that stretches for 70 miles along 
the Minnesota River.
    St. Paul, Minneapolis, and the surrounding suburbs 
represent a rich diversity of cultures with a rapidly-growing 
population of color, expected to make up at least 4-percent of 
the population in 2040. Yet refuge visitation does not reflect 
this diversity. Unless refuges, like Minnesota Valley, welcome 
communities of color and identify barriers to participation, 
the future of conservation is at risk. Personal connection and 
experience with nature is the foundation from which a 
conservation ethic is built for future generations.
    Minnesota Valley National Wildlife Refuge also provides a 
superior environmental education environment in the Twin 
Cities. Through partnership and training programs, the refuge 
served over 9,000 students and teachers in fiscal year 2018. 
Refuge staff provided expert outdoor lessons for students, 
trained dozens of new teachers in the skills of teaching 
students outdoors, and mentored recent college graduates to 
become the next generation of environmental educators.
    The resource needs of the refuge system at large are 
largely reflected locally at Minnesota Valley, and I would like 
to highlight a few examples. Law enforcement. The refuge has 
only one wildlife officer, and he is shared with a neighboring 
refuge covering much of the State of Minnesota. In addition, 
this one officer has been detailed to the southern border for 6 
weeks in the last 6 months. During these times, the natural 
resources of the refuge and the safety of our visitors are 
compromised. Previously, the refuge had enough resources to 
fund three officers, and the demands of the urban population 
are only growing.
    Operation and maintenance funds. Minnesota Valley, like all 
refuges in the system, is poorly underfunded. It is actually 
estimated that nationally we are receiving only 50 percent of 
the needed operation and maintenance money. The visitor center 
in Bloomington is an aging resource. It is extremely valuable 
to our community. Important updates, including new doors, 
upgraded security cameras, solar lights, the parking repairs to 
our wheelchair lift and elevators are all outside of our 
present maintenance budget.
    Finally, urban program. We are connecting with a multitude 
of cultural and civic groups to engage with new audiences. 
Partnerships with local artists, art education nonprofits, and 
cultural organizations connect nature, art, and culture in an 
annual eco-arts fest, which the refuge hosts, incorporating 
perspectives from Hispanic, Somali, and Karen communities. 
English language learner hikes led by bilingual staff and local 
interns introduce new visitors to the unfamiliar habitats of 
the wildlife refuge.
    These unique approaches and partnerships are just the tip 
of the iceberg. However, Minnesota Valley has only three-
fourths of an employee focused on urban outreach. If the vision 
of providing urban refuges is reinstated, this is a program 
that began in 2012 with 14 refuges, only 4 have been funded so 
far. And we are hopeful that Minnesota Valley may be the next 
in line for that extra funding.
    Finally, this country's 567 wildlife refuges are a national 
treasure. They provide clean air and water, a haven for 
wildlife, and a place for people to connect with nature. At 
this time when America's children are suffering from too few 
outdoor opportunities, the work at the Minnesota Valley 
Wildlife Refuge and refuges around the country is especially 
important. I urge you to provide adequate maintenance and 
operation funding, law enforcement funding, and urban funding 
so these refuges throughout our system can survive and thrive 
in the 21st century.
    [The statement of Mr. Petzel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much for your testimony. Mr. 
Micka from the International Wildlife Refuge Alliance.
                              ----------                             


                                        Tuesday, February 26, 2019.

                 INTERNATIONAL WILDLIFE REFUGE ALLIANCE


                                WITNESS

RICHARD G. MICKA, CHAIR, INTERNATIONAL WILDLIFE REFUGE ALLIANCE
    Mr. Micka. Thank you, ma'am. Acting Chair Pingree, 
Chairwoman McCollum, and Ranking Member Joyce, and members of 
the subcommittee, thank you for the opportunity to testify on 
public witness day. My name is Richard Micka. I am chairman of 
the International Wildlife Refuge Alliance, which is a 
nonprofit friends organization for the Detroit River 
International Wildlife Refuge, which is the only international 
wildlife refuge in the country. We support the mission of the 
U.S. Fish and Wildlife Service.
    The Detroit River International Wildlife Refuge is carved 
out of critical pieces of habitat along the lower Detroit River 
and the western shore of Lake Erie. There are nearly 6,200 of 
critically-important habitat now preserved or waiting to be 
restored within the refuge boundary, lands owned or 
cooperatively managed with the Nature Conservancy and the Lake 
Erie Metro Park, and extending from the Ohio-Michigan line 
north to Detroit along I-75.
    This bolsters roughly 8,000 additional acres of natural 
holdings of the Michigan Department of Natural Resources as 
5,000 acres of conservation lands coordinated with Canadian 
partners and Ducks Unlimited. Our flagship, the refuge's Humbug 
Marsh, is a Ramsar wetland of international importance, and is 
ranked as globally impaired habitat.
    There is a transformation occurring in Detroit that is a 
model for urban wildlife corridors across the Nation. Detroit 
was ground zero in the Industrial Revolution. We helped build 
the Nation, and then created infrastructure which helped win 
World War II, but then times got bad. Our people in the 
environment suffered. Everyone realized we couldn't continue to 
pollute our precious waters in the past. Our coastlines are 
worth more than realized. The Clean Water Act, sponsored by our 
very own congressman, the late John Dingell, Jr., provided the 
impetus to preserve natural areas in a coastal zone in the 
waters of the United States.
    Detroit is rapidly becoming a mecca for urban wildlife and 
environmental justice, a sustainable, healthy community for 
all. With additional investments, we will go even further. 
Remediation projects under the Great Lakes Restoration 
Initiative continue to clean up areas of concern, such as the 
Detroit River. Riverine bottom lines are being reclaimed, 
especially in the conservation crescent on the south end of 
Rose Hill, which borders the St. Lawrence Seaway.
    Since 2010, the Federal government--you folks--have spent 
over $2 and a half billion cleaning up the Great Lakes. Now it 
behooves us to transform these resources into useful urban 
amenities, many of which can sustain migratory water fowl. In 
addition to investment of $400,000 in coastal wetlands and 
habitat along with $350,000 for programmatic support and 
$250,000 to provide the much-needed assistance in opening the 
refuge gateway with a world-class fishing pier and a visitors 
center, all in an effort to offer additional public access and 
quality recreational experiences that are the hallmark of the 
National Wildlife Refuge System and the National Wildlife 
Refuge Association.
    Today, 80 percent of all U.S. citizens live in an urban 
area. Many residents are disconnected from the natural world, 
and the metropolitan Detroit area is no exception. That is why 
it is so exciting to see the growth and development of the 
Detroit River International Wildlife Refuge and how it is 
making natural experience a part of every (off audio) lifetime 
of adventure. Ever since I was old enough to be outside alone, 
I have cared about the environment around us. The great 
outdoors has a way of mesmerizing you. Once exposed to it, 
there is no turning back.
    Being alone in nature is very special. It is just you, the 
wind, the water, and the waves. Then all of a sudden you 
realize that you are not alone. There are other life forms all 
around you and a vast expanse of openness. What an awe-
inspiring feeling. I only hope that what I am doing here today 
will enable others to share in this experience. My presentation 
is a tribute to the late, great John D. Dingell, Jr. who loved 
the great outdoors. Here I am. [Laughter.]
    [The statement of Mr. Micka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Micka. Dead on.
    Ms. Pingree. Thank you for your testimony.
    Mr. Micka. Thank you. Yeah, he was a wonderful guy.
    Ms. Pingree. I will tell Representative Dingell you were 
here.
    Mr. Micka. Yeah, the history. Yeah, thanks.
    Ms. Pingree. Ms. Brouwer.
                              ----------                          


                                        Tuesday, February 26, 2019.

                  NATIONAL WILDLIFE REFUGE ASSOCIATION


                                WITNESS

CAROLINE BROUWER, DIRECTOR OF GOVERNMENT AFFAIRS, NATIONAL WILDLIFE 
    REFUGE ASSOCIATION
    Ms. Brouwer. Hi. Good afternoon. Chairwoman McCollum, 
Ranking Member Joyce, and members of the subcommittee, my name 
is Caroline Brouwer, and I am the director of government 
affairs for the National Wildlife Refuge Association. I 
appreciate the invitation to testify today on behalf of the 
Refuge Association and our members and supporters, particularly 
the funds groups who do such amazing work on the ground. In 
addition to Randy and Richard who have testified today, Kimmy 
Fitzhugh is here as well. She is representing the Friends of 
Tennessee National Wildlife Refuge who are 2019 Friends Group 
of the Year.
    The Refuge Association was started 43 years ago by retired 
refuge staff who wanted to start a group to advocate on behalf 
of the National Wildlife Refuge System. Today the Refuge System 
consists of 100 million acres of land across 562 units in all 
50 States, and with an additional 750 million acres in five 
marine monuments in the Pacific and Atlantic Oceans. If the 
refuge system were a country, it would be the size of India.
    We thank you for your support for funding of the Refuge 
System. Operations and maintenance funding has increased 
incrementally over the last 9 years down from a high in 2010 of 
$503 million, and a particularly low point in our funding 
history of $453 million in 2013. O&M funding is now sitting at 
$488 million, and I am here to ask you or a major increase.
    The Refuge Association chairs a coalition of conservation, 
sporting, ocean, and advocacy groups called CARE, the 
Cooperative Alliance for Refuge Enhancement. This coalition 
consists of all of the major national groups who work on refuge 
issues: the Nature Conservancy, Ducks Unlimited, Safari Club 
International, Defenders of Wildlife, the Wilderness Society. 
There are 23 of us total, and we have been working together 
since 1995.
    The Refuge Association and CARE beat a steady drumbeat. The 
Refuge System needs $900 million a year to even be competitive. 
The reality is that the Refuge System is at a breaking point 
financially. Morale is low, especially after this government 
shutdown. Individual refuges have lost perhaps half of their 
staff, and many, many refuges have closed and unstaffed or have 
a staffer from their complex swinging by every week or so just 
to check on the property. At this point, I suspect that no 
refuges are fully staffed, and rare minority or even close to 
having a decent level of staffing.
    Everything in the Refuge System is underfunded. For 
example, and Randy talked about this a little bit as well, law 
enforcement levels are sitting at 130 to 150 field officers 
total, and that is for 567 refuge units and 850 million acres 
of land and water. Even just considering the land acres, this 
means that on average, each Federal wildlife officer is 
responsible for three-quarters of a million acres.
    Five States and four territories have no Federal wildlife 
officer on the ground, including New York and your home State 
of Ohio. Nine States have only one Federal wildlife officer, 
including Idaho and Ms. Lawrence who is a member of the 
subcommittee, her home State of Michigan. We all know that 
Detroit to the UP is not really the greatest commute. There are 
a total of around 255 full-time equivalent refuge law 
enforcement staff across the country. A study that was 
completed several years ago by the chiefs of police stated that 
the refuge system needs 1,149 full-time Federal wildlife 
officers. This means that refuge law enforcement is working at 
22 percent of their needed staffing levels, and this is 
unsustainable.
    Wildlife refuges in the National Wildlife Refuge system 
average almost $5 in economic return for every $1 appropriated. 
By far, the biggest challenge facing Refuge System today is the 
completely inadequate budgets that fail to cover the cost of 
maintaining this incredibly rich and diverse wildlife habitats 
that make up the system. The funding gap that has arisen due to 
low budget allocations over the last decade has degraded 
critical wildlife habitat and imperiled important species. We 
must change this trajectory.
    We ask that you make $900 million in funding Refuge system 
O&M your goal. In meeting that goal, we are requesting O&M 
funding for 2020 of $586 million. Yes, that is a request of $98 
million over current 2019 levels. It is a very big ask, but it 
also absolutely essential.
    So what do you get for your extra $98 million? We will 
allow the Refuge System to ramp up the number of Federal 
wildlife officers, increasing their safety and efficiency. You 
will get a build out of the Urban Program that is bringing kids 
in urban areas out to wildlife refuges either within their city 
limits or close to it. You will get more environmental 
education programs connecting classrooms to the outdoors. You 
will allow staff to do basic infrastructure maintenance, 
maintain wildlife habitat with prescribed burns, and to focus 
on biology, the bread and butter or the U.S. Fish and Wildlife 
Service.
    If you help us meet this goal, we all win: the wildlife 
that depend on these lands, bird watchers, hunters, anglers, 
kids, local hotel and vendors, and folks who just like to go 
tromping through the woods. I don't make this ask lightly, and 
I appreciate your consideration. I am happy to answer any 
questions you have.
    [The statement of Ms. Brouwer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you all very much for your testimony, 
and thank you for talking to us about the importance of these 
wildlife refuges. We care about them deeply in the State of 
Maine, and your remarks about how underfunded they are is quite 
alarming. I hope that the committee is able to be supportive. 
So, Mr. Joyce.
    Mr. Joyce. Thank you. I appreciate all of your testimony. 
As I was doing research one time to give a talk about the Great 
Lakes, the assets of the Great Lakes and how many people come 
just to fish, I was amazed at how many people come to watch 
birds.
    Voice. Bird watching is number one.
    Ms. McCollum. Number one.
    Mr. Joyce. Right. But then when we were going out on a boat 
under my predecessor, Steve LaTourette, on the Ashtabula River, 
and it was actually removed from the areas of concern that day. 
They were doing rehab. They were also putting in things to help 
bring birds back every year. So I am just, you know, junior, 
not an ornithologist. I put out bird seed in the winter, but it 
is amazing when you talk to the people up there how it is 
drawing people from all over the world to come different times 
of the year to see the Great Lakes. So I appreciate your input 
on that. [Laughter.]
    Mr. Joyce. Thank you.
    Ms. Pingree. We cleared that up. [Laughter.]
    Ms. Pingree. Mr. Kilmer, did you have any questions or 
thoughts?
    Mr. Kilmer. No.
    Ms. Pingree. Thank you. Mr. Amodei.
    Mr. Amodei. I yield back.
    Ms. Pingree. All right. I yield back to the chair, and if 
she has any questions, she can close it out.
    Ms. McCollum. I just have some direction to staff. We are 
looking at this in some other areas where the question is 
whether we can't hire staff or we haven't hired staff. So I 
want to look especially in law enforcement where we are on that 
because sometimes we have noticed that there are positions that 
have gone vacant and haven't even been posted to be filled. And 
that is a concern of mine.
    As Mr. Petzel was pointing out, one of the last times--it 
wasn't the last time, I go to the refuge quite a bit--I was 
talking to our law enforcement officer. And he gave me an 
example of probably what happened in the last year, but the 
same thing happened the year before. When the hurricanes came 
through Texas, our law enforcement officer was down there 
giving backup and support, as well as should be, but then we 
are down to zero officers at our refuge.
    So there is a difference between lending somebody out over 
and over again because they have families. This isn't 
necessarily what they had signed up for. So we need to figure 
out which is coming first, we can't hire or we aren't hiring, 
or maybe it become a combination of both. So I thank you all 
for your testimony. Thank you very much.
    Voice. Thank you. I appreciate it.
    Ms. McCollum. So the next panel is in for a real treat. We 
are going to let Mr. Amodei from Nevada introduce. Well, people 
from the bold north and from wet areas. Do you want the gavel? 
Do we trust you with that?
    Mr. Amodei. No, Madam Chair, let's not get carried away.
    Ms. McCollum. OK. [Laughter.]
    I fully agree, so----
    Mr. Amodei. Let's walk before we run, with your permission.
    Ms. McCollum. Yeah. So our next two panelists, please come 
up.
    Mr. Amodei. Mr. Kolton and Ms. Hoskins, although I don't 
know if I want to introduce anybody that is affiliated in any 
way, shape, or form with Don Young, but I guess since you 
scheduled it, I will go with the wisdom of the chair.
    Ms. McCollum. I am sure Mr. Young is listening to you.
    Mr. Amodei. I am sure he is, too, and, therefore, please 
send me get well soon cards at your convenience.
    Mr. Kolton, executive director, Alaska Wilderness League. 
The floor is yours for 5 minutes.
                              ----------                           

                                        Tuesday, February 26, 2019.

                        ALASKA WILDERNESS LEAGUE


                                WITNESS

ADAM KOLTON, EXECUTIVE DIRECTOR, ALASKA WILDERNESS LEAGUE
    Mr. Kolton. Thanks so much. My name is Adam Kolton. I am 
the executive director of Alaska Wilderness League, which is 
the only national organization devoted exclusively Alaska 
wilderness conservation. Madam Chairwoman, Ranking Member 
Joyce, other members of the committee, we are here, unlike a 
lot of the other witnesses today, not to ask for a single 
penny. We are concerned about something that the government is 
spending money on right now, and that is this mad rush to drill 
in the Arctic National Wildlife Refuge, the largest and wildest 
place left in America, America's most iconic national wildlife 
refuge.
    We remember how we got here. In the Tax Act that was passed 
in 2017, there was a provision tucked in. It was the only 
offset in the entire Tax Act, an offset of $1 billion for a 
bill that cost $1.5 trillion. We recognize there is a 
difference of opinion, perhaps different perspectives about 
whether to allow drilling in the Arctic National Wildlife 
Refuge. But we think that there ought to be agreement that what 
the Administration is doing is a huge mistake and needs to be 
stopped.
    The Tax Act, the promises that were made, the law itself 
provided for 4 years for the Administration to undertake a 
thoughtful, more careful process if you are going to do this, 
but the Administration is rushing to do this in half the time. 
So, in fact, the acting director of the U.S. Fish and Wildlife 
Service testified before the Senate that it would be a 4- to 5-
year process, but, again, there is a rush to do this in a way 
that isn't in keeping with the law or the promises that were 
made at the time.
    Moreover, if the goal is to generate revenue as an offset 
for the Tax Act, we are concerned the Administration now seems 
unconcerned with any revenue generation whatsoever. For 
example, to get the $1 billion for the Federal treasury the 
Administration purports this would generate, you would have to 
have a lease sale with minimum bids of $2,750 per acre. 
Normally in Alaska, we are seeing if there are minimum bids at 
all, they are in the $12 to $15
    So there is no indication whatsoever from the 
Administration that there is a desire to have minimum bids. 
What we are seeing is a desire to create new facts on the 
ground. The senior senator from Alaska has made clear this. She 
has been publicly quoted as saying that we have to do this 
quickly because if you can get the leases held, the mineral 
rights held, they are harder to challenge.
    Finally, in the context of the Tax Act, there was a 
commitment made to have adequate consultation with the 
indigenous peoples that might be affected by oil and gas 
drilling. But the 7,000 to 8,000 Gwich'in Athabaskan that live 
in 15 villages in northeast Alaska and northwest Canada are not 
adequately being consulted with. And, in fact, the 
Administration is denying the basics subsistence consultation 
under the Alaska National Interests Lands Conservation Act to 
Arctic Village, and other Gwich'in villages in Alaska. And we 
find this fairly alarming since 80 percent of the diet of some 
of these Gwich'in villages comes from the porcupine caribou 
herd that calves on the coastal plain of the Arctic Refuge. It 
is one of the largest land migrations on the planet.
    Again, I know you are dealing with many different issues of 
requests for funding, and I know it is not an easy thing to 
halt something that the Administration is doing in the context 
of a budget appropriations measure. But it is urgent that the 
committee consider this because this isn't in keeping with the 
law. It is not keeping with the promises that were made. And, 
again, I think both sides of the aisle should agree that even 
if you are against drilling, there are concerns about the 
precedent this sets for other wildlife refuge, other protected 
landscapes. If you would like to see it done, surely you would 
like to see it done in a way that is more protective of the 
resources, the indigenous cultures, and not have a mad rush to 
drill in a reckless fashion that won't generate the revenue 
that was promised.
    So we respectfully request that the committee consider 
precluding any funding for this mad rush to lease, drill the 
wildest place left in America, the Arctic National Wildlife 
Refuge. Thank you.
    [The statement of Mr. Kolton follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Amodei. Thank you for your testimony, Mr. Kolton. Diane 
Hoskins, campaign director, Oceana.
                              ----------                             

                                        Tuesday, February 26, 2019.

                                 OCEANA


                                WITNESS

DIANE HOSKINS, CAMPAIGN DIRECTOR, OCEANA
    Ms. Hoskins. Thank you. Good afternoon. Thank you, 
Chairwoman McCollum, Ranking Member Joyce, and members of the 
committee, for the opportunity to testify. My name is Diane 
Hoskins, and I am a campaign director with Oceana. We are the 
largest international advocacy organization dedicated solely to 
ocean conservation. I am here to speak in opposition to opening 
new areas to offshore drilling and the draft 5-year program for 
offshore oil and gas leasing that is currently under 
development right now by the Bureau of Ocean Energy Management 
in the Department of Interior.
    As you know, the 5-year program governs when and where BOEM 
can offer offshore drilling leases to the oil and gas industry. 
The current 2017 to 2022 program, which was recently finalized, 
rightly protected the Atlantic, Pacific, Eastern Gulf of 
Mexico, and much of the Arctic from new offshore drilling. 
Under the President's direction, the Administration is 
developing an unnecessary plan to undo those protections for 
coastal communities and ocean wildlife.
    The draft 2019 to 2024 program released early last year 
proposes to massively expand offshore drilling to areas 
currently off limits to drilling and leasing. The new program 
is not needed because the current 5-year program already goes 
through 2022. With tight budgets, this is one area the 
committee could pull back resources.
    Communities up and down the East and West Coast strongly 
oppose the expansion of offshore oil and gas drilling and 
exploration. Exploration plans threaten the continued 
prosperity of coastal communities, and the States whose 
economies are inextricably linked to a healthy ocean and clean 
oil-free beaches. In response to plans to expand drilling, 
Republicans and Democrats along the East and West Coast are 
united against the plan to expand drilling.
    As of today, opposition and concern has been expressed by 
every single East and West Coast governor, more than 330 
municipalities, over 2,100 elected officials from local, State, 
and Federal levels from both parties, more than 46,000 
businesses that depend on clean beaches and a healthy ocean, 
the Department of Defense, Air Force, NASA, the Florida Defense 
Task Force, as well as regional fishery management councils 
from New England, South Atlantic, Mid-Atlantic, and the 
Pacific, alongside numerous other commercial and recreational 
fishing interests.
    Offshore drilling and exploration proposals pose a direct 
threat to tourism, recreation, and fishing industries that 
depend on a healthy ocean. Along the Atlantic, Pacific, and 
Gulf Coast of Florida, healthy oceans support over 2.6 million 
American jobs and roughly $180 billion in GDP, making them 
major drivers of coastal economies.
    We know that fisheries are protected and properly managed. 
These jobs can be sustained for generations to come. This is in 
direct contrast to the limited supply of undiscovered 
economically recoverable oil and gas in the areas proposed for 
expansion. Oil and gas are finite resources, so when the oil 
runs out, so do the jobs. We also know that when they drill, 
they spill.
    The BP Deep Water Horizon blowout highlights how a single 
accident can lead to the loss of human life, devastate marine 
ecosystems, and cause tens of billions of dollars in economic 
damage. The disaster killed 11 rig workers, spilled more than 
200 million gallons of oil, fouled thousands of miles of 
coastline, endangered public health, and killed thousands of 
birds, dolphins, and fish. In another example of misguided 
priorities, just yesterday it was reported that Interior's 
Bureau of Safety and Environmental Enforcement, BSEE, has been 
handing out hundreds of offshore drilling safety waivers to the 
very requirements that were put in place as a response to the 
failures leading up to the BP Deep Water Horizon blowout 
disaster.
    There are far too few safety measures currently in place, 
and Interior's resources should be spent on implementing 
current safety measures on the books rather than circumventing 
the rules that were established through a rigorous public 
process. Expanded offshore drilling will never produce enough 
oil to offset the risk of its devastating consequences. As the 
committee considers their priorities for fiscal year 2020 
Interior Environment Appropriations Act, we encourage the 
members to ensure that the limited resources for BOEM and BSEE 
are not wasted on attempts to expand offshore drilling to new 
areas, and toss aside the far too few safety measures that are 
designed to protect workers and their environment. The current 
drilling plan already goes through 2022, and the new plan is 
not wanted or necessary.
    Thank you for the opportunity to testify.
    [The statement of Ms. Hoskins follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Amodei. Thank you for your testimony. Madam Chair, 
questions?
    Ms. McCollum. I just want to for the record make sure, 
because I looked at your written testimony, Mr. Kolton, make 
sure that, because you said it a little differently, so I am 
quoting from your written testimony. So in the tax cuts 
provision that you were talking about where they used the 
opening of ANWR to balance the tax cuts. The Agency would have 
to, and I am quoting. ``The Agency would have to set minimum 
bids of $2,750 per acre. This is more than 100 times the 
average lease bid on Alaska's North Slope.'' And then you go on 
to say, ``With no promises from BLM that they will set a 
minimum bid for lease.''
    So they came up with a calculation, but the law doesn't 
have a minimum bid in it. Is that correct?
    Mr. Kolton. There is nothing about a minimum bid in the 
law, and you are right, I didn't state it as artfully as I 
might have. BLM isn't typically having minimum bids in the 
North Slope. It is just that we are seeing average bid amounts 
generating, you know, $5, $25 an acre. They have the authority. 
The Agency has the authority to set minimum bids, so there has 
been no indication in the process that there is a desired 
interest to have any minimum bids whatsoever in this process.
    Ms. McCollum. And then, sir, Mr. Edward Shepard, the 
president of Public Lands Foundation, in his written testimony, 
and he shorthanded it when he spoke to us, in his testimony, he 
goes on to say about the EIS and ANWR, ``There is sufficient 
time to complete an appropriate level of review and analysis of 
the 1002 area. Overall impacts to ANWR and the Arctic coastal 
plains as a deadline for conducting lease is more than 5 years 
away.'' It goes on to say, ``Funding provided in 2020 should be 
limited to gathering additional resources and wildlife 
information to support further review and analysis of oil and 
gas leaking impacts.''
    You said in your testimony, if I heard you correctly, and 
that is why I want to have this opportunity to ask you, that 
they are rushing through this. They obviously have the amount 
of time, and now I have heard this from two different 
testimonies. Could you tell me why you feel that they are 
rushing through this when they have this timeline that should 
be more than adequate for them to do what they need to do. Can 
you give us some examples, please?
    Mr. Kolton. Well, again, the Administration testified 
before the Tax Act passed that this would be a 4- to 5-year 
process. The law says that within 10 years there would be two 
lease sales, the first of which need to happen within 4 years, 
but they are trying to do the first lease sale within 2 years. 
The senior senator from Alaska has spoken publicly to the 
effect that it is important to have the lease sale as quickly 
as possible to create new facts on the ground, I am 
paraphrasing, but more or less before there is a potential 
shift in politics that would make it more difficult to execute 
on this.
    This is wildly unpopular what is being done. Two-thirds of 
Americans oppose it. The majority of Republicans oppose 
drilling in the Arctic National Wildlife Refuge according to a 
Yale survey recently. So why is being rushed? Why does it cut 
corners? We have never seen in the history of the National 
Environmental Policy Act an environmental review that is 
happening this quickly for this complex and important an area. 
There is nothing precedent to do with this.
    For polar bears in the United States, largest international 
migratory birds, international treaties, home to 200 species. 
You know, I could go and on about the values that are at stake. 
This should be a much longer, more deliberate process. There is 
no new science that is being done. The EIS, the draft EIS, that 
has been produced is riddled with mistakes, riddled with 
errors.
    Ms. McCollum. OK.
    Mr. Kolton. Yeah.
    Ms. McCollum. I would just think if you were doing 
something as controversial as this, you would want to make sure 
you created the least amount of controversy building up into 
it. So I thank you, and that gives me some things to look into 
later. With that, Mr. Amodei, I will let you call on other 
members.
    Mr. Amodei. Mr. Ranking Member, questions?
    Mr. Joyce. No, thank you.
    Mr. Amodei. Thank you for being brief. Madam Vice Chair.
    Ms. Pingree. I will be very brief, but thank you for your 
testimony about Alaska and raising that alarm, and appreciate 
your work on the oceans. I think I may be the only person 
represented in the room who represents a district on the ocean. 
And I am very pleased that our entire congressional delegation 
of all parties, Republican, Democrat, and Independent, have 
opposed offshore drilling and are very determined to make sure 
that it doesn't move forward in our State. Thank you for the 
work you are doing.
    Ms. Brouwer. Thank you.
    Mr. Amodei. Madam Chair, I yield back to you for the next 
panel.
    Ms. McCollum. You did a great job.
    Mr. Amodei. Thank you very much for letting me play----
    Ms. McCollum. Thank you so much for your testimony. So we 
have the next panel coming up, Robin Kemper, Charlie Wiplinger, 
Lisa Biondo. I am not saying it right. Lisa can help me here.
    Voice. Lia.
    Ms. Biondo. Biondo.
    Ms. McCollum. Lia, oh. Society for Range Management. Mr. 
Amodei is waiting to hear. [Laughter.]
    There could be votes going off in the next few minutes. We 
will let you get your testimony moving forward. Ms. Kemper from 
the American Society of Civil Engineers.
                              ----------                       

                                        Tuesday, February 26, 2019.

                     AMERICAN SOCIETY OF ENGINEERS


                                WITNESS

ROBIN A. KEMPER, PRESIDENT, AMERICAN SOCIETY OF CIVIL ENGINEERS
    Ms. Kemper. Chair McCollum, Ranking Member Joyce, and 
members of the subcommittee, thank you so much for having me 
here and be able to talk to you about the long-term strategic 
investment of our Nation's infrastructure. My name is Robin A. 
Kemper, and I am a licensed professional engineer and the 2019 
president of the American Society of Civil Engineers, a 
professional engineering society with over 150,000 members.
    Many of you are familiar with ASCE's infrastructure report 
card that we release every 4 years which evaluates and reports 
on the condition and performance of American infrastructure in 
the familiar form of a school report card. Infrastructure is 
the backbone of our economy, yet ASCE's 2017 report card had a 
grade of D plus. And we determined that the investment gap of 
$2 trillion will be happening over the next 10 years. And our 
failure to act economic study found that the Nation's 
deteriorating infrastructure and growing investment deficit 
hurts our Nation's economy.
    Failing to invest by 2025 carries enormous economic costs 
to the tune of $4 trillion in lost GDP and 2.5 million lost 
jobs in just 2025 alone. And it is also costing every family 
$3,400 a year in disposable income.
    Our major infrastructure category in need of robust funding 
is our Nation's drinking water and wastewater systems, which 
have an investment gap of $105 billion by 2025. Fortunately, 
there are funding and financing mechanisms, if fully 
appropriated, that could help close this gap. The Clean Water 
and Drinking Water State Revolving Funds each play a vital role 
in providing much-needed investments in State and local 
wastewater and drinking infrastructure.
    So our first ask of the subcommittee is to triple the 
amount of annual appropriations to the State Revolving Fund 
Programs. We also request the subcommittee approve a million 
dollars to the EPA for its drinking water needs survey and 
assessment and its clean watersheds in each survey so that 
Congress, the EPA, and State have the necessary data needed to 
determine the water infrastructure needs of communities around 
the Nation.
    Two other critical programs ASCE supports are the Water 
Infrastructure Finance and Innovation, or WIFIA Program, and 
the Securing Required Funding for Water Infrastructure Now, or 
SRF WIN Act. These programs are innovative financing tools that 
when fully funded have the potential to leverage limited 
Federal resources and encourage greater private sector 
participation in our Nation's drinking water and wastewater 
infrastructure. So our second ask is to fund the WIFIA Program 
at no less than the fiscal year 2019's enacted level of $86 
million, and to fully fund the SRF WIN Act Program at its full 
fiscal year 2020 funding at $5 million.
    Another vital category in ASCE's report card is public 
parks. Decades-long under investment has resulted in large 
backlogs of deferred maintenance, ultimately threatening the 
safety of these systems and the surround communities' economic 
stability. In fact, the National Park Service has a $12 billion 
deferred maintenance backlog, including infrastructure projects 
related to eroding trails, visitor centers, roads, and water 
systems. So our third ask is to provide at least $2 billion to 
help address the National Park Service's growing deferred 
maintenance backlog.
    And finally, ASCE supports the U.S. Geological Survey's 
National Earthquake Hazards Reduction Program and streamgaging 
programs. The NEHRP Program is the source of a hundred new 
technologies and standards that are used by design 
professionals, such as myself, every day to mitigate risks and 
save lives, protect property, and reduce adverse economic 
impacts. USGS's streamgaging program provides consistent, 
scientifically reliable data that is essential for flood risk 
assessments, water supply planning, and water quality 
appraisals. So our fourth ask is to fund the NEHRP and 
streamgaging programs, both critical risk mitigation tools, at 
$75 million and $100.5 million, respectively.
    In closing, ASCE believes our Nation must prioritize 
investments in our infrastructure systems, strategic, robust, 
and sustained investments through long-term, reliable Federal 
funding, and through the use of alternative financing 
mechanisms can help close this infrastructure gap. Thank you 
for holding this very important hearing, and ASCE looks forward 
to working with the subcommittee to find solutions to our 
infrastructure's investment needs. And I look forward to taking 
your questions. Thank you very much.
    [The statement of Ms. Kemper follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Wiplinger, I noticed here that 
you are a plane pilot, but you also served on Flemings Fields 
which is South St. Paul's Airport Advisory Committee. So later 
on you are going to have to tell me if you ever tried to land 
anything on the Mississippi River. Sir, the time is yours for 5 
minutes.
                              ----------                            

                                        Tuesday, February 26, 2019.

                    RECREATIONAL AVIATION FOUNDATION


                                WITNESS

CHARLIE WIPLINGER, RECREATIONAL AVIATION FOUNDATION
    Mr. Wiplinger. Thank you. I am glad I am not the only 
engineer up here. We tend to be introverts and not very good at 
this public speaking thing.
    So my name is Chuck Wiplinger. I am the president of a 
company up in South St. Paul, Minnesota. We make floats so 
aircraft land on water more than once. We also have a wildfire 
fighting product called the fire boss. I am here today to talk 
about my friends at the Recreational Aviation Foundation, the 
RAF, and help their story. They were created 15 years ago, and 
to help tell their story, I have got 5 numbers that we are 
going to walk through today, and you can write them down and 
follow along if you like: 500 million, 400, 10,000, 4, and 
$2.5.
    So to get right into it, 500 million acres, no dollar sign 
in front of this one. We are doing good. That is how many acres 
that the BLM and the Forest Service manage each year. On these 
500 million acres are 400-plus landing strips. They are grass 
patches that serve as a landing strip, less than a half mile in 
length. They are very important to us and to the public in 
general.
    Ten thousand is the next number, and that is the number of 
RAF volunteers that help maintain these strips and partner with 
the land managers and the Forest Service and BLM. And these 
10,000 folks rally behind four key missions: access, safety, 
history, and service. These strips provide access to 600,000 
pilots potentially, and if they bring passengers with them, 
that must multiplies upwards.
    We are all users of these public lands. We love to go 
camping, hiking, all the normal things that everyone else does. 
They are in hard-to-reach locations without roads where it 
might be unfeasible to put a road in as well. Safety. If we are 
flying one of our airplanes over those 500 million acres, we 
have 400 sites to land on if something goes wrong. Also that is 
400 sites that the general public that happens to be enjoying 
the land can be evacuated from should they need medical 
assistance, injury, other natural disasters.
    History. They are all very historical sites, many of them 
created after the turn of the 20th century to help fight 
wildfires with the Forest Service. And today they give us 
access to historical sites, like Moose Creek, Idaho, which is 
where Gifford Pinchot created the first ranger station, and 
Missouri Break, Montana, where it is very close to the trail of 
Lewis and Clark.
    So and the last thing is service. We are very fortunate to 
be able to fly into these areas. We recognize that, and we want 
to give service to other people--the handicapped, the elderly, 
our wounded warriors--and also people that need medical 
assistance and just support in those parks. We have a story of 
one volunteer who landed one evening with his son and were 
quickly approached by rafters. This was on the Selway River. 
And they hauled the poor woman who was in her first trimester 
of pregnancy out to a hospital in Montana because she was 
having pregnancy issues. She lost that child, but she had the 
necessary medical procedures done to be able to have two 
additional children, and is very thankful for these airstrips 
and the people that use them.
    So the last number, $2.5. We are asking that you continue 
to support the budget to the tune of $750,000 that you have set 
aside in the past to maintain these airfields. We want to 
continue to partner with the Forest Service to maintain these 
airfields. And we are going to ask that you create a BLM 
budget, Bureau of Land Management budget, to the same magnitude 
so they can have a budget to work from to maintain these 
airfields, and we will gladly partner with them. That is about 
$2.50 for each of the 600,000 pilots that fly in our airspace 
today.
    Pilots get labeled a cheap bunch. I am one of them. I don't 
think any one of us would complain too badly about $2.50 of our 
tax dollars to maintain these airstrips. Well, I can think of 
two guys. I am willing to pay for one of them today if I need 
to. And my friend, John McKenna, here probably covered the 
other guys I am sure. So thank you. I look forward to your 
questions.
    [The statement of Mr. Wiplinger follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. And now we are going to hear from the Society 
of Range Management. Ms. Biondo.
                              ----------                         

                                        Tuesday, February 26, 2019.

                      SOCIETY FOR RANGE MANAGEMENT


                                WITNESS

LIA BIONDO, WASHINGTON, DC LIAISON, SOCIETY FOR RANGE MANAGEMENT
    Ms. Biondo. Good afternoon. Lia Biondo with the Society for 
Range Management. Thank you for the opportunity to provide 
testimony today.
    Established in 1948, the Society for Range Management is 
the professional scientific society and conservation 
organization whose members are concerned with study, 
conserving, managing, and sustaining the varied resources of 
range lands, which comprise nearly half the land in the world. 
Specifically today, we would like to address the ability of 
Federal agencies to implement active land and resource 
management.
    Of the mere 26 position statements that SRM has adopted 
since its founding in 1948, two focus on the management of wild 
horses and burros on range lands. The Society believes in the 
practice and enhancement of multiple use values of range lands 
while maintaining basic soil, water, and vegetation resources. 
The Society supports wild horse and burro use of range lands in 
accordance with the Wild and Free Roaming Horses and Burros Act 
of 1971. The law specifies management to provide a thriving 
ecological balance.
    SRM interprets this to mean that long-term sustainability 
and productivity must be the primary consideration in devising 
legislation and policy for management planning and 
administration for range lands, including establishment of 
proper numbers and management levels for wild horses and 
burros.
    Range land health standards and guidelines are equally 
appropriate for all herbivores. Wild horse and burrow 
populations increase rapidly, and their numbers commonly expand 
beyond herd management areas and exceed ecological care and 
capacity unless excess animals are regularly removed. Adoption 
programs and sanctuaries for excess horses have only been 
partially successful. Overstocking results in deterioration of 
vegetation, soils, and watersheds and leaves the potential for 
expansion of invasive species. Serious conflicts with wildlife, 
endangered species, domestic livestock, and other uses of range 
lands have resulted.
    The Federal government must implement more effective 
methods to manage and control populations of wild horses and 
burros. SRM supports changes in laws, policies, and 
administration to effectively and economically manage wild 
horse and burros to maintain healthy populations, reduce 
conflicts with other uses, and maintain long-term successfully 
of range and resources. One such change would be to lift the 
amendment introduced by West Virginia representative, Nick 
Rahall, in 2005 that states, ``Appropriations shall not be made 
available for the destruction of healthy, unadopted wild horses 
and burros.''
    SRM is also concerned with the lack of accountability in 
the use of taxpayer funds included in Division A, Title 1, 
Section 109, which states, ``The secretary of interior may 
enter into multiyear cooperative agreements with nonprofit 
organizations and other entities for the long-term care and 
maintenance of excess wild free-roaming horses and burros.'' 
According to the BLM's 2018 report to Congress, the Agency 
contracts with 39 private landowners primarily located in Iowa, 
Kansas, Nebraska, and Oklahoma to handle the long-term care and 
maintenance of over 35 horses. Unfortunately, the U.S. taxpayer 
has no assurance that the private land supporting these 35,000 
horses are in a state of sound range land health, condition, 
and ecological status.
    We believe that the above section should be amended to 
include the sentiment that excess animals should be contracted 
to a private landowner or entity in an ecologically appropriate 
region with stocking rates and range land health conditions 
accredited by a certified professional in range management. 
This third party approval by a CPRM would certify that the 
private landowner is implementing sound management practices, 
and is not degrading the productive soils of the Midwest by 
overstocking wild horses and burros.
    SRM has continued to work with our community of 
professional societies to push for congressional support of 
Federal employees participating in and being active in the 
continuing education programs provided by professional 
societies. Active participation must include travel to related 
conferences and workshops. On a related note, we just wrapped 
up our 2019 annual meeting Gateway to Prairie in St. Paul, 
Minnesota. We had over a thousand attendees, 450 of which were 
students from tribal and land grant universities competing in 
range and plant ID competitions.
    If Congress wants land management agencies to be best 
suited to deal with the high priority issues, including, but 
not limited to, fire management and prevention, species and 
habitat improvement along with implementing successful 
strategies that address climate variations, it is even more 
imperative that land management agency personnel have access to 
the latest research along with updates from the field and the 
training and techniques to implement practices. We are pleased 
with House report language and fiscal year 2018 appropriations 
that confirmed Congress' support of professional society-
related activities. We request that this congressional intent 
continues to be demonstrated with a greater emphasis placed on 
the importance of Federal employee involvement in professional 
societies.
    In closing, we appreciate the opportunity today to provide 
testimony.
    [The statement of Ms. Biondo follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Members, votes have started. There are four 
votes, a previous question and then a vote on a rule. Are there 
any questions? Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair. Mr. Wiplinger, on behalf 
of Congressman Mike Simpson of Idaho, who can barely walk right 
now or otherwise he would be here, thank you for being here to 
testify on behalf of the Recreational Aviation Foundation. We 
appreciate the work you do to highlight the importance of 
maintaining back country airstrips. The simple fact is that 
these airstrips save lives, and for that reason are worth the 
small investment needed to maintain them. Thanks again for 
being here today.''
    Mr. Wiplinger. Thank you.
    Mr. Joyce. I have no further questions. I can testify to 
the fact that he was very ill when he got here this morning 
from his bad knee.
    Ms. McCollum. Yes. He showed up, and we hope he is 
comfortable.
    Mr. Joyce. Yeah.
    Ms. McCollum. I would like to thank you all for your 
testimony. Thank you for always being up here and reminding us 
that we have to take care of what we have in order to build a 
brighter future for everybody to enjoy in the future. I have 
been only two of those airfields. I know I have seen more of 
them over my opportunities to be out in park and range areas. 
And I know how important they are not only to what you were 
saying for people who fly recreationally, who enjoy them, but 
people do know you can get a pilot, and they figure out how to 
call and who has a plane and who can get in. So I know your 
folks do a lot of great work.
    Mr. Wiplinger. Thank you.
    Ms. McCollum. And we are trying to get the range management 
right, and it is good to know that you are reaching out to the 
future, too. So how many youth were out there?
    Ms. Biondo. We had about 450 students, and they compete in 
range and plant ID competitions.
    Ms. McCollum. Four hundred and fifty students.
    Ms. Biondo. Four hundred and fifty students, yep.
    Ms. McCollum. Wow. And a mix of tribal and non-tribal?
    Ms. Biondo. Absolutely, yep. Yep. Also from Canada and 
Mexico. We do have an international component, too.
    Ms. McCollum. Oh, that is great. That is great. Well, thank 
you all for your testimony. For those of you who are on the 
other two panels, we are going to excuse ourselves to vote 
because we wouldn't have an opportunity to hear everything all 
at once. We should be back quickly, and so for now we are 
recessed until the call of the chair after votes.
    [Recess.]
    Ms. McCollum. Welcome back. We are now going to hear from 
our panel. We have Michael Mace, director of Animal Collections 
and Strategy, the San Diego Zoo Global, and Steve Holmer, vice 
president of policy for American Bird Conservatory. So Mr. 
Mace.
                                        Tuesday, February 26, 2019.

                          SAN DIEGO ZOO GLOBAL


                                WITNESS

MICHAEL MACE, DIRECTOR OF ANIMAL COLLECTIONS & STRATEGY, SAN DIEGO ZOO 
    GLOBAL
    Mr. Mace. Thank you. Thank you, Chairwoman McCollum and 
Ranking Member Joyce. We want to thank the subcommittee today 
for the opportunity to testify in support of funding for 
endangered species recovery and the New Recovery Challenge 
Grant Program as you enter into the 2020 appropriations 
process. My name is Michael Mace, and I am the director of San 
Diego Zoo Global as the director of collections and strategy. 
And I have been involved with the U.S. Fish and Wildlife 
Service recovery programs for decades.
    San Diego Zoo Global is a long-time leader in endangered 
species recovery around the world. Our Institute for 
Conservation Research houses one of the largest zoo-based 
multidisciplinary research teams with more than 150 researchers 
and staff who are leading experts in their field. We carry out 
carefully-tailored species recovery plans and partner with 
United States Fish and Wildlife Service and with other 
dedicated partners. To date, we have bred more than 165 
endangered species, and more than 40 of those endangered 
species released back into the wild in their native habitats.
    One of our key recovery programs is the California condor, 
a coordinated public/private partnership that a species once 
condemned to extinction. Partnering with the U.S. Fish and 
Wildlife Service, State agencies, the Peregrine Fund, Oregon 
Zoo, Los Angeles Zoo, and Ventana Wildlife Society, and several 
other partners together, we have provided critical genetic 
management and breeding, and rearing, and release to recover 
the condor. A total, once at only 22 condors in the world, 
today is now around 500.
    While significant progress has been made to save a species 
like condors from extinction, the fight to fully recover the 
species is not over. As a result of investigational degradation 
and threats from contaminants, such as lead, condors in the 
wild are only sustainable with costly human intervention, 
including population management, tracking, medical testing and 
treatment for lead exposure. Together our non-profit partners 
spend roughly $3.6 million annually in privately-raised dollars 
to sustain this program.
    To assist in mitigating these costs, the condor partners, 
Association of Zoos and Aquariums, the U.S. Fish and Wildlife 
Service work with the appropriations staff and the fantastic 
subcommittee to establish the Recovery Challenge Grant Program 
in fiscal year 2018. This new program was a landmark and 
recognized the critically-important role of nonprofit partners 
with the Service for endangered species recovery efforts.
    Through a merit-based matching grants process, it provides 
funding in a more commensurate manner to support organizations 
implementing the highest priority recovery actions identified 
by U.S. Fish and Wildlife Service. The Recovery Challenge Grant 
requires a substantial 50/50 match, a match in which we have 
gone above and beyond historically. The program also provides 
matching grants to many other longstanding priority 
partnerships outside of the condor, such as the Northern 
Aplomado Falcon, the whooping crane, and Stellar's Eider. In 
fiscal year 2018, the condor partners were thankful to have 
received four grants from this program in total of $1.5 
million. This funding enabled us to provide the critical 
scientific expertise and on-ground experience essential to 
recover the condor.
    Another example of a successful recovery partnership led by 
San Diego Zoo Global is our Hawaiian Endangered Bird 
Conservation Program. This is a three-way partnership operated 
in collaboration with Fish and Wildlife Service and the State 
of Hawaii Division of Forestry and Wildlife. Since its 
inception in 1993, more than a thousand birds from 16 species 
have hatched, and approximately 800 of those from 10 species 
have been released into the wild. The most notable of those is 
the 'Alala, or Hawaiian crow. Once extinct in the wild, today 
there are now 19 flying free.
    One major takeaway from San Diego Global's experience in 
recovery is that endangered species recovery is truly a shared 
responsibility. Our partners have made significant investments 
to keep going. However, Federal funding for Endangered Species 
Act programs has not kept pace with needs. The creation of the 
Recovery Challenge Grant Program has been an incredibly 
important step in that right direction.
    As the committee develops the fiscal year 2020 Interior, 
Environment appropriations bill, we urge you to continue to 
provide robust funding for endangered species recovery and 
prioritize longstanding recovery efforts in which existing 
resources and partner expertise can be most effectively 
leveraged. Specifically, we request an increase to the 
Endangered Species Act recovery to $100 million and a request 
to increase the funding for the Recovery Challenge Grant to $8 
million. This funding will enable us critically to recover 
partnerships to sustain our work, so together with U.S. Fish 
and Wildlife Service we can realize the goal of full recovery 
condors and many other critically-endangered species.
    We do thank you sincerely for your support and effort in 
this process.
    [The statement of Mr. Mace follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Holmer.
                              ----------                            

                                        Tuesday, February 26, 2019.

                       AMERICAN BIRD CONSERVANCY


                                WITNESS

STEVE HOLMER, VICE PRESIDENT OF POLICY, AMERICAN BIRD CONSERVANCY
    Mr. Holmer. Thank you for this opportunity to testify. 
American Bird Conservancy respectfully asks the committee to 
increase U.S. Fish and Wildlife Service Bird Conservation 
programs. We area mid-sized bird conservation group that works 
to conserve birds in their habitats throughout the America's. 
We have about 80 people on staff, including three foresters who 
work in the State of Minnesota working to recover habitat for 
the Golden-wing warbler. We have found that birds are a key 
indicator of environmental health and provide many benefits to 
our environment and the economy, including billions of dollars 
each year from wildlife watching.
    Unfortunately, the 2016 State of the Birds Report produced 
by government and agency scientists found that one-third of all 
migratory bird species are in decline and in need of 
conservation action. With the support of Congress, we believe 
we have the tools needed to reverse these declines. 
Specifically, we request an across-the-board funding increase 
for the Neo-Tropical Migratory Bird Conservation Act, migratory 
bird joint ventures, State and tribal wildlife grants, and the 
North American Wetlands Conservation Act to promote the 
conservation of at-risk bird species.
    International reserves protecting migratory bird wintering 
grounds have been made possible by NMBCA grants. It is really 
one of the few sources of funding for overseas work. The 
program has been funded at $3.9 million in recent years, but 
the lands package up today includes reauthorization at $6.5 
million, and we believe that the program should be fully funded 
at $6.5 million.
    The migratory bird joint ventures, which are conservation 
committees in reach region of the country, are now carrying out 
projects to provide habitat and boost population numbers of 
species of concern, such as the Cerulean warbler. Both the 
Central Hardwoods and Appalachian Mountain joint ventures are 
conducting forest restoration projects to benefit this species.
    We believe the migratory bird joint ventures, or JVs, have 
become a critical nexus capable of carrying out an expanded 
bird conservation program. Funding has been flat or declining 
over the past 7 years, and the JV management board had 
identified $19.9 million as the necessary amount to carry out 
their mission, and we urge funding be increased to that level.
    Thanks to NAWCA and wetland conservation, water fowl have 
been making an amazing comeback and are now thriving. We ask 
that NAWCA be increased to $50 million, and for State and 
tribal wildlife grants we request $70 million. To address 
several further threats, one of you which you just heard about, 
the risk of extinction to Hawaiian birds and preventing the 
spread of harmful invasive species. We urge that the Endangered 
Species Recovery State of the Birds activities be increased to 
$5 million from the current $3 million level, and a $10 million 
increase for early detection and control of invasive species. 
These funding recommendations are endorsed by National Audubon 
Society, Cornel Lab of Ornithology, and over 100 other bird 
conservation organizations.
    American Bird Conservancy also asks the committee to please 
oppose harmful policy riders that would erode the Endangered 
Species Act, including listing exemptions to the greater sage 
grouse or other species. Other past riders to drop, including 
requiring EPA to treat air emissions from forests biomass as 
carbon neutral, prohibiting EPA from requiring Clean Water Act 
permits in certain circumstances, and prohibiting funding to 
regulate lead content of ammunition or fishing tackle.
    Solutions are also urgently needed to both address climate 
change and ensure the conservation of birds in their habitats. 
We have developed a Bird Smart Wind Energy Program and a new 
report that carefully details how we can build wind energy 
while avoiding and minimizing impacts to birds. Another key 
climate solution, and analyzing all the impacts to birds, would 
be to further incentivize solar installations in the already-
developed landscape, such as rooftops, parking lots, and brown 
fields. This will further accelerate the growth of renewable 
energy, possibly create wealth in blighted areas, and also 
lower the risk of collisions and electrocutions to birds posed 
by the construction of new power lines. We estimate as many as 
30 million birds a year die from collisions and electrocutions 
form power lines, so it is a significant threat that currently 
is not fully and adequately mitigated.
    Protection of existing carbon stores, such as the old 
growth forests of the Pacific Northwest and Tsongass National 
Forest, is another key climate solution. The 20-year monitoring 
reports of the Northwest Forest Plan found that it is 
recovering old growth forests and improving water quality, and 
another study confirms the plan has turned the northwest 
forests from a carbon source to a carbon sink, an important 
climate change success story.
    Forests sequester about 11 percent of our annual carbon 
emissions, so it is essential we prevent forest loss and 
protect the mature and old growth forests that store the most 
carbon per acre. In addition, logging is itself a major source 
of emissions that managers need to start fully accounting for 
and considering in management decisions. We recommend expanding 
programs that help keep forests as forests, such as Forest 
Legacy, as well as the successful Legacy Roads Program, to 
improve water quality. To address fire risks, we recommend 
providing direct grants to homeowners and businesses to protect 
and retrofit their structures and also to carry out defensible 
space work.
    Thank you very much for this opportunity. I would be happy 
to answer any questions.
    [The statement of Mr. Holmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you for being here today. I appreciate 
what you do, and I apologize for being a little late on my 
return, but I don't have any questions at this time. Thank you.
    Ms. McCollum. OK. So one thing that I would like to focus 
on, and I would use my State as an example of a pretty shocking 
graphic, and I wish I would have brought it down with me, is 
what is going to happen with Minnesota's trees and forests and 
pines. It is going to look radically different. Why are we 
seeing some of the creep of prairie? We are seeing invasive 
species come in and put a lot of our trees at great stress and 
great risk.
    So one of the questions that I asked an earlier panel is 
with some of the research that is going on, you are trying to 
bring species back. But preventing the species from becoming 
stressed in the first place--and it's ok if you don't have an 
answer for me--if there are things that you can point to that 
we can talk to the Forest Service about for research for bird 
habitat, that would be greatly appreciated. If you have a 
comment now, that would be fine.
    The other thing is you kept talking about invasive species 
being a stressor, and so the first thing that comes to mind is 
what is happening to the trees, and I don't know what you 
gentlemen might have met by ``invasive species as a stressor.'' 
If you could elaborate on that a little bit.
    Mr. Holmer. Sure. OK. I'll jump in there. Yeah, there is 
quite a lot that we could do working with the Forest Service in 
terms of doing restoration on forests. And our organization is 
engaged in active forest restoration, so we do see a legitimate 
role there. But we do also see that science needs to be an 
essential guidepost for that work, and so we are strong 
supporters of full NEPA analysis for forest management 
projects. We do believe that there needs to be more investments 
in the forest. We still have a large road maintenance backlog, 
for example, in the National Forest System. And in some regions 
water quality, such as the Northwest, is still a major issue 
where there is a tremendous amount of watershed restoration 
work and job creation that could be happening to address those 
needs in those areas.
    In regard to invasive species, I was thinking about some 
other critters, like feral pigs and snakes----
    Ms. McCollum. Oh yeah.
    Mr. Holmer [continuing]. In the Everglades which have now 
proven to be a huge hazard for birds. We do have programs that 
do monitor and control, and it is really is the initial attack. 
When we find that there is a problem, we need to get on it 
really fast. And so that is why we are asking for the $10 
million increase for that part of the DOI program.
    Mr. Mace. One of the things that comes to mind is just how 
delicate these ecosystems are, and when you imbalance them, you 
have all these cascading of events that occur that you 
described: invasive species moving in, forests lost. Our 
Institute for Conservation Research, when we are doing a 
reintroduction program, sometimes it involves habitat 
restoration at a botanical level with plants, or it might be a 
species that co-dependent on another, like the presence of 
ground squirrels and burrowing owls.
    So doing that analysis early on to determine what those 
primary factors is key, but also we realize that we not living 
in an environment that is of its normal anymore, that it is a 
changing environment, and we are sharing space with all these 
amazing creatures and with all these wonderful plants. But that 
is why we have to make sure that we try to keep these 
ecosystems as normalized and balanced as it possibly can be 
done.
    Ms. McCollum. So with the international bird migration, we 
have partners with Canada and some of our partner countries, 
Central and Latin America, Mexico, too, and that includes 
pollinators as partners. You know the international programs 
always look at being cut, and I think people get birds. I mean, 
we even have the term for people in Minnesota. We call them 
snow birds when they go down South, right? [Laughter.]
    People get birds going out there. Our international 
partners, are they feeling some of the same stress? We just 
went through a global environmental discussion about what to do 
about climate change, and then we had the global shock to our 
economies back 10 years ago. Can you tell me how our partners 
are faring and what you think our fair share should be in some 
of these international monitoring programs?
    Mr. Holmer. Sure. Well, you know, in terms of bird 
conservation, things are going very well with our partners in 
Canada and south of the border. The NMBCA is the essential 
matching grant program that provides for projects in these 
areas. And so those projects and that process has been working 
great.
    And just to put in another plug for the migratory bird 
joint ventures. They actually extend into Canada and down into 
Mexico, and it is really a habitat-based approach. So, for 
example, in the State of Minnesota, based on your geography, on 
the west side of the State you have the Prairie Pothole joint 
venture, and on the east side, the Upper Miss River-Great Lakes 
joint venture. And I think that, you know, getting back to your 
question on forests, we are going to have to keep a very close 
eye on the ecosystems.
    I have seen some studies that show that forests could 
actually help slow things down in terms of by maintaining 
moisture and stability on a part of the landscape. So I think 
that there is, you know, hope that things aren't going to just 
be immediately lost, but, again, it is going to take a lot of 
careful monitoring, and we think that the joint ventures are 
actually a great vehicle to be looking at how habitats are 
faring.
    Mr. Mace. And many of these species of birds are critical 
in the maintenance of these landscapes. They are seed 
dispersers. They are pollinators. Some plants won't even 
germinate without passing through the gastrointestinal tract of 
a bird. So this is where that cascade of events can go out of 
control when this ecosystem is imbalanced.
    Ms. McCollum. We have got another panel behind you, but you 
have all waited. You are going to get a little extra attention 
then. So when we are talking about identifing and the public, 
birding is just taken off the chart, and birders come in all 
different shape, size, and ranges. What are some of the things 
that when you are engaging with the public that they are 
looking forward to seeing or having happen in either our 
national parks, in our open spaces, or in urban settings to be 
better birders? I have people come up and ask me about this, 
believe it or not, in Minnesota because I worked on a birding 
trail at one time. So are you hearing feedback in your surveys?
    Mr. Holmer. Well, we are and it is kind of a quandary for 
us because are trying to mobilize the birders, and yet we are 
finding that they like the backyard birds, you know, the things 
that they are going to see. So when we talk about some of these 
more far-flung species, they don't always connect to them.
    So we are actually, you know, trying to engage people a 
little bit more in terms of where they live, and we do have a 
number of programs of dealing with urban areas. Collisions with 
windows, for example, is a major issue, and there is 
legislation, the Bird Safe Buildings Act, that could help us 
address that issue. So we are trying to get people to realize 
that even, you know, what is happening in their community. 
Planting enough trees in urban areas is another good solution 
that can both improve energy efficiency for buildings, but also 
provide habitat within our cities.
    And then my last question, and it is very controversial 
dealing with getting the lead out, so to speak. But that seems 
to be a leading indicator for harming condors from your 
testimony. Where are the condors getting the lead from?
    Mr. Mace. From sport hunting. So when hunters go out and do 
sport hunting, sometimes they leave part of the animal behind.
    Ms. McCollum. Right.
    Mr. Mace. And condors being a scavenging species go down 
and consume what is left, and they incidentally take the lead 
in that way. With regards to lead, if you just look at lead as 
a toxin in the environment, and it isn't just condors. It is 
anything that scavenges a carcass. But if you look at it in the 
context of just being a toxin, we have lead in paint, and we 
found out that our children were chewing on their cribs and 
their toys, and we decided as a community to take it out of the 
product. We had it in gasoline, and we removed it because of 
its toxic properties.
    The same is true with lead ammunition. There is alternative 
ammunition that allows for sport hunting to continue at every 
level that it is now, yet it is an alternate that is non-toxic 
when consumed by other animals, and sometimes people. Sometimes 
people are taking lead in incidentally from sport hunting.
    Ms. McCollum. OK. Thank you both very much, gentlemen.
    Mr. Mace. Thank you.
    Mr. Holmer. Thank you.
    Ms. McCollum. Do you have anything?
    Mr. Mace. Thank you for your time.
    Ms. McCollum. Mr. Joyce, I will let you introduce the last 
panel, and thank you so very much for waiting. We really 
appreciate it. I think they might be waiting for you to call 
them up. [Laughter.]
    Voice. (Off audio.)
    He will let you know. You can sit in any order you want. 
David will take good care of you.
    Mr. Joyce. Welcome. Thank you all for being here, and, like 
the wedding feast at Canaan, we saved the best for last, right? 
[Laughter.]
    We intend to follow this list here, and you all will be 
given 5 minutes to address what is left of our committee, but 
the most important person, is obviously the chairwoman. We will 
start with Mrs. Ziemian?
    Ms. Ziemian. Yes.
    Mr. Joyce. Thank you. You have your 5 minutes.
    Ms. Ziemian. Thank you.
                              ----------                           

                                        Tuesday, February 26, 2019.

                    HUMANE SOCIETY LEGISLATIVE FUND


                                WITNESS

JOCELYN ZIEMIAN, SENIOR LEGISLATIVE SPECIALIST, FEDERAL AFFAIRS, HUMANE 
    SOCIETY LEGISLATIVE FUND
    Ms. Ziemian. Chairwoman McCollum, Ranking Member Joyce, 
members of the subcommittee, thank you for this opportunity to 
testify. My name is Jocelyn Ziemian, and I am senior 
legislative specialist at the Humane Society Legislative Fund. 
I am here to talk about the Fish and Wildlife Service's 
International Wildlife Conservation Council, or IWCC. We 
request the subcommittee to block out funding for the IWCC in 
fiscal year 2020.
    The IWCC was created in 2017, per its charter, to advise 
the Federal government on increasing public awareness 
``regarding the conservation, wildlife law enforcement, and 
economic benefits that results from United States citizens 
traveling to foreign nations to engage in hunting,'' and on 
``the benefits international hunting has on foreign wildlife 
and habitat conservation, anti-poaching and illegal wildlife 
trafficking programs, and other ways in which international 
hunting benefits human populations in these areas.''
    The IWCC was established under the Federal Advisory 
Committee Act, or FACA. This statute stipulates that advisory 
committees be established only when essential and their number 
kept to a minimum. Advisory committees also must be in the 
public interest in connection with the agency's mandate. 
Finally, the advisory committee's membership must be balanced 
in terms of the points of view represented and must not be 
inappropriately influenced by any special interest.
    The IWCC violates FACA's criteria in multiple ways. The 
council is not essential, not in the public interest, and is 
not balanced or protected from undue influence of special 
interests. As such, the IWCC is not a responsible use of 
American taxpayers' money.
    For starters, the IWCC is not essential. In 2013, the 
Service created a Wildlife Trafficking Advisory Council to 
fight illicit wildlife trade and to improve enforcement of 
wildlife trade laws. He Council played a key role in government 
response to the wildlife trafficking crisis, but in September 
2017, the Council was deemed inessential and was discontinued. 
However, just a few months later the Service created the IWCC 
to consider some of the very same topics.
    Another advisory committee, called the Hunting and Shooting 
Sports Conservation Council, addresses matters in the IWCC's 
purview, such as expanding access to hunting and shooting on 
public and private lands, and encouraging partnerships among 
sporting organizations, the public, and various government 
entities.
    The IWCC is also inessential in a broader statutory 
context. The Council's duties include recommending the removal 
of barriers to importing legally-hunted wildlife and 
recommending ways to streamline or expedite import permits 
processing. Yet through the Endangered Species Act, parties can 
apply for import permits that aim to demonstrate trophy 
hunting's benefit and can comment on permit applications in 
foreign species listing petitions. So there is no need for an 
advisory council for these purposes.
    Second, Federal advisory committees should serve the public 
interest by helping the Federal government gather balanced 
information through an open public input process. But the IWCC 
doesn't comply with that either. In fact, the IWCC's very 
purpose is inconsistent with the public interest. The IWCC 
seeks to promote international trophy hunting and to relax 
restrictions for importing trophies of ESA-listed species, 
presuming as incontrovertible fact that trophy hunting promotes 
wildlife conservation.
    But this is a controversial, hotly-debated subject with 
ample scientific evidence to the contrary. Yet the Council's 
own goals preclude objective investigation and airing of these 
ideas.
    On a more basic level, at the IWCC's first meeting, my 
organization witnessed the Service giving this Council's 
members a presentation in the vein of wildlife conservation 
101. If the Council needed this lesson, they don't have the 
expertise to advise the government on the world's most pressing 
conservation problems.
    The IWCC also violates FACA's requirement that advisory 
committees be objective and outside undue influence from 
special interests. Almost all of the Council's non-governmental 
members come from the hunting world: professional and celebrity 
hunters, the hunting tourism industry, and the firearms and 
ammunition lobby. These people have financial, personal, or 
other vested interests in reducing restrictions on 
international hunting. This makes them unfit to advise the 
government on conservation. In short, the IWCC fails to meet 
FACA's own criteria for advisory committees.
    Once again, the Humane Society Legislative Fund urges the 
subcommittee to block any funding for the International 
Wildlife Conservation Council.
    [The statement of Ms. Ziemian follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. I am sorry. Thank you very much for your 
testimony. I apologize. [Laughter.]
    Ms. Wall, you have 5 minutes to address us.
                              ----------                             

                                        Tuesday, February 26, 2019.

                 INTERNATIONAL FUND FOR ANIMAL WELFARE


                                WITNESS

KATE WALL, SENIOR LEGISLATIVE MANAGER, INTERNATIONAL FUND FOR ANIMAL 
    WELFARE
    Ms. Wall. Thank you. Chairwoman McCollum, Ranking Member 
Joyce, thank you so much for the opportunity to offer testimony 
today. My name is Kate Wall. I am a senior legislative manager 
with the International Fund for Animal Welfare, or IFAW. IFAW 
has 17 offices globally and works in more than 40 countries 
around the world. Recognizing the unbreakable link between 
animals and human wellbeing, we support and empower communities 
to co-exist with and value native wildlife, and help those 
communities to develop tools to protect their wild heritage.
    It is more crucial than ever to prioritize environmental 
protection and conservation efforts. Wildlife and wild lands 
are in peril around the world. Climate change and habitat 
destruction threaten wildlife ecosystems and the very fabric of 
this planet we call home. Trafficking in wildlife and wildlife 
parts and products remains the fourth most lucrative criminal 
enterprise in the world, and scientists warn that species are 
disappearing so fast that evolution cannot keep up.
    However, at IFAW we see reasons for hope. If we invest 
wisely now, we can stem the tide of extinction. And the good 
news is that many of the programs that are best able to address 
today's grim challenges fall within the jurisdiction of this 
subcommittee. In my written testimony, I highlighted several 
important initiatives, but in the interest of time I will focus 
on just three of those here today.
    First, IFAW urges this subcommittee to consider the health 
of wildlife and the environment in all of its actions. No 
federally-supported construction project, including disaster 
remediation projects, should be exempt from such fundamental 
laws as the Endangered Species Act and the National 
Environmental Policy Act. These reviews allow construction 
projects to move forward while ensuring full disclosure of 
outcome, informed decision-making, and risk mitigation. There 
has been a distressing trend to exempt projects from NEPA, ESA, 
and other environmental reviews, and we urge the subcommittee 
to reverse this trend by denying funding for any plan that 
waives NEPA or the ESA.
    Second, as Congress moves to address our aging 
infrastructure, we have an opportunity to invest in 
environmental safeguards and conservation innovations that will 
ensure American wellbeing and security and create jobs and 
prosperity for citizens of today and for many future 
generations. Natural areas on public lands provide numerous 
valuable ecosystem services to the American people, including 
clean, drinkable water, flood control, soil stabilization, 
climate regulation, wildlife habitat, and recreational 
opportunities.
    National forests contain more than 7 times as many miles of 
roadway as the interstate highway system, some 7,000 bridges 
and over 1,700 dams. Efforts must be made to repair or, in some 
cases, remove infrastructure that poses a threat to ecosystems 
and the public interest. IFAW urges this subcommittee to 
prioritize funding for infrastructure projects within your 
jurisdiction that rely on sustainable or natural materials to 
increase infrastructure resiliency and longevity, reintroduce 
or preserve native flora, implement natural alternatives, like 
wetland, dune restoration, and natural vegetation buffers, and 
reduce wildlife conflicts using wildlife corridors and 
crossings.
    We also encourage fully funding implementation of the 
Endangered Species Act. In spite of years of relatively flat 
funding, our Nation's most important conservation law remains 
effective and has been successful in protecting 99 percent of 
listed species. These species, both domestic and worldwide, are 
integral parts of our ecosystem. While they face ever-mounting 
pressures, funding for the ESA has not kept pace with the need. 
IFAW urges the subcommittee to direct the CRS to provide a 
report on funding levels necessary for Fish and Wildlife 
Service to fully implement the ESA. In the meantime, we ask the 
subcommittee to increase funding for ESA programs at a rate 
commensurate with increases to defense spending in order to 
better reflect the increasing need of imperiled species.
    IFAW also thanks this subcommittee for its effort to fend 
appropriation riders in past bills and asks that any riders 
aimed at undermining the ESA be excluded from the fiscal year 
2020 act. Likewise, we request a significant increase in 
funding for the Multinational Species Conservation Fund. I will 
not repeat here the praises and justifications for these funds 
that you will hear from others and that was in my written 
testimony. I will just say that now is the time to invest more 
fully in conserving the species they protect.
    A recent report warns that unless we take action, climate 
change will render the Bengal tiger extinct from the Indian and 
Bangladesh mangrove forests within the next 50 years. Action is 
needed now, an IFAW requests that $18 million be appropriated 
for the MSCF for fiscal year 2020.
    In closing, thank you for the opportunity to share IFAW's 
priority requests and conservation efforts in the fiscal year 
2020 Interior and Environment Appropriations Act. Thank you.
    [The statement of Ms. Wall follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Mr. Joyce. Thank you very much. Ms. Aylward.
    Ms. Aylward. Aylward.
    Mr. Joyce. Aylward.
    Ms. Aylward. Yep.
    Mr. Joyce. OK.
                              ----------                             

                                        Tuesday, February 26, 2019.

             BRONX ZOO-BASED WILDLIFE CONSERVATION SOCIETY


                                WITNESS

KELLY AYLWARD, WASHINGTON OFFICE DIRECTOR, BRONX ZOO-BASED WILDLIFE 
    CONSERVATION SOCIETY
    Ms. Aylward. Hi. I am the Washington office director for 
the Bronx Zoo-Based Wildlife Conservation Society. Good to see 
you.
    Mr. Joyce. Nice to see you. You have 5 minutes to address 
us.
    Ms. Aylward. Thank you. Thank you, Chairwoman McCollum, and 
Ranking Member Joyce, and members of the subcommittee for the 
opportunity to testify in support of funding for the fiscal 
year 2020 Interior approps bill. I am going to focus on four 
key accounts: the Multinational Species Conservation Fund at 
Fish and Wildlife Service, the International Affairs Office at 
Fish and Wildlife Service, the Office of Law Enforcement at 
Fish and Wildlife Service, the Cooperative Landscape 
Conservation Program at Fish and Wildlife Service, as well as 
the Forest Service international programs.
    Just by way of background, WCS was founded with the help of 
Teddy Roosevelt back in 1895 with the mission of saving 
wildlife and wild places worldwide. Today we manage the largest 
network of urban wildlife parks led by our flagship, the Bronx 
Zoo. And globally our goal is to conserve the world's largest 
wild places, focusing on 16 priority regions that are home to 
about 50 percent of the world's biodiversity. We have offices 
in almost 60 countries and manage more than 200 million acres 
of protected areas around the world, employing more than 4,000 
staff, including 200 Ph.D.s and 100 veterinarians.
    I would like to take the opportunity to thank Chairwoman 
McCollum for her leadership as co-chair on the International 
Conservation Caucus, and welcome our newest co-chair, Mr. 
Joyce, and look forward to working with you more on issues with 
the International Conservation Caucus. And as such, you know 
more than most members that U.S. investments in international 
conservation deliver more than just the species saved and the 
habitats protected. These investments also increase capacity in 
other nations to respond to extreme weather, to droughts, 
wildfires, and to build governance in these developing nations.
    That is why WCS and our partners have just launched the 
Natural Security Campaign, nationalsecurity.us. And the 
campaign is intended to demonstrate that investments in 
international conservation by the U.S. can help prevent global 
conflicts, reduce international crime, and guard against 
natural disasters. In fact, we have a briefing on Thursday at 
noon in the House Foreign Affairs Committee room, 2200. If you 
are available, we would love to have you. Stop by.
    The Multinational Species Funds. Tigers, rhinos, African 
nation elephants, great apes, and marine turtles face constant 
danger from poaching, habitat loss, and other serious concerns. 
The Multinational Species Funds have helped to sustain wildlife 
populations by controlling poaching, reducing human wildlife 
conflicts, and protecting essential habitats. These programs 
consistently leverage 2 to 4 times as much matching funds from 
organizations like WCS, foreign governments, local NGOs, and 
foundations.
    One Great Ape Award that WCS received in fiscal year in 
fiscal year 2017 is supporting a 5-year project to secure 
cross-river gorilla populations in Nigeria and Cameroon. WCS is 
protecting intact old growth forests that are home to the 
remaining 300 gorillas and a number of forest-dependent 
communities by establishing an effective network of core 
protected areas and corridors, linking habitats between the two 
countries. Despite the pressure form Chinese developers and the 
provincial government's interest in building what they are 
calling a superhighway through this critical habitat.
    So WCS is grateful that the committee has appropriated 
$11.6 million for the programs in fiscal year 2019, which was 
an increase of $500,000, the first we have seen in at least 3 
years. And I urge at least $15 million in fiscal year 2020 for 
these programs as the threats still remain very strong.
    I will also mention that the lands package being considered 
on the House floor includes the Wild Act, which would 
reauthorize the Multinational Species Funds and expand the 
marine turtle conservation to freshwater turtles and tortoises. 
So an increase in funding would also help these freshwater 
turtles and tortoises to receive funding immediately.
    The International Affairs Office at Fish and Wildlife 
Service is able to address funding that are not eligible, 
species that are not eligible under the Multinational Species 
Funds, like jaguars and leopards. And so we are glad to see 
that the funding for the International Affairs was level with 
fiscal year 2018 funding and fiscal year 2019, and we would 
like to see an increase to $18 million in fiscal year 2010.
    The Office of Law Enforcement at Fish and Wildlife Service, 
an essential core group of folks both domestic law enforcement 
as well as international, they are often on the front lines of 
implementing the strategy to combat wildlife trafficking, both 
domestically and internationally. There are 11 attached places 
in U.S. missions and embassies overseas, and so this funding is 
essential to keep those coordinated efforts going. We would 
like to see an increase in funding in fiscal year 2020 to $85 
million, and that increase could also cover two additional Fish 
and Wildlife Service law enforcement attaches in key transit 
points in trafficking.
    The Forest Service Program addresses illegal logging which 
causes about a billion-dollar loss to the U.S. timber industry 
every year and about 200,000 jobs, which is responsible for 
about 15 to 30 of all timber by volume. We would like to see an 
increase of at least $10 million to the Forest--is that over? I 
am sorry. I thought it was counting down. [Laughter.]
    Ms. Aylward. I apologize.
    [The statement of Ms. Aylward follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. I didn't give them the gavel. I am sorry.
    Ms. Aylward. My apologies.
    Ms. McCollum. I was going to throw it across at him.
    Mr. Joyce. Mr. Amodei and I can't be trusted with the 
gavel. [Laughter.]
    Thank you very much. I appreciate it.
    Ms. McCollum. You went last, so, you know, being a couple 
seconds over is not----
    Mr. Joyce. We figure we are wrapping it up.
    Ms. Aylward. I had this big close.
    Mr. Joyce. Go ahead. If you had a brilliant close, give us 
the last paragraph.
    Ms. Aylward. It is in the written testimony. [Laughter.]
    Mr. Joyce. Madam Chair, do you have any questions?
    Ms. McCollum. Yeah. I think there is a theme here that I 
have heard a little bit throughout, and I think you went back 
to it, and that has to do with U.S. Fish and Wildlife. Whether 
it is here or abroad, they tend to be the super American agency 
that everybody wants to partner with because the way that they 
partner at home, they kind of take that set of ethics and 
interaction with them when they go into country. And so they 
work in partnership. They are like how do we solve a problem. 
They just really get down to it with the discussion, how they 
interact with communities and that.
    So you all touched a little bit and other folks about how 
we get a big value for our dollar on that. But on the other 
side of that, too, whether it is having international logging 
or illicit trophy hunting, is Customs at airports and that. And 
one of the things that a lot of us have been talking about, 
whether it is national security or just lawbreakers is U.S. 
Customs enforcement.
    If you would take a second, and you have got it in your 
testimony, but just reiterate to this subcommittee again how 
powerful it is to have Fish and Wildlife not only working with 
Customs here at our airports, and doing things to make sure 
that we are protecting everything from sea life to land 
creatures and those who fly in the air, as to what happens 
internationally. Because part of that is a conversation I am 
going to have to have with the chair--and she knows it is 
coming--of Homeland Security. I have been talking a lot about 
invasive species, timber, and other things like that. So 
anything you want to add as far as Customs enforcement, and 
U.S. Fish and Wildlife International?
    Ms. Aylward. Sure. Thank you, Chairwoman. Can you hear me? 
I think the Fish and Wildlife Service Office of Law Enforcement 
is essential. They do partner with Border and Customs officials 
as well as USDA. There is a lot of overlapping jurisdictions 
that make it somewhat confusing, but it is essential as we see 
an increase the illegal trade in wildlife and timber and 
wildlife parts into the U.S. To, you know, fully fund those 
programs, but also work for the best amount of integration.
    I know overseas, the attaches are very involved an 
integrated into the embassies and missions. They work closely 
with the Department of Justice attaches that actually prosecute 
cases overseas. And in countries like Vietnam, for example, WCS 
works very closely, like, with their cytees agencies, and this 
is exactly what we are doing. We are bringing together the 
customs and border patrols, their fish and wildlife service, 
their parks folks, and cross-training them so that they can 
comply with international laws, like the Convention on 
International Threatened and Endangered Species.
    And then we are taking it a step further and we are looking 
at where is a lot of trade from Vietnam coming from, and WCS 
has programs in Mozambique in Africa. And so we are doing 
similar to what both National Parks, Forest Service, and Fish 
and Wildlife Service. We are doing exchanges of experts so that 
they can build those networks and know each other on each side 
of the trade chain, but then also learn the expertise and 
understanding of what is happening in Vietnam as well as in 
Mozambique, and even share intel.
    So we are involved in Mozambique and found that there was 
someone who was arrested for trafficking in ivory, I believe, 
and thought that was a low-level person. In communication with 
Vietnam, we realized they were actually like a kingpin, but he 
was portraying himself as just a mule. These types of exchanges 
of information, building relationships, and then also technical 
expertise is what is going to help address this severe problem.
    Ms. Wall. Yes, thank you. Just to briefly echo what Kelly 
said, we also in our written testimony requested an increase to 
the Office of Law Enforcement. We think that it is critical to 
maintaining U.S. global leadership in the conservation and 
wildlife trafficking arena. The attaches, in particular, are 
extremely useful in providing training and on-the-ground 
support in countries that have significant poaching crises, and 
maybe trying to export wildlife and wildlife products illegally 
to the United States and elsewhere in the world.
    We would like to see funding increased to $85 million in 
fiscal year 2020 in order to support those efforts. And as I 
say, cement the global leadership that we have seen have a 
cascade effect, to echo someone's earlier comments, on the 
global stage in combatting illegal wildlife trafficking and 
poaching.
    Ms. McCollum. You told us a program you don't like. Is 
there a program you think that is effective? [Laughter.]
    You delivered your message very articulately. Thank you. Is 
there something that the Humane Society out of some of the 
programming? You had to sit through and listen through a lot of 
the testimony. Is there anything that you are just like we are 
getting it right, we should do more of it?
    Ms. Ziemian. Well, we absolutely support the Multinational 
Species Conservation Fund, the Law Enforcement, Office of 
International Affairs. We are up there with them as well.
    Ms. McCollum. Well, thank you, and thank you so much for 
your patience. Your testimony is important. We are so glad that 
we got to have our public witness day today. Anything you would 
like to add before we adjourn?
    Mr. Joyce. I want to thank you for the acknowledgement of 
my being elevated to co-chair of the ICCF Caucus along with 
Madam Chair, Henry Cueller and Jeff Fortenberry. It was an eye-
opening experience the first time I had the opportunity to go 
to Botswana, and see the things that are going on there. It is 
one thing to hear about them. It is another thing to see them 
on television. It is quite another thing to be there firsthand.
    I am glad to see the progress that is being made over 
there. The information that you received about them actually 
doing a census of the elephants and the increase we are seeing. 
Now if we only could get them to continue to migrate along 
the--I cannot pronounce the name of that river for the life of 
me.
    Voice. Okavango.
    Mr. Joyce. Thank you. Okavango. [Laughter.]
    Ms. McCollum. A lot of vowels.
    Mr. Joyce. Yeah, continue the migration, that would be 
great as well. But all of you, thank you for what you are 
doing. I have no questions at this time.
    Ms. McCollum. And with that, this meeting is adjourned.

                                          Wednesday, March 6, 2019.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS

                              ----------                             


                NATIONAL COUNCIL OF URBAN INDIAN HEALTH

                                WITNESS

MAUREEN ROSETTE, PRESIDENT, NATIONAL COUNCIL OF URBAN INDIAN HEALTH
    Ms. McCollum [presiding]. A very warm good morning on a 
brisk day here in Washington, DC. Welcome to the first day of 
the public witness hearings on tribal government under the 
jurisdiction of the Interior, Environment Appropriations 
Subcommittee. I always look forward to this time of year as it 
provides us--all of us here--to see and hear from leaders, 
mentors, and, in many cases, friends over the years as you 
testify about the needs of Indian Country and what work we need 
to do here in Congress.
    This year in Congress we have had some new additions and 
elections. So we are very excited for the Native American 
Caucus, with Tom Cole and Congresswoman Deb Haaland leading 
that, along with Congresswoman Sharice Davids being part of the 
Native American Caucus. I have a new title now with my gray 
hair as chair emeritus----
    [Laughter.]
    And I am very happy to have my two tribally-enrolled 
sisters overtake the leadership of that Caucus. So they have 
been given copies of the testimony. We are in constant contact. 
They are on other committee assignments, and so I am just, as 
you know, very pleased about that.
    I am pleased that you are here, distinguished leaders that 
are elected and non-elected tribal leaders because you play 
such an important role in advancing native issues. This year in 
hopes of having a more in-depth focus on issues facing Indian 
Country, we have organized this a little differently. We 
organized it into topics: healthcare, land trust, natural 
resource management including climate change, public safety and 
justice, education, tribal government, and human services 
needs.
    Now, this is the first time the subcommittee will be 
holding hearings organized by topics, and we want to hear your 
feedback on how this works once the hearings have concluded. 
But this came about in part because we had tribes coming by 
geography and trying to hit every single topic, and then when 
issues of suicide or criminal justice came up, we weren't able 
to really feel that we could ask questions and keep something 
flowing. We do want your feedback on this as this is your 
hearing. So let us know what changes or accommodations we need 
to make next year.
    We will begin hearing from witnesses on healthcare needs 
that are facing Native Americans. The Federal government 
entered into guaranteeing healthcare with their treaties to our 
Native American brothers and sisters, and my visits to tribal 
communities across the Nation have shown me just how we are 
failing, and failing greatly, at meeting our treaty 
responsibilities. Congress must not take our treaty and trust 
responsibilities lightly. Congress needs to figure out how we 
can best fulfill our duty given the limited funds with which we 
have to work, and how to make those funds grow and work more 
effectively for you.
    In the recent month-long Trump shutdown, this issue was 
even more urgent as healthcare facilities were closed or scaled 
back services, thus impacting those who need healthcare the 
most. The shutdown illustrated the importance of providing 
funds to Indian Country in some form of advance, and that is 
why I am pleased to be leading a bipartisan bill in the House 
to authorize advanced appropriations for the Indian Health 
Services and the Bureau of Indian Affairs. And Mr. Young and I 
are on each other's bills, complementary. He has been working 
along with some other people about mandatory funding. So as we 
figure out together how to fully meet the needs of the Native 
Americans, I believe the least we can do is provide some 
certainty to lessen the impacts should there be another 
shutdown. We are all hoping that there isn't.
    I am eager to hear more about your priorities, and I look 
forward to our discussions on these issues because your 
testimony is going to inform us as we begin working together on 
the 2020 appropriations bill. Now, Mr. Joyce and I are going to 
go over the hearing logistics, and then I am going to turn the 
meeting over to him for some topics.
    We are going to have panels of witnesses. The first panel 
is up here. One panel at a time. Each witness will have 5 
minutes to present their testimony, and we are going to use a 
tracker because we want to be fair to everyone to track the 
time. When the light turns yellow, the witnesses have 1 minute 
remaining to conclude their remarks. When the light blinks red, 
I am going to lightly tap, and I really ask you to conclude 
your remarks so that our next witness can begin and everybody 
has equal time in which to present their testimony.
    We have your full written statements, and they will be 
introduced to the record. And so, please do not feel pressured 
to cover everything. I have read all the testimony for today, 
and I have it all marked up. So believe me, if we don't get to 
your question, we are going to get back to you with more 
questions.
    So I would like to remind people in the hearing room that 
we prohibit the use of cameras and audio equipment during the 
hearing by individuals without a House-issued press credential 
or a staff ID. And as I mentioned, members will be coming to 
and from. Mr. Kilmer, I told them I saw you running through the 
Capitol earlier today. So when this meeting concludes, we will 
adjourn and we will reconvene at 1:00 for the afternoon 
hearing.
    So I am happy to yield to my friend and colleague, Mr. 
Joyce, for his remarks.
    Mr. Joyce. Thank you, Madam Chair, and thank you for 
continuing these important hearings to get input from our 
tribal leaders on a wide array of programs under this 
subcommittee's jurisdiction. I would like to extend a warm 
welcome to the distinguished tribal elders and leaders that are 
testifying today and in the audience.
    I am humbled to be sitting here today in my capacity as 
ranking member of the House Appropriations Subcommittee on 
Interior, Environment, and Related Agencies. I know that most 
of you have traveled a long way to be here this week. I am from 
the northeast corner of what is now Ohio, but was once the land 
of Seneca and others.
    Like many colleagues in Congress, I recognize that 
upholding the tribal trust obligation is a responsibility 
shared by all members of Congress regardless of their 
congressional district. I also recognize that the Federal 
government still has a long way to go before it is fully 
meeting its trust and treaty obligations. That is why my 
position on the Appropriations Committee is a great honor, but 
also a heavy responsibility. Fortunately, I have a great friend 
and partner in Chairwoman McCollum, and it is my sincere hope 
that together we will continue the hard work of our 
predecessors for more than a decade to increase the Federal 
commitment to meeting those trust and treaty obligations.
    I look forward to listening and learning from the testimony 
today and working with my chair and the rest of my colleagues 
in the days ahead to do what we can in the next fiscal year. I 
yield back.
    Ms. McCollum. Well said, Mr. Joyce. We work on this 
nonpartisanly, not even bipartisanly, when it comes to Native 
American issues. Mr. Kilmer, any opening remarks?
    Mr. Kilmer. No.
    Ms. McCollum. Mr. Simpson.
    Mr. Simpson. No.
    Ms. McCollum. Well, we have our first panel up here. We 
have the National Council of Urban Indian Health, Urban Indian 
Health Institute, the Northwest Portland Board Area Indian 
Health Board, and the Seattle Indian Health Board. So if you 
would please at the beginning of your testimony introduce 
yourself and your organization. And let's start with the 
National Council of Urban Indian Health, please.
    Ms. Rosette. Good morning. My name is Maureen Rosette, and 
I am a citizen of the Chippewa Cree Nation in Rocky Boy, 
Montana. I am also the President of the National Council of 
Urban Indian Health, which represents the 42 urban Indian 
health care programs across the county who provide high-
quality, culturally-competent care to urban Indians, who 
constitute up to 70 to 78 percent of all American Indians/
Alaska Natives.
    Thank you to the chair and ranking member for holding this 
public witness hearing and hope this year is the year we will 
truly see funding level changes. My testimony today will mainly 
focus on the Indian Health Services. I first mentioned the 
urban Indian topic. That term refers to any American Indian and 
Alaska Native who is not living on a reservation, either 
permanently or temporarily for a variety of reasons, but often 
because of the Federal government's forced relocation policies 
or in search of economic or educational opportunities.
    Congress has long recognized that the Federal government's 
obligation to provide health care for American Indian/Alaska 
Native people follows them off of reservation. Recently, the 
CMS, Center for Medicare and Medicaid Services, made a decision 
regarding the Arizona 1115 waiver, to use the narrowest 
definition possible of American Indian/Alaska Native for 
Medicaid work requirements. This is despite the fact that 
Congress stated that the purpose of the Indian Healthcare 
Improvement Act was to ensure the highest possible health 
status for Indians and urban Indians and to provide all 
necessary resources to affect that policy. CMS ignored 
centuries of law and extremely narrowed the American Indian/
Alaska Native definition, which will hinder access to care 
across the country and further burden an already overwhelmed 
and underfunded Indian health service system.
    I would like to start by thanking you and offering my deep 
appreciation for the subcommittee's strong leadership and 
continued support for Indian healthcare.
    NCUIH has several recommendations for the fiscal year 2020. 
One is to increase the urban Indian line item for IHS. Less 
than 1 percent of the IHS budget is set aside for urban 
Indians, our urban Indian programs. And as you may or may not 
know, up to 70 percent of American Indian/Alaska Natives are 
urban. Urban Indian health programs do not have access to other 
line items throughout the IHS budget. The 42 urban Indian 
health programs operate with 1 percent of IHS budget funding, 
which is approximately $51.3 million. Thank you for the $2 
million increase to our line item. However, we do not believe 
that the solution is to take money from the tribes to address 
the unmet needs of urban Indians. Rather, IHS' overall budget 
must be increased in order to allow the Agency to, among other 
things, better serve American Indian/Alaska Native people who 
live in all areas.
    Tribes have requested our line item to increase to at least 
$81 million, which we are eternally grateful for. We would 
request that the IHS increase our line item to at least 2 
percent, which would be about $116 million. While this is just 
a sliver of the money Congress appropriates yearly, it would 
make a significant difference in our communities.
    Presently, urban Indian health programs and their staff are 
forced to deal with incredibly tight budgets. In this last 
shutdown, two of our programs had to completely shut down. 
Three of them had to reduce hours as well as lay off staff. Six 
programs had reported that they would only be able to stay open 
for an additional 30 days. Our UIHPs go to great lengths to 
provide care in Indian Country. Some of them even had to take 
personal liens on their homes to assist with their facilities. 
Congress cannot continue to let this happen and must create 
true parity for urban Indian health programs.
    We have a program in Minneapolis, Minnesota, for instance, 
where we have a homeless crisis for American Indian/Alaska 
Native people, many of whom suffer from diseases, addiction, 
and other serious health complications associated with 
homelessness. Increased funding is needed to combat the 
senseless deaths of vulnerable urban Indian communities. Our 
programs are in need of real funding to tackle these issues.
    In addition, IHS is currently considering moving its 
behavioral health initiative from grants to direct distribution 
through Indian Self Determination Education and Assistance Act, 
contracts and compacts, for which UIHPs, urban Indian health 
programs, are not eligible. Urban Indian organizations 
currently only receive $5.9 million in these grants, which fund 
vital behavioral health services. As a whole, by inadequately 
funding IHS, Congress has put the Federal government in clear 
violation of the trust responsibility to provide healthcare to 
all American and Alaska Native people. We know the lawmakers on 
this subcommittee have fought for more IHS funding, and NCUIH 
wishes to express our profound thanks for those efforts.
    We would also like to provide IHS from funding 
uncertainties. As I stated more than once, the funding for 
UIHPs is severely limited. When that funding is delayed or cut 
off in the event of funding uncertainties, such as government 
shutdowns, UIHPs suffer greatly. It is for this reason, IHS and 
Indian health programs must receive advanced appropriations.
    According to a survey of UIHPs and the rising frequency of 
shutdowns and funding delays, many UIHPs have begun to set 
aside funding in the event of a further shutdown. This is 
funding that we actually need for our programs. We shouldn't 
have to worry about further shutdowns. We also would like to 
recommend that----
    Ms. McCollum. I have to----
    Ms. Rosette. OK.
    Ms. McCollum. Thank you.
    Ms. Rosette. All right. Thank you.
    [The statement of Ms. Rosette follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Ms. Echo-Hawk.
                              ----------                              

                                          Wednesday, March 6, 2019.

                     URBAN INDIAN HEALTH INSTITUTE


                                WITNESS

ABIGAIL ECHO-HAWK, DIRECTOR, URBAN INDIAN HEALTH INSTITUTE
    Ms. Echo-Hawk. Good morning, and I want to thank you, Madam 
Chair and Ranking Member Joyce, and also acknowledge 
Representative Kilmer who has such strong support of our 
organization in Washington with our urban Indians and our 
tribes. Thank you for this opportunity to speak with you.
    My name is Abigail Echo-Hawk. I am a citizen of the Pawnee 
Nation of Oklahoma, and I am the chief research officer of the 
Seattle Indian Health. In that role I direct the Urban Indian 
Health Institute, which is one of 12 tribal epidemiology 
centers located across the United States.
    The tribal epidemiology centers are tasked with ensuring 
that the health needs and the health resiliencies of American 
Indians and Alaska Natives are represented through evaluation, 
data collection, and research. This was an effort that was 
driven by tribal leadership, and we are directed by tribal 
leaders for our tribal nations. We fulfill a very unique need 
here in the country because often when we talk about research 
and data, what we hear is that we don't have data. This 
information doesn't exist. All you have is a few individual 
stories, but we need the data in order to make these informed 
decisions.
    It is our role to ensure that our tribal communities and 
our urban Indian communities have this information. However, we 
are woefully underfunded. And, in fact, I am directed to use 
the $341 approximately that is given across all of the 12 
tribal epidemiology centers to cover more than 70 percent of 
the population, and that is because the Urban Indian Health 
Institute represents the needs of all urban Indians living 
across the country.
    I specifically serve the organizations that Maureen 
represents, along with more than 20 others that provide social 
services, elder care, diabetes care, and youth services of more 
than 62 organizations in 28 States and more than 130 different 
counties across the United States, with less than $400,000.
    What does this mean? When we talk about evidence-based 
practices and the practices that we are supposed to implement 
within our tribal clinics, the evidence that is gathered for 
these practices don't actually represent us. So when research 
is done, American Indians and Alaska Natives are very rarely 
included. So practices that we are supposed to do in diabetes 
management and preventing cancer and obesity, those practices 
actually don't have our evidence in them. And if they were 
going to work, they would have worked by now. So we are forcing 
these interventions that were never meant for our people, yet 
that is what we are being asked by the government and the 
States and our counties to implement with our people.
    That is the reason organizations like the Urban Indian 
Health Institute and the tribal epidemiology centers are so 
important to the work that we do. We answer to the needs of our 
community, and very often we do that underfunded.
    I want to share with you two particular things that we have 
been doing at the Urban Indian Health Institute, one on sexual 
violence. We released a report in Seattle that talked to 148 
native women living in that city who had been affected by 
sexual violence. And what we found was a 94 percent 
victimization rate. That means 94 percent of these women have 
been sexually assaulted in their lifetime, and more than half 
of them had been sexually assaulted more than once in their 
lifetime.
    Along with that, what we found were corresponding health 
issues, such as suicidality. More than 42 percent of them had 
attempted suicide in their lifetime. High instances of alcohol 
misuse and opioid misuse. We are not battling an opiate 
epidemic. We are battling a trauma epidemic, and if we were to 
take away all the opiates, people would treat themselves with 
heroin, with methamphetamines, with alcohol. What it takes is 
research like the work that we are doing at the Urban Indian 
Health Institute.
    In my personal opinion, I believe our study is one of the 
very first ones that actually found the correct rates of sexual 
violence within our communities. There are stories where our 
women sit around and we don't talk about how do we prevent our 
women from being raped. We talk about what do we do after they 
are raped. That is the conversation our communities are having, 
and yet this data for the very first time is coming out of a 
little organization that had no money, and we self-funded that 
project in order to bring those to light.
    And, in fact, when we look at VAWA dollars, none of the 
VAWA dollars flow to organizations like the Seattle Indian 
Health Board because they go to the counties. And so we are not 
actually getting dollars to provide culturally-attuned care to 
our women who are victims of sexual assault and domestic 
violence. And so that is one of the instances of how those 
dollars aren't reaching the urban Indian communities.
    In addition, we have been doing work on missing and 
murdered indigenous women. We conducted the very first study on 
71 cities across the United States, and we found high instances 
of missing and murdered native women. And, in fact, our 
communities have been calling for a study like this to be done. 
The Department of Justice and the FBI said that I couldn't be 
done, that it would take too much money. I did it with less 
than $20,000 that, again, self-funded out of our organization. 
And we created a groundbreaking study that is the very first of 
its kind.
    What I found, though, is I can't tell you the rate of 
missing and murdered indigenous women, and that is because the 
police departments aren't collecting race and ethnicity. We 
found police departments that weren't collecting it at all, or 
if their police did not collect it, they automatically default 
you to white within their data systems.
    What is interesting about both of these studies is they 
were led by indigenous students that we support here at the 
Seattle Indian Health Board and the Urban Indian Institute. We 
are building tribal health capacity by supporting students and 
doing this work unfunded. It is a necessary thing for public 
safety for us to continue to address these issues and its 
impact on health on our women and our communities. Thank you.
    [The statement of Ms. Echo-Hawk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you very much. Mr. Joseph.
                              ----------                             

                                          Wednesday, March 6, 2019.

              NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD


                                WITNESS

ANDREW C. JOSEPH, CHAIRMAN, NORTHWEST PORTLAND AREA INDIAN HEALTH BOARD
    Mr. Joseph. Good morning, Chairwoman McCollum and Ranking 
Member Joyce, and members of the subcommittee. [Speaking native 
language] is my name. I am Andy Joseph, Jr., the Vice Chair on 
the Colville Confederated Tribes, and Chair of the Northwest 
Portland Area Indian Health Board. Thank you for this 
opportunity to highlight some of the recommendations I have 
made in my written testimony.
    As a tribal leader committed to advocating for healthcare 
of our people, I make these requests for our seven generations 
and ancestors and our chiefs who signed treaties with the 
United States, and sacrificed land, resources, and more than I 
can imagine. What I can imagine is that someday I will come 
before the Creator and the chiefs, and they will ask me if I 
asked for everything that we were promised, and I will tell 
them, yes, I asked for everything. So I ask this subcommittee 
to consider these promises, binding, legal obligations. And our 
chiefs, the upheld their end of the deal, and so must the 
United States and this Congress.
    With this in mind, I make these requests. We ask the 
subcommittee to commit to full funding IHS. I serve as the 
Portland area representative and co-chair of the National 
Budget Formulation Workgroup. I recommend that the subcommittee 
fully fund IHS phased over 12 years to get IHS up to $36.8 
billion. We request that IHS be funded at $7 billion in fiscal 
year 2020 with annual increases thereafter, and get IHS up to 
full funding.
    The fundamental budget principle for the Northwest Tribes 
is that the basic healthcare program must be preserved by 
Congress which can be done by ensuring that population growth 
and medical inflation for current services are always funded, 
and that program increases occur annually. I have said this 
before and others before me. IHS is between 50 to 70 percent 
underfunded, and this must change.
    In fiscal year 2019, IHS received an overall increase of 
$162 million, or 3.4 percent, above 2018 enacted level for 
program and services, not including the increase for mandatory 
contract support costs of $104 million. We estimate medical 
inflation and population growth for fiscal year 2019 at $268 
million, and with only $162 increase for program services there 
is a $106 million shortfall. We are concerned with that in the 
fiscal year 2018 programmatic funding, Indian Self-
Determination and Educational Assistance Act, 105(l) leases. 
105(l) leases were funded at $25 million in fiscal year 2018, 
and estimated at $39 million in 2019. While we agree that 
tribes should be funded for these leases, additional funds must 
be appropriated for this purpose and not taken out of increases 
for IHS and tribal facilities. With no IHS, our tribal 
hospitals in the Portland area and Northwest Tribes rely on PRC 
program to purchase all specialty inpatient care.
    PRC increases have been inadequate for Northwest Tribes, 
and particularly detrimental because of flat funding in fiscal 
year 2016. More tribes would benefit from increased PRC than 
appropriation to Indian Healthcare Improvement Funds for fiscal 
year 2020. We recommend a PRC program increase of at least $50 
million.
    Another area of great need is behavioral health. A special 
behavioral health pilot program was funded at $10 million in 
fiscal year 2019. Northwest Tribes support the pilot. However, 
Northwest Tribes recommend the option for tribal shares instead 
of grant awards for fiscal year 2020. We recommend that the 
Special Behavior Pilot Program for Indians be funded at $150 
million with an option for tribal shares, and an additional $5 
million made available to area boards, tribal epidemiology 
centers, and technical assistance to tribes.
    Northwest Tribes do not support funding for new healthcare 
facilities construction until the IHS priority system is 
changed. The Northwest Tribes would not see any of this funding 
for at least 20 years from now. Instead, for fiscal year 2020, 
we recommend a program increase of $25 million for small 
ambulatory programs with funding for staffing packages, 
increases for joint venture construction programs. In the past 
few years, the Northwest Tribes have been in a forefront 
training place in dental health aide therapists in Oregon and 
Washington with more students graduating this year, including 
from Idaho.
    I guess I will answer any questions when they get done. You 
have my written testimony, and thank you for this opportunity.
    [The statement of Mr. Joseph follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you, Mr. Chairman. There is so much to 
say, and that is why we organized to do a healthcare panel so 
we can dig into it deep this morning. Please.
                              ----------                             

                                          Wednesday, March 6, 2019.

                      SEATTLE INDIAN HEALTH BOARD


                                WITNESS

ESTHER LUCERO, CHIEF EXECUTIVE OFFICER, SEATTLE INDIAN HEALTH BOARD
    Ms. Lucero. Good morning, Madam Chair. It is wonderful to 
see you.
    Ms. McCollum. Same here.
    Ms. Lucero. Ranking Member Joyce, I am meeting you for the 
first time. Representative Kilmer, I think I missed you 
yesterday, but I am happy to see you today. And Representative 
Simpson, I have never met you, so I am happy to meet you today.
    My name is Esther Lucero, and I am the CEO for the Seattle 
Indian Health Board. I am Dine on my mom's side, and I am 
Latina on my dad's side. And I am the third generation in my 
family to live in an urban environment, so quite frankly, my 
entire life experience has been in an urban environment.
    The Seattle Indian Health Board is an urban Indian health 
program funded obviously, and we are also a federally-qualified 
health center, and that means that we see everybody. And 
despite the fact that we are smack in the middle of Seattle, we 
still maintain a patient population that stays between about 65 
and 70 percent American Indian and Alaska Native.
    One of the things that is unique about us, you met Abigail 
Echo-Haw, who I am incredibly proud of, and through her 
leadership on the work related to missing and murdered 
indigenous women, we have the Urban Indian Health Institute. 
And so I wanted to build upon what Abigail just said, and I 
wanted to let you know that the Urban Indian Health Institute 
is funded through IHS for just under $400,000 a year. So keep 
that in perspective, right?
    We have 12 tribal epicenters across the Nation, and we are 
asking for a $24 million line item ask to support the tribal 
task. If you break that down, that is about $2 million per 
tribal epicenter. That will allow us to build upon this work 
related to missing and murdered indigenous women, not just for 
us, but also for our tribal partners.
    You know, I am incredibly privileged to be in the State of 
Washington where we have leaders like Andy Joseph that I can 
learn from every single day. And so I want to remind everybody 
that we are a continuum of care, right? And so when I think 
about our tribal partners, we pick up where our tribal partners 
leave off in the urban environment, and we support our tribal 
members, right?
    So I just wanted to say that we have had incredible growth 
this year, and, Representative McCollum, I think you will be 
really happy to hear that in addition to our family medicine 
residency practice, we have actually built out an MSW practicum 
program because we are treating these dips with parity. Well, 
the other discipline we are treating with parity is traditional 
Indian medicine.
    So we actually built out a traditional Indian medicine 
apprentice program, and I will tell you that we have had our 
encounters increase from 150 encounters for traditional Indian 
medicine per month to 800 encounters per month. We have also 
been successful in securing a managed care organization who has 
agreed to pay for traditional Indian medicine as a value-added 
benefit. I share this with you because the Seattle Indian 
Health Board for the very first time is building out an 
integrated system of care that is not only inclusive of 
behavioral health and primary care, but also is centered on 
traditional Indian medicine. And our new model incorporates 
dental as well. And we have mobilized our human services so 
that they can be on call to support those service needs when it 
comes to homelessness like Maureen mentioned. And so we are 
very proud of that. It is called indigenous knowledge informed 
systems of care. It is a strength-based model.
    Now, I am sharing that with you because are asking for a 
$95 million line item increase for the urban Indian health 
programs. We are grateful that there was a $60 million 
recommendation out of this committee. I mean, you all are rock 
stars when it comes to supporting us. However, when it got to 
the Senate, we ended up with about $2 million, right? So we are 
asking for a continued effort to increase that line item.
    Now, when we are trying to implement new systems that are 
integrated, innovative systems, we have to address the 
infrastructure needs, right? So we have to change our data 
systems so they can speak to one other. We have to address 
facilities changes because it is very hard to build out an 
empanelment system with these old buildings that we have had 
since the 1970s. And so if we are going to put these teams of 
practitioners together, we have to redesign, and we need 
support with that.
    So we are modeling ourselves after the aggressive approach 
that we are taking through the Northwest Portland Indian Health 
Board and the leadership of our tribes, and we are increasing 
that to ask you to invest in infrastructure. Urban Indian 
health programs have never had the ability to do that. Now, I 
know this is possible because HRSA actually did it this year. 
For the very first time, HRSA through a mental health expansion 
grant included infrastructure dollars. I was surprised to see 
it, but also excited. So let's think about that as a model, 
right?
    So I will just share that with you that we are still 
continuing to fight for 100 percent FMAP, and someday I won't 
have to say that. But today I am saying it, and I am saying it 
because in the State of Washington, through the leadership of 
the American Indian Health Commission, we have been able to 
develop an innovative bill. So we have a Washington Indian 
healthcare improvement bill that is in the State right now 
moving through committee through the leadership of Andy Joseph 
and others, where we are asking the State of Washington to 
reinvest 100 percent FMAP dollars into the IHCU system of care. 
OK. We can only do that because our tribal members recognize 
our value, and they have said let's bring our urbans along with 
us, right, not because urban Indians are eligible for the 100 
percent FMAP. We are asking for 100 percent FMAP for urban 
Indian health programs. So I think that now that States have 
more authority over healthcare, if we can come up with 
innovative requirements like that, we can do better.
    And then lastly, I will just say that we support the tribal 
request for advanced appropriations. Yeah. Let me tell you why. 
Because the shutdown gave me some gray hairs this year.
    Ms. McCollum. Well, I am sure you will probably get a 
question on that----
    Ms. Lucero. OK. Let's do that.
    Ms. McCollum. But I have to be----
    Ms. Lucero. Oh, you have to stop me. [Laughter.]
    Ms. McCollum. I have to be as judicious as possible----
    Ms. Lucero. This is the----
    Ms. McCollum [continuing]. And as polite as possible----
    Ms. Lucero. Yeah.
    Ms. McCollum [continuing]. Especially when we are so 
wanting to hear from all of you.
    Ms. Lucero. Right.
    Ms. McCollum. It is hard. It is hard.
    Ms. Lucero. This is the first time I have gone over, and 
so----
    [Laughter.]
    Thank you for stopping me.
    Ms. McCollum. It is all good.
    [The statement of Ms. Lucero follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. Thank you, Madam Chair, and I want to say thank 
you for the work that has been done shining a light on the 
crisis of missing and murdered indigenous women and girls. I 
thought it was devastating to see that Washington State had the 
second-highest number of instances. Both Seattle and Tacoma 
were in the top five cities. And I know we are short on time, 
so I guess my main request would be just to hear how Congress 
can work with you to make sure you are getting the data that 
you need, that this issue is getting the attention that it 
needs, and then hopefully that you are getting the resources 
you need to address it.
    Ms. Echo-Hawk. So one of the areas that we are working on, 
there are opportunities right now going on with Savanna's Act. 
We are part of a tribal coalition that is working towards and 
sharing that there are as many unintended consequences with 
what is going on with Savanna's Act, but it also does look at 
what kind of information and data is being gathered.
    In addition to that, there needs to be further cooperation 
between both the police departments and the Department of 
Justice and the FBI. When we look at the urban settings, very 
often, you know, people don't understand that we are not 
talking about the tribes with the work that I did. The tribes 
have a unique relationship with the Department of Justice and 
the FBI, and they are not getting the information either.
    We are in the cities being served by police departments. 
Many of the police departments, actually it was approximately 
17 percent never responded to our public records request, so 
they never actually sent us the money. I am sorry. I gave some 
of them money, and they didn't send us the data. And so I 
actually paid some of them, and they never sent us the 
information. And so, accountability as to for them to respond 
to the public in addition to why aren't they mandated in the 
same way we are in healthcare to collect race and ethnicity, 
because they don't know what is happening with missing and 
murdered people? How can they protect and serve their 
communities if they are not doing so?
    So there are opportunities at the Federal level to look at 
the way that dollars are flowing into counties, into States, 
into police departments to ensure accountability, and we are 
more than willing to provide feedback and work with our tribal 
colleagues to ensure that that is happening in Savanna's Act, 
and also with other pieces of legislation to ensure that 
accountability.
    Mr. Kilmer. Thank you.
    Ms. McCollum. Anything else?
    Mr. Kilmer. Thanks, Madam Chair. No, thank you.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Ms. Echo-Hawk, did I hear you correctly in that 
the----
    Ms. McCollum. We want to hear you, so----
    Mr. Joyce. Did I hear you correctly that law enforcement 
has not provided you the data under public records request?
    Ms. Echo-Hawk. Correct. So I am remembering offhand, but I 
believe it is approximately 16 to 17 percent of those that we 
asked for it did not provide that to us. Some of them, for 
example, we have actually heard from now from the Portland 
Police Department is one that we paid, that some of them 
required payment, so.
    Mr. Joyce. Why are you paying?
    Ms. Echo-Hawk. That was our question, too. Often within 
their States, if it did what they called an undue burden on 
their police departments, we were then required to pay for the 
data. I actually was asked to pay for more than one, a request 
for more than $4,600 where I could have gotten more data, and I 
couldn't afford it because I self-funded this project. And so I 
would have had more data if I had had $4,600.
    For the States that didn't reply, for example, in Billings, 
Montana, the chief of police actually accused us of lying, that 
we hadn't actually send the public records request. Luckily, we 
used a service where we screenshot it, sent it to him and also 
the records, and we had no response after that from the 
Billings Police Department in Billings, Montana. And so there 
is noncompliance from many of, not many, but some of these 
police departments with public records requests.
    Mr. Joyce. You shouldn't be paying for anything unless you 
are asking them to create data that they are not keeping as a 
public record, correct?
    Ms. Echo-Hawk. Correct. That is one of the issues.
    Mr. Joyce. So this is stuff that is already done by them, 
and the only cost they can charge you would be the cost-per-
copy----
    Ms. McCollum. Right.
    Mr. Joyce [continuing]. Which really isn't a cost-per-copy 
since they are going to give it to you in e-format anyhow, 
correct?
    Ms. Echo-Hawk. Exactly. So, for example, in Alaska, we 
asked for records prior to 2013, and they hadn't digitized 
their records prior to 2013. So they weren't able to give us 
that information, but they are working towards giving us 2013 
forward. But it really depends State-to-State. There are some 
State laws that allow them to charge if it is an undue burden 
to them, and that is really dependent on each individual 
department as to what they constitute an undue burden.
    Mr. Joyce. Well, an undue burden would be when they have to 
extrapolate from the data they have already collected certain 
things specific for you. But if you are getting public records, 
maybe that is something the local newspaper should look into. 
They are always pretty good about jostling police departments.
    Ms. Echo-Hawk. I agree, and many newspapers actually 
replicated, because they were able to see what our public 
records request was. They replicated that because they wanted 
to also look at the data and information. So there is news 
coverage on that. But also to me it is an area of 
accountability. Why is it so hard for us to get these public 
records? We are members of the public, and the very definition 
they are our records.
    Mr. Joyce. Right. Absolutely. Thank you.
    Ms. McCollum. Mr. Simpson.
    Mr. Simpson. No specific questions. I am curious, Abigail, 
are you related to Larry?
    Ms. Echo-Hawk. Yes, that is my uncle.
    Mr. Simpson. Ah, he is good friend of mine. We served 
together in the Idaho legislature, and he was a great director 
of the BIA. And he went on a couple CODELs with us to South 
Dakota and Oklahoma and other places. Yeah, he is a great guy.
    Ms. Echo-Hawk. Yeah, I am very fortunate.
    Mr. Simpson. Yeah. Thank you all for being here today and 
for your information.
    Mr. Joseph. May I say one more thing? You know, I co-chair 
the IHS National Budget, and the PRC that I talked about was 
low funded in 2016. And it has been, you know, based on 
numbers. If we keep going backwards, we are going to be back 
into the life or limb priority one situation with IHS again. I 
just really urge you to look at increasing the PRC. It would 
help every area, not just the Portland area. I don't want to 
get back into priority one status.
    Ms. McCollum. Agreed. I saved myself for last. I am trying 
to do things a little differently on the committee, especially 
when we are in these wonderful settings where we are hearing 
directly from you.
    One of the things that I am hearing and read throughout the 
testimony is this issue of grants versus direct funding. So if 
we don't do grants,--and you don't have to answer this today. 
You can get back to me. If we start going to formula, then 
sometimes it is based on per capita, and per capita works, and 
then sometimes it doesn't work depending upon the dollars that 
are there. If you do it by per capita, then some smaller tribal 
organizations will just find themselves left out, whereas 
competitive grants kind of gives everybody a shot, but is not 
co-equal.
    So this is something I am going to ask you to talk about 
amongst yourselves and come to us with proposals. I don't want 
to just assume that I know what will work best because we don't 
want to leave anyone behind. And you, better than anyone else, 
I think, exemplify groups that feel because you don't have all 
of the specific line items, many in your urban healthcare 
settings. So if you could help me with that.
    The whole issue about murdered indigenous women, First 
Nations in Canada has been working on it. The Northern Tribal 
areas have been working on this. I know Minnesota under the 
leadership of our lieutenant governor, Peggy Flanagan, and we 
have several Native American women who serve in our State 
legislature taking a great lead on this.
    But this is in the Department of Justice, and in reading 
the testimony again and hearing you over the years, many of the 
things that happen in the Department of Justice, the way that 
they are handled impact how healthcare is provided later on. So 
it is something I am going to sit down and talk to my 
counterpart on CJS, maybe with Mr. Joyce. We can talk to the 
ranking member and the chair about how one thing impacts the 
other and see if we can talk to them about what to do.
    Mr. Cole and I worked hard to get the 5 percent set-aside 
for tribes in the Crime Victims Fund. That was a victory, but 
there is still more work to be done. So any conversations that 
you have with our colleagues maybe also need to include the 
Appropriations members who fund Judiciary.
    The opioids dollars, shocking. You were not able as 
organizations to apply for the opioid dollars. SAMHSA did not 
have enough applications submitted to them.
    Ms. Lucero. Right.
    Ms. McCollum. This is another thing where the grants 
program kind of failed. Dollars were left on the table. So my 
question is, do you know exactly what we need to do in the 
opioids program to fix this, and if so, tell us right now, and 
we'll talk to the authorizers.
    Ms. Lucero. I can speak to this. We have been speaking with 
many administrative bodies. When you put out the RFAs, you have 
to explicitly state that urban Indian health programs are 
eligible because what happens is oftentimes it says tribes and 
tribal organizations, and the assumptions within the 
administrative bodies is that we are ``a tribal organization.'' 
But that is a specific designation that we don't fall into. So 
it has to explicitly state ``urban Indian health programs.''
    Ms. McCollum. OK. So we need to see if it is statute, rule, 
or whatever.
    Ms. Lucero. Exactly.
    Ms. McCollum. We are on it.
    Ms. Lucero. Thank you.
    Ms. McCollum. We are on it. The Special Diabetes Program 
that Mr. Simpson and I saw had been, you know, culturally moved 
forward. You have talked about some of the things that you are 
doing. Is there anything that is prohibiting you from doing 
more culturally-oriented things besides space?
    Ms. Lucero. Yeah. Well, I mean, I have to tell you, it is 
our IHS dollars that allows us to maintain our cultural 
integrity. So it funds our entire traditional Indian medicine 
program, so that is why we consistently ask for increase in our 
IHS funding because until we get a system that allows us to be 
self-sustaining, we need that money.
    Ms. McCollum. So when you are in an urban setting versus on 
a reservation, is it more challenging to come up with 
culturally-appropriate activities, because what Mr. Simpson and 
I saw were people going out fishing and harvesting the rice and 
all that. So is it more challenging for you to do it, yes or 
no, or is that a fair question?
    Ms. Lucero. Well----
    Ms. McCollum. I am not sure.
    Ms. Lucero. Well, let me answer it this way. So we serve 
representatives from more than 250 federally-recognized tribes.
    Ms. McCollum. Right.
    Ms. Lucero. So we have to have more diversity in the ways 
that we provide traditional Indian medicine or cultural 
programs. And so, yes, it makes it a little bit harder, I 
believe for us. We are building out a network of traditional 
Indian medicine practitioners so that we can cover as many 
regions as possible, and that takes resources, right? So, yes.
    Again, I always stay away from this idea that tribes 
somehow have it harder or urbans have it harder because we are 
the same. We are a continuum of care. We need to support the 
whole, right? It is just our needs are sometimes different.
    Ms. McCollum. OK. Well, I let everybody go 30 seconds over, 
Mr. Joseph, because my grandmother would be very disappointed 
if I didn't respect an elder at the table. I will give you 
another 30 seconds if you want to add something.
    Mr. Joseph. I will just use myself as an example on 
traditional medicines and healing, on my great, great, 
grandmother's grave. She lived to be 118 years old, and she ate 
our traditional foods and medicines, and the work that it takes 
to gather. I have included that in my diet for my evening meal. 
I went from being severely obese. Now I am right there at the 
edge of not being obese in 2 months' time, so. But one of the 
things that we are dealing with is the Federal Tort Claims Act, 
also is hindering some of our traditional practices because 
they are not really respecting our sovereignty to be able to 
treat ourselves in a traditional way, not only with our 
nutrition, but with mental health.
    And I co-chair the SAMHSA TTAG as well, and we have been 
working on trying to get them to use traditional practices. The 
VA does. They have a sweathouse behind their VA hospital, so it 
works.
    Ms. McCollum. Thank you. Thank you, sir. Thank you so very 
much. Mr. Joyce, would you like to introduce the next panel?
    Mr. Joyce. I would be honored to.
    Ms. McCollum. The next panel, if you would please come 
forward.
    Mr. Joyce. Thank you all for being here today. In case you 
weren't here initially, we will give each of you 5 minutes, and 
then we will take questions at the end, starting with Dr. 
LeBeau.
                              ----------                              

                                          Wednesday, March 6, 2019.

                  CALIFORNIA RURAL INDIAN HEALTH BOARD


                                WITNESS

MARK LEBEAU, M.D., CHIEF EXECUTIVE OFFICER, CALIFORNIA RURAL INDIAN 
    HEALTH BOARD
    Dr. LeBeau. OK. Well, thank you. Good morning, Chair and 
committee members. My name is Mark LeBeau. I am the chief 
executive officer of the California Rural Indian Health Board, 
or CRIHB for short. Thank you for providing me the opportunity 
to testify about funding and other needs of the Indian Health 
Service agency and tribal health programs in California.
    CRIHB was established in 1969 and provides comprehensive 
healthcare-related support to 16 tribal health programs 
sanctioned by 45 tribes serving Native Americans in California 
through 40 tribal clinics. CRIHB is an Indian Self-
Determination Act contract administrator and provides a number 
of statewide programs.
    Native Americans continue to experience some of the worst 
health inequities of any underserved population in the United 
States. The Department of Health and Human Services reports 
that Native Americans have significantly higher health 
disparities in depression, suicide, obesity, substance abuse, 
hepatitis, infant death rate, and diabetes than other 
populations. A recent Kaiser Foundation report reports similar 
findings as well as higher health disparities in cardiovascular 
disease, and experiencing frequent mental distress than other 
populations.
    Here are our requests: number one, fully fund the IHS 
agency and ensure each IHS area receives an equitable amount of 
the resources. This honors the Federal trust responsibility 
tribal governments. As Chairman Andy Joseph noted, just 
recently the National Tribal Budget Formulation Work Group 
calculated funding need to be about $36.8 billion phased in 
over 12 years. The Agency has not received adequate funding. 
For example, in 2015, IHS spending for medical care per user 
was only about $3,100, while the national average spending per 
user was about $8,500. This correlates directly with the 
unacceptable high rates of premature deaths and chronic 
illnesses suffered throughout tribal communities.
    Second request: ensure IHS is not subject to sequestration 
that occurs as a result of the Budget Control Act of 2011. The 
law was designed so that Federal programs that serve the most 
vulnerable populations were exempt from the full sequester, but 
this does not include Indian Health Service or a number of 
other programs serving Indian Country.
    Third request: secure advanced appropriations for IHS. If 
IHS had received advanced approps, it would not have been 
subject to their recent government shutdown as fiscal year 2019 
funding would already have been in place. Adopting advanced 
appropriations for IHS results in the ability of health 
administrators to continue treating patients without wondering 
if or when they have the necessary funding.
    Fourth request: please enact mandatory approps for Indian 
Health Service. Funding for IHS should be treated as mandatory 
spending. This would be in alignment with the Federal 
government's trust responsibility for health which is the 
direct result of treaties, Federal law, and Supreme Court 
cases.
    Fifth request: please increase appropriations to Indian 
Country outside of IHS. Tribes and tribal organizations 
disproportionately receive a low number of the Department of 
Health and Human Services grant awards. Therefore, Congress 
should grant awards directly to tribes, create set-asides for 
HHS block grants so that tribal communities have access to 
these funds on a recurring basis, and where States receive 
funds to pass through the tribes, Congress should require 
tribal consultation on the use of those funds.
    Sixth request: please enact long-term renewal for the 
Special Diabetes Program for Indians at $200 million. It is 
paramount to pass legislation to renew the program. The current 
authorization expires on September 30th, 2019. The program has 
not received an increase in funding since fiscal year 2004, 
which means the program has effectively lost about 25 percent 
in programmatic value over the last 15 years due to the lack of 
funding increases corresponding to inflation.
    My final comment is tied to my first recommendation, and 
that to ensure current IHS funding is distributed equitably. 
CRIHB has testified before about the lack of fundamental 
fairness in IHS allocation program funding. The California IHS 
area is not receiving its fair share of purchased and referred 
care: hospital, health centers, staff quarter, and joint 
venture construction, and other program funds. This persistent 
problem needs to be remedied and creative tribal health program 
representatives in California would like to work with the 
committee to address the issues.
    In conclusion, on behalf of CRIHB, we thank the committee 
for holding this important hearing on tribal health and other 
programming, and look forward to the opportunity to provide 
further guidance. Thank you.
    [The statement of Dr. LeBeau follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. I have to comment, your timing is 
impeccable. It is right at the 5-minute mark.
    Next, Ms. Tetnowski.
                              ----------                             

                                          Wednesday, March 6, 2019.

               INDIAN HEALTH CENTER OF SANTA CLARA VALLEY


                                WITNESS

SONYA TETNOWSKI, CHIEF EXECUTIVE OFFICER, INDIAN HEALTH CENTER OF SANTA 
    CLARA VALLEY
    Ms. Tetnowski. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and subcommittee members.
    Ms. McCollum. Microphone, please.
    Ms. Tetnowski. Thank you. Can I start again?
    Ms. McCollum. Yes.
    Ms. Tetnowski. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and subcommittee members. My name is Sonya 
Tetnowski. I am the chief executive officer for the Indian 
Health Center of Santa Clara Valley as an urban Indian health 
program in San Jose, California. I am an enrolled member of the 
Makah Tribe, and I would like to thank the subcommittee for 
holding these hearings.
    IHC has been serving the American Indian community for over 
40 years. We provide full service to 22,000 patients throughout 
Santa Clara Valley, and 73 percent of those fall within the 
poverty line threshold. I also serve as the president of the 
California Consortium of Urban Indian Health. CCUIH is an 
alliance of 10 urban programs serving about 70,000 patients per 
year. We are committed to serving American Indian people no 
matter where they live.
    I will be covering four key points during my testimony 
today. One, it is critical that IHS receive advanced 
appropriations alongside other health services such as VA. We 
would like to request IHS be appropriated a year in advance. 
Although 70 percent of American Indians live off reservation 
lands, the urban programs only receive 1 percent of the IHS 
budget to serve this ever-growing population. We are asking for 
an increase from 1 to 2 percent of the IHS budget.
    Two, in recognition of the Federal trust responsibility, 
American Indian healthcare belongs to the Federal government, 
not to the States. It is my position that urban Indian health 
programs should receive 100 percent Federal match for Medicaid 
services, a protection already enjoyed by IHS and tribal 
facilities. Urban programs are a critical part of the ITU 
health delivery system and should be included in the 100 
percent FMAP protection.
    Three, the opioid epidemic is affecting American Indian 
people in both tribal and urban Indian communities. While we 
acknowledge the incredible efforts of SAMHSA tribal opioid 
response grants, urban programs were not eligible to apply. 
Please act to correct this oversight.
    Four, in 2010, IHS and VA signed an MOU to promote 
interagency collaboration. While this is great news, urban 
programs were not referenced. We maintain that this is a simple 
oversight. As a veteran myself, I know that our people serve in 
the military at higher rates than any other race and should 
have access to culturally-competent healthcare by the ITU 
system. I ask you for the inclusion of the urban programs in 
this IHS VA MOU.
    I present each of you with this challenge coin to 
commemorate today and ask you to accept the challenge to 
address these four issues I have laid out today. Thank you for 
the opportunity to testify before you today, and ask you again 
to help me to continue to provide culturally-competent care to 
every American Indian and Alaskan Native, no matter where they 
live.
    [The statement of Ms. Tetnowski follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for both your testimony and your 
service.
    Ms. Tetnowski. Thank you.
    Mr. Joyce. Next, Ms. Sanchez.
                              ----------                             

                                          Wednesday, March 6, 2019.

       RIVERSIDE SAN-BERNARDINO COUNTY INDIAN HEALTH BOARD, INC.


                                WITNESS

TERESA SANCHEZ, BOARD MEMBER, RIVERSIDE SAN-BERNARDINO COUNTY INDIAN 
    HEALTH BOARD, INC.
    Ms. Sanchez. Good morning. I am Teresa Sanchez. I am board 
vice president for Riverside-San Bernardino County Indian 
Health, located in southern California, and I am also a member 
of the California Area Tribal Advisory Committee, and a member 
of the Morongo Band of Mission Indians. Thank you for the 
opportunity to testify.
    IHS funding shortfall to tribal clinics. An issue was 
discussed with the acting IHS director both at the CRIHB board 
meeting and through our conversations with the California area 
office that we received the same level of funding which we 
received in fiscal year 2016-17 for fiscal year 2017-18. We 
have projected, based on historical calculations at the 
national level, we would receive a $1.5 million to $2 million 
increase based on the national IHS budget, receiving a 9.9 
percent increase in 2017-18. We did not find out until the last 
day of the fiscal year when our final amount was paid, and it 
was less than the previous year.
    CRIHB only received a 1.1 percent increase for all the 
clinics they represent. In addition, the acting director 
reallocated $25 million out of the inflation funding to address 
a lawsuit. Acting director reallocated $25 in inflation funding 
to address--I am so sorry. I lost my place.
    Ms. McCollum. Don't worry about it.
    Ms. Sanchez. On the lawsuit on the lease agreements in 
Alaska. These funds should have come to the clinics for base 
funding. They acted on this change with minimal consultation 
with the tribes, and only 12 working days' notification after 
the July 4th holiday. To compound matters, they did not inform 
the tribes of this decision until mid-September. Finally, they 
had $33 million in unspent funding the CHEF account that could 
have been used, but was not used to cover the lease agreement 
lawsuit. All of these issues were raised with the acting 
director because of the lack of transparency at the national 
IHS level.
    The importance of providing purchase referred care. 
Riverside-San Bernardino County Indian Health and CRIHB are 
working on a coordinated effort with other areas in the United 
States who have no access to hospitals to make this component a 
higher priority in the funding formula. Of the 12 Indian Health 
Service's areas across the United States, four of the major 
national areas are PRC dependent: California, Portland, 
Bemidji, and Nashville. The California and Portland areas rely 
on the PRC Program to purchase of their inpatient care, while 
Bemidji and Nashville areas are dependent on the program to buy 
most of these services. The tribal health clinics and PRC-
dependent areas must use this extremely limited PRC funding to 
cover the costs of placing patients in non-IHS tribal 
hospitals, and are purchasing other specialty care services.
    The funding often runs out before the end of the fiscal 
year in the past, leading to the denial or rationing of 
impatient and other specialty care. Although the remaining 
eight IHS areas have inpatient facilities funded through IHS, 
these facilities also receive PRC funding. This further assists 
these areas in strengthening the system of care that they 
provide.
    A critically important need exists to move the PRC-
dependent access to care factor from the program increases 
category in the PRC funding distribution formula to the annual 
adjustment category. This will increase the potential for PRC-
dependent areas to receive funding for the purpose of 
eliminating inequities in funding for PRC programs as 
specifically authorized in the Indian Healthcare Improvement 
Act.
    As it historically and currently stands, the base funding 
category is first resourced followed by the annual adjustment 
category. And if any pending remains unallocated, it is moved 
into the last category of programming increases with the access 
to care factor and also with CHEF funding.
    Another topic at the PRC national meeting was the advocacy 
by PRC representatives for changing the threshold for the CHEF 
finding. This program pays for catastrophic medical costs after 
a clinic has met a $25,000 match and will reimburse clinics the 
above amount. The IHS acting director has not moved forward on 
the recommendation to move the threshold from $25,000 to 
$19,000, even though the issue has gone out for comments twice 
in the Federal Register. The acting IHS director was concerned 
that in order to implement the change, there is a statutory 
requirement to include a CPI adjustment factor, and the 
analysis by the PRC staff used 3.4 percent CPI rate. However, 
in reviewing the data through the last 5 years, the CPI would 
take 10 years to move from $19,000 to exceed the existing 
threshold of $25,000. However, the national PRC committee 
advocated for the change because a great deal could happen over 
the 10-year period, and the program had a $33 million carryover 
balance for 2017-2018 fiscal year.
    I thank you for your time and consideration.
    [The statement of Ms. Sanchez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you for your testimony. Last, Ms. 
Kitcheyan.
    Ms. Kitcheyan. Kitcheyan.
    Mr. Joyce. Kitcheyan. I heard you tell Mr. Simpson, too. 
[Laughter.]
    I apologize. You have 5 minutes.
                              ----------                             

                                          Wednesday, March 6, 2019.

                      WINNEBAGO TRIBE OF NEBRASKA


                                WITNESS

VICTORIA KITCHEYAN, TRIBAL COUNCIL MEMBER, WINNEBAGO TRIBE OF NEBRASKA
    Ms. Kitcheyan. Good morning, Chairwoman McCollum and 
Ranking Member Joyce and members of the subcommittee. My name 
is Victoria Kitcheyan. I am a member of the Winnebago Tribal 
Council, and I am the chairwoman of the National Indian Health 
Board. I am here today to talk about funding priorities for the 
Indian Health Service in fiscal year 2020.
    As we are all aware and we heard from my colleagues today, 
the Indian Health Service is chronically underfunded for 
decades, and it is no wonder that the American Indian/Alaska 
Native citizens receive greater health disparities than any 
other citizens in our Nation. And those statistics are 
staggering with 5.5 years less life expectancy, a higher infant 
mortality rate. We heard some of these really sad statistics 
today, so I won't go on and on about that. But I just want to 
say that funding for IHS plays an important and critical role 
in those disparities. We cannot continue to financially starve 
the system and expect better health outcomes.
    We want to thank this committee for the bipartisan support 
we have received to increase funding to IHS over the years. We 
truly appreciate the commitment of this committee to ensure 
that those increases happen. However, those increases have gone 
largely to inflation, population growth, and the rightful 
funding of contract support costs. So in order to truly achieve 
marked improvement and progress, we need to make a bolder plan 
for funding IHS.
    NIHB supports requests of the Tribal Budget Formulation 
Work Group. Those tribal leaders are calling for fully funding 
IHS at $35 billion over 12 years. This funding would allow IHS 
to improve critical infrastructure as well as expand services 
to American Indian/Alaska Natives who aren't using the service 
due to underfunding. We begin this 12-year phase for fiscal 
year 2010 with a $7 billion recommendation. That would include 
$2.5 for hospitals and clinics which is the core services 
budget. In addition, $1.4 billion for purchased care and $254 
million for mental health.
    Also we are calling for a separate line item for health IT 
infrastructure. We need to make necessary upgrades to our 
electronic health system. The VA is already receiving this 
investment, and we truly appreciate this on the IHS side. You 
can read more details about this in the written statement. 
Also, Tribal Budget Formulations testimony is on the NIHB 
website.
    Today I want to focus on a policy priority for NIHB as well 
as the tribes, and that is securing advanced appropriations for 
IHS. Thank you, Chairman McCollum and Rankin Member Joyce, for 
your leadership on this issue.
    The 35-day partial government shutdown in the start of 2019 
had a devastating impact on tribal health systems. Tribes 
throughout the country reported rationed care, reduced 
services, and some facilities closed altogether. This reckless 
shutdown destabilized native health delivery as well as 
provider access, tribal governments, families, children, and 
individuals. One tribe reported cutting services to ensure 
their health systems would remain open. We heard of cuts to 
transportation, behavioral health, prevention, TANAF. Another 
tribe reported cuts to elders, cultural youth, and other 
community services. Others reported concern with outside health 
facilities not accepting the referrals from IHS. And one lost 
four nurses to the private sector during this time.
    So with all this, we must do something differently. 
Enacting advanced appropriations of IHS would ensure that 
funding is available a year in advance, and that we would not 
be negatively impacted by any unrelated political battles. 
Advance appropriations would help honor the trust 
responsibility that our ancestors entered into and ensure that 
the Federal government would commit to upholding those 
treaties.
    And it isn't just the shutdowns. In September 2018, the GAO 
released a report noting that the current system for IHS 
appropriations and numerous short-term continuing resolutions 
places a serious financial and an administrative burden on the 
IHS as well as the tribes. GAO also noted that the current 
system of the CRs and shutdowns make it hard for long-term 
planning, entering into contracts and vendor agreements, a 
significant impact on recruitment, especially in rural areas. 
And with a 25 percent vacancy rate, we can't afford to have any 
other wrenches in our system.
    And so the VA already receives advanced appropriations and 
other federally-funded programs, such as Medicare and Medicaid, 
receive mandatory spending. And so we would like to see, like 
VA, IHS receive some of that same commitment. It has a direct 
medical commitment to fulfill the legal promises made by the 
government. And we believe providing advanced appropriations to 
IHS would create that parity between other Federal health 
systems.
    I hope that we can work together today to work towards 
this. NIHB stands committed to this goal. We would like to help 
you champion this on behalf of the tribes. Thank you today, and 
I would be happy to answer any questions.
    [The statement of Ms. Kitcheyan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you all for your testimony. Madam Chair, 
do you have any questions?
    Ms. McCollum. I do, but I am waiting to get an answer back 
from my staff, if they are not in a meeting, as to how much we 
have spent between the DOD and the VA trying to get their 
medical records straight.
    Mr. Joyce. Too much.
    Ms. McCollum. I am going to wait. Too much, but I----
    Mr. Joyce. That was one of the biggest surprises I had 
serving on MILCON was how much we spend on the VA and we are 
still not getting it right between the Service and the VA.
    Ms. McCollum. Should I put you on the spot and ask you the 
number? Too much.
    Mr. Joyce. It was a term ago. Yes. [Laughter.]
    When I was on it.

                         MILCON-VA SUBCOMMITTEE

    Ms. McCollum. I think we could spend a fraction of the cost 
getting VA medical records up, but I am going to wait until 
after you and Mr. Simpson are done. Thank you.
    Mr. Joyce. Mr. Simpson.
    Mr. Simpson. Thank you all for being here and for your 
testimony. Instead of trying to find a way to keep things 
funded during a government shutdown, we should commit to not 
shutting down the government. Bad policy. Bad politics. Just 
stupid. I don't think you would find any argument from anybody 
on this committee or anybody on the Appropriations Committee, 
that shutting down the government is no way to run a railroad. 
But I understand your issue and your problems, and it seems 
like we always forget about, when over the years when we have 
done certain things for certain agencies to prevent funding 
lapses, we always forget to include Native Americans. So that 
is a problem.
    Just out of curiosity, Sonya said that you had 22,000 
patients throughout Santa Clara County, right? And you had 
70,000 patients that come from surrounding community and so 
forth?
    Ms. Tetnowski. Yes.
    Mr. Simpson. Are those all Native Americans?
    Ms. Tetnowski. Yes.
    Mr. Simpson. Do you serve anybody outside the Native 
American population?
    Ms. Tetnowski. I do, yes. I am also a federally-qualified 
health center, so I serve everybody.
    Mr. Simpson. OK. And the reason I ask is right now they are 
having an issue in the Idaho legislature. They are trying to 
expand dental care to allow dental therapists on Native 
American reservations, which the Dental Association is OK with. 
The problem is that if they then serve also non-native 
populations, that creates a problem of expanding the scope of 
practice. And that is the challenge they are dealing with right 
now. There are only 2 States that allow dental therapy, one of 
them Minnesota and one of them Alaska. And I have always taken 
the position I don't want to Federal government determining 
what scope of practice is. That is the State's responsibility.
    Ms. Tetnowski. Yeah.
    Mr. Simpson. And so they are trying to work that out, and I 
have no problem with allowing dental therapists on reservations 
to serve native populations, particularly in areas where you 
can't get a dentist to go, you know?
    Ms. Tetnowski. Right. There so many rural communities and 
access is critical. And recruitment has always been an issue 
whether it is tribal or urban. So we continue to face that 
across the board with all providers, yeah.
    Mr. Simpson. But that is the challenge is----
    Ms. Tetnowski. Yeah.
    Mr. Simpson [continuing]. Serving the Native American 
population versus the non-Native American population by the 
same therapist, you know.
    Ms. Tetnowski. Right.
    Mr. Simpson. They will work it out, but it is good that 
they are discussing it. But thank you all for being here today 
and for your testimony.
    Ms. Tetnowski. Thank you.
    Ms. McCollum. Do you have a question? I have one.
    Mr. Joyce. I have one for Mr. LeBeau. Under former Chairman 
Calvert's leadership, the subcommittee provided significant 
funds to the Indian Healthcare Improvement Fund to try and 
reduce the funding disparities across Indian Country. Did those 
funds considerably improve the situation for California tribes?
    Dr. LeBeau. Well, not in the way that we had hoped given 
that there's over 100 federally-recognized tribes in California 
and, you know, well over 50 tribal satellite clinics in rural 
and frontier regions of California.
    The end result of the first distribution of funding to the 
California IHS area resulted at about 3 to 4 small tribal 
clinics receiving some funding. For those particular clinics, 
that is great news, you know, in terms of, you know, continuing 
to deliver care. But for the vast majority of tribal clinics in 
California, they saw zero funding during the first go-round.
    I happen to serve on the IHS Indian Healthcare Improvement 
Fund Work Group representing California along with a gentleman 
by the name of Chris Devers from Southern California. We 
continue to advocate and make recommendations to the full work 
group and to IHS to strive to ensure that more resources are 
provided to our chronically-underfunded IHS areas. You know, 
the issue continues to persist, however, so we do appreciate 
the support of the committee in providing funding for that line 
item. It was helpful.
    You know, additional support and direction and guidance, I 
think, from the committee would be even further helpful. Thank 
you.
    Mr. Joyce. Thank you. Madam Chair.
    Ms. McCollum. Thank you, Mr. Joyce. Current contract for VA 
going out 10 years is an additional $16 billion. My staff has 
said, he told me he was going to try to pull together how much 
the government spent in the last 20 years. I told him this was 
good enough to make our point. Thank you. I think we need to do 
better. We heard last year about challenges with medical 
records in general. Some systems, I think, in California were 
still using DOS. I heard it was not very efficient, not very 
practical, and not right.
    I would like for a second, to discuss the Special Diabetes 
Program--the doctor mentioned and almost every tribe when it 
comes to healthcare talks about it--has been flat funded since 
2004. And the amount of dollars that it saves by preventing 
cost overruns in Medicare, Medicaid, any of the Federal 
programs that tribal members might be eligible for, plus the 
Indian Health Services. Is there a repository someplace so that 
we know how many people are not being served by this program 
because we have not increased funding? So you know if that is 
available, either through the National Congress of American 
Indians or any of the health boards, because I think that would 
be helpful to us in making the debate that we should look at 
increasing those funds because it is going to save lives. It is 
going to improve the quality of life.
    But sometimes the argument that we need to have it is going 
to be it is going to save tax dollars with our fellow 
colleagues. Do you know if that is available, and if so, would 
you see if you could get it to us?
    Dr. LeBeau. Sure. So the section of the testimony that I 
provided was a result of the work of the National Indian Health 
Board where they are calling for $200 million to fund the 
Special Diabetes Program for Indians. NIHB does note that 
treatment of end-stage renal disease costs, it is about $90,000 
per patient per year, so there is a reduction in the cases of 
end-stage renal disease that translates into significant cost 
savings for Medicare, IHS, and third-party payers.
    In addition, it has proven itself effective especially in 
declining incidence of diabetes-related kidney disease in 
particular. The incidence, again, of end-stage renal disease 
due to diabetes in Native Americans has fallen by 54 percent, a 
greater decline than for any other racial or ethnic group. And 
so that detail is derived from the National Indian Health 
Board, and I know we have representatives from NIHB here today. 
We would be glad to provide you a full report on that 
particular issue if you would like.
    Ms. Kitcheyan. Thank you to my colleague for acknowledging 
NHIB's work in this space. And we always talk about SDP being 
the most successful public health and prevention program.
    Ms. McCollum. Yeah, the Special Diabetes Program.
    Ms. Kitcheyan. Special Diabetes, right. And acknowledging 
that its success is based on the for the tribes, by the tribes, 
and each tribe being able to design their unique program around 
their community's needs. And I think you raise an important 
point on the data that we need to continue to collect, and NHIB 
stands positioned. And it sounds like an amazing pilot project 
that we would love to participate in so that we can ask our 
funders and our appropriators to continue to fund it, increase 
this program to save dollars in the end.
    And we always say that IHS would rather cut off a limb than 
prevent it, and that is just devastating and sad. And why is 
that the level of care that we are providing to our first 
nation's people?
    Ms. McCollum. Thank you. Thank you, Mr. Joyce. I think that 
we are looking at how we are reducing the cost of the disease 
as it progresses. But the one thing we probably won't be able 
to quantify is when someone starts changing the way they are 
preparing food at home, everyone is impacted by it. So we 
actually might decrease in diabetes in the future. So I think 
making sure that you have the tools to collect the information 
would be helpful.
    And with that, I yield back, and maybe Mr. Simpson would 
like to introduce the next panel.
    Mr. Simpson. That is OK. Go ahead.
    Mr. Joyce. He didn't want to do it.
    Ms. McCollum. He didn't want to do it.
    Mr. Joyce. I certainly appreciate it. My sister is a 
juvenile diabetic and having watched her all my life, I can 
appreciate the work that goes into it. So I am with you on 
whatever we can do, and thank you all for your testimony and 
being here today.
    Voices. Thank you.
    Voice. And these are for members of the committee.
    Ms. McCollum. Thank you so much. Victoria, you can just 
stay up here. OK.
    So I welcome with great honor the chairman of the Fond du 
Lac Band of the Superior Chippewa, the councilmember from Bad 
River Great Lake Superior Chippewa, and once again a tribal 
councilmember from Winnebago Tribe of Nebraska. And if we could 
ask the chairman of Fond du Lac to lead off the panel. Thank 
you, sir, for being here. Good to see you again.
                              ----------                              

                                          Wednesday, March 6, 2019.

               FOND DU LAC BAND OF LAKE SUPERIOR CHIPPEWA


                                WITNESS

KEVIN R. DUPUIS, SR., CHAIRMAN, FOND DU LAC BAND OF LAKE SUPERIOR 
    CHIPPEWA
    Mr. DuPuis. [Speaking native language.] First of all, I 
would like to say thank you and good morning, Chairman McCollum 
and members of the subcommittee. Thank you for the opportunity 
to testify today. My name is Kevin DuPuis, Sr. I am the 
chairman of the Fond du Lac Bank of Lake Superior Chippewa. I 
have submitted many written testimony for the record and 
discussed many areas where increases in Federal funding is 
needed. Today, however, I would like to focus on the importance 
of Federal funding for Indian Health Service and Indian 
healthcare programs.
    One thing I would like to start off with is I am not going 
to sit here and tell anybody anything any different than 
everybody has already said, the disparities that we have in 
Indian Country, throughout Indian Country. But what I would 
like to do since my written testimony is in there, I want to 
kind of talk about it a little bit, and I want to talk about 
the reality of what has happened with Indian Country, not by 
what is on a piece of paper, but by testimony from me.
    I would like to start off with the opiate problem. It is an 
epidemic. The last time I testified I brought up a scenario, 
and I would like to do it again for the ones who weren't here 
before. I watched a video one time, and the video showed a 
group of native kids in a home, and what they did, they were 
having opium party. Never heard of it before. A heroin party, 
excuse me. Never heard of it before. So they brought in ice and 
they filled up the bathtub, but they also brought in Narcan. 
And what they were doing was taking heroin, and when somebody 
would go out, they would give them Narcan. And to shock them 
out of it, they would put him in the ice in the shower. That is 
what is happening in Indian Country. That is what is happening 
in our communities.
    Our people are dying. Our people are dying at a rate that 
it is unfathomable. We grew up and were taught things to never 
forget and where we come from, and to respect our elders and 
the ones and our ancestors that came before us, and to put in 
place a job that we are supposed to do today to ensure that 
there is a future for our unborn. It is hard to do that 
sometimes with the issues that are happening. We do have 
problems on our own reservation. We do have a wider issue that 
is on our reservation where we have bad water in one of our 
communities, and looking for funding to support that instead of 
digging into our coffers to do that, with a lack of funding 
that everybody knows that exists in Indian Country.
    We had people, native people, in front of you earlier that 
talked about the issues in urban areas. Well, we have a thing 
in Minnesota called Tent City that was in Minneapolis, and I 
observed it, went there many, many times to watch homeless 
people, drug epidemic, drug addiction, sexual issues, 
prostitution, everything that you could think of. And it is in 
healthcare. It is based in a healthcare issue.
    So we met in St. Paul, and we had a meeting of all the 
tribes to address the opiate crisis and that problem, and all 
our funding mechanisms were in the same room. So I asked 
everybody that day, does everybody here work on tabletop 
exercises, and they said yeah. I said, well, there is 11 miles 
away, so if you want to have a true tabletop exercise, put 
everything down today, go into Minneapolis, take a look at it, 
see the medical crisis that exists in a street next to the 
highway. And everybody just put their head down.
    So these are people that we are asking funding from that 
were in the room, and it makes my heart sick and hurt to know 
that the same people that were coming in front and asking for 
funding that were around the table, and when we asked them to 
come over there--I asked them to come over there--to take a 
very good look at it and see what exactly what is happening, if 
you can address that issue, if you can work on that issue right 
there, then we can run across the country and Indian Country 
and work on every one of them that were there. But to no avail. 
They just put their heads down.
    So I go home every day, and I have to report back to 
constituents and tell them how it went in DC I don't know how 
it is going to go in DC All I can do is speak from my heart and 
the written testimony that is there. But we go home to these 
things and we go home to them every day. I can't speak for any 
other group of people, but I can only speak for the indigenous 
people of this land. The funding has never been adequate and 
everybody knows that. It will never be adequate. But one thing 
that we can sit there and be proud of is knowing that we know 
how to stretch the dollar. If one group of people on this 
planet knows how to stretch the dollar, it is us. But we are 
stretching to a point where we can't stretch it anymore.
    I want to bring these things forward and so it is a face-
to-face thing that you can see that it hurts, and it hurts all 
of us. Our people are dying. People are dying in a manner that 
we can't control. And every time one of our children die or a 
person dies, when we look at the 7th generation principle, that 
is seven generations that are never going to make it. That is 
sad. It is really, really sad.
    But I do know that you guys listen and I understand, and I 
talk with Ms. McCollum that her drive in the State of Minnesota 
and what she tries to do, it is hard to explain except it is 
impeccable. And so I appreciate that and I appreciate everybody 
on this committee. But I do want to bring this to this 
committee to ask for the simple principle of help, not through 
a piece of paper because we do that all the time, but to hear 
us and listen to us what we are saying.
    And some are going to sit here and some are going to repeat 
what somebody else has said, but you need to hear the stories 
of what are happening. You need to hear the truth. If you can 
see these videos and if you can hear the truth and see the 
truth, and there is data that exists and questions that were 
asked earlier--I need to bring it up--is that the tribes have 
the ability to do something that hasn't been done before, and 
that is taking and helping the urban communities in this way, 
is to open up clinics inside the urban area.
    We have done it. We opened up a pharmacy 200 miles away 
from our reservation where we serve all native people. And we 
can collectively do that and come to an agreement that this is 
what we need to do for our people. We will be able to strive. 
So with that, and I know I am out of time, so, again, thank you 
very much. Miigwech.
    [The statement of Mr. DuPuis follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Next we have Dylan Jennings from 
the Bad River Band of Chippewa Lake Superior.
                              ----------                              

                                          Wednesday, March 6, 2019.

              BAD RIVER BAND OF THE LAKE SUPERIOR CHIPPEWA


                                WITNESS

DYLAN JENNINGS, COUNCIL MEMBER, BAD RIVER BAND OF THE LAKE SUPERIOR 
    CHIPPEWA
    Mr. Jennings. [Speaking native language.] So good 
afternoon, respective Committee on Appropriations. I really 
appreciate the opportunity to sit here before you. My name is 
Dylan Jennings. I serve as a councilmember for community, the 
Bad River Band of Lake Superior Tribe of Objibwe Indians in 
northern Wisconsin.
    I come to you from one of the most beautiful communities in 
the world. I am here to talk with you about something that is 
dear to us, and in our language we say [Speaking native 
language], our life way, that we live our life and the health 
that we know as our people. And I believe most of the things I 
am going to talk about or summarize can be summarized with a 
single example. And I want to talk to you about a community 
member, specifically a woman in our community.
    And this, you know, very tough to talk about, but a woman 
who struggles with behavioral health has just given birth to a 
baby who was diagnosed with neonatal abstinence syndrome. As a 
result of the diagnosis, the baby was removed from the mother's 
care. And in an effort to work towards reunification with her 
baby, the mother attends treatment. Upon the mother's release 
from the treatment center, she returns home. The mother 
receives little to no back-end care and relapses, which often 
happens in our communities, exposing her to the risks of 
hepatitis-C, HIV, in all of the course of her relapse. 
Unfortunately this is not just an example, but this is a 
reality as my relative here talks about. This is a reality for 
my community.
    Between 2010 and 2015, the number of drug-addicted born 
babies from the primary hospital that serves our tribal 
citizens in the local county was roughly 27 babies out of every 
1,000 births, the highest in the State. At present, of over the 
50 open child welfare cases currently under the tribe's 
jurisdiction, about 86 percent of those are due directly to 
illicit drug use risk. We are talking about our babies here. 
What can we do to keep this from happening? These are not just 
members. They are our children. They are our future. They are 
future leaders that will hopefully be sitting here someday in 
our place.
    We know the best way to help ourselves, but often lack data 
to capture, assess, and evaluate the status of the tribe. The 
Indian health system should provide direct funding for 
comprehensive behavioral health data evaluation. That is 
something that we really could use. Direct funding to the 
Indian health system should not be restricted to one identified 
drug type. For instance, grants typically when they come out 
and they are announced, they identify certain types of drugs 
that they are going to address, and sometimes it far limits our 
abilities to utilize them the way that we need to utilize them.
    And so, you know, the tribe, we are asking that, you know, 
as we move forward, we would really appreciate the ability to 
utilize different grant funding for multiple issues that we 
encounter. Also to construct to provide rural tribal 
communities the same opportunity that local municipalities and 
States have to provide infrastructure for our efforts.
    The opioid epidemic has hit Indian Country hard. You are 
going to hear that for years to come, right? And many people 
have already said this. According to surveys conducted by the 
CDC, American Indians in urban areas are dying of opioid 
overdoses at the highest rates, closely followed by Caucasians 
and American Indians in rural areas. Some communities, like Bad 
River, have been able to address opioid overdoses by a targeted 
campaign to equip community members with overdose reversal 
training skills and the provision of naloxone, the overdose 
reversal medication.
    However, nationally and in Bad River, tribal and rural 
first responders and programs and such lack funding and support 
needed to address the epidemic in Bad River. There have been 
several opioid overdose events where the first responders 
arrived at the scene determined that individuals overdosing and 
have not had naloxone to administer. The lack of access to some 
of these resources in these entities puts entire regions at 
greater risk of death. Targeted funding to support tribal fire 
departments and first responders and procurement of naloxone, 
including nasally-administered naloxone which costs 
approximately $75 per kit, would save many of our community 
members.
    Within our communities, the epidemic translates into many 
forms of disease, which you are very well aware, including 
skyrocketing rates of hepatitis, increased risk of HIV 
transmission, behavioral and mental health illness, and social 
isolation. The Bad River Band applauds the Administration's 
goal of ending HIV transmission within the decade. We believe 
that addressing HIV transmission will go hand-in-hand with Bad 
River's goal of ending the epidemic of opioid addiction within 
our communities.
    According to a 2016 HIV surveillance report, Native 
American women who inject drugs contracted HIV at more than 10 
times the rate of African-American, Asian, and Latino 
counterparts. Ending HIV transmission will require funding and 
resources at all risk populations, and especially for Native 
American communities experiencing high rates of injection drug 
use.
    The current funding plan which targets seven states and 48 
jurisdictions, does not include many of our rural areas in the 
Great Lakes region, including upper Michigan, Wisconsin, 
Minnesota, and North Dakota. Targeted funds to prevent HIV 
transmission are needed absolutely. Micro and macro funding 
streams are essential to incentivize treatment for people at 
high risk for HIV, including people who inject drugs.
    The Bad River Band also applauds the Administration's goals 
of providing pre-exposure prophylaxis, or PrEP, the daily 
medication that can be taken to prevent HIV infection, to all 
at-risk people.
    Ms. McCollum. Councilmember Jennings, I have to ask you to 
suspend for a minute.
    Mr. Jennings. OK.
    Ms. McCollum. And we will have more questions. But your 
testimony is very compelling. Thank you.
    Mr. Jennings. Well, thank you. I appreciate you guys for 
taking the time to listen to us. So Miigwech.
    [The statement of Mr. Jennings follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Ms. Kitcheyan.
                              ----------                              

                                          Wednesday, March 6, 2019.

                      NATIONAL INDIAN HEALTH BOARD


                                WITNESS

VICTORIA KITCHEYAN, ACTING CHAIRPERSON, NATIONAL INDIAN HEALTH BOARD
    Ms. Kitcheyan. Ms. Kitcheyan. Good morning again, and my 
name is Victoria Kitcheyan, a member of the Winnebago Tribal 
Council and chair of the National Indian Health Board. Thank 
you for having me here today.
    As you may recall from my past testimony, the Winnebago 
Hospital still holds the distinction of being the only Federal 
hospital to ever lose its CMS certification. This occurred as a 
result of years of mismanagement and serious patient care 
deficiency, including lack of staff training, a lack of 
necessary equipment, and overall hospital operations. I know 
these issues have been reported to as far back as 2010 and 
were, again, brought to the forefront in 2015. These ongoing 
issues have resulted in painful loss of life and much 
unnecessary suffering by our people in Nebraska.
    When this ordeal began for the Winnebago Tribe in 2015, we 
were adamant that the Indian Health Service created this 
situation, that they created the problem and they needed to fix 
it. Well, as days turned into months, months turn into years, 
the Winnebago Tribe took a stance that we could wait no longer 
and that we needed to solve our own problems. We initiated an 
intensive planning process and entered into a self-governance 
compact agreement with the Indian Health Service, and as of 
July 1 the Winnebago Tribe assumed full management of that IHS 
facility. And now it is known as the Twelve Clans Unity 
Hospital. We are very proud of that.
    Since July 2018, the tribe has worked diligently to assess, 
stabilize, and really improve the hospital operations. Prior 
has included establishment of the organizational structure, 
board training, recruitment, and overall improvement, and, of 
course, working towards CMS certification. The issues at the 
hospital did not happen overnight, so we understand that it is 
going to take considerable time and effort to change the 
organizational culture and all the necessary improvements that 
we need to achieve CMS certification and to become the top-
quality healthcare provider that we know that we can be for our 
tribal members.
    It has been a period of significant change not only for the 
organization, but for the community, and it definitely has not 
been without challenge. But the Winnebago Tribe and our team at 
Twelve Clans Unity Hospital are confident that we can be 
successful, and we are already seeing those remarkable 
improvements at the facility. During this time of transition, 
your support has been critical. The added oversight from the 
committee, our congressional delegation, our congressional 
staff, and all that would not have been possible. The tribal 
assumption really counted on that support to continue 
sustaining operations, and we appreciate that. And we look for 
your continued support as we make progress.
    Today, for example, our ongoing needs include continued 
recruitment. The facility has lost CMS certification. The 
facility has documented inadequacies. You know, it just doesn't 
have the best reputation right now, and we hope to build up 
that solid reputation and make it a place that people are proud 
to work, where people are proud to come and receive their care. 
And we are confident that the tribe will be positioned to turn 
that place around with the necessary resources.
    We know that permanent full-time employees that are 
invested in the community as well as our facility are what we 
need, but that is going to take time. We heard about the 25 
percent vacancy rate earlier, and that is something that is 
just our circumstance. We will continue to work on these 
ongoing recruitment efforts, but in the meantime it is a 
tremendous amount of money going to locum tenens contracts, 
nurses, providers, and addition radiology laboratory. So there 
is considerably more costs paying contractors than permanent 
staff, but we are working on it.
    We have also identified a need for ongoing training and 
technical consultation with regard to meeting hospital rules 
and regulations for all departments. Although the facility has 
been in existence for some time, it is essentially a new 
hospital. And the tribe has assumed management, but it includes 
revisions to the policies and procedures, operational plans, 
processes to really transition to a non-federally operated 
facility. In addition, meeting all the CMS requirements of 
participation and calling on the best practices in the 
healthcare industry. You know, we want it to be the best 
facility for the patients, not just another poorly-ran Federal 
hospital.
    Another challenge was presented during the recent shutdown. 
We would have had great difficulty continuing our services had 
we not received a special appropriation from the Special 
Accreditation Emergencies Fund in 2018, and it is that lack of 
third-party revenue from the CMS certification that left us 
without resources. And without this committee's help, we would 
not have had that gap funding. And so we are also really 
thankful and calling on that same level of funding in 2018 as 
we continue to make the necessary improvements. And the 
replacement of those funds in CMS certification were most 
apparent during the shutdown. We hope to provide financial 
stability for the organization while we work to restore the 
certification.
    The Winnebago Tribe also supports what we have heard today, 
so much about the advanced appropriations of IHS, you know, 
also at BIA because we know that many of the services that 
those agencies provide for our tribal communities are 
intertwined and, you know, they are not in the silos that 
sometimes we see within the agencies. But they are integrated 
services within our communities that collectively make up the 
livelihoods of our tribal members. So we want to just, you 
know, also, you know, give support for that initiative and 
really impress that that funding directly ties to the patient 
care and the community wellness of our tribal nations.
    So thank you today for this, and thank you for allowing me 
to speak with you once again on behalf of the tribes. And the 
Winnebago Tribe surely appreciates the continued support and 
the support that we can to restore the certification and be the 
success story of the trauma that is happening in the Great 
Plains and as well as amongst the Winnnebagos. Thank you.
    [The statement of Ms. Kitcheyan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Simpson.
    Mr. Simpson. Again, thank you all for being here. And, 
Kevin, thank you for your story. That is why we have these 
hearings because we need to hear these stories and directly 
from you, not just here in Washington, but out in the 
hinterlands around America also. And we have tried to, as a 
committee, get out to as many tribes and visit them in their 
homelands as we can. And I think that is an important aspect, 
and I know that the chairwoman will continue to work on that.
    Dylan, you mentioned one thing that caught my ear--well, 
more than one thing. You said you would like to be able to use 
grants on a broader basis than what they are. You know, we have 
talked about this in the past, and I would like you to be able 
to use these grants wherever you think is appropriate. I mean 
this is your country, it is your money, and you ought to be 
able to use them where you think it would be most efficiently 
used.
    But you do know that that completely screws up our 
bookkeeping at BIA, IAS, and others. That is the kind of 
reaction we got from them, how can we keep track of anything if 
we allow them to do that. We should do what is best for your 
nations. Anyway, thank you for being here today and thanks for 
your testimony.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you all for being here, some of you twice, 
and I appreciate the story as well. I can tell you that the 
opioid epidemic that has ravaged our country, there is no part 
of this country that is immune to it. And unfortunately I have 
heard those type of stories before, not necessarily on native 
lands, but elsewhere. If somebody put up a bill to try to make 
Narcan available, they end up having a lot of people say, well, 
if you hear a story of it being abused like that, then why are 
we even doing it. These are still lives. They are entrapped 
unfortunately in the free for all with these drugs, and we need 
to treat the addict first and then we will deal with the rest 
of it.
    So thanks, all of you, for being here today and for your 
testimony.
    Ms. McCollum. Councilmember Jennings, you had wonderful 
things that you shared, more than what I had in my book. So I 
want to make sure that we have a copy of your full testimony 
that you are entering for the record and so that the whole 
completion is in there. So if you would share it with us at the 
end, it would be greatly appreciated, sir.
    Mr. Jennings. Absolutely.
    Ms. McCollum. I wanted to ask you a little more about in 
the testimony that I have been looking through, about the 34(b) 
Drug Pricing Program on how you think it should be protected 
and expanded. Would that have helped you with perhaps your 
first responders having what they needed at a better price than 
$75, or is that for other drugs? If you would just help point 
us in the right direction as we research this.
    Mr. Jennings. Yeah, I think it could also make drugs like 
naloxone a little bit more attainable for our community because 
right now, we are really restricted in how we can use some of 
the grants we are speaking about for or some of the funding 
that we receive for some of these things. And so someone won't 
allow us to spend it on some of these lifesaving treatment 
drugs.
    So, you know, we are kind of caught with their hands tied 
where a lot of our community, you know, kind of grassroots 
efforts are focused on just trying to get these drugs into the 
hands of our first responders and fire teams. So I think, yeah, 
that could be something that would help in that realm, too.
    Ms. McCollum. When you were talking about the shutdown and 
the effect on the Winnebago hospital, it really was a lifesaver 
that you had that appropriation put in place to deal with the 
emergency. But some things came up in reading other testimony, 
and I am wondering if it is true for you, too. You have doctors 
and nurses and medical delivery, direct practitioners that you 
are trying to recruit. And some of the testimony that I was 
reading through the other day was the fact that the way even 
placements for ads are put forward, that community members 
don't know to apply, because there can be ladder to successes 
for jobs. We did this in the Twin Cities at one of our 
hospitals, at Regents, that people who came in and were 
interested in working in a hospital, interested in working in 
healthcare sometimes started out doing prep work and cleaning 
and other things like that. And then they said, you know, I 
want to learn how to draw blood, so they went up the workforce 
ladder.
    Are we reaching out to community members presenting those 
opportunities for ladders of success, ladders of opportunity to 
go up in the healthcare field? Because what we are paying when 
you have to go out and with your precious dollars bring in a 
contract that is costing a lot. And it is also a way to build 
pride and confidence in the hospital for community members. 
Could you maybe address what is going on with workforce and 
what we might be able to do better?
    Ms. Kitcheyan. Yes. We certainly always are looking for 
ways to develop our own tribal members and community members, 
and we call on partnerships, such as with our tribal colleges, 
building programs with not only our tribal colleges, but some 
of our area facilities for residency opportunities and things. 
So we are having all those discussions, and everything is on 
the table at this point because we want to create pipelines of 
medical professionals and administrators that are going to be 
committed to our community and aren't going to be transferred 
or detailed here or there. And so that is the difference that 
we have the latitude to make those type of adjustments and 
partnerships for our compacted facility.
    Ms. McCollum. If there is more we can do working with the 
tribal colleges and that, please let us know because we face 
serious issue making sure that we develop a pipeline, right?
    Ms. Kitcheyan. Well, you could----
    Ms. McCollum. A good pipeline.
    Ms. Kitcheyan. You could provide greater funding to the IHS 
Scholarship Program. There are many native applicants that 
apply for that program and are overlooked, and there is just 
not enough money to go around. But we know where we can 
improve. The National Indian Health Board has a relationship 
with the American Indian Physicians Association, and it is the 
conversations that, you know, we are calling on the 
practitioners to say, you know, what can we create to help our 
young people even pursue these pathways.
    We could do a better job on STEM education. I mean, where 
do we begin? We really need to start sooner with building these 
professionals and credentialing them to have the confidence to 
practice in our communities.
    Ms. McCollum. Good. Chairman, you mentioned drinking water 
and sanitation in your full testimony. Could you elaborate, add 
a little more to that for the committee, because that is often 
overlooked when we are talking about health and wellness, but 
it is so important, as you had in your testimony.
    Mr. DuPuis. Yes. Yes, we have a community in Fond du Lac 
that we call the Wineman community. And the water that we had 
came from groundwater as a well when the system went bad and 
the system could not control it. Well, we ended up getting 
toxins in the water. We looked to IHS to get funding to see if 
we can put above ground water tank at force main. We can't get 
the funding to do that.
    So what we ended up doing was putting money inside of our 
coffers right now. And I hate to say it, but it is reality is 
we had to give, I think it is called Brinkman filters to the 
homes, and that is what they are running now. But we are not 
treating the water. We don't have the money or the help to 
treat the water itself. So we dug several test wells, and we 
have different wells that are coming with better water. But the 
distance that we need to do that goes back into the 
infrastructure side of it. We have to travel through ground for 
miles to reach that.
    Ms. McCollum. Thank you. I am going to look some more into 
that, and thank you for elaborating on that. And it just goes 
to show even in States like Minnesota, which are water rich, 
water is a sacred resource, one that has to be treated with 
great respect. And even when you are surrounded by a lot of 
water to know that you don't have potable drinking water for 
your family--It feels like a real tragedy to me, and I am sure 
it does to your community.
    I want to thank you for the extended testimony, 
Councilmember, and thank you all for being here today. 
Miigwech.
    Voice. Miigwech. Thank you.
    Ms. McCollum. You are up to bat.
    Mr. Joyce. Good morning. Thank you all for being here, and 
if you hadn't been here in the beginning, we discussed the 
ground rules that each of you will be given 5 minutes for your 
testimony, and then we will have questions I am sure when we 
are all through. We will go in order as laid out on our list, 
and we will start with Mr. Miguel.
                              ----------                              

                                          Wednesday, March 6, 2019.

                        AK-CHIN INDIAN COMMUNITY


                                WITNESS

ROBERT MIGUEL, CHAIRMAN, AK-CHIN INDIAN COMMUNITY
    Mr. Miguel. Chairwoman McCollum, Ranking Member Joyce, 
members of the subcommittee, my name is Robert Miguel, and I am 
honored to serve as the chairman of the action of the Ak-Chin 
Indian Community and give testimony to you today on our 
community's priorities. First of all, I would like to thank the 
members of the subcommittee for inviting me to testify today.
    Despite the Administration consistently proposing cuts 
every year to the many programs that tribes utilize, this 
subcommittee increased funding for the Bureau of Indian 
Affairs, the Bureau of Indian Education, and the Indian Health 
Services by over $303 million from 2018 to 2019. So thank you. 
Thank you for the continued dedication to the trust 
responsibilities of the Federal government to the tribes and 
for the increase in this much-needed funding.
    I am here, and this is my fourth appearance before the 
subcommittee in recent years. Today I am here to testify on a 
number of important issues to my tribe, including funding for 
healthcare programs, tribal self-governance, and other 
important grant programs.
    Ak-Chin has always been a farming tribe, and our name is 
directly derived from the O'odham word that refers to a type of 
farming traditionally practiced by the Ak-Chin people. 
Throughout our history we have been farmers and continue to be 
farmers today. We own and operate the Ak-Chin farms. It's a bit 
more than 15,000 acres of farmland, and the farm has been a 
central economic enterprise for the community since the 1960s. 
We also have economic entities focused on gaming and 
hospitality that have gone into major sources of economic 
development for the entire area. We are direct neighbors with 
the City of Maricopa and lie about 35 miles south of Phoenix, 
Arizona. We are small, but growing, tribe with 1,114 enrolled 
members, and as the area surrounding us continues to grow at 
one of the fastest rates in the Nation, we are committed to 
being good neighbors, while also working hard to build a 
stronger future for the next generation of Ak-chin community 
members.
    Advanced appropriations are necessity for tribes going 
forwards to ensure that funds are available in advance to 
alleviate the unfortunate circumstances so many faced during 
the partial government shutdown. Currently, critical Federal 
programs of the Department of Education, Department of Housing 
and Urban Development, Department of Labor, And Veterans 
Affairs are also authorized for advanced appropriations. 
Funding uncertainty causes tribes to redistribute funds from 
other tribal programs just to get by. Advanced appropriations 
will be prevent future lapses in funding associated government 
shutdowns and will help keeping critical services and 
uninterrupted.
    One of our tribe's top priorities and challenges is to 
provide our members with high-quality healthcare and health 
services. Ak-Chin is a fairly young community. Forty percent of 
our membership is under the age of 18 while almost 13 percent 
are over the age of 51. This is important for predicting health 
disparities and prevention going forward. In 2017, the 
community conducted a community health assessment to determine 
areas of emphasis and need for prevention and outreach. We have 
developed a community-based action plan to help determine areas 
of need and identify areas of strength concerning health and 
wellness for our people.
    As I testified last year, the Indian Health Services Grant 
Program are critically important to our community. The Special 
Diabetes Program for Indians grant is utilized by our 
communities to emphasize physical activity and youth programs 
for our members. The SDPI Program was reauthorized by Congress 
in 2018, and the SDP was renewed for 2 years. We thank 
subcommittee members who supported this reauthorization and 
your support to continue funding for this very important 
program. We ask the subcommittee to increase funding for the 
SDPI Program to $200 million for MS. LEWIS: 2020.
    The Ak-Chin Indian community is compact of self-governance 
with the Bureau of Indian Affairs. The compact enables the 
United States to maintain and improve its unique and continuing 
trust relationships and responsibilities to the community 
through self-governance for various programs, services, 
functions, and activities, PSFAs, such as our public safety, 
social services, courts, road maintenance, and various other 
vital programs.
    The community is also a compact of self-governance tribes 
with the Indian Health Service four EMS Ambulance Program. The 
community applied and received two tribal self-governance 
Indian Health Service cooperative agreements grants under 
planning and negotiation. We truly appreciate as the funding 
have assisted the community with furthering the future of the 
Ak-Chin healthcare.
    Rural Native American communities have inadequate access to 
broadband service, creating a disparity that grows daily as our 
society becomes increasingly dependent on internet-based 
communications. By expanding access it would assist us with 
retaining accessibility with up-to-date technology in regards 
to healthcare, public safety, and education. I understand there 
is funding for this in Department of Agriculture. However, we 
recommend the subcommittee consider making rural broadband 
expansion funding available for tribes through the Bureau of 
Indian Affairs or Bureau of Indian Education as this is a 
public safety, educational, healthcare issue.
    In conclusion, I would like to thank the chairwoman and 
ranking members for holding this hearing and engaging in the 
government-to-government consultation to hear our community's 
priority. We hope this subcommittee will continue to work good 
with the communities and address the challenges tribes faces as 
the Administration has in the past recommended zeroing out most 
of the programs that tribes rely on to ensure the wellbeing of 
their members.
    Again, thank you for the opportunity to testify today and 
to share with you our community's priorities. I hope my 
testimony today has given you meaningful insights into how 
these Federal programs are positively impacting our community 
members. Thank you.
    [The statement of Mr. Miguel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you, Chairman. Chairman Flying Hawk, you 
are next.
                              ----------                             

                                          Wednesday, March 6, 2019.

                          YANKTON SIOUX TRIBE


                                WITNESS

ROBERT FLYING HAWK, CHAIRMAN, YANKTON SIOUX TRIBE
    Mr. Flying Hawk. Thank you, Mr. Chairman and members of the 
subcommittee. My name is Robert Flying Hawk. I am chairman of 
the Yankton Tribe. In our language it says ``Othunwahe.'' So 
that translates into the ``village.'' We are here and I am here 
representing our members and asking that the dollar amount, the 
budget not be cut, to remain the same if anything. But asking 
for an increase to help us at home and throughout our 
neighboring communities.
    We have a hospital that has been stopped. It is no longer 
open. It is open from, what is it, 7:00 to 11:00 at night, and 
then the working hours. What that causes is for our members to 
not receive the care that they are needing, that we are 
needing. We just recently lost one of our members, a 3-year-
old, a lady, because of drug overdose, and our ambulance 
service can't take our members to our own hospital. They go to 
our community hospital, which is within our area. But then that 
creates a bill for each of us as members.
    So as a member, if I am having a heart attack and those 
hours aren't open at the hospital that I attend the IHS, I am 
going to sit there and try to calm myself down and not have the 
heart attack until our hospital opens up so I can go in and get 
the services that should be available. But because of that 
dollar and because of our hospital being shut down and there is 
no emergency care there, we refer out our patients, our members 
who go for the things that are needed, the services that are 
needed.
    This is real. It is real life and a matter of life and 
death for us as members. We need our hospital back. We need our 
emergency care back. That emergency care will allow that 
ambulance to come to our hospital so that our members can feel 
comfortable that if there is a pain in their chest, then the 
ambulance will be called and they will know that they can get 
to our hospital without fear of being strapped with a bill, 
with a medical bill that we cannot afford as an individual 
member.
    Our children, especially now, are looking at what, got a 
cough, pertussis, whooping cough, I think, that hasn't been 
around for a while. But our children are showing signs of that, 
and why is that? So we are here, I am here, trying to ask why, 
the question why is that dollar unavailable? It is there. We 
need the qualified staff. We need those services delivered to 
us as members of our nation, of all our nations on the Great 
Plains. And we suffer, I think I heard in the testimony earlier 
from Winnebago, those things that happened at each of those 
facilities, and we are shut down.
    Now, as a government and a treaty that was signed, the 
government has a responsibility to us as a people, and we would 
like that to be known, to be recognized, and to at least follow 
up on that, and to ask to hear us. Give us that help that we 
are asking for. As I said, it is a matter of life and death for 
us, and I have grandchildren, and I don't want them to suffer 
something that would possibly take their life. That is not, in 
my dream, but it is a prayer that I have every morning that our 
people will be well taken care of. Our health is number one for 
us.
    And so I am here to ask that you would consider that, and 
wanted to thank you for hearing us and giving us this 
opportunity this morning. Thank you.
    [The statement of Mr. Flying Hawk follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you, Chairman. Last but not least, 
Chairman Frazier.
                              ----------                             

                                          Wednesday, March 6, 2019.

                       CHEYENNE RIVER SIOUX TRIBE


                                WITNESS

HAROLD FRAZIER, CHAIRMAN, CHEYENNE RIVER SIOUX TRIBE
    Mr. Frazier. Thank you. I want to thank the committee for 
allowing me the time and the honor of speaking before you guys. 
You know, one of the things, I got elected back in tribal 
politics. I first got elected in 1998, and at that time 
healthcare was really an issue on our reservation and on the 
Cheyenne River Sioux Indian Reservation, and back then there 
was a lack of resources, particularly financial. And I ended up 
being elected chairman in 2006, and then I was out for 8 years 
and I come back in 2014, and healthcare has not improved on the 
Cheyenne River Indian Reservation.
    But one of the things I learned is there wasn't a lack of 
resources. We were fortunate to get a new facility which 
allowed us to get a big pretty good increase in our funding. 
And one of the things I want to talk about--I know it has been 
talked about quite frequently in Congress--is a wall. We are 
fortunate in our service unit that we have a huge, to us it is 
very huge, but it is a pretty good savings and third party 
billing. It is in excess of $24 million. And one of the number 
one priorities of our service unit is to build a wall around 
the entire facility. I mean, we find that really just crazy 
with all of our needs.
    One of the things that we have and we have a need of is 
dialysis. I mean, we have done a feasibility in conjunction, 
and I will kind of get to where the problem lies. But it is 
around $5 million, I mean, and with $24 million, we definitely 
have the resources to build it. Right now we do have a private 
dialysis on our reservation, but because of the amount of 
people that need it, we still got 3 to 4 members that travel 
either to Spearfish, South Dakota or Bismarck, North Dakota 3 
days a week for dialysis, and they are about 135 to 150 miles 
one way. And my mother was on dialysis, so I know the toll it 
takes on a person with dialysis. So it is really an issue.
    We got high suicide rates. I know last year, which is very 
sad, but we averaged about 11 attempts a month, and we were 
nearly one completion a month which is really sad. I mean, we 
got a lot of high needs: treatment, meth treatment. I mean 
these are things we try to work with. We put resolutions 
requesting IHS to build these facilities. I mean, they have the 
money on our reservation.
    But one of the biggest problems, where it lies, is in the 
area office. I mean, I will downright call them dictators. They 
micromanage the service units. Every time there is an issue 
there is no consultation, you know. You are probably well aware 
of Rosebud, Pine Ridge, and Winnebago had problems. And anyway, 
and like I said, we were fortunate to have the resources. They 
took $4.6 million out of H&C dollars and sent it to pay a 
contractor without consultation of our tribe, and that is a big 
problem. They don't consult. They don't share information. They 
transfer our people out.
    Lie right now our budget person on our service unit is 
detailed up to Aberdeen and we were never consulted. We have 
questions and probably very likely he is being paid out of our 
budget. So there is a lot of problems that is going on. And 
when I kind of go back, our council passed a resolution asking 
to eliminate the Aberdeen area office, the Great Plains area 
office, and send all the funding and authorities down to the 
local service units because right now, one example is a couple 
years back I met with our service unit director, and they had, 
like, 66 vacancies. And when we get back to my office one of my 
staff looks it up on USAJobs, and out of all them vacancies, 
only six were advertised.
    So the problem is a lot of the biggest problems with the 
area office. One of the things, patient care. That is something 
that they have forgotten because when I did talk to IHS about 
this wall, you know, they said, hey, we got to stay in 
compliance, you know. And so that is their main priority. And 
one of the things Senator Rounds, you know, he introduced I 
guess is now S. 498, and I really hope that Congress passes 
that is doing an audit on IHS. He did kind of a study, and 
within the study he found a huge amount of administrative and 
very little doctors. I mean, that is something that that has to 
be looked at and be dealt with. I mean, we need solutions
    I got 10 seconds, so I will be really quick. I bought some 
packets that is really briefly to show you that this is a 
report that IHS has given to me and given to us. And if you 
could see the amount of carryover, and when you look through 
there, their top priority is to build this wall, and second is 
dialysis, and third is the treatment. So thank you for the 
opportunity.
    [The statement of Mr. Frazier follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you all for your testimony. Madam Chair.
    Ms. McCollum. Thank you, Mr. Joyce. When I read about that 
wall, it just kind of took me back, and the whole issue on 
consultation. I appreciate you bringing up broadband. I was 
able to secure a place on the Agriculture Committee for 
appropriations, and one of the things I am going to talk about 
is many of the programs that are in there in Indian Country 
also affect the quality of life, health, and safety. So thank 
you for bringing that up.
    Part of the other testimony that was in here was that 
unless people really look at a map to see the areas that you 
gentlemen cover and how close the nearest ``public hospital'' 
is, I don't think people have a full understanding of just the 
isolation that still exists here in the United States.
    So one of the points that you brought up was with law 
enforcement, Mr. Flying Hawk, that if law enforcement picks 
someone up and you take them to a healthcare facility, all the 
charges and everything that are incurred, and then you have a 
law enforcement officer that isn't out patrolling the area. Has 
there been any discussions about better joint powers or mutual 
aid or anything between the tribal hospitals, clinics, ERs, and 
the other hospitals and clinics and ERs? And I bring this up 
because we are all citizens of the United States. We are all 
taxpayers into the United States. And getting people healthcare 
and not going into debt when they are referred or go ``out of 
network,'' off the reservation to receive critical healthcare 
if they think they are having a heart attack.
    In reading some of the testimony, you talk about how all of 
a sudden people have these large bills, and it is causing 
hardships. So if you would touch on that. And then diabetes, 
getting to dialysis. I mean, I know what the winter was like in 
the Twin Cities, 55 below, 75 below windchills. You can't be 
outside for more than just a few seconds. People think it is 
cold here. Welcome to the bold north, right? So you are not 
going to get in a car and go to dialysis, or if you go the 
winds could take up. I have been in white-outs.
    And we talked about this before. Has there been any 
conversation that you have been able to engage with the Indian 
Health Services about working in conjunction to receive either 
more dialysis within the reservation and maybe opening it up 
for people who live nearby? I have talked about this before or 
other options, because I don't see any movement on this, and 
this is something that I know firsthand from a grandmother who 
was going from Montana into Williston, North Dakota, and how 
dangerous it was in the winter to go to dialysis. So if you 
could just kind of touch on some of those things. I know they 
are pretty broad.
    Mr. Frazier. You know, right now, yesterday we talked and 
back home we have a lot of snow. I believe two of our schools, 
well, all of our tribal schools, they averaged, I think, around 
14 days of no school because of the snow and because of the 
cold. But we have 51 dialysis patients that we have to struggle 
to get out because and plow them out because some of them live 
out in the communities and even out in the country, so it is 
really a hardship.
    And that is interesting. We met with Weahkee, and we talked 
to him about this dialysis. And one of the things he was 
upfront with, he said IHS does not provide this. But on the 
Standing Rock Indian Reservation they do have dialysis in their 
IHS facility. So it has been done and it can be done. So we had 
the discussion with him, but he didn't seem very excited about 
it.
    And this is what I want to say overall, too. I really found 
it sad because we come here not just for healthcare, but 
education, roads, law enforcement, et cetera. But the top 
people in these agencies are not here this week. They are on 
travel. Tony Dearman, we have a meeting with the director. He 
is not in town. Tara Sweeney is not in town, and also Weakhee. 
I mean, we come up here and they knew that Indians were coming 
this week for appropriations, and it is sad that they all 
skipped town. So I guess we are going to have to talk to their 
secretaries and say hello to janitors.
    So that is something that they need to really be slapped on 
the hand about is that when they come to town for help, you 
know, let's help them.
    Ms. McCollum. Yeah. We knew when you were going to be in 
town.
    Mr. Frazier. Yeah.
    Ms. McCollum. We will be seeing all those people later 
passing on your questions.
    Mr. Frazier. Good. Thank you.
    Ms. McCollum. Anyone want to touch on some of the other 
things that we have talked about, law enforcement and then you 
have got a Department of Justice bill for putting someone in 
for treatment or something.
    Mr. Miguel. Chairwoman McCollum, I really wondered if I 
could touch on the broadband? I know because you are on the 
committee if I possibly could? Just really quick.
    Ms. McCollum. Yeah.
    Mr. Miguel. And the reason why it is important for our 
community is because, again, we talk about the services of 
internet and what not within the community. We are located by 
the City of Maricopa. You would figure we would get some good 
quality services because Maricopa is a city recognized in 
Arizona, but we still have our problems in our community. 
Unfortunately we see our students that have to come to our 
admin building or buildings around the community just to get 
access to Wi-Fi, and sometimes those services are set off at a 
certain time, or you don't want them out there 9:00, 10:00 at 
night when they should be home in bed ready for school the next 
day.
    But, you know, with school having to initiate a lot of, you 
know, after school or homework, that you have to have access to 
some kind of broadband service. It is difficult to get that out 
there. And, you know, it is unfortunate. We see our problems, 
and we see it with their grades and whatnot and incompletion of 
homework and whatnot. So it is really, really vital and key 
that we get the best services we can, you know, that we 
possibly can for our children out there, because it is really 
hurtful to see that they are struggling in school because of 
that aspect.
    And one last thing is that our industrial, we have an 
industrial park area in our community where we could be very 
successful in that area, but because we don't have broadband 
service or internet connection to the area, it is hard for 
businesses to come and locate there. But there is an interest, 
but that is the only detriment to getting it. So thank you.
    Ms. McCollum. Thank you. Thank you, Mr. Joyce.
    Mr. Joyce. Thank you. It would also be beneficial for what 
is coming of age, the telemedicine aspect. My wife is a nurse 
and ER is sending things to Israel late at night to have the 
doctors there review them and send them back their reports. So 
it would be more cost-effective for everybody as well as an 
educational tool.
    I just have one problem, Chairman Frazier. As I look at 
these numbers that you just provided, there is $1 million for 
the wall and $2 million for backfill around the entire 
facility.
    Mr. Joyce. Are they backfilling existing premises that were 
built or----
    Mr. Frazier. You know what? I can honestly say they have 
never consulted with us, so, I mean, they have never consulted 
with me. And as a tribal nation, they need to come before 
entire tribal council, the governing body, to consult with us. 
And as a matter of fact, they should be doing that at least 
once a year, but they don't. So I couldn't really say what the 
backfill was. That might be a good question----
    Mr. Joyce. A lot of backfill.
    Mr. Frazier. Yeah, for Weakhee when he comes. [Laughter.]
    Mr. Joyce. OK.
    Mr. Frazier. He's aware of it. He got this report because I 
gave it to him and I questioned him on it as well, and he had 
no idea what it was, so.
    Ms. McCollum. Well, it is your property.
    Mr. Frazier. Yeah.
    Ms. McCollum. Ask before you dig.
    Mr. Joyce. Yeah, that is a lot of backfill. Somewhere you 
got a big hole that needs to be backfilled that you should know 
about.
    Mr. Frazier. Yeah.
    Mr. Joyce. Thank you all for your time and for coming 
forward today. I appreciate all your input.
    Ms. McCollum. Thank you.
    Voices. Thank you.
    Ms. McCollum. Thank you, sir. Thank you. We have our last 
panel if they would please come up. And everybody is here. So 
we are going to hear first from Councilwoman, Dr. Monica Mayer. 
Please introduce yourself again for the record, and please 
start your testimony, and we will let you know when the 5 
minutes are over very gently. We have been letting everybody 
kind of go over about 30 seconds, so if you see it red, you 
don't have to hit the panic button.
    Dr. Mayer. Thank you.
                              ----------                             

                                          Wednesday, March 6, 2019.

                   MANDAN HIDATSA AND ARIKARA NATION


                                WITNESS

MONICA MAYER, M.D., COUNCILWOMAN, MANDAN HIDATSA AND ARIKARA NATION
    Dr. Mayer. Thank you. Good morning, Chairman McCollum and 
other members of the subcommittee. My name is Dr. Monica Mayer. 
My Indian name is [Speaking native language]. I am enrolled 
member of the Mandan, Hidatsa, and Arikara Nation, our three 
affiliated tribes in western North Dakota. And I am also a 
family practice physician.
    And I am a fairly well-educated American Indian woman, and 
I have an associate of arts in business administration, and a 
bachelor's of science in education and taught high school 
before I went into medical school. At the University of North 
Dakota School of Medicine In-Med Program. I have 22 years of 
clinical experience all in the Great Plains area, and I worked 
the ERs for 18 years there, and provided clinic services and 
hospital care services.
    Became the chief officer for the Aberdeen area, formerly 
known as the Aberdeen area. And during my tenure there, which 
was just prior to the Rosebud, Pine Ridge, Winnebago CMS 
issues, I had visited those facilities and worked them, came 
back to let the area office know that if we don't staff 
immediately, the emergency rooms were going to have a bad 
outcome. And they undermined me, and I left.
    And I did return home, and my mother, who recently passed 
away, thought I should have my head examined because I ran for 
office, and now I am sitting as an elected tribal official. And 
I think I am the only, I believe, American Indian woman 
physicians to sit on a council. So I took a significant pay 
cut, so my mom thought I should have my head examined. 
[Laughter.]
    But she was just teasing me because it is the spirit of 
service that is my passion and where my heart lies. So I have a 
lifetime of experience clinically in the Great Plains area.
    Although I am very grateful to Mr. Chairman Fox, my 
chairman from the MHA Nation, to have asked me to come down to 
represent him, not only for our nation, MHA, but also for the 
entire Great Plains based on my experience. And with that I 
would like to say I appreciate the opportunity to testify 
today.
    And I would like to say that when I was the chief medical 
officer back in 2010 for the Great Plains area, I declared 
drugs and alcohol as our number one healthcare issue in Indian 
Country because if anybody who worked grassroots, whether it be 
in the schools, in the clinics, in the ER, anywhere in our 
society, that you would realize drugs and alcohol is the main 
issue in healthcare.
    You can talk about other issues, but the data is hard to 
grasp on this disease of addictions. But I think if we ever did 
get significant data, it would prove that we are no different 
than anybody else in America right now dealing with not only 
opioid crisis, meth crisis, but also our alcohol crisis that we 
have, for it touches everybody in our nation, from the infant 
that is in utero to a meth-dependent mother, to a child who has 
been fostered through foster care, to a teenager who can't 
finish high school because they are drugged out, to an adult 
who can't hold a job down because they can't pass a urine test 
because of their addiction.
    And the poverty level in the Great Plaintiffs, our large 
land-based nations, is astonishing. It is in the 80 percentile 
in South Dakota, in Pine Ridge, Rosebud, Cheyenne River. 
Belcourt is like 68 percent. Fortunately for MHA we have a lot 
of oil revenue, so we don't have significant poverty, and we 
try to make up for that. But also the elders are being abused 
by younger generational people for the sake of stealing from 
them just to support their addictions. And the cost of opioids. 
Also opioids, I could see this coming 20 years ago this crisis. 
Any family practice doctor would have seen it.
    But in Indian Country, we only have 50 percent of our 
fulfillment need financially, but if you don't have the staff 
to run those clinics and ERs, you can't generate any third 
party. So how does the government expect us to make up that 
balance when we don't have the staff to do it, particularly 
nurses? I mean, it is a crisis for us because you can't run 
anything in healthcare without being on the back of the nurse. 
KDU, hospitals, clinics, ERs, nursing homes. So we are in a 
drug and alcohol crisis in Indian Country. It is huge. And I am 
here to say that the MHA Nation built a $25 million, without 
Federal or State money, treatment facility in Bismarck. We just 
opened up for services. We need a waiver, an IMD exclusion 
waiver, for the fact that we need more than 16 beds. We need 32 
beds to deal with the crisis.
    And so, Madam Chair, tied with drug and alcohol--I know my 
time is running short--but mental health is huge, the dual 
diagnosis of the disease of addiction carries with it. And also 
the violence against Indian women is breaking up the fabric of 
our American Indian Country.
    And so with that, I would like to conclude by saying thank 
you for your time. Thank you for listening to me. There is so 
much more to discuss, and I think that my bullet points would 
be drug and alcohol, unified mental health issue with them, 
more policy and procedure and laws, and meaningful tribal 
consultation with area offices and DC offices. Staffing needs 
to be addressed.
    Ms. McCollum. I am sorry, Doctor.
    Dr. Mayer. So thank you, Madam Chair, for listening to me, 
and I hope that we can come to some improvement on the great 
healthcare disparity that our American Indian families are 
enduring in the Great Plains. Thank you.
    [The statement of Dr. Mayer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Ms. McCollum. Thank you. Thank you very much. Melanie 
Fourkiller, senior policy analyst of the Choctaw Nation of 
Oklahoma.
                              ----------                              

                                          Wednesday, March 6, 2019.

                       CHOCTAW NATION OF OKLAHOMA


                                WITNESS

MELANIE FOURKILLER, SENIOR POLICY ANALYST, CHOCTAW NATION OF OKLAHOMA
    Ms. Fourkiller. Thank you, Chair McCollum. Thank you, 
Ranking Member Joyce and members of the committee. I bring 
greetings from Chief Gary Batton and Assistant Chief Jack 
Austin, Jr., from the Choctaw Nation. I am Melanie Fourkiller, 
and I am here to present to you the priorities for healthcare 
for the Choctaw Nation of Oklahoma.
    The Choctaw Nation is the third largest native nation in 
the United States. We comprise over 23,000 citizens across the 
Nation. We are located in extreme southeast Oklahoma, which is 
about 10-and-a-half partial or full counties in the southeast 
corner of Oklahoma, which is fairly remote and the highest 
poverty rates in the State of Oklahoma.
    I know earlier today you heard about the lack of 
appropriations for 2019 and the effect that it had, 
particularly on healthcare, but also on BIA programs related to 
those that we operate. And I just wanted to add the Choctaw 
Nation's voice to that in terms of supporting advanced 
appropriations for IHS. IHS and tribal health systems, as you 
know, are the only direct Federal healthcare program to be 
affected by the partial government shutdown, and it really made 
us scramble in terms of how do you provide continuity of care 
for patients.
    It puts tribes, frankly, in an awkward position of having 
to determine how to continue to administer these programs while 
we weren't getting paid. So how were we going to fund 
continuation of those programs in that interim? And so we 
certainly want to raise that to your attention. We look to your 
leadership and support as we go forward this year, and 
hopefully advanced appropriations for IHS can be put on the 
table and really seriously considered. We appreciate that.
    We also thank you for your continued support of the Joint 
Venture Construction Program. Particularly in Oklahoma, we have 
no facilities on the big healthcare for construction facilities 
list which would take decades, as you know, under current rates 
of appropriation to complete. So joint venture is really a way 
for us to leverage both Federal dollars and tribal dollars 
together to make those replacement of new facilities for 
underserved areas a reality.
    So one thing, however, that concerns us is that the Indian 
Health Service hasn't competed this program since 2014. It is 
very small and very highly competitive, and it is highly 
successful as well. And we would really like to encourage IHS 
to compete that on a more regular and frequent basis, at least 
biannually so that high-priority facilities can be addressed 
with the Joint Venture Program in the future.
    We do have a number of other healthcare priorities, and we 
have written about those in our written testimony. I just want 
to talk about a couple of those to you today while I have the 
opportunity. One is graduate medical education programs. The 
Choctaw Nation of Oklahoma, we have a system of 1 hospital and 
8 outlying outpatient facilities. We are very taxed as we all 
are, with staffing, maintaining staffing for those facilities. 
Our hospital is relatively small given as hospitals go. We are 
in a community of 1,100 people, so it is highly challenging to 
recruit healthcare professionals to a very, very small 
community with small schools, no housing, and lack of amenities 
that health professionals look to when they want to move to a 
community.
    So we started a graduate medical education program on our 
own with HRSA funds back in 2012. We have found that to be the 
single most effective recruitment retention tool for healthcare 
professionals for us to stay in our system, because if not only 
do they highly stay within our system either at an outpatient 
facility or at our hospital, they will stay in rule Oklahoma 
and be practicing as our neighbors, which we also need to refer 
out for care and for, you know, just having the system of 
healthcare that you need in rural areas.
    It also has raised the quality of care, we believe, within 
our entire system because it causes our docs to be faculty. 
They have to remain up on all the latest and greatest notions 
of healthcare, and be able to teach that to those residents. It 
is also a recruitment tool for those docs. They want to be in 
that kind of learning environment. So our pitch is that we 
really need to replicate these programs in Indian Country and 
have a steady stream of funding that is reliable for GME in 
Indian Country.
    So with that, thank you for the opportunity to speak, and I 
would be happy to answer any questions you have.
    [The statement of Ms. Fourkiller follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Dr. Galbreath, medical director of 
Quality Assurance, Southcentral Foundation.
                              ----------                              

                                          Wednesday, March 6, 2019.

                        SOUTHCENTRAL FOUNDATION


                                WITNESS

DONNA GALBREATH, MEDICAL DIRECTOR OF QUALITY ASSURANCE, SOUTHCENTRAL 
    FOUNDATION
    Dr. Galbreath. Hi. I am Donna Galbreath, the senior medical 
director of quality assurance at Southcentral Foundation. 
Southcentral Foundation is an organization that performs 
healthcare in Alaska. We have 2,300 employees, and we cover 
health services including pediatrics, OBGYN, native men's 
wellness, dental, behavioral health, and substance abuse. We 
have won the Malcolm Baldrige Quality Award 2 times. We serve 
65,000 people. And it is on behalf of these people that I am 
speaking.
    Our service area is Anchorage, the valley, and numerous 
rural villages. It is 100,000 square feet--square feet--square 
miles, so it is the size of Wyoming. Square feet would be nice. 
We could do that. [Laughter.]
    The size of Wyoming is a little more difficult. So we are 
really happy to see that some funding increase for Indian 
Health Service, but there needs to be more.
    You know, it is estimated IHS only funds like one-fifth of 
what it should, so per capita it is one-fifth of what is funded 
throughout the Nation. The current Administration's comments 
and actions that seek to undermine the sovereign status of 
tribes really concerns us, so please reject efforts by the 
Administration to eliminate or cut appropriations to Indian 
healthcare programs.
    I wanted to mention the 105(l) lease programs. These need 
to be funded. It needs to have increased funds, and we 
recommend that there be a sub-account in the overall budget so 
that this gets funded, because right now there is movement to 
not fund this, and it just doesn't work well when things aren't 
funded. The other piece is that Indian Health Service has a 
proposal to repeal the fact that they fund hospitals and 
clinics. And all of you know that if you don't have hospitals 
and clinics, you can't provide healthcare, so that doesn't make 
sense either. Indian Health Service needs to continue to fund 
these.
    So this gets to advanced appropriations for Indian Health 
Service. Again, you guys are well aware that you need to know 
where your funding is coming from in order to operate a 
business effectively, and we know we never know. We don't know 
what we are getting. We don't know when it is going to be here, 
and so that isn't an effective use of resources. So what we do 
is we actually hold some funds in reserves, which isn't 
effective either. I mean, it works. It is effective for us, and 
it is effective because we have those shortfalls and because we 
have the delays in funding. And so that is how we handle that, 
but those funds could be going into healthcare if we knew when 
we are going to get the funds from Indian Health Service. So 
having appropriations that are set is really important in order 
to effectively deliver healthcare. Otherwise, it affects the 
quality.
    Behavioral health programs are also extremely important. 
You know, there is lots of substance abuse addiction and 
suicide. You have heard a lot about that today. Alaska has the 
highest overdose rate in 2015, and we have had a marked 
increase in deaths because of this, a 500 percent increase in 
death. You guys all know the statistics, and you have heard 
this from many people, but you have to realize that, you know, 
some of our communities are really small. And you have one 
suicide in the community, it affects everybody, not just the 
family, but everybody in the community. And it reverberates 
because, you know, we are all connected to one another. Even 
people living in cities are affected by that, so the impact it 
has is incredible.
    Increased funding for substance abuse is really important 
above and what has been increased for 2019. The opioid crisis 
is real, and you know that. I know you know that because you 
have tried to address that. But, you know, if you look at the 
Indian Health Service shortfall in money and you add the opioid 
crisis on top of that, it doesn't work very well. It makes the 
shortfall even greater than what it really is. We really need 
those funds to get to our youth. You know, if we can have 
positive impact on our youth and get at the root causes of 
substance abuse and behavioral health issues, then we can 
actually have an impact. We have a program called The Pathway 
Home, and we have served over 1,100 youth in the State of 
Alaska. And it is great to see them when they graduate because 
they are proud. Most of them get their high school diploma 
through that program, and it is really wonderful to see.
    I also have to mention contract support costs. I know that 
there is an indefinite appropriation right now, and I think 
that is really good. But IHS made this a very complicated 
process. It was already complicated, but they complicate it 
more by having increased documentation requirements, and they 
require two appropriations a year to occur, so it has become 
really complex. So could ask Indian Health Service to actually 
make it simpler to use and user friendly, that would be really 
appropriate.
    Thank you for your time. You know, the Indian Health 
Service and all the things in healthcare, it is a vast network, 
and everything is connected to one another. So if you decrease 
money over here, then it has an impact over here, and that is 
what Indian Health Service is doing, shifting pots of money. 
And so overall it needs to increase so it is a more functional 
system.
    So thank you for your time, and thank you for letting me 
testify.
    [The statement of Dr. Galbreath follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Ms. McCollum. Thank you. Dr. Bell, American Academy of 
Pediatrics, Committee on Native American Child Health. I don't 
think we have had someone so focused on the next generation 
before. Welcome.
                              ----------                              

                                          Wednesday, March 6, 2019.

   AMERICAN ACADEMY OF PEDIATRICS COMMITTEE ON NATIVE AMERICAN CHILD 
                                 HEALTH


                                WITNESS

SHAQUITA BELL, M.D., CHAIR, AMERICAN ACADEMY OF PEDIATRICS COMMITTEE ON 
    NATIVE AMERICAN CHILD HEALTH
    Dr. Bell. Thank you. I would like to start by recognizing 
that we are an indigenous land and as we speak and thank the 
people who have come before me that allow me to be here.
    Thank you, Chair McCollum and Ranking Member Joyce and 
subcommittee members. As you mentioned, my name is Dr. Shaquita 
Bell. I am Cherokee. I am here today on behalf of the American 
Academy of Pediatrics, and I am a practicing pediatrician in 
Seattle, Washington, but born and raised in Minnesota. And I 
am, as you mentioned, the chair of the AAP's Committee on 
Native American Child Health.
    I have the privilege of working with groups like the 
Seattle Indian Health Board, Puyallup and Tulalip Tribes, and 
through that work I see firsthand how native children's health 
can be improved by addressing disparities. I am currently 
caring for a child who's enrolled in a tribe, and we were able 
to operate wraparound services through the tribe, through the 
schools, and through the healthcare system to address her needs 
and wellbeing in the foster care system. So this is really 
important to me.
    As many of the folks who have spoken today, I think we have 
covered the physical environment really well, but I will add my 
2 cents. We appreciate that Congress was recently able to 
provide the IHS with $5.8 billion for fiscal year 2019, which 
is an increase as you know. But we also know that still really 
leaves a substantial unmet need. The Broken Promises Report 
from the U.S. Commission on Civil Rights really addresses this 
well and highlights the significant disparity in per capita 
spending and some of the unique challenges that create.
    IHS needs stronger funding and budget certainty. During the 
most recent shutdown, I actually reached out to fellow 
pediatricians and heard about places that were running out of 
really simple, but basic, health needs, like neonatal oxygen 
monitoring devices, medications. We had providers who weren't 
sure if they were going to be winterize their house. It was 
very devastating, the shutdown was. So I appreciate your 
bipartisan bill for advanced appropriations, and we really hope 
that greater budget certainty would also be able to enable IHS 
to recruit better and to retain better pediatric healthcare 
providers.
    As we heard earlier from Winnebago and from Ms. Fourkiller, 
that education is really important, and I have the privilege of 
working with many native students through the University of 
Washington. And student loan debt is a major impact on their 
career decision. We strongly appreciate the value of the IHS 
Health Profession Scholarship Program and Health Professions 
Loan Repayment Program, which are key tools for recruiting, but 
we urge you to consider fully supporting these programs by 
allowing them tax exemption, and to help cultivate the 
continuity of care that native children need.
    Given native children's unique health needs, we are 
heartened that IHS is currently in the process of hiring a 
mental--excuse me--maternal child health coordinator. This role 
is really key and has been empty for 6 years. This role is 
essential in identifying and replicating successes and model 
programs in maternal child health programs, and we urge the 
subcommittee to ensure timely hiring of a talented professional 
for this role.
    I often see firsthand the struggles of parents who are 
experiencing addiction and substance use disorder, and I have 
the privilege of working with those families in my own clinical 
practice. Currently I am helping a mom who was addicted to 
heroin and cocaine early in pregnancy. She had the ability to 
access appropriate care and is now on a medication-assisted 
therapy program. And her child is now 15 months old and is 
developing wonderfully and beautifully. Those services were so 
crucial for his development and for her to be present as his 
mother.
    I am also really touched by the SHIB's report on Missing 
and Murdered Indigenous Women, and has really sparked 
inspiration for me to do work on trafficking in children in 
Seattle and in the hospitals there. Wherever we travel across 
the country and everything you have heard today, there is a 
consistent theme that there are challenges everywhere, but 
there are also really dedicated and powerful people working on 
this, like this wonderful slate of women that I have a 
privilege of sitting next to. And I think it really 
demonstrates that there are people with passion here, and 
that--I flipped too soon--any of the children that we have the 
pleasure of serving may one day be able to take our place here, 
and that is ultimately my goal.
    I thank you again for the opportunity to be here, and I am 
thankful to all the people who have come before me and will 
come after me in the next 2 days. Thank you.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you. I realize as the co-chair of the 
Nursing Caucus how tough it is to find and recruit people, let 
alone when you are not sure of your funding source day-to-day 
or the other issues that you have. I'm certainly open for ideas 
on how you can try to promote that.
    I believe that nurses are the next generation of primary 
care physicians. Obviously we don't have enough of those 
either, and certainly if there are ways that we can promote 
that, either through loan repayments or those type of things to 
help bring medical professionals on, because sometimes dollars 
aren't going to be enough to be competitive in the workplace. 
So you need to do everything you can to bring people together.
    I used my time as a prosecutor to get young kids on, and 
the fact that, they are going to get some loan forgiveness out 
of this. Just when they got them properly trained they left 
because they got their time in on their loan forgiveness 
program. But at least you had the chance to bring them there 
for that period of time and use them. So I'm certainly open to 
any ideas or suggestions you have on how we can continue to 
feed the process for medical professionals. Thank you.
    Ms. McCollum. Thank you. I was very saddened to hear that 
the maternal child health coordinator position had been empty 
for so long. And like you, I think that that is an important 
position to have filled, but filled with the right person as 
well.
    Dr. Galbreath, you mentioned the Special Behavioral Pilot 
Program, similar to the Special Diabetes Program, so it is 
culturally appropriate. If you have more information on that or 
can direct our staff where we can look more to learn more about 
that, I would be indebted for you to do that. As well, Dr. 
Bell, maybe when we talk to Indian Health Services about 
filling the maternal child health coordinator, what are some of 
the talents that you think that that individual would need?
    I want to thank you, Ms. Fourkiller, for bringing up how 
giving people an opportunity to live and become part of a 
community through loan forgiveness can really be impactful even 
if they don't stay working at your hospital, that they are at a 
hospital nearby, you have someone who has been culturally aware 
if there is a referral out. And also a person in the community 
who understands a little better the journey that our tribal 
brothers are still going through in this country. So thank you 
for your work force.
    And we do read the full testimony. I am going to prove it 
to you, Dr. Mayer. I am very interested in what is going on 
with the oil and gas revenues in your State. [Laughter.]
    And I will bring that up at the appropriate panel on that. 
So we do read the full testimonies. So I can't thank everybody 
who has been here enough for being here. And as pointed out, 
all my sisters who are here testifying today, and then we are 
ending with a fully-empowered woman panel, with a woman leading 
the staff and me being the chair. We have good brothers out 
there. We love our brothers.
    But we have to celebrate our successes when we see them, 
and for our daughters--your daughters--to my brothers--to see 
women in leadership is something that every parent when they 
hold their child, no matter what gender, wishes for them 
health, happiness, education, and opportunity. So thank you for 
being here to voice that, and we would appreciate your 
feedback. We were able to drill down a little more on 
healthcare.
    Mr. Joyce, we have our homework cut out for us. You and I 
need to talk to Mr. Yarmuth and Mr. Womack to get the ball 
rolling on advanced appropriations or talk to our partners on 
the Tax Committee about making mandatory appropriations with 
Mr. Cole. So I think we should have our staff maybe do a pre-
meeting with the Budget staff about this, and then you and I 
need to entice them with coffee something--we will find out 
what their beverage of choice is--to have a serious discussion.
    It took the VA, when they nurtured out this idea, it took 
them years to develop. I am asking we will get it done this 
year, and maybe mandatory appropriation would be the other 
alternative. But we have to do something in the interim because 
we said we were protected during sequestration. Everybody 
thought nobody is going to cut Indian healthcare, we are OK, 
only to find out with sequestration, when we heard back from 
the Administration, their hands were tied. They were over the 
top that they couldn't do anything. So were members of 
Congress.
    Then we had a shut down, and it happens again. And it 
cannot keep happening. This cannot be the only place in America 
where Americans citizens who have, under treaty rights, been 
promised their healthcare do not have it available to them. And 
we know that people suffered, and we probably know that people 
suffered irreparable harm, and there are probably people who 
passed away because of this. And you have my pledge--and I know 
as well as every member on this committee, both Republican and 
Democrat--to be a forceful voice that this will never happen 
again.
    So thank everyone for testifying. Just for the record here, 
we know we have a series of votes coming around 1:15, 1:30. Our 
apologies. If Mr. Joyce and I controlled the world, that would 
not happen, but we are not in charge of the floor of the House. 
So thank you, everybody. We are adjourned.

                                          Wednesday, March 6, 2019.

                           AFTERNOON SESSION

                              ----------                              


                         MENOMINEE INDIAN TRIBE

                                WITNESS

DOUGLAS COX, CHAIRMAN, MENOMINEE INDIAN TRIBE
    Ms. McCollum [presiding]. Mr. Peters, intergovernmental 
affairs liaison. Help me say the name of the tribe correctly.
    Mr. Peters. Squaxin Island.
    Ms. McCollum. Squaxin Island. I would have been close, but 
not perfect.
    Mr. Simpson. I would not have even been close.
    Ms. McCollum. So, gentlemen, we could have a vote going off 
at 1:15, and if we do, if the second panel is here, our humble 
apologies. Mr. Simpson and I are going to be quick like 
bunnies. We are going to vote and come back as soon as we can, 
so thank you, gentlemen.
    So, Chairman Cox, if you would start us off, please.
    Mr. Cox. Good afternoon, Madam Chairman, members of the 
committee. Douglas Cox. I am chairman of the Menominee Nation. 
On behalf of the Nation, I provide the following testimony 
regarding funding priorities concerning recommendations in 
regard to natural resource management for the Menominee Nation.
    I thank you and your staff for your hard work in protecting 
the interests of tribal nations in the Federal budgeting 
process. The Federal budget plays a central role in fulfilling 
the Federal government's trust and treaty obligations to tribal 
nations by ensuring that critical programs and services receive 
adequate resources to fulfill their intended purpose. Tribes 
are often proven effective managers of our own resources, but 
must be provided with the appropriate funding and support as 
required by Federal treaty and trust responsibilities. Federal 
support for tribal resources efforts has not kept pace with 
tribal efforts, and, as such, undervalues tribal natural 
resource management initiatives.
    For the Menominee Nation, our forest and natural resource 
management are one of the leading programs in the country and 
globally. The heart of our Menominee Nation is our forests and 
natural resources embraced in this forest. The backbone of the 
economy the Menominee Nation has been our forest management and 
the industry surrounding our sustainable management of that 
resource.
    The forests that Menominee covers about 95 percent of the 
reservation or proximately 219,000 acres, including our major 
reservation resources, water resources, 187 streams and rivers, 
57 lakes that total over 4,750 acres of surface water. Our 
forest creates ideal habitat for a large number of wildlife and 
fish and a host of a variety of native plants, shrubs, grasses, 
sage, and wildflowers.
    The 209,000 acres in Menominee Forest distinguish the 
reservation from surrounding landscape. A major difference 
between the Menominee Forest and the surrounding landscape is 
due to our tribal management and land ethics. So our natural 
resource programs are a wide variety. They include 
environmental services, fisheries management, waterfall habitat 
protection, forest management, conservation law enforcement, 
wildlife protection, and numerous related environmental 
programs. We employ environmental protection specialists, 
foresters, wardens, fish biologists, wildlife biologists, 
hydrologists. They all work in protecting the resources that 
were promised to us in our treaties. We urge the subcommittee 
to ensure quality and consideration towards funding our tribal 
natural resources programs that are critical to promoting and 
protecting our culture, our health, and our economy.
    For the Menominee Nation to fully manage and use our 
natural resources and establish and maintain natural resource 
management programs, funding for BIE natural resource programs 
must increase. BIA programs represent a significant source of 
funding to protect tribal lands. Instead tribal funding 
opportunities have declined incrementally over decades, and 
more precipitously than other natural resource programs in 
Department of Interior. For example, the per-acre funding for 
Forest Service lands is 3 times the per-acre funding for tribal 
forested lands. The per-acre funding that DOI invasive species 
programs is 5 times the per-acre funding that BIA's invasive 
species program currently funds.
    So at this time I am requesting some of the following, and 
these numbers, keep in mind, are national request increases, 
not Menominee-requested increases, but they are within those. 
So to provide water resources, $10 and a half million for BIA 
Water Management, Planning, and Pre-Development Program; 
provide $5 million for water resources, DPA Program. That's a 
tribal priority allocation programs. Water resources contained 
in monitoring, preserving, protecting, and enhancing the 
quality of surface waters, aquatic habitats, and ground waters 
of our tribal lands. We fulfill our obligation by 
administrating federally-authorized and supported surface water 
quality monitoring programs, pollution management programs, 
planning and implementing stormwater management, shoreline 
restoration, and stream crossing replacement projects. Primary 
funding sources currently are primarily U.S. EPA through the 
Clean Water Act Program, Section 106 and 319, and through some 
BIA Great Lakes Restoration Initiative Program funding, as well 
as the water resource programs in BIA.
    Under invasive species, we would request that you increase 
funding to $12 million for BIA Invasive Species Program. 
Invasive Species Program provides critical funds for the tribe 
to control noxious and invasive species. Invasive species cause 
approximately $3 billion in damages on tribal trust lands 
nationwide. The impacts of the invasive species have a 
particularly disproportionate impact upon tribes because such 
species affect plants, animals, and other wildlife that are 
essential to tribal members for sustenance, for our medicines, 
for our ceremonies, our cultures, and our economic health.
    The BIA Program, which was funded at $6.7 million in 2018--
sorry--fiscal year fiscal year 2018 is the only funding stream 
designated to address invasive species on tribal trust land. In 
contrast, DOI spends considerably much more each year to 
address invasive species on non-Indian lands. The BIA program 
is a critical element of the Department's invasive species 
initiative since tribal trust land is more contiguous to other 
Federal lands. In light of this disproportionate impact 
invasive species have on tribes, the significant need for 
equity and funding between non-native and tribal land DOI's 
jurisdiction, an increase.
    Ms. McCollum. I have got some questions on that.
    Mr. Cox. OK.
    [The statement of Mr. Cox follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Ms. McCollum. Mr. Peters is next.
                              ----------                              

                                          Wednesday, March 6, 2019.

                          SQUAXIN ISLAND TRIBE


                                WITNESS

RAY PETERS, INTERGOVERNMENTAL AFFAIRS LIAISON, SQUAXIN ISLAND TRIBE
    Mr. Peters. Good afternoon, members of the committee and 
chair. On behalf of the Squaxin Island----
    Ms. McCollum. Is the little red light on, button?
    Mr. Peters. Good afternoon, members of the committee and 
chair. I am Ray Peters, intergovernmental affairs tribal 
council liaison. On behalf of the Squaxin Island Tribal 
Leadership and its citizens, it is an honor to provide funding 
priorities and recommendations for the fiscal year 2020 Bureau 
of Indian Affairs and Indian Health Service.
    We ask this committee to support our historical trust in 
treaty relationship with the United States and honor the 
fiduciary obligations who were part of the negotiation with 
their tribal leaders. We ask asked specifically this committee 
exempt tribal program funding throughout the Federal government 
from future sequestration, recessions, disproportionate cuts. 
Also ensure stable Federal funding for essential tribal 
services by supporting the Indian Programs Advanced 
Appropriations Act of the Bureau of Indian Affairs, Bureau of 
Indian Education, and the Indian Health Service. Support the 
Special Diabetes Program for Indians reauthorization at $200 
million annually for 5 years. Efforts by the Administration to 
change this funding from mandatory to discretionary spending 
must require tribal consultation before any changes occur.
    The Squaxin Island Indian Reservation is located in 
Southeastern Mason County, Washington. The tribe is a signatory 
of the 1854 Medicine Creek Treaty. We were one of the first 30 
federally-recognized tribes to enter into the compact of self-
governance with the United States. The total land area, 
including off reservation lands, is approximately 1,700 acres. 
We manage roughly 500 acres of Puget Sound tidelands. The 
tribal government and our economic enterprise constitute the 
largest employer of Mason County with over 1,250 employees, 
which we are quite proud of.
    The Squaxin Island Tribe faces an ongoing budget deficit to 
maintain and operate the Shellfish Program at its current level 
of operation, a level that leaves 20 percent of treaty-
designated State lands and 80 to 90 percent of private 
tidelands unharvested due to lack of funding. To address this 
shortfall and enable effective growth and development of the 
program, an annual minimum increase of $500,000 is requested.
    Shellfish has been a mainstay of the Squaxin Island people 
for a thousand years, are important today for subsistence, 
economic, and ceremonial purposes. The tribe's right to harvest 
shellfish is guaranteed by the 1854 Medicine Creek treaty. 
Today we are unable to fully excise our treaty right due to 
lack of Federal support of our Shellfish Management Program.
    As a back comment, when we were going through the Shellfish 
Settlement Agreement with the shellfish growers of Washington, 
we were asked to go ahead and not negotiate on the management 
funds that were needed. Yet 10 years later we are still without 
the needed funds to be able to manage our resource and treaty 
resource.
    Northwest Indian Treatment Center is a treatment facility, 
a residential chemical dependency treatment facility, 
designated to serve Native Americans who have chronic relapse 
patterns related to unresolved grief and trauma. The Northwest 
Indian Treatment Center serves adult clients from tribes 
located in Oregon, Washington, Idaho, and Alaska, and as far as 
away as Florida. We facilitate medication-assisted treatment--
Suboxone and vivitrol injections, which are cutting-edge 
components of the opioid addiction. Since the original 
congressional set aside in the IHS budget for alcohol and 
substance abuse, the treatment for residential facilities and 
placement contracts with third party agency in 1993, Northwest 
Indian Treatment Center has not received an adequate increase 
in base IHS funding.
    We face the opioid struggling to recover to return----
    Ms. McCollum. You are fine.
    Mr. Peters. OK. An increase of $3 million would restore 
lost purchasing power, ensure adequate baseline operating 
funds, allow Northwest Indian Treatment Center to control and 
continue to meet those needs of those who are struggling to 
recover and return to their families and native communities.
    We also support the BIA rights protection increased funding 
to $52 million. This sub-activity account has a clear and 
direct relationship with the Federal trust obligations to the 
tribe. This program ensures compliance with Federal court 
orders by implementing effective tribal self-regulatory and co-
management systems. The benefits of these programs occur not 
only to the tribes, but to a larger community as well. In 
addition to this, the program supports implementation of the 
United States-Canada Pacific Salmon Treaty.
    As well, we would like to go ahead and support the regional 
ask, the Northwest Indian Fish Commission, ATNI--Affiliated 
Tribes of Northwest Indians--and as well, the Northwest Indian 
Health Board. Thank you.
    [The statement of Mr. Peters follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you, gentlemen. Mr. Simpson.
    Mr. Simpson. Thank you. I need to ask this question for Mr. 
Joyce. You mentioned, Mr. Cox, the Great Lakes Restoration 
Initiative that is funded through the EPA. Relative to the 
other programs in your testimony, does the GLRI have much of an 
impact on your tribe, and are there tribal activities that GLRI 
does fund that other BIA funding sources do not?
    Mr. Cox. There are some. So some of the EPA dollars that 
come through GLRI do fund a little bit of our invasive species 
work currently.
    Mr. Simpson. OK. Thank you.
    Ms. McCollum. Mr. Kilmer.
    Mr. Kilmer. Thanks, Madam Chair, and thanks for being with 
us. Very good to see you. I want to just express gratitude for 
the fact that the tribe employs a ton of people in Mason 
County, and it is a great example of the interconnectedness 
between our tribal and non-tribal communities. I think the 
Federal government needs to be a better partner, and 
particularly with regard to your ability to exercise your 
treaty rights.
    I was hoping you could provide a little bit of additional 
detail about how the BIA's Shellfish Management Fund helps to 
support your tribe's effort to exercise your treaty rights.
    Mr. Peters. Well, as co-managers, we do have and being a 
self-governing tribe we get to try to place those monies in the 
best use. But with shellfish settlement, there were much more 
tribal title lands that we now manage and we have access. As 
you know, in that settlement, it did allow us access to private 
lands and have 50 percent of the natural take of that. And so 
just with the current funding that we have in our compacts, we 
just have not had any increases to meet that increased demand. 
We live in, as you know, in one of the richest shellfish areas 
in the world, and so we are very underfunded.
    Mr. Kilmer. Thank you. Thanks, Madam Chair.
    Ms. McCollum. Thank you. Mr. Cox, you talked about invasive 
species, and we are neighbors. I am from Minnesota, and we are 
now dealing with Gypsy moths. We have ash borer, we have pine 
beetle, and DOI gives out 5 times the amount in grants to 
others than to Indian Country. I mean, we are interconnected. 
These bugs don't know any boundaries. So what has been your 
conversation with the Forestry folks when you are going in and 
talking to them about this? They just say, well, we are out of 
money? I got myself on the Agriculture appropriations 
committee, so if we are going to increase this, I need to know 
whether you would be eligible if there is more of an increase, 
or if there is just a straight-up prohibition that they feel 
that they are confronted with that they cannot support you in 
dealing with invasive species.
    Mr. Cox. You know, that is a trend that is ever increasing. 
So this invasive species threat and onslaught is one that every 
time we turn around, we add a number of species to the list of 
things that we are trying to combat. So each time we get an 
opportunity to speak about funding needs, we are talking about 
where we can particularly use that.
    In Forestry, we believe that some of the BIA-funded 
programs that we are getting now, the BIA funding, can indeed 
work towards some of our invasive species needs right through 
the forest management dollars that are appropriated in BIA now, 
but we are also short there. So our total allocation that we 
are getting under TPA for forest management is short, so we 
need additional funding there just start tackling some of those 
larger ones.
    And as I mentioned, the BIA Invasive Species Fund gives us 
one lump sum for the tribe to fight all our invasive specie, so 
we are fighting invasive species not just in our forests, but 
in our waters, in our urban areas. And the forest for Menominee 
is one separate branch of management for the tribe. So there 
are all three of those aspects that we are trying to funnel 
money into, and it is just far, far too short, and we have made 
those asks.
    Ms. McCollum. OK. Well, are hoping the polar vortex knocks 
some of ours flat on their back, the invasive species, because 
we haven't had the cold winters like we have had in the past 
with that.
    Mr. Cox. For some of them, it is no joke. It is one of our 
tools that we can use to combat, but, again, the polar vortex 
puts a strain on our forestry staff as well in their own work 
to get out there and do what we need to manage that forest in a 
health sense, in a sustainable sense that we do. So we need to 
manage all the effects that we are having placed before us and 
on us.
    Ms. McCollum. And are you dealing with oak wilt at all or--
--
    Mr. Cox. We are.
    Ms. McCollum. You are? That as well.
    Mr. Cox. We are. We get a little bit of U.S. Forest Service 
dollars to do some forest health assessments and treatments, 
but, again, it is added to the pot. So it is one piece of about 
six big invasives that we are battling on Menominee Forest now.
    Ms. McCollum. And some of this oak wilt, they are studying 
and emerald ash borer, it is winter that you have to do the 
removal. When you have winters like this, as you said, it is 
hard for the foresters to get out. I noticed you have been 
involved in working on EPA as part of the tribal council, so if 
there is anything about the EPA you would like to add in 
written testimony or direct our staff to look into as concerns 
as well, we would appreciate that.
    Mr. Cox. Sure.
    Ms. McCollum. So I talked about the polar vortex, which 
means I am prepared to talk about climate change. The fisheries 
are wholly dependent upon temperature, water, nutrients in the 
water, and everything else. What has been going on as far as 
the shellfish with what you are seeing with stresses from 
climate change?
    Mr. Peters. It has affected our shellfish, and what you 
will see in the industry is that many of the reproduction, and 
even when we aid that in nurseries and stuff, that the 
shellfish larva is crashing. And it has to do with the economic 
or the climate change, and the warm waters, and the 
acidification of the Puget Sound. So we must, you know, respond 
to that. And we are seeing it. Last year, our fishermen who 
depend on that as income to support their families, we are on 
the sidelines. We didn't fish for chum salmon, which is really 
the main species that our fishermen fish for, so it does affect 
us.
    And if I could respond a little bit more to your question 
earlier, one of the problems that we see with the funding from 
the BIA, it is put into grants. And there is an incredible need 
and more and more tribes are competing for those grants. And 
what we ask is that they increase the base level funding 
because that is where the problem is. Every tribe is facing 
that, but yet when they get new money, they make us compete in 
a grant when that is not fulfilling that trust responsibility 
from the Federal government.
    Ms. McCollum. And I'm keeping a running total of the number 
of times we had during the healthcare testimony, grants were 
coming up, and this makes my sixth hashmark. So thank you for 
that. Thank you, gentlemen.
    So for the second panel, we can get started with testimony. 
There is the vote, so why don't I do this? I didn't do my 
prepared remarks in the beginning because I wanted to make sure 
that these gentlemen got through their testimony without being 
interrupted. So I'll do that, and other members can go vote. If 
they don't want to hear my prepared opening remarks, I won't 
feel hurt if you go to leave to vote, but I will be right 
behind you shortly.
    This afternoon we are focusing on land trust and natural 
resource management, including climate change, and that is why 
I asked that specific question. This morning we heard about the 
critical needs of Indian health both on and off reservation, 
but I think this afternoon is particularly important because 
these issues are key components of native culture and religion, 
and they are integral to the survival of individual Indians who 
rely on the resources and the subsistence as well as economic 
activity that we have started to hear from about already.
    Indian Country lacks the tax base enjoyed by other 
governments, so the funding provided by the Federal government 
is essential to tribal economic development. But it is not only 
the Federal government's actions that impact tribal lands, 
trust, and natural resources. Climate change is real, and it 
poses a serious threat to Indian Country and native peoples. 
Tribes are already struggling to protect their cultures and 
religion. Rising sea levels and increasing temperatures make 
this even harder. All of this requires the Federal government 
to live up to its trust and treaty obligations to build tribes' 
resiliency for the future. And I look forward to hearing from 
the second panel and the remaining panels when we come back to 
vote this afternoon, and I thank you all for being here.
    And with that, we are in recess until we are back after 
votes. Thank you.
    (Recess.)
    Mr. Joyce. Hi. If we could bring up the next panel, please.
    Ms. McCollum. And as you are coming up, I might be leaving 
to go to a defense classified briefing for a little bit, and 
then I will be back, but I have read all the testimony and it 
is great. So, Mr. Joyce, take over.
    Mr. Joyce. Thank you very much. I certainly appreciate it. 
I know it has been a little while, and I apologize for that. 
Those votes break up what otherwise has been a good day here. 
Five minutes for each of you, and then we will take any 
questions at the end. We will start off with you, Chairman 
Manuel.
                                          Wednesday, March 6, 2019.

                         TOHONO O'ODHAM NATION


                                WITNESS

EDWARD MANUEL, CHAIRMAN, TOHONO O'ODHAM NATION
    Mr. Manuel. Mr. Manuel. OK. Good afternoon, Chairwoman, Ms. 
McCollum and this distinguished subcommittee. My name is Edward 
Manuel, and I am chairman of the Tohono O'odham Nation, a tribe 
with more than 34,000 located in southern Arizona. Tohono 
O'odham Nation is one of the largest in the country, and we 
share 62 miles the border with Mexico, the longest 
international border of any named tribe in the United States. 
And thank you for the opportunity to testify here today.
    First, our water settlement. For the past several years, I 
have testified about the serious water crisis we face because 
the Nation's Southern Arizona Water Settlement Act is not being 
funded. The act authorized up to $32 million to pay for 
delivery of water and directed Interior to tell Congress how 
much funding will be necessary to implement the settlement. 
Unfortunately Interior has never fully funded the delivery of 
water, and as a result, the Bureau of Reclamation projects that 
our settlement may run out of funding for water delivery in the 
very near future, forcing foreclosure of tribal farms, employee 
layoffs, crop loan defaults, and breach of related agreements.
    Although we continue to work with Reclamation to try to 
address to the funding shortfall, the long-term stable funding 
source for Indian water settlements is crucial, not only to 
provide funding for tribes seeking water settlements, but also 
to provide funding to tribes like the Nation that are facing 
implementation challenges of existing water settlements. A 
long-term funding source will provide tribes with fiscal 
certainty and ensure timely implementation of water settlement.
    Next, law enforcement. The Nation faces significant and 
unique law enforcement challenges because of our shared Mexican 
border and the size of our nation. Tribal police patrol remote 
areas that are difficult to access, and radio communication 
with law enforcement agencies is unreliable. And as a result, 
our officers face increasing and sometimes unnecessary risk on 
their lives. Drug trafficking, illegal immigration, and border 
security divert limited tribal police resources from our 
communities.
    The Nation works closely with Border Patrol and other 
Federal law enforcement agencies, while we still spend millions 
of our own dollars and a third of our police department budget 
to help meet Federal border security responsibilities. Our 
police regularly investigate migrant deaths and pay for costly 
taxes and no Federal funding assistance. The Nation also pays 
all costs to address damage to our reservation, including the 
removal of vehicles abandoned by smugglers and control of 
wildland fires caused by cross-border illegal activity. We urge 
Congress to provide more funding for tribal law enforcement to 
improve law enforcement communication, hire and train officers, 
purchase vehicles to meet border security obligations, and 
increase the size of our correctional facilities.
    Next, roads funding. According to NCI, the current deferred 
maintenance backlog for BIA roads is approximately $290 
million. The Nation has 735 miles of BIA roads, the sixth 
largest total road mileage in Indian Country. Inadequate BIA 
funding, monsoon rains and flooding, heavy usage by Border 
Patrol vehicles all contribute to terrible road conditions. 
During monsoon season, flooding washes out bridges, isolates 
communities, strands children on school buses, and prevent 
access for emergency vehicles. Congress must provide a 
significant increase in funding for BIE reservation roads. It 
is a serious safety hazard.
    On a positive note, the fiscal year omnibus package 
included language allowing Border Patrol to transfer funds to 
BIA to fix reservation roads damaged by Border Patrol vehicles. 
Some of that funding will be used to repair one of our roads 
heavily used by Border Patrol which will protect tribal and 
Federal law enforcement tribal members. We are grateful to 
committee for addressing this critical funding issue and for 
including similar language in the fiscal year 2019 funding 
legislation.
    Finally, healthcare funding. The Nation's hospital is over 
50 years old, obsolete, and totally inadequate to meet the 
Nation's healthcare needs. We waited more than 20 years for IHS 
construction funding, and last year we finally received a small 
amount to begin work on a replacement. Congress must provide 
substantially increases for the IHS facilities construction 
budget in fiscal year 2020.
    Thank you. The Nation appreciates the subcommittee's 
dedication to providing Indian Country with much-needed 
resources in this challenging fiscal climate. I am happy to 
answer any questions.
    [The statement of Mr. Manuel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you, Chairman Manuel. Chairman Allen.
                              ----------                              

                                          Wednesday, March 6, 2019.

                       JAMESTOWN S'KLALLAM TRIBE


                                WITNESS

W. RON ALLEN, TRIBAL CHAIRMAN AND CEO, JAMESTOWN S'KLALLAM TRIBE
    Mr. Allen. Thank you, Mr. Chairman, and committee members. 
For the record, my name is Ron Allen. I am the chairman and CEO 
for the Jamestown S'Klallam Tribe. We are located on the 
northwestern border, the northern border, so we are on the 
border of Canada. So bookend the country here at this 
conversation.
    So I spend a lot of time working with a number of different 
forums that addressed this subject matter of trust lands and 
natural resources, water rights, et cetera, with the National 
Congress of American Indians and TBIC Forum over in the BIA, 
and the Self-Governance Forum that I am very active in and been 
involved with since 1988. And so a number of our 
recommendations from my tribe is going to be relative to their 
perspective.
    I just want you to know that we highly endorse their 
recommendations. They do a great job at NCAI as well as NIHB. 
We know that you heard from NIHB and some of our healthcare 
advocates this morning with regard to that matter, and we just 
have a strong belief in what they have been promoting and 
advocating in area of healthcare as well.
    Self-governance is a concept that is very important to this 
subject matter, and the reason it is important because it is 
about how tribes take control over our affairs. So to say the 
obvious to you, you know, the amount of resources that the 
Federal government provides us to the 573 Indian nations is 
somewhere in the neighborhood of $21 billion, give or take. The 
need for all the different programs that we try to address with 
our communities, from natural resources to healthcare to 
education and so forth, is probably north of $200 billion. So 
the question of the day is, is the United States government 
ever going to be able to bridge that gap, and I say the answer 
is a rhetorical question, the answer is no.
    So how do we get there so that tribes can be on parity with 
America and have the same kinds of opportunities that we aspire 
throughout the country. And self-governance, in our mind, is 
it, but United States government does have an obligation to be 
able to help us move that agenda forward. In our testimony we 
referenced the Civil Rights Commission's report. They updated 
the 2003 report just this last year that talk about the broken 
promises is the way they characterized it, and it talks about 
the unstable funding, the inconsistent funding, the deficit of 
resources to address our community needs. So whether it is 
natural resources or public safety, healthcare, education, and 
down the line, it is a huge challenge for us and it is a 
balancing act.
    In our opinion, self-governance allows us a lot more 
discretion as a government. It respects us as a government and 
allows us to make those choices based on the discretion and the 
priorities of our own communities. So for us, it works. So our 
testimony is advocating, you know, as you have a control over 
the EPA funds, the EPA funds is critically important.
    We in the northwest, like many of our tribes whether the 
southwest or Great Lakes, who work very hard, environmental 
protection matters, and so we use EPA funds in or order to 
accomplish those objectives. Whether we are working on our 
rivers or whether we are working with communities and 
collaborating with agriculture communities, the timber 
industries, the municipalities and county governments, all who 
are managing growth and development, everything from stormwater 
to wastewater systems, et cetera, that all can have desecrating 
and diminishing impacts on our natural resources.
    For us in the northwest, salmon is a big deal to us. It is 
a multibillion dollar industry. So we have advocated for a 
number of areas in here to try to make that happen. We know 
that you have been considering infrastructure considerations, 
the White House is, and we know that you have been deliberating 
on it. Infrastructure is as important to us as anyplace else, 
and it is relative to natural resource and environmental issues 
as well.
    I know I am trying to focus in on natural resources and the 
complexities with for finfish and shellfish, et cetera, in the 
northwest. But on the economic side, which is really where we 
will generate our true tax base, our real revenue base for us 
to become independent. So loan guarantee programs, surety 
bonding program guarantee programs that many people don't think 
about, so expanding that program, encouraging the BIA to move 
in that direction so our companies can get access to surety 
bonding to move those companies forward.
    So I will stop there. There are many things that are in 
here, and I appreciate you accepting our testimony for the 
record.
    [The statement of Mr. Allen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you very much, Chairman Allen. I can tell 
you one thing, there is nowhere you see more bipartisan 
agreement and less getting done than infrastructure in the 7 
years I have been here. Everybody agrees it is a problem. 
Everybody knows how to address the problem, but we just can't 
seem to allocate the money to address the problem, certainly 
not the Appropriations Committee. We would if we had something, 
a vehicle to put it in.
    Ms. McCollum. I am glad you cleared that with the policy 
committee.
    Mr. Allen. Me, too.
    Mr. Joyce. That is right. [Laughter.]
    No more editorializing on my part. Chairman Mike, please.
                              ----------                              

                                          Wednesday, March 6, 2019.

                        DUCKWATER SHOSHONE TRIBE


                                WITNESS

RODNEY MIKE, CHAIRMAN, DUCKWATER SHOSHONE TRIBE
    Mr. Mike. OK. Thank you. Thank you for the time to allow me 
to speak to you on behalf of my tribe. My name is Rodney Mike. 
I am the chairman of the Duckwater Shoshone Tribe. We are a 
federally-recognized tribes which is located roughly about 4 
hours north of Las Vegas, Nevada, about 4 hours east of Reno, 
Nevada, and about 4 hours west of Salt Lake City. So you can 
kind of see where we are at.
    We are very, very isolated, OK? Our isolation really causes 
a lot of problems from many standpoints, from healthcare, to 
the basic education that the high school kids need, economic 
development. It is just a nice piece of God's country. It is a 
beautiful place, but, boy, it is a hard place to make a living. 
And we have about 400 members in our tribe, a little bit more 
than 400 members of our tribe. Roughly about 175 of those 
people live there, and most of the population live on the 
reservation are the seniors and elders because the young people 
have to go away to our neighboring towns and throughout the 
State to make a living. So the healthcare is a big issue on the 
reservation right now at the time with the aging population, 
OK?
    This recent government shutdown has really opened our eyes 
to the future of our tribe because of the funding. Like I said, 
we are solely dependent on 100 percent funding from United 
States government, which we are very thankful for, but when we 
had those hiccups in our system, we come about that close to 
closing our doors. I know some of our neighbors actually did 
closer doors from the day that announcement came through. So 
luckily, for the first time in the history of Nevada, our 
governor, Mr. Sisolak, took time to sit down with all the 
western Shoshone leaders, the nine Shoshone leaders of the 
western State of Nevada. Eastern State of Nevada, excuse me. 
And he wanted to see how the shutdown affected us. And he took 
a good hour and a half of his day to visit with us, and we 
really appreciate what he did. But he wanted a clear 
understanding of how it affected Indian people and the 
communities of his State. So anyway, he has got an open door 
policy, and that is the first time that has ever in our State, 
and we are very thankful for that.
    But anyway, I have got so much to talk about. Can I buy 
some more time? [Laughter.]
    You know, I listened to the other people that are giving 
statements and their comments, and I was told by a friend of 
mine who said you take 10 people and you put them in a circle, 
and you have them throw all their problems out in the middle. 
He said, pretty soon you are going to want yours back, you 
know? [Laughter.]
    So I don't know. It seems like a lot of our problems, we 
have the same problem in different forms, you know, but I think 
we are all here for one reason and that is to try to make 
everything better for the people that we represent, you know.
    So some of the things that we definitely want to see in the 
future is when the government gets into the situations they do, 
it should not affect the funding for the Indian tribes 
whatsoever, you know. It shouldn't, you know. The scare with 
the shutdown for just the basic needs of healthcare for some of 
our people really got serious, especially people on dialysis, 
you know. Our nearest major medical is, well, 75 miles away. 
Our nearest Walmart is 200 miles away just to give you an idea. 
So getting physicians to come out to Duckwater in a rural area 
is very, very difficult. They want to know Walmart you tell 
them it is 200 miles away, bye, you know? I will find someplace 
closer to work. So it is a tough place, but it is a beautiful 
place.
    We have road issues. We would like to see more funding for 
road issues. We have dirt roads that high school kids travel 
every day, about 40 miles of that, OK? We have just basically 
reservation roads that are falling apart, that haven't repaired 
in 40 years that I know of. They are almost dirt roads again, 
you know? So the only source of employment is the tribe or if 
you are a rancher, but the cattle industry isn't that great. 
And we recently just got a land expansion with the Bureau of 
Land Management for another 33,000 acres, and they were 
supposed to have that surveyed so we could start fencing that 
in, but they don't have no money. We don't know where the lines 
are, so we are going to have another war with BLM on cattle 
wandering over into ranges they are not supposed to be in this 
summer.
    So we have a whole list of different problems, but anything 
that we can get done as funding for any part of health, you 
know, the BIA, we would sure appreciate it. But thank you for 
your time. I appreciate the time you have given me.
    [The statement of Mr. Mike follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. You still stayed on time.
    Mr. Mike. OK. [Laughter.]
    Mr. Joyce. Do you have any questions?
    Ms. Pingree. No, but I just wanted to say thank you very 
much. As you know, I came in late, but I really appreciate all 
of you taking the time to be here with us today and the work 
that you do to represent the people you represent. Thank you so 
much for that.
    Mr. Joyce. OK. Thank you. Chairman Manuel, you mentioned in 
your testimony that at the beginning of fiscal year 2018, the 
subcommittee authorized the transfer of funds from Customs and 
Border Protection to the BIA for road maintenance along the 
borders. Can you tell us about how those funds have helped?
    Mr. Manuel. We have three roads going to the international 
boundary, and Border Patrol utilizes those three roads. They 
are 18 miles to 20 miles from the main road, and so they are 
paved roads, but eventually they turn into, the chairman is 
sitting over there, dirt roads, so because they are being 
utilized 24 hours a day by Border Patrol. So we have been 
trying to get Border Patrol to put in some money to help us fix 
those roads, but they can't do it because they are saying they 
are being limited because of the language in the appropriations 
bill. They can't put any money towards BIA roads.
    So they put in that language back in 2017 or 2018 to allow 
Border Patrol to transfer some money to BIA to help fix the 
roads. And so the money transferred over. I think there is 
about $18 million that was set aside for that one particular 
road. So they are working on that road now to fix that road 
using that money.
    Mr. Joyce. So it is helping.
    Mr. Manuel. It is helping, yes.
    Mr. Joyce. OK. You could always use more I understand, 
but----
    Mr. Manuel. Definitely. We still have more roads that they 
are utilizing.
    Mr. Joyce. Thank you all for coming here and testifying 
today. We appreciate your input, and thank you for your 
service.
    Mr. Manuel. Thank you.
    Mr. Allen. I think I am on the next panel. I am staying 
here. [Laughter.]
    Ms. Pingree [presiding]. There you go. I guess we are ready 
for our next panel. Hello. I haven't been here earlier today, 
and I am sorry for that. I am Congresswoman Pingree. I 
represent Maine, and we are very proud of our tribal 
communities in Maine. We are happy to go through your 
testimony, and I have just been asked if, Mr. Allen, if you 
would be willing to go last because Representative Kilmer is on 
his way and he wanted to be sure to have a chance to hear your 
testimony.
    Mr. Allen. OK.
    Ms. Pingree. So if that is good with you, we will just 
start with Mr. James.
    Mr. Joyce. (Off audio.) [Laughter.]
    Ms. Pingree. OK. Put you in charge of that. [Laughter.]
                                          Wednesday, March 6, 2019.

                          YUROK TRIBAL COUNCIL


                                WITNESS

JOSEPH JAMES, CHAIRMAN, YUROK TRIBAL COUNCIL
    Mr. James. All right [speaking Native language]. Joseph L. 
James. I am the chairman for the Yurok Tribe. I come from the 
village of Sregon located on the lower Klamath River in 
northern California. Good afternoon, distinguished committee 
members. The Yurok Tribe is grateful for this opportunity to 
provide testimony about ways that we can partner with the 
Federal government to prepare for an adaptive climate change 
and be part of the solution.
    The Yurok Tribe is the largest tribe in California with 
over 6,200 tribal members, including a reservation in the lower 
45 miles of the Klamath River, which is the third largest 
salmon-producing river on the West Coast United States. For us, 
climate change is no longer discussed as something that will 
happen in the future. It is impacting us now. We have been on 
the lower Klamath River since the beginning of time. We can see 
the changes occurring now, many of the particular effects of 
climate change, including floods, droughts, extreme fire 
behavior, and increased stress to river life.
    The role of the Yurok Tribal government is to protect our 
people and our resources, which means we must be prepared to 
respond to all these crises. My testimony today focuses on four 
key areas of funding opportunities that would empower us to 
respond to climate change. One, passage of H.R. 1312 empowers 
Yurok land management capacity. Two, increase Yurok base 
funding to proactively prepare for climate change instead of 
reacting after disasters. Three, provide adequate funding for 
Yurok collaborative emergency response for frontline action. 
Four, support Yurok fisheries disaster relief, water quality, 
and fish restoration initiatives.
    Since time immemorial, the Yurok Tribe has managed its 
natural resources. As we have seen in Northern California 
recent years, failure to manage fires or fuels appropriately 
can have deadly consequences. The Yurok Lands Act, H.R. 1312, 
recently introduced into the U.S. House of Representatives will 
enable the tribe to better manage our lands to prevent life-
threatening fires, mitigate other losses to tribal cultural 
resources, protect our members from natural disasters. This 
bill reflects our partnership with the Redwood National Park 
and the U.S. Forest Service. This bill is a key element of our 
response to climate change, and we encourage the House to pass 
it.
    The Yurok Tribe has culturally used fire to manage the 
landscape. We are integrating this cultural knowledge into 
modern day fuels management. Our tribal government operates 
under base funding provided by the Bureau of Indian Affairs 
with a minimum shortfall of $13 million. The initial funding 
level was set decades ago when the number of tribal members was 
around 2,000, and there fewer than 30 tribal employees. Today 
there are over 6,200 tribal citizens and 500 employees. This 
increase will help meet our critical needs.
    We respectfully request funding to increase our critical 
emergency response capacities. Fire and floods are our main 
threats, both of which have increased in frequency and 
severity. We have had to declare a tribal disaster on February 
28th, 2019 because of the weather impacts on the Yurok 
Reservation. The response to our reservation is very 
challenging with a one-lane road, no cell service. Most of our 
houses do not have electricity or no running water. The tribe 
responds to emergencies more effectively than outside county or 
Federal because we know our land. Specifically, we will be 
staffing for law enforcement and wildland firefighting training 
and equipment.
    The Yurok people have always been and will be a water and 
fishing people of the Klamath River. When fish runs are too low 
to support fishing, the impacts to our community and way of 
life are substantial. In 2016, 2017, and 2018, stocks were too 
low to support our commercial fishery. In 2017, for the first 
time in history, we closed our subsistence fall fishing. That 
was a very, very meaningful, very tough decision to make for 
our people to let them know that they can't fish for 
subsistence fishing on the Klamath River.
    The stocks were so low because of the high rates of fish 
disease that killed our baby salmon. Disease was caused by poor 
conditions caused by the lack of heavy flows and bad water 
quality on the Klamath River, which in part is created by 
drought from climate change. The tribe received a minimum 
amount of fishery disaster relief funding authorized in the 
Magnuson-Stevens Act of the 2016 declaration, and is still 
waiting for a response to the 2017 and 2018 disasters. The 
tribe encourages the subcommittee to ensure fisheries disaster 
relief funding is included in the forthcoming appropriations 
bill.
    The Yurok Tribe supports large-scale water quality and 
habitat improvement projects throughout Klamath Basin in 
northern California and southern Oregon. Support for funding 
for fisheries restoration projects and water quality 
improvement in the Klamath Basin is critical to help the 
communities throughout the Basin return to sustainability.
    In conclusion, we thank the subcommittee for allowing us to 
share our Yurok story [speaking Native language].
    [The statement of Mr. James follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    Ms. Pingree. Thank you. Rhonda Pitka.
                              ----------                              

                                          Wednesday, March 6, 2019.

                COUNCIL OF ATHABASCAN TRIBAL GOVERNMENTS


                                WITNESS

RHONDA PITKA, COMMISSIONER, COUNCIL OF ATHABASCAN TRIBAL GOVERNMENTS
    Ms. Pitka. Hi. I am Rhonda Pitka, chief of the Village of 
Beaver. I am also vice chair of the Council of Athabascan 
Tribal Governments. The Council of Athabascan Tribal 
Governments is a consortium of 10 tribal governments in the 
Yukon flats of Alaska. We live within two wildlife refuges, and 
we border a national park and preserve. We live with Yukon 
Flats National Wildlife Refuge and the Arctic National Wildlife 
Refuge, so much of our land in our area is Federal.
    We have a natural resources department, and normally our 
natural resources department manager would be here providing 
this testimony for you. He is much more of an expert than I am. 
I have a lot more wide-ranging interests than he does, but 
right now I am trying to kill him because I want him to do a 
contract crew for the BLM Fire Service in 2 months' lead time. 
So he is super happy with me right now. Hi, Bruce. [Laughter.]
    The government shutdown has affected our ability to provide 
service with that contract crew. It has cut the lead time down 
considerably. We have one of the first non-BIA self-governance 
agreements in the Nation with the Bureau of Land Management, 
and it is because of the relationship that we have with our 
Alaska office. That agreement, though, has been affected by the 
government shutdown. It is a, what do they call it, 
discretionary? Discretionary funding from BLM, so it is pretty 
much up to them what happens with that.
    We finished negotiations on that contract back in October, 
and so we expected it to go through the normal process, you 
know, go to the State Bureau of Land Management, go get 300 
signatures before it finally goes to Congress, and then it has 
to sit in Congress for 90 days. The government shutdown 
affected our ability to get real clear guidance on that AFA or 
even where it was. So we just spoke with our senator this 
morning, Lisa Murkowski. Her staff is going to look into where 
it is in the process because we can't really get answers on it 
right now. It is in such a murky, gray area.
    The government shutdown has really affected our abilities 
in a lot of different ways to provide services for our people. 
Even getting password resets for websites has been just a 
challenge. It has been a nightmare all around. Our accountants 
are slave drivers, so we have been able to maintain our 
reserves and work through the shutdown in that manner, but that 
places an undue burden on our government and on our governance 
structures for our healthcare facilities also.
    The main programs that we have is our healthcare, so it has 
been kind of difficult for me to only focus on one issue for 
this testimony, but 5 minutes isn't really all that long, and I 
am an Athabascan chief and I can talk all day. [Laughter.]
    Our ability to build tribal capacity has been affected 
through this government shutdown and through not having the AFA 
in a timely manner. We want to work on the contract crew, and I 
am killing my natural resource director to get it done this 
year because that is one of the main ways that our people have 
long-term employment. Things have not been going into the 
Federal Register in a timely manner for contracts, so it has 
really difficult trying to navigate through this process. We 
would appreciate help on that.
    So the chairwoman, Ms. McCollum, has said she wanted to ask 
some questions about climate change in our area. I could 
probably talk about that for more than the 1 minute remaining. 
But we live on the Yukon River. It is one of the major salmon 
rivers in Alaska. We only get one type of salmon in our part of 
the river, and that is the Chinook salmon. And our ability to 
fish has been hampered so many times in recent years. It breaks 
my heart that the chairman, you know, told me about the 
subsistence shutdowns. There have been years when we have not 
been able to fish because of climate change, because of those 
effects. And that has long-ranging effects for public safety, 
for the ability of our families to take care of each other. 
That affects our economies. We are a mix of subsistence and 
cash economy.
    So having climate adaptation plans is important, and that 
that sort of funding is really crucial. I have sponsored at 
Tanana Chiefs Convention a resolution this year to move forward 
with climate change plans for a regional level. And I think 
that having more of that type funding is really needed. Thank 
you.
    [The statement of Ms. Pitka follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you. Mr. Allen.
                              ----------                              

                                          Wednesday, March 6, 2019.

             U.S. SECTION OF THE PACIFIC SALMON COMMISSION


                                WITNESS

W. RON ALLEN, COMMISSIONER, U.S. SECTION OF THE PACIFIC SALMON 
    COMMISSION
    Mr. Allen. Thank you, Madam Chair and committee members. 
Once again, I am Ron Allen. I am the chair for the Jamestown 
S'Klallam Tribe located in western Washington State. This 
testimony that I am providing you is coming as an alternate 
commissioner representing 25 tribes in the northwest, and one 
of them is in Alaska, the Metlakatla community in southeast 
Alaska. And it is specifically about the U.S.-Canada Pacific 
Salmon Treaty that was negotiated back in 1985.
    And every 10 years we renegotiate chapters that control 
each of the species. So the Chinook, Coho, Chum, Sockeye, and 
Pink fisheries are all in different chapters, and they are all 
controlled by those chapters. And we use 10-year regimes 
because it allows us to go through a couple of cycles and a 
partial cycle, and then it helps us decide what we are going to 
do next.
    It took us 2 years to negotiate this new set of chapters 
with regard to each of these species. It is a very complicated 
process. Over the years I have been involved since 1985 when we 
negotiated, and I have been in different forums. You basically 
have a commission that oversees the whole treaty, and then you 
have these panels that control different areas from Alaska 
through lower 48. And it is a very complicated arena.
    We have, most people don't realize that in this 
international forum, a number different appropriation 
committees have jurisdiction over these forums. So the 
international forum is the State Department, and that controls 
the International Secretariat office and their budget. And then 
the States are involved, and the State receives a fair amount 
of resources from Commerce. And then NOAA is involved, so NOAA 
and National Marine Fisheries--it should be ``Indian,'' but it 
is not--National Marine Fisheries folks are involved as well. 
And so their money comes through Commerce, which is a bigger 
chunk of change when it comes to implementing the treaty.
    But for the tribes and as well as U.S. Fish and Wildlife, 
it comes through Interior, and we currently receive around $4.3 
million for the 25 tribes. And we are asking for close a $1 
million increase in it. So you have my testimony and little 
more details in the testimony. But I need the committee to 
understand why it is so important for the tribes to be engaged.
    We receive resources in order to manage our natural 
resource responsibilities, everything from finfish to shellfish 
within the lower 48 in our usual and custom territory. But in 
this international forum we have to be involved in a very 
complex forum. Each of these species and each of the stocks of 
the species has to be monitored. They are tagged, and you do 
and you discern who is catching what fish in Alaska, British 
Columbia, and the lower 48. And this time we negotiated a new 
metric system. In the testimony I refer to it as CYER--it is a 
calendar year exploitation rate--and it is complicated. And so 
everybody has to have a role.
    Well, the tribes have a critical role because we are on 
every river, and so we know what is coming back and how they 
are fishing. And more often than not, when you think of the 
stock comes out of our river system--we call it gravel-to-
gravel--and so the fish goes up north, it gets intercepted, and 
then it gets intercepted, and gets intercepted before it gets 
back to us. We are the last in line. We have to make sure that 
escapement goals get up there on top of that. So that is a 
harvest management role. This is a harvest management treaty. 
That is its role.
    Then there is the habitat side of it. We call it the four 
H's: the habitat side, the hatchery side, and the hydro side. 
So they all play roles with regard to the welfare of salmon in 
the northwest. And so the main point is this is a multibillion 
dollar industry. It is essential that the tribes be involved. 
We are always at the cutting edge and the front lines with 
regard to what works, what doesn't work, and how do we modify 
the system.
    So we are asking for help so that we have the resources to 
be able to counter or complement the state and the Federal 
government with regard to the welfare of salmon. And one of our 
good mentors and friends from the northwest, Billy Frank, Jr., 
always refers to us as the salmon people, and so we think that 
we are the canary in the northwest with regard to, you know, 
the health of salmon for the northwest. Thank you.
    [The statement of Mr. Allen follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you all very much for your testimony. I 
will just say a couple of brief things. We really appreciate 
your focus on the resources and helping us to better understand 
a little bit about the impact of climate change in your 
communities. And, Mr. James, you said specifically when you 
have experienced these times when the salmon doesn't return at 
all, and you talked a little bit about the health of the river, 
is some of that due to upstream pollution that then affects the 
fish coming in? I am not really familiar with the geography 
there. What are the greatest sources of the problem that you 
are experiencing?
    Mr. Allen. Well, it is a number of factors. Water quality, 
warm water flows. A lot of it plays into that as we manage the 
lower Klamath River with our fisheries department. We have a, 
for me, is a state-of-the-art fisheries team, science team that 
actually manages. We have a regulatory that we do for our 
council. So there are number of things. Upstream water quality 
and water temperatures are a huge impact to us, and that is the 
climate change. And, again, we mentioned we had to tell our 
tribe memberships that, hey, you can't fish this year.
    Ms. Pingree. I can't imagine.
    Mr. Allen. And that is our way of life. You know, that is a 
number of things, you know. That is our cultural. That is our 
ceremony. That is our tradition. My mother taught me how to 
fish. That is how we are as river people, and to tell our 
tribal citizens that they can't fish this year for subsistence, 
that is heartbreaking. But, again, we want to make sure they 
the abundance of fish keeps coming, you know, for the following 
years. And so that is some of the things, the hard tasks that 
we have taken and impose on ourselves, so.
    Ms. Pingree. And when you say ``warming,'' you are talking 
about warming because of climate change?
    Mr. Allen. Correct, climate change, water quality. There 
are things that we could do. Creek restoration, habitat 
restoration. You know, you are improving the streams, the 
creeks. Part of that is all funding that you can do for us. We 
can't sit there and stand by and watch it, and so that is what 
we have been proactive of improving the water quality of the 
lower Klamath River. We go after grant funding, and so, again, 
if there is anything that this committee could do to help us, 
that would be much appreciated.
    I do want to say thank you to Mr. Kilmer and his staff 
regarding the fisheries funding. We really appreciate that 
along with all the other tribes--California, Oregon, 
Washington, Alaska. So we appreciate that for the committee for 
providing those funding for us for that disaster.
    Ms. Pingree. That is great. Anything either of you two want 
to add to this?
    Mr. Allen. Well, what I would say is climate change is very 
real, you know. We in the northwest would say, you know, we are 
going to call it what it is, and we are seeing the experience 
of it. It is changing the migratory patterns. It is changing 
the predatory patterns. Predators that are going further north 
has become particularly problematic for us. The warming waters, 
the lower impacts. The snow packs in the winter are lighter, 
and so that means that it is a problem with regard to the 
rivers in terms of adequate water. Everybody is drawing on the 
water. The aquafers, they all feed the aquafers and so forth.
    And so and we compete for other interests. The agriculture 
industry, they need their water needs as well. So it is a tough 
balancing act. So we are trying to figure out how to balance 
it, how to understand the changing patterns in terms of its 
impact. Warming waters is a huge problem for us, and while you 
are balancing, it is not just the climate change, but it is a 
balancing of growth. You have growth going on in America and we 
do in the northwest, and so you balance all these activities--
timber industry, agriculture industry, growth activities, big 
industries. It could be Boeing. It can be Microsoft in the 
northwest, for example, big buildings, stormwater, wastewater 
systems, et cetera. They all add to it, to the challenge.
    And we are insisting that salmon will not get lost in that 
mix. So climate change, a watchword. I know in Alaska it is 
huge. We visit Alaska a lot, and so we know how challenging it 
is up there, but it is not just an Alaskan problem.
    Ms. Pingree. Right.
    Mr. Allen. It is throughout the United States.
    Ms. Pingree. Anything else you wanted to add?
    Ms. Pitka. Yeah, I just wanted to say that, you know, we do 
have the climate change problem in Alaska that are very 
serious. We have warming issues. Today in DC I saw on the news 
that it was the coldest day of the year so far. This is, like, 
a mild day in Anchorage. [Laughter.]
    Ms. Pitka. You know, we would really appreciate our weather 
back. I felt kind of bad that I brought the cold with me.
    Ms. Pingree. Yeah, you can have the weather. [Laughter.]
    Ms. Pitka. But the health of our rivers is crucial. By the 
time the next salmon get to our area of the river, it has gone 
through probably about a thousand miles. So that is basically 
the only species of salmon that our people are able to harvest 
that is any good to eat for people. So we don't have the 
ability to adapt and change prey, and we also don't have, I 
guess, the desire to do so. That is our cultural resource, but 
only that. It is the only resource that we get in our area of 
the Yukon River. And we have numerous challenges, you know, in 
this particular area, not only climate. We have erosion issues 
on our rivers.
    Yukon River Inter-Tribal Watershed Council was doing an 
erosion study, so they went down the river in a boat, and they 
said they were going to do all this mapping. So the lady told 
me it was easier for her to map areas that were not eroded than 
the areas that were eroded. So the erosion affects the ability 
for the salmon to spawn in our rivers, and it affects our 
ability to fish in areas that we have traditionally fished. It 
has changed so many different ways, in our area in particular.
    Alaska is such a geographically diverse place. Every region 
has its own unique challenges. One of the other challenges that 
we face is we are a transboundary river. We have escapement 
goals with Canada for the salmon, so if by the time it hits our 
area the goals aren't being met, then the managers have to cut 
off our subsistence fishing, which is a travesty. In my 
particular region, we have a population of about 1,200 people, 
but every single one of those families are fishing families. My 
family, in particular, is probably one of two families along my 
section that still live in fish camp in the summer time. We go 
to there in the beginning of summer. We set up and then we fish 
for when we are allowed. And of course we are legal fishers, 
and we stop immediately when there are shutdowns.
    But it is challenging as it is to be a subsistence 
fisherman without these outside influences of climate change, 
undue regulations, and the burden that is placed on our people 
for that transboundary escapement goal being met. Thank you.
    Ms. Pingree. Thank you very much.
    Mr. Joyce. Thank you. Chairman James, you were talking 
about doing forest management and fuel management in 
California. Have you been subjected to any of the fires up 
there?
    Mr. James. Absolutely. Northern California, we are impacted 
by fires. You know, unfortunately there was a lot of fires in 
our area. And so we do a lot of fire prevention with our Yurok 
wildland department. We do thinning of the forests for 
prevention of fires, but also restoration work so our animals 
can come back. They feed, and so we are doing a number of 
things. That is what we have always done since time for us as 
an Indian people. We use fire, but we use it in the way of 
balance. Know when to burn, know what you are burning, and why 
you are you burning it for.
    Mr. Joyce. Has the management helped you contain the fires?
    Mr. James. Absolutely. We were able to do, it is basically 
preventative maintenance.
    Mr. Joyce. Right.
    Mr. James. And getting in front of it knowing that you are 
vulnerable for living in a canyon where there could be a fire, 
and that could take out your whole community. And so we are 
looking at it that way. We always have been looking it at that 
way, but it is more important and vital now with all the fires 
of climate change, of the heat. Again, we don't get that lack 
of a snowfall in preparation to help our water systems and 
environment. And so we are doing those preventive measures, but 
there is never enough money for that we get from Bureau of 
Indian Affairs for our wildland fire department.
    And so to answer your question, absolutely, we are 
impacted, but we are looking at it, too, to also bring back our 
resources, too.
    Mr. Joyce. Is there any issue with the State of California 
and some of the things that they won't let the lands around you 
do as far as the reservoirs to trap the melting snow for the 
farm areas? Do you think that has changed the river flows or 
created issues with the river?
    Mr. James. We don't have the reservoirs on us.
    Mr. Joyce. Not your property, but other properties that are 
upstream from you, say. My understanding from a member of this 
committee who is no longer here, but he is from California's 
Central Valley, he was saying they were no longer able to trap 
the melting snow to use in farm production or to help the 
river. The idea in California was to let everything go out to 
the ocean and bring it back and desalinate it.
    Mr. James. Right.
    Mr. Joyce. I was wondering if the State's policy has 
affected your tribal lands.
    Mr. James. No, our tribal policy is to let the river free 
flow. We understand reservoirs' entrapment of water for those 
things. So it is a balancing act for us back at home. We are 
working to see how we can better improve our relationship with 
the State of California regarding resources that could improve 
our way of life because we are always looking to partner. It 
makes sense all the way around----
    Mr. Joyce. Sure.
    Mr. James [continuing]. Is to utilize and stretch your 
resources for the betterment not just of the reservation, but 
the community and everybody that is around us. And, again, fire 
and lack of fire protection is critical there in California.
    Mr. Joyce. It is one of the static--you were going to say 
something, Chairman?
    Mr. Allen. Well, in our area what we are doing is 
developing reservoirs, capturing winter water to be used in the 
lean months when droughts happen and there is less water and so 
that it doesn't impede on salmon spawning. But what it does do, 
it captures the water when there is abundance of water or snow 
or whatever it might be. And then just hold it, and then the 
agricultural industries can use it, et cetera. So it is a 
little different approach. It may differ from river system to 
river system. But in our area, we are finding it is a 
successful model.
    Mr. Joyce. That would make sense, and that was the point I 
was trying to make. The State of California has created some 
issues for you on your lands.
    Mr. James. It has, but we also work with them regarding 
release of water flow from dams for our salmon and our river 
restoration. We are into taking out the dams. 2021, four dams 
are going to be removed on the upper Klamath River. And so for 
us is we want to make sure those fish will be up there to get 
up there since time immemorial. But to answer your question, we 
are working with the State of California to release water flow 
as the dams are still standing there to help out our fisheries 
resource.
    Mr. Joyce. Great. Thank you all for coming here and for 
your testimony today. I know my distinguished colleague, Mr. 
Kilmer, has a few questions, specifically for the man who had 
to miss his flight to wait here for you. [Laughter.]
    Ms. Pingree. The floor is yours.
    Mr. Kilmer. Thank you. Thanks for being here. Thank you, 
Madam Chair. Chairman Allen, I just want to express my 
appreciation for your commitment to the negotiation process, 
and to see a result that ensures long-term conservation of 
these stocks, both for the tribal and non-tribal fisheries. I 
think what is clear is now it is our job to fund it, right, to 
actually make sure that there is necessary funding in place to 
implement this.
    I know we are a little short on time, but very briefly, can 
you just say what is at stake if this isn't implemented due to 
a lack of funding?
    Mr. Allen. Thank you, Congressman. What is at stake is that 
this is a multibillion industry. It is not just fishermen. It 
is all the tertiary industries that depend on the salmon 
industry, are all dependent on a successful one. If we don't 
make it work and we don't have the resources to implement a new 
regime--it is a new model, it is new metric system--in order to 
determine the status of all the stocks, and the balancing act 
of who can catch what where and try to get all the stocks back 
to what we call sustainable levels. We just do not want it to 
degrade further than what it is.
    This package that we put together with Canada, we have 
fisheries problems in British Columbia, but we have serious 
problems in Puget Sound. We couldn't resolve them totally by 
just the harvest management side. We have habitat issues that 
we need to deal with. We need a bypass with regard to dams that 
aren't going to be removed so that we have fish ladders that 
can get around them. And hatchery because it is a balancing act 
of trying to restore the natural stock, but providing some 
artificial stocks.
    And part of that is the Orca whale which is out there in 
the northwest. It is a big deal to the northwest. It is a part 
of who we are as well. And they basically live on Chinook 
salmon. They have a very delicate palate that they like, and so 
we need to produce more Chinook salmon for them. So it is a 
combination of being able to make this regime work, and it is 
always a balancing act between us and Canada. We both have a 
role and a job to do. Our interest comes from the perspective 
of the tribes and each of the rivers. We all pay attention to 
those stocks, the different species that come back to our 
river. It is not just Chinook, but it is the other species as 
well, but Chinook just happens to be king. They call it king 
salmon for a reason.
    And so we want to make sure that we have the resources so 
that we can cross-check as we go from year to year the metrics 
and how well we are performing from the fisheries in the north 
up in Alaska to British Columbia and then in our own backyard.
    Mr. Kilmer. Thank you. I yield back. Thank you.
    Ms. Pingree. Thank you all. I will just say as you are 
departing, I represent the State of Maine, and so we are very 
familiar with dam removal and, of course, the Atlantic salmon, 
which are highly prized where we are and the challenges of 
keeping species like that going on in this particular time. But 
dam removal has certainly been critical to the work that we 
have been able to do. There are good fish passages that 
actually work.
    Again, thank you all for being here with us today, and we 
have one more panel.
    Voice. Thank you.
    Mr. Kilmer. Thanks.
    Ms. Pingree. Good afternoon. Thank you very much for being 
with us here today. We are going to just move the order a tiny 
bit. We will start at this, that is how we will do it because, 
Mr. Johnston, Mr. Kilmer has to go back to the floor to debate 
weighty matters that are being considered today about--what are 
we debating today?
    Mr. Kilmer. H.R. 1.
    Ms. Pingree. Right, H.R. 1, our voting rights, ethics 
package, and campaign finance reform. That way at least he will 
have a chance to hear from one of you.
    Mr. Johnstone. My pleasure. Thank you very much.
    Ms. Pingree. If you don't mind starting, we will go ahead.
                              ----------                              

                                          Wednesday, March 6, 2019.

                 NORTHWEST INDIAN FISHERIES COMMISSION


                                WITNESS

EDWARD JOHNSTONE, TREASURER, NORTHWEST INDIAN FISHERIES COMMISSION
    Mr. Johnstone. It gives me great honor to be here 
representing the 20 member tribes of the Northwest Indian Fish 
Commission, and I appreciate the opportunity to the Chair and 
the committee and my congressman, Congressman Kilmer.
    The 20 member tribes of the Northwest Indian Fish 
Commission in western Washington, from the snowcaps of the 
Cascades to the white caps the Pacific Ocean, is our treaty 
area, the entire Olympic peninsula up to the Canadian border 
and down to Point Chehalis and inward to the east. The tribes 
formed the Northwest Indian Fish Commission shortly after the 
Bolt decision in 1974-1975. Paramount in that you will see 
later here is rights protection. But I really appreciate this 
opportunity.
    I come with the voice of my elders and the voice of my 
ancestors that supply me with the wherewithal to even stand or 
sit before a committee. It is such a high honor to represent my 
people, that are born and those that have gone before me and 
those are yet to come. Three generations in my family that I 
have to protect, and I have to protect what my brother, Guy 
McMines, fought for, and what Billy Frank fought for, and what 
the representatives from these other brother and sister 
committees--the Great Lakes, the Alaska, the Columbia River--
and what we represent.
    I come a long ways just to even introduce myself as Ed 
Johnstone, Quinault tribal member and treasurer of the 
Northwest Indian Fish Commission. And, you know, the 
opportunity this morning that I heard the chair talk about was 
we can even talk about climate, and we heard climate discussed 
here just briefly in some of this testimony. And if you look at 
our written testimony and we have enough dialogue, we could 
talk about the four or five that hopefully I can quickly get to 
that talk about how that threat is to climate and what it means 
to us in these changing times.
    But I started this by looking at how far we have come with 
this committee over time, just in my time, on the trail with 
Billy Frank. And, you know, listening to Ron and others that 
have been before you that we have come a long ways. We have a 
long ways to go, but what I was looking at is the ``Quiet 
Crisis''' report from 2003, and I looked at what it was talking 
about. And what it talked about is the health and wellbeing of 
our people, our education, our infrastructure, and where we are 
in these times so many years after we signed those treaties or 
whether we are standing on our Federal recognition, us tribes, 
us Indian people, as Billy Frank would say.
    And then I looked a little further and I looked at the new 
report that got started in 2015, and this gentleman right here, 
my congressman was one of the signatories that asked for a new 
review that came out in August--or excuse me--December of 2018 
sent to the President. It talks about that unmet need. And, you 
know, so I looked at our appropriations request, and I said, 
well, you know, gee, that makes a lot of sense because we are 
under a tremendous amount of pressure because of climate.
    Now, everything that we talked about in many, many years of 
coming to these hearings are still in place, but the big 
exclamation point is climate. When we talk about Anderson 
Glacier disappearing in the Olympic Mountains which feeds the 
Quinault River, which feeds the iconic Quinault blueback salmon 
that is in peril, that may disappear in my lifetime. President 
Sharp, my council, must like the gentleman here from Yurok, 
just like you are going to hear from the rest of this panel, 
just like you hear from the Yukon, these salmon stocks are in 
trouble, and our home rivers, the water is so warm that the 
adults can't make it to spawn. They run out of oxygen. Then 
their progeny, the little ones that come out of the gravel, it 
is warm water, exacerbated by a predation, the unbalance.
    All these things are unbalanced because there is no normal, 
natural function anymore. It is all changing. The predation is 
seals and sea lions and so forth. You know, those things are 
all changing. So geographic, where am I going with this and 
thanking the congressman, and I looked at the new ``Quiet 
Crisis,'' and I'm saying, OK, it's a new edition of that unmet 
need, and this is what we are talking about with Chairman 
Allen, the unmet need, all of us up here that are talking about 
our natural resources.
    And we have been real. You have asked us to be real over 
time. So we are not putting this big, huge number out there. We 
are trying to go incrementally, incrementally as we take these 
issues on. We need the big number, like Chairman Allen said, 
and we all are going to express about the dynamics or the 
challenges that we are facing, and we challenge them together, 
all of us. And we are placed based as the young lady said 
before, you know, particularly with our treaty right.
    So, you know, when we talk about Puget Sound geographic, 
the EPA, that is big. How do we get there? Well, we use that 
SSHIAP money. Look in there, that SSHIAP money, that is how we 
do our watershed planning, the state-of-the-art documents that 
shows what these watersheds' conditions are in. And then it 
follows you into hatchery operations and maintenance because we 
are dependent more now than ever on our existence with that 
salmon for those hatchery fish that you lead you in to look at 
the additional tagging trailer that we need because of those 
requirements Chairman Allen is talking with the tagging and the 
data and all that stuff that is important. There is a way to 
really make sense, and we have talked to your staffs, and they 
are A number 1, and they can help you help us give you the 
information that gives you the support that you can stand up 
for Indian Country and stand up for our people, those yet 
unborn and those of us that are glad to be here today 
testifying in front of this committee. And I appreciate it.
    [The statement of Mr. Johnstone follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much. Mr. Pinkham.
                              ----------                              

                                          Wednesday, March 6, 2019.

              COLUMBIA RIVER INTER-TRIBAL FISH COMMISSION


                                WITNESS

JAIME PINKHAM, EXECUTIVE DIRECTOR, COLUMBIA RIVER INTER-TRIBAL FISH 
    COMMISSION
    Mr. Pinkham. Thank you, Madam Chair. My name is Jaime 
Pinkham. I am the executive director of the Columbia River 
Inter-Tribal Fish Commission, CRITFC for short. And thank you 
for this opportunity to talk about the Interior spending bill 
as it relates to CRITFC and our member treaty tribes--Yakima, 
Umatilla, Warm Springs, and Nez Perce. And also thank you for 
assembling this panel of my colleagues from the treaty 
commissions across the U.S. We have a long history of teamwork 
working within the Congress and the Administration.
    Our four CRITFC treaty tribes are fisheries managers across 
an area the size of Georgia, and we are noted for our grit and 
for our expertise, collaborating with other tribes, with 15 
Federal agencies across five States and three time zones, and 
also collaborating with public and private interests in the 
Columbia River Basin. And our goal is to halt the decline of 
salmon and other species, and these species are important for 
us for ceremonial, subsistence, and commercial uses in all 
harvests that were agreed to when we co-signed the treaties.
    And we align our work consistent with the treaties and with 
court orders, intergovernmental agreements, and as you heard 
from the earlier panel, international salmon treaties. The 
Rights Protection Implementation Funds, RPI, has allowed us to 
get into the rivers to do this work, to build partnerships, to 
resolve disputes and differences, and back our decisions with 
scientific rigor. And we also have been able to use RPI to 
leverage it to gain other public and nonprofit funds.
    And as you heard, some of the salmon stocks out West are 
certainly in distress, but I think we cannot overlook the 
tribal management that has been helping make a turnaround with 
some of the species recovery. And then one only has to look at 
the Snake River Coho, a species that one of our member tribes 
rebuilt from extinction. And these Columbia Basin stocks 
support, and you heard this from the earlier panel, a fisheries 
economy from Idaho to southeast Alaska. That is pretty 
significant. But also, our Columbia stocks are part of this 
important food chain for the southern resident killer whales 
whose population is struggling.
    And I also want to take this time to thank the last 
Congress for the passage of a sea lion bill for the Columbia 
River, and it is another example of the challenges that 
policymakers and fisheries managers face, and in this 
particular case, a very narrow site-specific amendment to the 
Marine Mammal Protection Act. And thank you for doing that, and 
we have started implementation of the act, and we appreciate 
the faith that you and the public have placed in us to get that 
work done.
    Well, last year we were able to take our RPI funds and 
reach a new agreement in the Columbia River Fish Management, 
which assures production and harvest arrangements with the 
State, and as you heard, to renew chapters in the Pacific 
Salmon Treaty. But getting an agreement is half the work. Now 
it is time to implement, so those RPI needs for implementation 
are extremely important. And believe me, in the Columbia Basin, 
climate change reveals itself to us daily. And we have been 
able to use the Climate Resilience Fund to work on strategies 
to address the warming waters, invasive species, and predation 
that are presenting challenges to our fisheries.
    We are also involved with the Columbia River Treaty, and it 
is a 60-year treaty that is about to expire. And the original 
treaty focused on flood control and hydropower production, and 
it was negotiated and developed without tribal interests or 
really looking at the needs, the national functions of a river 
for salmon species. So we worked early within the region to 
develop a regional recommendation working with local 
governments and other interests in the Columbia Basin to 
develop this regional recommendation. It is kind of an outcome 
that we want in a renegotiated treaty. And within that was to 
provide allowances beyond flood control and hydropower is 
ecosystem-based functions.
    Well, unfortunately for us we were denied a position to be 
at the negotiating table, so our RPI funds are really becoming 
more important because we need to use those resources to 
educate the State Department with scientific, technical, and 
policy information so they can represent tribal interests as 
well as species conservation. And on the law enforcement side, 
we deliver public safety along the Columbia River where it 
forms the border of Oregon and Washington. We face the 
challenges like other police forces do, and we are spread thin 
by those river miles, so we need robust support for public 
safety and justice.
    And I want to highlight, which we have done before this 
subcommittee numerous times is the challenges that we are 
facing with the 31 federally owned treaty fishing sites on the 
Columbia River. And these sites were intended to replace those 
that were flooded by the Federal dams. The sites are in 
distress, and fortunately we have a bill in both the House and 
the Senate to address these issues. But services still need to 
be provided at the sites for public safety, sanitation, and 
long-term maintenance. Also, the lack of tribal housing on 
reservations is increasingly making people have to move to 
these sites and struggle to live there year round.
    Well, in three prior spending bills that you have passed, 
you have asked the Bureau of Indian Affairs to provide a needs 
assessment of these 31 sites, and you did it again in a 2019 
bill. And that report is due about 15 days from now, and we 
need that report. It is long overdue. So I encourage you to 
request that that report move along, especially with the 
legislation before us.
    And so, Madam Chair, we put our RPI funds to good work 
benefitting tribal and non-tribal, and thank you for this 
opportunity to testify before you.
    [The statement of Mr. Pinkham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much. Mr. Isham.
                              ----------                              

                                          Wednesday, March 6, 2019.

            GREAT LAKES INDIAN FISH AND WILDLIFE COMMISSION


                                WITNESS

MICHAEL J. ``MIC'' ISHAM, JR., GREAT LAKES INDIAN FISH AND WILDLIFE 
    COMMISSION
    Mr. Isham. [Speaking Native language.] Good afternoon, 
Madam Chair and committee members, and thank you for the 
opportunity to speak here today. I am the still new executive 
administrator of the Great Lakes Indian Fish and Wildlife 
Commission. In a few days it will be my 1-year anniversary.
    And for the benefit of those who don't know us, we are an 
inter-tribal natural resource agency representing an 11-member 
Lake Superior Objibwe tribes located in what is now known as 
northern Michigan, Wisconsin, and Minnesota, this area here, 
and we represent over 43,000 tribal citizens. Our main office 
is located in Odanah, Wisconsin on the shores of Lake Superior, 
which is near Ashland, Wisconsin. But we have employees that 
are stationed in or work in all three States.
    Our primary mission is to help our member tribes implement 
Federal court orders that govern the exercise of subsistence 
hunting, fishing, and gathering, and rights reserved in 
treaties with the United States. We also do our best to ensure 
that the resources harvested are clean and free from 
environmental contamination. Tribal people are more susceptible 
to environmental contamination than the general public due to 
the fact that we consume much more fish, game, and wild edibles 
than the general public. Mercury is one of those contaminants 
that we monitor very closely and inform our harvesters on how 
to avoid or minimize the exposure. We also are collecting 
baseline data to help inform our tribes on how to deal better 
with the climate changing.
    And like our fellow commissions, we are funded primarily 
through the rights protection implementation line item. And we 
struggle with financial issues yearly as we fulfill our mission 
to our member tribes, and any cuts would further hinder our 
ability to carry out our duties. A 35 percent cut like the one 
proposed last year by the Administration would cost us at least 
19 jobs and very severely hamper our efforts to ensure that our 
tribal citizens have wardens to enforce our tribal conservation 
laws, biologists to accurately count and record harvest data, 
registration clerks to issue permits, and tribal courts to hear 
any possible violations, though there rarely are any. That was 
a joke there. [Laughter.]
    Rough crowd. [Laughter.]
    We also receive funding from the Great Lakes Restoration 
Initiative, and we thank you for support of this program and 
restoring that program last year, especially for the language 
in support of the Distinct Tribal Program. With the funds we 
received from the GLRI, we are collaborating with other 
partners to devise and implement ways to eradicate and keep 
invasive species out of Lake Superior for the benefit of the 
economies of tribal and non-tribal citizens alike.
    The funding that we receive has a much wider-reaching 
effect than just counting harvest and doing biology. The work 
we do also helps with social issues that our tribes are facing, 
ones that I have heard many tribal presidents testify before 
this committee about. One may not think a natural resource 
agency can help lessen the impacts of drug use, youth violence, 
diabetes, or obesity, but we are through our promotion of the 
treaty harvest themselves on a more culturally-oriented diet. 
Physical activity, such as harvesting wild rice, and if anyone 
has done that, that is an extremely physical activity, and 
eating a diet of fish or venison with that rice, that is just 
what the doctor ordered for fighting diabetes and obesity.
    Our Objibwe seasonal camps, our youth camps, get young 
people outdoors and off their electronic devices and engaged in 
treaty harvest activities. And for a while we had St. Paul 
School here, and they were fighting to get on to their 
electronic devices, but the doorman kept an eye on them. 
[Laughter.]
    And, again, being outdoors is a much healthier alternative 
to being on the couch for sure.
    We bring in tribal elders to our camps in order to 
incorporate our cultural teachings that go along with each 
harvest, as well as tribal professionals to show our young 
people a wide variety of careers that they can aspire to. We 
have four or sacred or boss foods, as we call them, that are 
required at every feast, ceremony, and funeral. They are fish, 
venison, wild rice, and berries. And the duty to provide these 
sacred boss foods is one of the highest callings. Fulfilling 
this duty for our cultural events instills great pride in a 
young person and helps them instill a cultural identity that is 
very important, which in turn helps them from searching for an 
identity in a gang through violence, crime, or drugs.
    Lastly, government shutdowns, like the one we just 
experienced, has a paralyzing effect on many tribes and tribal 
organizations, which I am sure you have heard. And we 
understand that there is an effort underway, spearheaded by 
Representative McCollum, my favorite Viking fan, if I may add, 
to authorize advanced appropriations for BIA programs. We fully 
support this initiative, and it would help us not only when 
there is a government shutdown, but also in what has become the 
new normal, continuing resolutions that result in appropriation 
bills enacted late, resulting in funding that sometimes don't 
arrive until halfway through the year.
    Again, thank you for your support of our shared treaty 
obligations, and I want to thank you all for what you do. And I 
hope America has a renewed sense of what you do after this 
government shutdown. On behalf of my family and the tribes you 
represent, thank you.
    [The statement of Mr. Isham follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you. Ms. Schwalenberg.
                              ----------                              

                                          Wednesday, March 6, 2019.

                 CHUGACH REGIONAL RESOURCES COMMISSION


                                WITNESS

PATTY BROWN SCHWALENBERG, EXECUTIVE DIRECTOR, CHUGACH REGIONAL 
    RESOURCES COMMISSION
    Ms. Schwalenberg. Miigwech. My name is [speaking Native 
language]. I am a proud member of the Lac Du Fond Band of Lake 
Superior Chippewa Indians, but I am equally proud to say that I 
have served as the executive director of the Chugach Regional 
Resources Commission. It will be 25 years in July, so you got a 
ways to go. [Laughter.]
    First of all, I would like to thank the committee for their 
continued support of our program. The $410,000 base funding 
that you provide, we have always been able to leverage that to 
keep our organization running. We have the Alutiiq Pride 
Shellfish Hatchery, which I have spoken of before. It is the 
only shellfish hatchery in the State, and we work with our 
communities to restore shellfish populations.
    But our latest initiative has been to establish an ocean 
acidification lab. And so we have one of the only four or five 
Burk-O-Lators in the world in our lab, and we have gotten blue 
ribbon certification so we can read real-time water samples up 
to 4 decimal points. And so we not only test the waters in our 
communities, and we are finding that there are higher levels 
around the communities or different areas in the Chugach 
region, but other areas of the State have contracted with us to 
have their waters tested as well--Kotzebue, Nome, up on the 
North Slope, and in St. George. So a lot of the tribes are 
interested in what is going on in the waters out there, 
particularly as it affects the shellfish and the salmon.
    One of the other projects I want to share with you is the 
Alaska Migratory Bird Co-Management Council. This is a body 
that was established as a result of the amendment to the 
Migratory Bird Treaty Act allowing for spring and summer 
subsistence harvest of migratory birds. So this is a unique 
organization in that every regulation that is passed by the 
council has three votes: one Federal vote, one State vote, and 
one tribal vote. And the regulations do not go forward unless 
that is the method.
    We were affected by the shutdown in this program in that 
our regulations were not published in time for the spring/
summer season, which starts in April. So we are having to 
revert back to the 2018 regulations, but the regions that did 
submit regulatory proposals that were passed by the Service 
Regulations Committee cannot harvest the foods that they had 
planned on because of the changing seasons. The birds are 
coming earlier in some areas. They were staying later in other 
areas. And so we are trying to adjust our regulations to 
address the changing migratory patterns and timing, and we have 
to wait another year now because those regulations were not 
published.
    And as well cooperative agreements with the tribes that are 
participants of the council. They were unable to get their 
funding in place, and so we just got ours like 3 weeks ago, so 
it is not a good thing. But we do support the advanced 
appropriations efforts that are going on in Congress right now.
    I also wanted to talk about our program requests. So we are 
requesting $100,000 addition to our small $410,000 budget, and 
that will be focused mostly on our hatchery efforts. We get 
$60,000 from the BIA for the hatchery, and the rest is 
dependent upon our ability to raise funds either grant writing 
or contracts. And so we would really like to bump that up a 
little bit, and we haven't had an increase in our funding for, 
well, about 20 years. And so with the change in climate and 
increasing projects that we have, it is just getting harder and 
harder to do with the money that we have.
    Back to the Alaska Migratory Bird Co-Management Council. We 
are asking for $1 million in funding for that program. 
Currently the Fish and Wildlife Service supports the program 
and it started at $1 million in 2003. Now it is about $700,000. 
And unfortunately, the members of the council are not privy to 
the meetings where these budget discussions or decisions are 
made because we are not Federal employees. And so our money is 
cobbled together from refuges for migratory birds and from 
other areas, I think external affairs or something.
    And so we never know how much money we are going to have to 
operate until just a few months before the funding comes in. 
And that, again, the regional management bodies, which are the 
10 native corporations that are members of the Native Caucus, 
they are grossly underfunded, have never had an increase in 20 
years. And for an example, the Tanana Chiefs Region, which is 
where Chairwoman Pitka is from, they get, like, maybe $30-some 
thousand to work with 52 tribes, and they are supposed to hold 
two meetings a year for the region, and then attend two 
statewide meetings. And it is just not enough money at all.
    I am stopping. OK. So I think that was all I wanted to talk 
about. Oh, we also provided education and training. We partner 
with Alaska Pacific University and University of Alaska, and we 
also do some cross-cultural training with Federal employees in 
the Department of Interior agency. So thank you very much for 
your time.
    [The statement of Ms. Schwalenberg follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you all for your testimony and 
appreciate hearing more about the challenges you are dealing 
with, particularly with the salmon. And I will just say I am 
actually about to submit a bipartisan bill on ocean 
acidification which I worked on before. Just before I came down 
here I was going to talk to Don Young about signing on, but I 
will now be able to tell them that there is great work going in 
Alaska that I am sure he wants to support. So thank you for 
that.
    Mr. Joyce.
    Mr. Joyce. Thank you all for being here today. Executive 
Director Isham.
    Mr. Isham. Isham.
    Mr. Joyce. Sorry. I wasn't here when your name was 
officially pronounced.
    Mr. Isham. Call me Isham, and I never corrected them. 
[Laughter.]
    Mr. Joyce. I was happy to hear of the work that the tribe 
has been doing on the Great Lakes. Madam Chair McCollum and I 
are both very partial to the Great Lakes. Do you feel you 
should have been doing some work through the GLRI (Great Lakes 
Restoration Initiative). Do you feel that tribes are properly 
represented in the protection of the Great Lakes?
    Mr. Isham. Well, I think that they are getting more and 
more involved with the GLRI funds that sure helped us get more 
involved in regards to the Great Lakes. It helps us to get to 
the certain meetings, like the Bi-National Great Lakes 
Commission and things like that. And then more active in the 
efforts because the tribal efforts tend to be smaller in scale, 
and in the past it was always the focus on large-scale things, 
how many jobs you create, how many acres you clean up and 
things like that. So any competitive type process, the tribes 
were left out of, but now we have new language in there that 
talks about tribal distinct programs.
    And also when the authorization happened where the money 
could go from EPA in an interagency transfer to the BIA, that 
certainly helped because in the early days filling out a thick 
grant for everything through the EPA was a real tough thing to 
do on tribes. But with the 638 contract and the BIA, that 
helped us get the money out, and also to do our own type of 
priorities rather than what the EPA talked about. So we are 
making strides there for sure.
    Mr. Joyce. Great. Again, thank you all.
    Ms. Pingree. Ms. McCollum, it is all yours.
    Ms. McCollum [presiding]. OK. Thank you. Thank you, Ms. 
Pingree. I am going to ask you collectively to respond to a 
couple of Federal agencies I am going to put out here, 
especially when it comes to dealing with climate change. You 
probably don't get the Minneapolis paper in Wisconsin. Well, 
you do in parts of Wisconsin, yeah. So maybe you saw in January 
the Sunday edition where Minnesota becomes prairie in about 
2070. Climate change is something that we have acknowledged as 
a State, as the Midwest. The polar vortex is just an example of 
what happens with climate change where all the winds, the 
temperatures all shift because of all the moisture in the air.
    So I would be curious to hear from you your reaction to the 
Forestry when you bring up climate change. For those of you who 
work with Forestry, Fish and Wildlife, USGS--when you want to 
work on or do grants or be part of a conversation about what is 
happening, whether it is fisheries or forests. And the EPA as 
far as we have been enforcing regulations that the tribes might 
want to see happen to protect water in particular. So I am just 
going to throw that out and see where that snowball lands. We 
have got a lot of snow, so toss them----
    Mr. Isham. Well, you talked about separate things there--
fisheries, water quality--and for a tribe, I think we look at 
things in a more holistic approach. It is hard for us to 
separate one versus the other. As I was talking to a BIA guy 
earlier who didn't want us to use Forestry funds on a fish crib 
project, well, then we won't cut the trees. We will let them 
fall in the water, and then we will add structure then, you 
know. And so I think all those things go together.
    And so when we are looking at the issue, I think we need to 
look at it in a holistic view rather than one thing or the 
other. So with the EPA, at least with the last Administration, 
we were looking at a very large-scale project of, first, 
baseline data collection because there is a lot of activities 
going on out there right now, and like, for example, mining 
here or invasive species there. And so looking at the problem 
as a whole is one thing that we want to try and accomplish. It 
is a large thing.
    But getting own to the local level, again, it is hard to 
separate things because we got the warming water. You add 
Eurasian milfoil into the mix, an invasive specie, and the lake 
is changing from a walleye lake to a bass lake, and our primary 
harvest is walleye. And so I heard someone on an earlier panel 
saying, well, we don't necessarily want to change to harvest 
bass.
    So you think it globally, but then you got to act locally. 
And so we need another hour, I think, to talk about that 
because we have a lot of projects going on, and I don't want to 
take up everybody's time here.
    Mr. Pinkham. Well, thank you, Madam Chair. I don't read the 
St. Paul paper anymore, but I used to live in the 4th 
Congressional District in Minnesota when I worked for the Bush 
Foundation a few years ago. Let me pick a couple of those off 
because out West Federal lands, a huge landowner out there--the 
Forest Service, Bureau of Land Management--and certainly the 
frequency and the intensity of fires that we are experiencing. 
And, you know, what does that mean to fish habitat, the 
destruction of fish habitat, but also the capacity for those 
mountains and hillsides to hold the snowpack to when we need 
it. So we are having, you know, concerns over the frequency and 
the condition of snowpack.
    Another agency that is important to this conversation for 
us because of the number of hydro projects is the Army Corps of 
Engineers. And, you know, the dams have contributed to warmer 
waters, so it is important that, you know, we work with the 
Corps on the releases at the right quantity, the right time, 
and the right temperature. And we have been actually working on 
an adaptation strategy that we are trying to engage the Corps, 
as well as navigators and port districts, on these sediment 
buildups.
    You know, as salmon move up river, if the river is too 
warm, they have got to dive off into these tributaries and look 
for cold water, cool down, get back, go to the next refuge and 
a tributary, and so they have got to work their way up. But 
sediments are now preventing and shrinking some of these cold 
water refuges. And so we are going to work with the Corps of 
Engineers to see if there is some way we can mitigate some of 
the sediment buildup outside the navigation channel so that we 
can continue to provide access to cold water refuges.
    So I think as Mic stated, it is comprehensive, a lot of 
players in this, but sometimes there is inconsistency even 
between the Federal agencies trying to engage these issues.
    Mr. Johnstone. Thank you. Boy, it really crosses all the 
spectrums of what we do in fisheries management. And for us 
tribes and us timber tribes, you would probably get a good 
flavor for that from the Inter-Tribal Timber Council. I don't 
think they have testified yet, but I think they are on the 
schedule. The young man from Yurok talks about the fuels and 
how you address the drying of the forests and what we are 
seeing in precipitation.
    EPA is by, I guess, by agency at whoever's request is 
putting pressure on the State of Washington to redo the water 
quality standards that we just negotiated and was put in place 
in Washington State that talks about the cancer rate and the 
175 grams, and they want to pull back from that, and they are 
putting pressure, I understand, on Oregon likewise, and the 
future development of Idaho. And it is really concerning.
    The dynamics in the ocean with not only acidification, but 
the harmful algae bloom that we continue to see more and more 
of. On the entire West Coast, it really, really wreaked havoc 
with the indigenous crowd in Washington, Oregon, and 
California. We are seeing it more and more because in 
summertime there is no mixing in the ocean that doesn't turn 
over. The currents are less and less, and the winds and so on, 
and it is promulgating these events, this harmful algae bloom.
    And then you have the dynamics of the stock shifts. At a 
recent November meeting of the Pacific salmon, Pacific 
Fisheries Management Council, they were talking about species 
in southern California up to maybe Monterey are now on the mid 
or central Oregon coast, and so those kind of stock shifts. And 
had testimony from elders in Point Barrow and other places up 
north where they are seeing salmon not only in the Chukchi Sea, 
but into the northern Pacific and the Arctic which they have 
never seen before.
    So, I mean, these are some very troubling things when you 
talk about the winds and the currents and the shift and the 
temperatures and so forth. And it really crosses the spectrum 
of everything we do in fisheries management.
    Ms. Schwalenberg. And I agree with everything that has been 
said. And in Alaska, yes, there have been salmon spotted up 
north. A friend of mine asked me how do you cook a salmon, so 
that was kind of fun. But, yeah, swans are showing up where 
they aren't normally showing up in the Chugach Region, in 
particular, this past couple of years. In one of the villages, 
there was only one king salmon, and that is one of their 
primary resources that they wait for during the summertime. And 
so there was just none, and that made it very difficult. The 
red salmon are not coming back in the numbers that we would 
like them to.
    So like I said, we partnered with APU on a fisheries 
project to try and figure out what is going on in the waters 
and why they are not recovering the way they should be. One of 
the issues that we have identified is the funding sources. At 
least for Alaska, some of them we are just not eligible for. 
For example, the BIA has a Climate Resilience Program, and we 
are able to get some of the funding from there, but there is 
also an Invasive Species Program, a funding program.
    But when we applied, then we got a letter back saying that 
we don't have trust lands, and so we are not eligible to apply. 
Well, there are allotment lands in Alaska, but that is about 
it, but we have a lot of, a lot of coastal communities in 
Alaska. And that money could be very important for the invasive 
species that exist in the marine environment.
    As far as Forestry is concerned, Chugachmiut, which is a 
sister organization to us, they do all the health and human 
service type work, education, but they also have the Forestry 
from the BIA. And they are noticing different beetles in the 
forest, and they are actually doing some extensive inventories. 
Their belief is that the species of trees are going to change 
in 20, 30 years, and it is very scary. I mean, they rely on the 
spruce tree up there, and that could all go away. So there are 
some very scary reports that we are hearing from our biologists 
about that. Thank you.
    Ms. McCollum. Thank you. I appreciate your testimony. It 
has all been, as I have said, submitted for the record and 
highlighted in my book, but it is very important that we have 
these discussions. And I think especially when it comes to land 
management, I kind of put all the agencies together the way 
that I did just because sometime we don't think of them as 
interacting. A cut in one of the agencies can affect a project 
in another agency because you have taken resources to compile 
them together.
    So thank you very much. We are going to continue our public 
testimony tomorrow. Mr. Joyce, remember when Councilmember 
Jennings was speaking and he had some more information than 
what we had in our book? So we need unanimous consent to put 
this in officially in our record now.
    Mr. Joyce. So moved.
    Ms. McCollum. So moved. Thank you.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. We would appreciate any feedback from the 
tribes that testified this afternoon. I know everything is 
important to a tribal nation. You can't separate things out. 
But we wanted to be able to really dig deep into questions and 
deep into thought about our obligation to protect treaty and 
trust lands for future generations. I view this as a 
partnership that we have with our tribal brothers and sisters. 
And this morning we focused primarily on healthcare, but we 
know roads, and healthcare, and everything is important.
    So thank you, and we appreciate any feedback on this 
format. This is an experiment. Either we improve it and keep it 
this way, or we go back to the old way. I am not afraid of 
change. Thank you very much. Miigwech. We are adjourned.

                                           Thursday, March 7, 2019.

         TESTIMONY OF INTERESTED INDIVIDUALS AND ORGANIZATIONS



                         QUINAULT INDIAN NATION

                                WITNESS

TYSON JOHNSTON, VICE PRESIDENT, QUINAULT INDIAN NATION
    Ms. McCollum. Good morning, and welcome to the second day 
of public witness hearings on tribal programs under the 
jurisdiction of the Interior and Environment Appropriations 
Subcommittee.
    This year, in hopes of having a more in-depth focus on 
issues facing Indian Country, we have organized witnesses 
according to the following topics: healthcare; land trust and 
natural resource management, including climate change; public 
safety and justice; education; tribal governments; and human 
services.
    Yesterday, we heard from witnesses about the urgent 
healthcare needs and the important needs of issues impacting 
land trust and natural resources, and as I said, that includes 
climate change. This morning, we are going to finish the 
remaining panels on resources before moving to panels on public 
safety and justice. We will conclude this morning's hearings 
with witnesses on education issues.
    I welcome the distinguished tribal leaders and non-elected 
tribal members, all who play an important role in educating 
others on Native American issues, especially the Congress.
    The issues we will hear about this morning are part of 
treaty and trust obligations that the United States owes to 
Native Americans. When it comes to public safety and justice, 
Indian tribes are facing challenges that many other governments 
do. But they also face challenges that many other government 
units do not--rural, isolated areas with barely passable roads, 
insufficient staffing, communications equipment that is often 
not compatible with other law enforcement agencies. And on top 
of that, tribes are still operating out of buildings that have 
been or are about to be condemned.
    The situation is disheartening when it comes to education, 
and I say that as a former teacher. It is not uncommon for 
students at BIE schools to have classrooms with leaking pipes, 
asbestos, and improper wiring. Inadequate pay and housing 
affects teacher recruitment and retention, and roads are so bad 
that they cause delays and multi-hour bus rides.
    Mr. Simpson will probably join us sometime today, but when 
we were on one of our CODELs, we were on a bus. It was so 
bumpy. He had a Fitbit. I had a Jawbone. We both had 500 steps 
at the end of the bus ride. So we have been on the roads 
firsthand. We need to do more to face all these challenges so 
that Native American youth can receive a quality education in a 
safe, supportive school.
    Tribal colleges are also facing unique challenges with 
their spread-out campuses and insufficient funding, and we will 
hear more on that later today. Tribal colleges also educate 
non-Natives, and many receive no local or State assistance to 
help cover that additional cost. Despite numerous obstacles 
facing tribal colleges, they have done an outstanding job of 
educating Native and non-Native students with the resources 
they have.
    So I am eager to learn more about your priorities. I look 
forward to our discussions on these issues because your 
testimony is going to inform us, as we begin to develop our 
2020 appropriations and have discussions with the agencies that 
work for you.
    Now before I turn to Mr. Joyce, I would like to cover a few 
little hearing logistics. As I mentioned informally, there will 
be Members coming in and out because of other meetings that 
they will be attending. All of them have received your 
testimony. All of them have been looking at the testimony.
    So when we are ready, we are going to call a panel of 
witnesses to the table, one panel at a time. Each individual 
will have 5 minutes to present their testimony. I know it is a 
limited amount of time. We have your full testimony. In fact, 
we have your testimony covering other issues than the one you 
are speaking to today.
    We are going to use a timer to keep track of the time so we 
are fair to everyone involved. When the light turns yellow, you 
are going to have 1 minute remaining, and we would ask you to 
think about how to best conclude your remarks.
    When the light blinks red, I will lightly tap on the gavel. 
I want to be very respectful, but I will ask each witness to 
conclude their remarks so the next witness can begin and we can 
have everyone moving forward in the time that they were 
allotted, as I know you have meetings outside of here with 
other Members of Congress.
    Each witness' full written statement is going to be 
introduced into the record. So if you have any additional 
information you would like to give us, please give it to Janet 
and I, and Mr. Joyce and I will include it together in the 
official record. So don't worry. Everything will get covered. 
Everything will be read. Everything will be shared.
    So we are also going to have Members be able to ask 
questions, and that might be an opportunity if there is 
something you really didn't get to in the 5 minutes. So the 
Q&A, you can add it there, too.
    In this hearing room, I would like to remind people that 
the committee rules prohibit uses of cameras and audio 
equipment during a hearing by individuals without a press 
credential or staff ID. After this morning's hearing concludes, 
we will adjourn, and we will reconvene at 1:00 for the 
afternoon hearing.
    Now I am very happy to yield to my friend Mr. Joyce for his 
remarks because when it comes to Indian issues, this is not 
just bipartisan, it is nonpartisan. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair, and thank you for 
continuing these important hearings to get input from tribal 
leaders on a wide array of programs under this subcommittee's 
jurisdiction.
    I would like to extend a warm welcome to all the tribal 
elders and leaders that are here today, testifying today or in 
the audience. I am humbled to be sitting here before you today 
in my capacity as ranking member of the House Appropriations 
Subcommittee on Interior, Environment, and Related Agencies. I 
know that most of you have traveled a long way to be here. For 
those of you who don't know, I am from the northeast corner of 
what is now Ohio, but was once the land of the Seneca and 
others.
    Like many of my colleagues in Congress, I recognize that 
upholding the tribal trust obligation is a responsibility 
shared by all Members of Congress, regardless of their 
congressional district. I also recognize that the Federal 
Government still has a long way to go before it can say that it 
is fully meeting its trust and treaty obligations. That is why 
my position on the Appropriations Committee is a great honor, 
but also a heavy responsibility.
    Fortunately, I have a great friend and partner in 
Chairwoman McCollum. It is my sincere hope that, together, we 
will continue the hard work of our predecessors for more than a 
decade to increase the Federal commitment to meeting trust and 
treaty obligations. I look forward to listening and learning 
from the testimony today and working with my chair and the rest 
of my colleagues in the days ahead to do what we can to help 
you in the next fiscal year.
    I yield back.
    Ms. McCollum. Thank you.
    Mr. Kilmer. And then after you are done, I am going to 
ask--you are leaving? I was going to ask you to introduce the 
first panel after you are done with your remarks because you 
are here now.
    Thank you.
    Mr. Kilmer. Thank you, Madam Chair. I don't have any 
lengthy remarks. I just want to thank everybody for coming, and 
the testimony we have heard over the last several days has 
been, I think, really valuable.
    So let me, at your encouragement, invite up Tyson Johnston 
from the Quinault Indian Nation. He may win the long-distance 
travel award. Joseph Wildcat, Sr., and Vernon Stearns. Welcome.
    [Pause.]
    Mr. Johnston. Good morning. I am Tyson Johnston, vice 
president of the Quinault Indian Nation.
    I want to thank the subcommittee for holding this hearing 
to examine the critical funding needs of Indian Country.
    The Quinault Reservation is located on the southwestern 
corner of Washington State and abuts the Pacific Ocean. The 
Quinault Nation is a self-governance tribe, fully implements 
self-regulation as the co-manager of our treaty fisheries and 
maintains an economy that relies heavily on natural resources.
    My testimony today focuses on three issues--funding for 
tribes to address the many negative impacts of climate change 
on their reservation, increased funding for the Housing 
Improvement Program, and the need for additional road access to 
our village.
    Through treaties, executive orders, and other agreements, 
Indian tribes have ceded hundreds of millions of acres of our 
homelands to the Federal Government to help build this great 
nation. In return, the United States made promises to provide 
for the education, health, and welfare of the reservation 
residents.
    The lands and waters of the Quinault Reservation consist of 
207,000 acres of forestlands, Pacific coastline, and 
adjudicated treaty rights in the Pacific Ocean. In recent 
years, the United States has continued to fall short of meeting 
its treaty obligations, as appropriations cuts, sequestration, 
Government shutdowns, and other factors impede the Federal 
Government's ability to meet its trust responsibility. As a 
result, the Quinault Nation subsidizes as approximately $6 
million annually the inadequate levels of funding that fall 
short of meeting the obligations set forth in our treaty.
    There are two major villages located within the 
reservation, the Village of Taholah and the Village of Queets. 
Our nation has had models prepared by the Washington DNR to 
show potential tsunami inundation of 40 to 50 feet in depth in 
most of our Lower Village of Taholah. An inevitable tsunami 
event at the Village of Taholah will be catastrophic for our 
tribe. The loss of life and destruction of our infrastructure 
would compromise Quinault government operations.
    A 2012 report was also commissioned by the nation to 
understand the effects of climate change on sea levels and sea 
level rise. The report found that the combined effects of 
thermal effects of the ocean, vertical land deformation, and 
other related phenomena will substantially increase flood risk 
in the lower village.
    Quinault determined that a large-scale village relocation 
was the only solution to mitigate these threats. The nation 
applied for a 2013 ANA grant to prepare a plan to relocate our 
village to higher ground. This grant was received and resulted 
in our master plan. With completion and adoption of the master 
plan, the nation has a blueprint for redevelopment of the 
village.
    However, the master plan has an estimated price tag of $150 
million to $200 million, and the Quinault Nation will not be 
able to fully fund the plan under its own resources. We will 
need assistance from our trustee to fully implement the master 
plan. We request the subcommittee to direct the BIA and EPA to 
prioritize funding for tribes who are dealing with reservation 
loss and displacement due to climate change. We also urge the 
subcommittee to include report language that mandates funding 
criteria that will allow for tribes like mine dealing with the 
negative impacts of climate change to address the needs 
outlined in my testimony.
    Another issue of importance is the continued funding of the 
Housing Improvement Program. HIP is the home improvement and 
home replacement program that assists some of our most 
vulnerable citizens. We thank the subcommittee for not 
following the administration's request to zero out this program 
and for funding of $9.7 million in the fiscal year 2019 budget.
    Because there is a continued need for this program 
throughout Indian Country, we ask the subcommittee to increase 
funding to $11 million in fiscal year 2019.
    The last issue I would like to highlight concerns road 
access to the Village of Taholah, which currently is limited by 
a single highway. Access to the village is cut off during 
natural disasters and weather events that make the road 
impassable. Quinault proposes to link an 8.2-mile service road 
to a nearby highway. This will create two exit and entry points 
to our village.
    We estimate that this project will cost $3.5 million for 
road construction and improvement activities once either the 
lands or the right of way are acquired.
    We thank the committee for funding the BIA road maintenance 
program in fiscal year 2019 at $35.8 million. We ask the 
subcommittee increase funding for this program to $45 million 
to meet the current high demands of tribes. We also urge the 
subcommittee to include report language giving funding priority 
to tribes with safety and emergency access concerns.
    In closing, we humbly thank the committee for giving us 
this time to share our priorities. My nation, like so many 
others across the United States, is being disproportionately 
affected by climate change. We have declared multiple states of 
emergencies and fisheries disasters that only seem to worsen as 
time goes on. We will need your support as our trustee to 
properly prepare for this new normal that puts our treaty 
rights at risk.
    [Speaking Native language.]
    Thank you for this opportunity.
    [The statement of Tyson Johnston follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                           Thursday, March 7, 2019.

                       INTERTRIBAL TIMBER COUNCIL


                                WITNESS

VERNON STEARNS, PRESIDENT, INTERTRIBAL TIMBER COUNCIL
    Mr. Stearns. Madam Chair, members of the subcommittee, good 
morning, and thank you for the opportunity to appear here 
today.
    My name is Vernon Stearns, president of the Intertribal 
Timber Council, for whom I am testifying for today. I am also 
the hazardous fuels program manager for the Spokane Tribe 
located in eastern Washington State.
    First off, I want to thank the subcommittee for its support 
for timber tribes over the recent years. You have listened to 
our testimony and provided additional investments in Indian 
forestry, including in the current fiscal year.
    You have encouraged Federal agencies to work more closely 
with tribes. All of these actions are appreciated, and I want 
you to know that the ITC is working with tribes across the 
Nation to ensure that these investments deliver maximum results 
on the ground.
    For every dollar invested in tribal forests, $3 are 
generated. Timber is a renewable resource, and timber revenue 
helps tribes pay for every service they provide, from 
healthcare to elder support to education. Unfortunately, tribal 
forests are chronically underfunded. We receive $1 for every $3 
that the Forest Services does on a per acre basis.
    Both today and over the past 40 years, this has held down 
our timber sales to only half the volume in our approved plans, 
costing us jobs and revenue. In other words, a lack of Federal 
appropriations is a primary barrier that has held down our 
timber harvest levels, according to all environmental laws and 
standards.
    A $5 million increase in TPA forestry should add 67 
foresters and increase our national tribal timber harvest by 
nearly 300 million board-feet. For BIA forestry projects, we 
urge an increase of $5 million over current levels to help 
eliminate the BIA's thinning and replanting backlogs. These 
backlogs are long-term drags on our forest productivity.
    Tribes are also deprived access to rehabilitation funds 
after wildfire burns our land. The Government has a 
responsibility to cover burnt Indian lands, but we are provided 
only a small fraction of what is needed to get the new forest 
growing. Whatever doesn't get done is simply shifted to the 
ever-growing backlog for tribal lands.
    To prevent this, we ask that $10 million be provided from 
the burned area rehabilitation account to finish the work left 
over from the catastrophic 2015 wildfire season in the Pacific 
Northwest.
    In line with this administration's presidential executive 
order on promoting active management of Federal lands to reduce 
wildfire risk, I ask for continued support of restoring 
Interior's Office of Wildland Fire fuels management funding to 
its fiscal year 2010 level of $206 million. ITC also strongly 
supports the continuation of the $10 million reserve treaty 
rights landscape funding initiative within Interior's fuels 
management program.
    Proactive reduction of hazardous fuels is a proven method 
that creates fire-adapted communities, enhances wildfire 
response, increases landscape resiliency, and is a sound 
investment that reduces the risk and cost of wildfires.
    I also want to thank the Congress for giving tribes several 
new authorities to work with Federal partners such as the 
Forest Service. These tools include the good neighbor authority 
and tribal 638 contracting of Tribal Forest Protection Act 
projects, all of which will bring tribal expertise to improving 
forest health across the landscape.
    We would appreciate any encouragement you can give to 
Federal land managers to quickly implement these new 
authorities and get tribes to work on both sides of our shared 
boundaries.
    Madam Chair and committee members, I will conclude by 
inviting you and your staff to come see Indian forestry in 
person. We are doing great things for the land and generating 
jobs and revenue for communities that direly need it. We do all 
of this at a fraction of the cost of other Federal land 
managers and with greater results.
    On behalf of the more than 60 tribes that make up the 
Intertribal Timber Council, thank you for inviting me here to 
speak today. That concludes my statement.
    [The statement of Vernon Stearns follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
                                           Thursday, March 7, 2019.

         LAC DU FLAMBEAU BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

JOSEPH WILDCAT, SR., PRESIDENT, LAC DU FLAMBEAU BAND OF LAKE SUPERIOR 
    CHIPPEWA INDIANS
    Mr. Wildcat. Can I give you this packet here?
    Ms. McCollum. Thank you.
    Mr. Wildcat. [Speaking Native language.]
    Good morning. My name is Joseph Wildcat, Sr.
    I am president of the Lac du Flambeau Lake Superior Band of 
Chippewa Indians. I want to thank the subcommittee for 
opportunity to present this testimony and for your ongoing 
bipartisan support for tribal programs.
    The recent 35-day shutdown was difficult for us. Despite 
the passage of the recent fiscal year 2019 Appropriations Act, 
BIA informed us that OMB has yet to provide the Department its 
appropriations, and it may be weeks before we receive remaining 
funding owed us.
    Our reservation has the densest concentration of fresh 
water in the country, and it is our obligation to safeguard 
those waters, fish, waterfall, animals, and vegetation for 
generations to come. The bounty we draw from our waters and 
wetlands helps feed our members and generates jobs. For that 
reason, I want to discuss EPA's leaking underground storage 
tanks program and explain why the EPA program is so important 
to our tribe and ask for an increase in the LUST program tribal 
set-aside for tribal cleanup costs to safeguard drinking water 
sources and habitats.
    Tribal LUST program's implementation funds and the 
corresponding increase in EPA's brownfields program grants to 
tribes to help reduce contaminated sites that pose a 
significant risk to groundwater, both of these accounts are 
severely underfunded.
    The prompt cleanup of significant underground contaminated 
sites is vital to the preservation of our homelands and 
resources that we depend on for our culture and way of life. As 
EPA IG report noted, tribal citizens experience unique risks 
because of traditional lifestyles and the use of natural 
resources.
    Tribal communities often follow traditional diets that 
include an abundance of freshwater fish and seafood. Because of 
tribes' reliance on natural resource to maintain traditional 
diets, likewise customs and languages, there is a unique need 
for tribal-focused research to identify risks as well as to 
inform decisions to reduce health risks to these areas.
    At Lac du Flambeau right now, we have 23 leaking 
underground storage tank sites that we know threaten drinking 
water, fish habitat, deer, waterfall habitat, as well as wild 
rice habitat, yet we have been in multiyear battle with the 
State and the EPA over the cleanup of these sites.
    The Tower Standard/Haskell Lake site is one such site. It 
is contaminated with chemicals I can't even pronounce, but 
experts tell me they are lethal. EPA recently estimated that 
$1.7 million was required for interim action measures for the 
site. This amount would consume the majority of 2019 LUST 
cleanup funds appropriated for the Nation's 573 federally 
recognized tribes.
    We know what EPA proposed does not suffice for our tribe or 
for Indian Country. We want to hold EPA to its trust 
responsibilities to protect and preserve our trust resources, 
and there is no trust resource more vulnerable than our one and 
only homeland.
    We met with EPA this week and asked the agency to 
acknowledge our shared interest as governments to remedy the 
LUST sites on the reservations that pose a threat to human 
health and the environment. We have meetings planned EPA Region 
5 officials. We ask your support to ensure that EPA is able to 
fully--fulfill this responsibility.
    Thank you very much.
    [Speaking Native language.]
    [The statement of Joseph Wildcat, Sr., follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you very much.
    Mr. Kilmer. All right. Thank you, Madam Chair. I will defer 
to our ranking member, Mr. Joyce, for questions first.
    Mr. Joyce. First, thank you all for being here. Chairman 
Wildcat, I see in your testimony you talk about mercury 
concentrations. Is that from previous mining incidents--the 
mercury that is in the lakes?
    Mr. Wildcat. The mercury is a combination probably of air 
quality when rain--when it rains, we get that mercury. But we 
also have issues with mining in our location, in our area in 
Wisconsin. It is a very big concern.
    Mr. Joyce. I know in the Great Lakes that there has been a 
problem with the concentrations of mercury in perch and 
walleye. You only can eat so much at any given time. So I 
understand and appreciate the issue. I was just wondering where 
it was coming from.
    Mr. Wildcat. Yes, mercury has an effect on pregnant 
females. They are restricted from consuming mercury-laden fish. 
In our area, there is various lakes that have a high, high 
level of mercury, and the consumption of the fish are 
restricted.
    Mr. Joyce. Thank you all again. I yield back.
    Mr. Kilmer. Madam Chair.
    Ms. McCollum. Thank you.
    Mr. Wildcat, please keep the committee posted through memos 
or emails, however it is most convenient for you, how your 
discussions are going with the EPA. I am very concerned about 
your testimony about the LUST fund and that the State also has 
a portion of helping to prioritize and do things with that, 
too, and I hope you are having discussions with your new 
Governor on that issue.
    You also mentioned the mining a little bit, and that is 
something that I know that the tribal nations between Minnesota 
and Wisconsin are very concerned about with all the mining that 
is proposed. Because people see the water on the surface, but 
we know there is water underneath the surface, and everything 
is comingling. So I appreciate you bringing that forward.
    Chronic wasting disease also was something in your 
testimony, and it is something that we are going to be looking 
into. We have touched on it before, but it is something that we 
are going to look into more. And that also kind of has a two-
step process because the Food and Drug Administration, which is 
in the Department of Agriculture has a little something to do 
with that. So I am on the Agriculture Committee. So I will be 
asking about that.
    But the one thing I wanted to really ask you was about your 
discussions with the EPA--you have the right to clean up to 
your standards.
    Mr. Wildcat. Correct, yes.
    Ms. McCollum. And I want to make sure that the EPA has 
acknowledged seeing that sovereign right to clean up to your 
standards, as it does with any State or local government.
    So really quick, I am sure Mr. Simpson knows a lot more 
about fire, but I am going to ask more about this Joint Fire 
Service that you mentioned in your testimony, Mr. Stearns, to 
make sure we are doing that right for training in that. Could 
you maybe expand a little more on that?
    Mr. Stearns. Well, I think what you are talking about is 
the Joint Fire Science Project.
    Ms. McCollum. Science Project.
    Mr. Stearns. Yes, it is a research effort that is funded, I 
believe, through the U.S. Forest Service, but definitely 
looking at fire research and getting that information out to 
the field to apply to management strategies. It is not 
necessarily training, but a lot of information.
    Ms. McCollum. So it is more research based?
    Mr. Stearns. Yes.
    Ms. McCollum. Then after you have the information, you know 
how to train up?
    Mr. Stearns. Yes.
    Ms. McCollum. OK. I am going to look into see how involved 
tribes are in consultation in doing the research because you 
have your own DNRs and scientists looking at your forests.
    And the last thing I have is, Mr. Johnston, you are looking 
to have a second road because how many years is it before you 
think you are going to finally agree, plan, and move? I wish 
you weren't having to move your tribe due to climate change. I 
don't think this is a happy thing that you are going through.
    But how long, what do you really think the process is going 
to be? If everybody stuck to their timeline and there was no 
backpedaling, what do you think this process is going to be?
    Mr. Johnston. Yes, even if we had everything in line 
funding wise, permit wise, we foresee this process taking 
anywhere 7 to 10 years. And so we are really concerned with 
that timeline, obviously, because the effects only seem to 
worsen as the years go on and amplify it.
    And from an emergency access standpoint, whenever there is 
a serious weather, flooding, even over Christmas, you know, we 
didn't have access to our main villages. We had to ask our 
elders and other folks to drive through these forested service 
roads, and we do our best with the resources at our disposal, 
but it becomes quite troubling when you are not able to access 
your own home.
    And when the electricity goes out and things that are 
essential to everyday life, we are the last on the road to be 
considered when those things need to be fixed. So it is a long 
process, 7 to 10 years.
    Ms. McCollum. Thank you.
    Mr. Kilmer. Mr. Simpson.
    Mr. Simpson. Thank you. And thank you all for being here 
today.
    Joseph, believe me, you don't have any more trouble with 
OMB than we do. Maybe we need to work together and attack OMB 
because there is a problem there.
    But let me ask you about the forestry program. Where does 
the revenue go that you get from timber sales?
    Mr. Stearns. Thank you.
    It varies by tribe, but it definitely goes out, and I don't 
know the specific answer, you know, an across-the-board answer. 
Definitely varies by tribe, and I can say from my own tribe, 
the Spokane, is it provides money for education and healthcare 
a little bit. And like I said, it just varies. I really can't 
give you a specific answer.
    Mr. Simpson. But it doesn't necessarily go back into the 
forestry program?
    Mr. Stearns. Some of it does, into the forest development 
program and replanting and thinning.
    Mr. Simpson. You know that there is no--in Federal law 
anyway, there is no requirement that you do reforestation after 
wildfire, but there is after a timber harvest. The Forest 
Service has to do reforestation as part of the plan.
    I thought about trying to change the Federal law so that 
you have to do reforestation after wildfires because they are 
obviously just as devastating, if not more impactful than 
timber harvest. But it would be interesting to know how the 
resources--we are short in all these areas, not just on tribal 
lands, but also on Forest Service lands in reforestation, 
hazardous fuels management, all of those programs. We are 
hopeful that with the new way of funding wildfires that it will 
free up some money to be able to do some of these things.
    But I would be interested in knowing, across those tribes 
that have forest lands, where the revenue goes and what they do 
with it?
    Mr. Stearns. I think, again, I don't know the specific 
answer and across the board, but I can get back to you.
    Mr. Simpson. I appreciate it. Thank you.
    Mr. Kilmer. Thanks.
    Vice Chair Johnston, first, thank you for highlighting the 
threats that your tribe is facing due to climate change. I had 
an opportunity to go out to your village just a few weeks back, 
and in fact, one of the lanes of the road was closed because of 
a landslide from a severe storm. So what was already only a 
two-lane road was down to one lane.
    I can't count how many times we have worked with your 
nation when there was a breaching of your seawall and severe 
flooding because you are right there right on the ocean. I can 
appreciate the interest and I think we all understand the 
interest in relocating your communities to higher ground.
    We are, I think, also conscious of the fact that the BIA 
doesn't have any dedicated funding for that purpose. So give us 
some guidance. If you could have this committee help ensure 
that the Federal Government enables you to relocate it and to 
meet its obligation, what would you like to see us do?
    Mr. Johnston. I think what would help is if there were 
explicit resources available for the reasons that I mentioned. 
Your point is very spot on. There are different pots of 
resources that we are able to access, but none of them 
explicitly are because of land loss, dislocation, all of those 
issues.
    And so having a resource that was intentional, especially 
for tribes that were impacted by that, uniquely impacted by 
that because of geography and other reasons I think would be 
the most helpful way to address these issues. Because we are 
really creative. You know, we are a timber nation, too, and so 
we do utilize our revenue that we gain from forestry to 
reinvest the land, relocate and invest in housing because of 
our unique situation and needs.
    But I think having intentional resources to access that are 
dedicated for tribes facing those issues is what is needed in 
today's time.
    Mr. Kilmer. Thank you. I yield back, Madam Chair.
    Ms. McCollum. Thank you.
    And if I could have unanimous consent to add to the record 
what Mr. Wildcat has given us with more information, and you 
will keep us in contact about what the EPA is doing?
    Is there any objection?
    Mr. Joyce. No.
    Ms. McCollum. Hearing none, so ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you very much, gentlemen. And I have to 
say you are spot on with all your testimony. You have set a 
high bar for everybody else coming behind this panel. So thank 
you very much.
    If the second panel will please join us, we have the 
executive director, Valerie Grussing, the National Association 
of Tribal Historic Preservation Officers; Bryan Newland, 
president of the Chippewa Ottawa Resource Authority; president 
of the Intertribal Buffalo Council, Mr. Carlson. Please join 
us.
    [Pause.]
    Ms. McCollum. Dr. Grussing, are you ready?
    Ms. Grussing. Yes.
    Ms. McCollum. Thank you.
                              ----------                              

                                           Thursday, March 7, 2019.

     NATIONAL ASSOCIATION OF TRIBAL HISTORIC PRESERVATION OFFICERS


                                WITNESS

VALERIE J. GRUSSING, PH.D., EXECUTIVE DIRECTOR, NATIONAL ASSOCIATION OF 
    TRIBAL HISTORIC PRESERVATION OFFICERS
    Ms. Grussing. Members of the subcommittee, I appreciate 
this opportunity to present the National Association of Tribal 
Historic Preservation Officers, that is NATHPO, our 
recommendations for fiscal year 2020 appropriations.
    My name is Valerie Grussing. I am the new executive 
director. In this year of transition for the organization, we 
have some grand and exciting plans, some of which rely on this 
subcommittee's continued support for the budgetary needs of 
tribal cultural preservation activities.
    We recommend four key areas for funding, and in my time 
today, I will just elaborate on the first one. That is the 
National Park Service, the Historic Preservation Fund. We 
recommend a tribal line-item of $20 million.
    For some background information, what are tribal historic 
preservation officers? We call them THPOs.
    They are appointed by federally recognized tribal 
governments that have entered into an agreement with the 
Department of the Interior to assume the Federal compliance 
role for the State historic preservation officer, per the 
National Historic Preservation Act. Tribal historic 
preservation plans are grounded in self-determination, 
traditional knowledge, and cultural values and may involve 
projects to improve Indian schools, roads, health clinics, and 
housing, and anything else that needs to happen in Indian 
Country.
    THPOs are the first responders when a sacred site is 
threatened, when an ancestral home is uncovered, and when 
Native ancestors are disturbed by development. THPOs are often 
responsible for their tribe's oral history programs and 
operating tribal museums and cultural centers. They perform 
many functions and responsibilities in Indian Country and 
through their activities represent an active expression and 
exercise of tribal sovereignty.
    What is NATHPO? The National Association of Tribal Historic 
Preservation Officers is a national nonprofit membership 
association of tribal governments that are committed to 
preserving, rejuvenating, and improving the status of tribal 
cultures and cultural practices by supporting Native languages, 
arts, dances, music, oral traditions, cultural properties, 
tribal museums and cultural centers, and libraries. NATHPO 
assists tribal communities in protecting their cultural 
properties, whether they are naturally occurring in the 
landscape or are manmade structures.
    The Historic Preservation Fund administered by the National 
Park Service, we recommend a tribal line-item of $20 million. 
This is a pretty big increase.
    As of January 1st of this year, there are 180--I have got 4 
in my written statement. As of this week, there is 185. There 
is more every year. Recognized by the Park Service. That is the 
THPOs. Each THPO represents an affirmative step by an Indian 
tribe to assume the responsibilities of the State's historic 
preservation officers for their respective tribal lands as 
authorized by Congress in the 1992 amendments to the National 
Historic Preservation Act.
    Collectively, these tribes exercise responsibilities over a 
land base exceeding 50 million acres in 30 States. The Historic 
Preservation Fund is the sole source of Federal funding for 
THPOs and the main source of funding to implement the Nation's 
historic preservation programs. HPF revenue is generated from 
oil and gas development on the Outer Continental Shelf.
    We recommend $20 million to carry out the requirements of 
the National Historic Preservation Act. This would provide the 
nearly 200 federally recognized THPOs an average of $100,000 to 
run their programs. That is their whole program.
    Funding THPOs and staff creates jobs. It generates economic 
development, and it spurs community revitalization. It also 
facilitates environmental and historic review processes that 
are required, including for infrastructure permitting. That 
means when agencies and project applicants call, someone is 
there to pick up the phone and do the work.
    What is at stake here? As the number of Indian tribes with 
THPO programs increases, the amount of HPF funding appropriated 
and then apportioned to THPOs must keep pace. Native American 
cultural properties on millions of acres of tribal lands are at 
risk.
    For the past several years, each THPO program has been 
asked to conduct important Federal compliance work with fewer 
financial resources. In the first year of congressional 
funding, support for THPOs--which was 1996 when the program was 
created--the original 12 THPOs each received an average of 
$83,000. By fiscal year 2018, 179 THPOs received an average of 
$64,000 to run their whole program. There are expected to be 
almost 200 THPOs in fiscal year 2020.
    Reconnecting Native peoples to their cultural heritage, 
traditions, and places has the power to help heal deep 
generational wounds. To continue historic preservation and 
cultural revitalization in Indian Country, it is essential that 
THPO programs receive increased funding to meet the increasing 
need. And I have got a chart that demonstrates program growth 
and funding need, if you have that? I don't know.
    Ms. McCollum. We have it.
    Ms. Grussing. OK. OK. So you can see in my chart that HPF 
funding has steadily increased, as has the number of THPOs, and 
those are both good things. But that results in the average 
amount per THPO staying level. So $20 million in 2020 will 
begin to close the gap.
    Thank you for this opportunity and for your support.
    [The statement of Valerie Grussing follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. I think you are going to get a lot 
of questions.
    Our next witness is Mr. Newland.
                              ----------                              

                                           Thursday, March 7, 2019.

                   CHIPPEWA OTTAWA RESOURCE AUTHORITY


                                WITNESS

BRYAN NEWLAND, PRESIDENT, CHIPPEWA OTTAWA RESOURCE AUTHORITY
    Mr. Newland. Good morning.
    [Speaking Native language.]
    Hello. Thank you, Madam Chair, members of the subcommittee, 
for the opportunity to testify today.
    My name is Bryan Newland. I will introduce myself in our 
language.
    [Speaking Native language.]
    My name is He Walks Many Paths of the Wolf Clan, and I come 
from the place of the pike, Bay Mills Indian Community in 
Northern Michigan. We are a fishing community. We are defined 
by the waters of the Great Lakes and what we do on those waters 
and what those waters do to us.
    I am testifying today on behalf of Bay Mills Indian 
Community as well as the Chippewa Ottawa Resource Authority 
really on one thing, the importance of our treaty fishing 
rights and Congress' role in helping us to protect those 
rights. So in addition to my oral testimony or oral statement, 
I have prepared written testimony and respectfully ask that 
that be submitted in the record.
    Ms. McCollum. It is here.
    Mr. Newland. Great. Bay Mills Indian Community is one of 
five Ojibwe and Odawa Tribes in Northern Michigan that signed a 
treaty with the United States in 1836. That treaty ceded almost 
half of what is now the State of Michigan. It actually allowed 
the State of Michigan to come into existence.
    And as part of that treaty, we reserved the right to hunt 
and fish and gather throughout the ceded territory. Our 
ancestors reserved this right because fishing in the Great 
Lakes is a way of life for Ojibwe and Odawa people. It is 
something we have done for centuries, and it is something we 
continue to do today.
    In the 1960s, the State of Michigan began to crack down on 
tribal members for exercising these treaty rights. They 
arrested our tribal members, cited them for violating State law 
for fishing without a State license. This was paired with 
physical attacks on our tribal members by interested sports 
fishing enthusiasts just for exercising those rights. People 
came at our tribal members with guns, knives, baseball bats, 
and the like.
    And to avoid being shot, beaten, or arrested, many of our 
tribal fishermen had to fish at night. Now anybody who has seen 
the Great Lakes knows they are dangerous enough in the daytime, 
and if you are going out at night, that danger really ramps up.
    In addition, a lot of our tribal fishermen had to ask their 
sons or their nephews or young men to sit in the cab of their 
pickup truck on the beach with guns to watch for people coming 
to assault them or honk the horn or flash the lights when a 
State DNR officer showed up to make arrests and issue 
citations.
    In 1971, the State of Michigan cited one of our own tribal 
members, Albert ``Big Abe'' LeBlanc, and you can guess why he 
got the nickname ``Big Abe.'' He was cited for fishing without 
a State license, and he appealed his case all the way to the 
Michigan Supreme Court, which affirmed that our treaty rights 
are a real thing and that the United States Constitution means 
what it says that treaties are the supreme law of the land.
    And actually, our new in-house counsel is Mr. LeBlanc's 
granddaughter, and she is here with us today. So we have come 
full circle in that effort.
    The Federal Government sued the State of Michigan after 
that case for violating our treaty fishing rights. And in 1979, 
a Federal court affirmed that our treaty rights exist in a case 
that is famous to us, known as the Fox decision.
    So the history is important and that context is important 
for purposes of today's Federal budget, and I will explain why. 
Our Chippewa Ottawa Resource Authority tribes have been 
regulating our commercial and subsistence fishing ever since 
that case, my entire lifetime. And those regulations are 
spelled out in court judgments that have been negotiated 
between our five tribes, the State of Michigan, as well as the 
Federal Government.
    And the Federal budget at the Department of the Interior 
contains this line-item called rights protection 
implementation, and a lot of people look at that budget line-
item and they say, ``What the heck is that?'' Well, the 
implementation part of that refers to these court judgments and 
the need to implement their terms. And these are judgments that 
were negotiated by the United States on our behalf with us at 
the table.
    These funds, rights protection implementation funds, pay 
for conservation officers, tribal courts, safety equipment for 
our fishermen as well as our conservation officers, biologists 
and environmentalists, and folks who monitor the health of the 
Great Lakes. So we are asking Congress respectfully not for new 
money for this, but to maintain level funding of rights 
protection implementation. And if you have it in your hearts, 
maybe $40,000 added for Chippewa Ottawa Resource Authority so 
we can repair some of these docks our fishermen use.
    Thank you very much.
    [The statement of Bryan Newland follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you.
    [Speaking Native language.]
    Mr. Carlson.
                              ----------                              

                                           Thursday, March 7, 2019.

                      INTERTRIBAL BUFFALO COUNCIL


                                WITNESS

ERVIN CARLSON, PRESIDENT, INTERTRIBAL BUFFALO COUNCIL
    Mr. Carlson. Good morning, Madam Chair and members of the 
subcommittee.
    My name is Ervin Carlson. I am the president of the 
InterTribal Buffalo Council, and also I am member of the 
Blackfeet Nation in Montana.
    ITBC is a federally recognized charter tribe under the 
Indian Reorganization Act with 68 member tribes, and we cover 
19 States, with a total of we have 55 herds and we manage 
over--collectively over 20,000 animals on trust lands, on 
tribal lands.
    Our mission is to promote return buffalo back to Indian 
Country for our spiritual and our cultural connection to the 
animal. And we do--with the buffalo there, this promotes tribal 
sovereignty, self-determination by providing jobs, food and are 
a source of income through tourism, meat sales, and also with 
hunting.
    So I am here today to request a funding increase to our 
current and also for our future buffalo programs. I have been 
here many years, and we haven't really had an increase. We have 
been stagnant for many, many years. And each year, our 
organization grows by two or three tribes each year. And so, 
hopefully, with a little luck, maybe this year we will get an 
increase.
    A little bit about our funding history. Our funding comes 
from the Department of the Interior, the Bureau of Indian 
Affairs Tribal Management and Development Projects Program, and 
like I said, our funding has been stagnant, that $1.4 million 
for the past several years.
    And this doesn't, you know, sustain all of the tribes that 
we do have each year and their programs. Many tribes are 
joining each year with this organization. This year, when we 
were over asking for an increase and talking to the BIA, they 
asked us to do a comparison with the fishing tribes. And I 
don't mean--I didn't know I was going to be sitting right next 
to one today also. [Laughter.]
    But just they just asked us for a comparison and to 
determine what the difference was between the two 
organizations, and it was pretty kind of shocking as to see the 
big difference there. There are at least seven fishing 
commissions, and they serve fewer tribes, I guess, than the 
ITBC, I think. And that is with our research, they do.
    We do serve, you know, 68 tribes over 19 States. So, and 
then they do, I guess, have a smaller geographic area than the 
ITBC alone. However, the commissions, they receive 100 times 
over what the ITBC receives. And I am not here to diminish 
what, you know, those tribes there are certainly going through 
the same thing that we are doing, trying to return and promote 
and to save their cultural food source that we did also as the 
Plains tribesmen having buffalo.
    But also there are 10 tribes that are within the fish 
commission that are a part of ITBC also and helping restore 
buffalo back to their lands for food. So in any way, we don't 
want to, you know, take any money from them. Or it was a 
comparison that the BIA asked us to do, whatever for, just to 
see, I guess, what funding difference there is.
    And then so some of the justifications for the increase 
that we were talking about is of the $1.4 million that we do 
receive, $1 million goes out directly to the tribes for their 
programs, and that helps enhance their programs. Runs directly 
through ITBC and out to the programs.
    They do water development, range management, fencing, 
hiring the people to run the programs and keep them going, and 
equipment. Supplemental feed when we have to at times, 
veterinary services, and just all the other needs that go along 
with raising buffalo.
    So this year, we are requesting an increase to $14 million. 
And of that, $3.5 million we would like to see go to the herd 
development grants. Last year, $3.5 million was the request 
that we had from our members. But each year, we ask them to 
send in a letter, a one-page concept letter requesting their 
needs, and it far exceeds the money we get. It is usually 
around $13 million, $14 million.
    So a lot of our tribes will have to hold out years, and we 
go through their grants and we help them. So it is always very, 
very small the monies that they do get to run their programs.
    What we do is we provide technical assistance out to our 
people, education and outreach to our member tribes and which, 
again, I would say is very--you know, we provide all of the 
technical assistance through the organization, the money that 
we do keep. Usually, it is $1.4 million. So we use $400,000. 
But then all of that money also we use for technical assistance 
out to the tribes. So that all goes out there, too.
    Ms. McCollum. Thank you, sir.
    Mr. Carlson. So I guess in conclusion, I would just, like I 
said, we have been here, you know, a lot of years and kind of 
feeling like maybe this year, maybe we would see the increase 
that we do need. And hopefully, that you folks would see that, 
and I appreciate being here in front of you today and being 
able to report that.
    We all have this all in our written testimony, and I hope 
you will see that.
    Thank you.
    [The statement of Ervin Carlson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Yes, we have it.
    Thank you. Thank you.
    Mr. Joyce.
    Mr. Joyce. Thank you all for being here.
    [Dog barking.]
    Ms. McCollum. Is that your dog?
    Mr. Simpson. Sorry. That is my dog calling. [Laughter.]
    Ms. McCollum. Your dog wants to do Facetime, Mr. Simpson.
    Mr. Joyce. I appreciate your testimony and your travel here 
today. Thank you.
    Ms. McCollum. Mr. Simpson?
    Mr. Simpson. Yes, that was my dog calling. We Facetime 
every night. [Laughter.]
    Anyway, Valerie, I think the chairwoman was right. You are 
going to get a lot of questions, but hopefully, they are 
friendly questions because I think what you do is very 
important and also very difficult. There are how many THPOs 
now?
    Ms. Grussing. One hundred eighty-five.
    Mr. Simpson. One hundred eighty-five. Is it a line-item 
that funds those?
    Ms. Grussing. Yes.
    Mr. Simpson. And what is that amount now?
    Ms. Grussing. Eleven-seven-three-five.
    Mr. Simpson. You mentioned that it came out of a I guess it 
was a $20 million authorization level from Outer Continental 
Shelf revenue?
    Ms. Grussing. So if the whole Historic Preservation Fund 
were fully funded, that would be $150 million. State historic 
preservation officers get about $50 million of that, and there 
is about 10 other grants programs--underrepresented 
communities, historically black colleges, civil rights, things 
like that.
    Mr. Simpson. But you did mention in your testimony the $20 
million from the Outer Continental Shelf?
    Ms. Grussing. That is what we are recommending, an increase 
to $20 million.
    Mr. Simpson. OK. Out of that?
    Ms. Grussing. Right.
    Mr. Simpson. With the expansion, and it has been a pretty 
rapid expansion--up to 185 THPOs across the country----
    Ms. Grussing. Right.
    Mr. Simpson [continuing]. Did you find any kickback? The 
reason I ask this, I think what you do is very important. I 
think historic preservation is vitally important, especially 
for tribes. We can't lose that history.
    And I have been impressed going out on the reservations in 
Idaho with the Sho-Bans. I live on the border of the Sho-Ban 
Reservation. They have started language schools because they 
were losing the Bannock language and so forth among young 
people. It is an immersion program. And they want to start one 
in the Shoshone language also. It is fascinating to go watch 
this, these young kids speaking Bannock.
    With the increase in THPOs, comes the possibility of 
conflict. Because I often hear, a business wants to do 
something, wants to develop some land or something. And it is 
not on the reservation. It is off the reservation. And they 
say, ``We have got to consult with the tribes on this? It is 
nowhere near the reservation.''
    I don't think that is the point. It is historic lands, and 
you have to consult and see if there is historic preservation 
that needs to be done there.
    Ms. Grussing. It is all ancestral land.
    Mr. Simpson. Yes. I was going to say what is not ancestral 
land in terms of Indians in this country? So are you seeing 
more conflicts that exist between the historic preservation 
offices that you have and, say, development that is not on the 
reservation, but off the reservation?
    Ms. Grussing. I think there is perpetual conflicts. I think 
agencies and project applicants alike don't know what to do 
with these sites. They don't know how to identify them.
    Their responsibility is government-to-government 
consultation. It is the tribe's responsibility to identify 
those sites, and this funding would allow these offices to be 
staffed and to actually do the work that is required.
    Mr. Simpson. Well, I appreciate that. I do appreciate the 
work you do. It is, like I said, vitally important, and any way 
we can help, I am more than willing to help. And I appreciate 
the testimony of the fishing community and also the buffalo 
community.
    Ms. McCollum. Thank you.
    I loved what you said, Ms. Grussing, that you are the first 
responders when a sacred site is threatened. That touched my 
heart, and we are seeing more--I would like to call out in 
Minnesota we are seeing more opportunities to work with tribal 
councils on identifying their areas of interest. We are looking 
at doing some possible bridgework across the Mississippi River. 
And our office engaged the National Park Service, some of the 
local tribes, and then it goes out from there because it was a 
trading post along the Fort Snelling area.
    And people are looking at how we are building this in. We 
are doing it early. We are creating opportunities. But there 
needs to be somebody, to your point, to pick up the phone if 
somebody calls, so the frustration doesn't start to build. So I 
appreciate you asking for more of a request on that.
    And I think we are seeing things go up in need as 
sovereignty is being more recognized by more States, more 
communities, and more Americans want to be engaged in being 
partners with the tribes. So I think you are part of your own 
success, and congratulations on that.
    But now we have to make sure that we don't create 
unfulfilled expectations when someone picks up the phone. So 
thank you for your testimony.
    As a person who eats both fish and buffalo, I am a little 
conflicted after your testimony, Mr. Carlson. [Laughter.]
    But there is something that was in your testimony that I 
have mentioned a couple of times now. I am also on the Ag 
Appropriations Committee, and you have asked for some 
information to coordinate with healthcare providers so that 
they have scientific evidence of the health benefits of eating 
natural-fed grass buffalo diets. I thought that was a proven 
fact, you know? But obviously from your testimony, it is not.
    I am going to look in to see what I can do on that for you.
    Mr. Carlson. Well, to us, it is a proven fact, but they 
asked for that, I guess, just for their information. I guess, 
just agencies. But we, as Indian people, know that that is a 
proven fact, how healthy the food is to us.
    Ms. McCollum. Right. You are right. You are competing 
against so many things--schools, roads, education, everything. 
But you have been--you have been here many, many times, and I 
think we have worked on a couple of your little glitches out in 
the field with some of the harvesting that you were doing, but 
I think there is more we can look into and be partners with.
    Mr. Carlson. And we work with schools. We are trying to get 
buffalo back into food, you know, for the school lunch 
programs, to start from there and getting our people back to 
eating healthy from a young age on up. So we do work with the 
schools a lot.
    Ms. McCollum. So I see opportunities, both talking to my 
colleagues who fund education and work with the school lunch 
program. I am seeing some opportunities here, and we will look 
into it.
    Mr. Carlson. Yes. And yes, we do work with schools on the 
education side also.
    Ms. McCollum. Mr. Newland, the fund. You shared what 
happened in Michigan. I watched with great angst and horror 
what was going on in Minnesota with the Mille Lacs Band, and 
then when I ended up being a State representative, voting to 
protect the Mille Lacs Band hunting and fishing rights in 
particular. I remember the newspaper spreads and the news at 
night showing the confrontation that you described.
    And my question to you is why do you think you have to keep 
renegotiating your rights?
    Mr. Newland. Well----
    Ms. McCollum. And should we be looking towards not having 
to renegotiate your rights. A treaty is a treaty.
    Mr. Newland. I couldn't agree more, Madam Chair. I think 
that the way these have played out in the courts is, you know, 
it is the implementation of the rights and how we regulate the 
catches, and the Federal judges seem to have a desire to want 
to watch this stuff.
    But I couldn't agree more, and a treaty is a treaty. It is 
the supreme law of the land, and we shouldn't have to come 
asking hat in hand to exercise those rights.
    Ms. McCollum. I would think there would be a way in which 
the State, U.S. Fish and Wildlife, and you all, looking at the 
same scientific data, can figure this out. We are having big 
issues with walleye in Mille Lacs, as you know. And we have 
everybody at the table talking about what we need to do 
together. But it sounds like Michigan is more confrontational 
than that, or am I hearing you wrong?
    Mr. Newland. No, actually, it has been--you know, whenever 
you have disparate interests rubbing up against each other, you 
know there is some conflict. But it has been collaborative on a 
number of fronts. But I will say that our fishermen and our 
biologists who are funded with RPI funds, you know, they are on 
the front lines of seeing the changes in the Great Lakes, the 
invasive species, the changes in ecosystems, the slime and the 
algae and the rising water temperatures.
    And we actually work with State and Federal agencies to 
compile that data and put it to use in a way that helps protect 
the Great Lakes. And Madam Chair, I know you have been a big 
supporter of the Great Lakes restoration initiative, and this 
is supportive of that. But thankfully, the physical 
confrontations, at least in Michigan, don't exist like they 
used to. They don't occur like when my parents were growing up.
    But we have serious policy disagreements about how to 
exercise and implement and regulate our treaty fishing rights, 
and I am very----
    Ms. McCollum. And that fund provides you legal 
representation to do that?
    Mr. Newland. Yes, there is a related line-item at 
Department of the Interior. Thank you.
    Ms. McCollum. All right. Well, thank you for your 
testimony, and we will look into--is that the chart that is in 
our book? Yes, we have that.
    Oh, there is some extra information? As a social studies 
teacher, I always love extra information.
    So, Mr. Joyce, we will put this extra information on tribal 
historic preservation funding, without objection, into the 
record?
    Mr. Joyce. Is that extra credit?
    Ms. McCollum. That is extra credit. If you read it, I will 
give you extra credit. [Laughter.]
    Mr. Joyce. No objection.
    Ms. McCollum. So ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce, would you like to 
introduce the next panel?
    Mr. Joyce. Sure.
    Ms. McCollum. I am going to see how good you are speaking 
Hopi last names.
    [Pause.]
    Mr. Joyce. Welcome. Good morning. In case you weren't here 
at the beginning, we are going to go in order. We have 5 
minutes for each of you to testify, and then we will address 
the questions at the end, if you don't mind.
    We will start with Chairman Nuvangyaoma.
                              ----------                              

                                           Thursday, March 7, 2019.

                                  HOPI


                                WITNESS

TIMOTHY NUVANGYAOMA, CHAIRMAN, HOPI
    Mr. Nuvangyaoma. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and honorable members of the subcommittee. My 
name is Timothy Nuvangyaoma, and I do have the honor of serving 
as the chairman of the Hopi Tribe.
    We have over 14,000 tribal members that live on the 
reservation, half of whom live on the reservation, which is 
approximately the size of Delaware. I will be focusing on three 
funding issues today.
    First, the Hopi Tribe requests that the subcommittee 
provide funding for Hopi Arsenic Mitigation Project, or HAMP, 
so we can address the arsenic contamination in our drinking 
water. The Hopi Tribe has been forced to drink water that is 
laced with arsenic since the 1960s when the BIA constructed our 
water supply system.
    The EPA ranks the Hopi Reservation as one of its highest 
priorities. It has one of the longest-running arsenic drinking 
water violations in the country, the levels three times the 
legal limit. The EPA has threatened to fine the tribe $52,000 
per day if it does not fix the BIA-constructed water system.
    The tribe has proactively addressed this issue through the 
creation of HAMP. The HAMP proposal has two phases. The first 
phase, which is shovel ready and partially completed, will 
deliver water to the Hopi villages. However, it will not 
provide water to secondary sites, such as schools, healthcare 
facilities, and employee housing.
    Phase 2 of the HAMP would increase Phase 1's capacity to 
create a fully integrated regional water delivery system to 
both the villages and secondary sites. The tribe requests the 
subcommittee increase clean drinking water funding to ensure 
that $20 million is available to complete HAMP.
    The Hopi Tribe's second request is for the subcommittee to 
ensure timely completion of the Hopi Detention Center. In 2016, 
BIA abruptly condemned and closed the tribe's detention center 
due to structural deficiencies. The closure left the tribe with 
no place to process or hold suspects, let alone to incarcerate 
prisoners. The police department was forced to transport 
suspects and prisoners over 80 miles to the closest detention 
facility.
    In May 2017, the BIA told the tribe that it had run out of 
funds to contract for prison space. The BIA asked Hopi 
prosecutors to commute the sentences of all Hopi inmates. This 
was done without any consultation with the Hopi Tribal Council. 
We had to appeal directly to the Secretary of Interior's office 
to get the BIA to abandon this position.
    The BIA has promised temporary modular units for detention 
and law enforcement offices since 2016. However, that project 
was plagued with delays, and today the modular are only 
partially operational. In 2017, this subcommittee approved the 
BIA's request to reprogram $5 million to construct a permanent 
detention center. Once the funding was approved, the BIA 
estimated construction would only take 9 months.
    However, almost 2 years later, the BIA has not even awarded 
a contract to construct the permanent detention facility. The 
tribe requests that the subcommittee inquire into the status of 
that contract.
    Finally, the Hopi tribe would like to see sufficient 
funding for Hopi law enforcement services. We have relied on 
the BIA to provide law enforcement on the Hopi Reservation for 
many years. The BIA is supposed to staff the reservation with 
46 law enforcement officers, but it has never met that 
threshold.
    In recent years, the tribe has witnessed a decline in the 
BIA's response to public safety concerns as the number of BIA 
law enforcement personnel covering the reservation has 
dwindled. Many times, we only have one officer on duty at 
night, and they are responsible for protecting a reservation 
the size of Delaware.
    Our frustration with the BIA's handling of public safety 
led to the tribal council to enter into 638 law enforcement 
activities on the reservation. The tribe submitted its proposed 
budget of roughly $3.5 million in August 2018, which would 
cover 39 positions. Unfortunately, the BIA declined the tribe's 
proposal because it didn't agree with the level of funding.
    We know the true cost of providing law enforcement on the 
reservation is $3.5 million. Without this level of funding, the 
BIA is jeopardizing the safety of our community and setting us 
up to fail. The Hopi Tribe urges Congress to prioritize public 
safety funding in Indian Country and to conduct oversight on 
how the BIA is currently deploying public safety resources.
    I do appreciate the opportunity to testify, and I am happy 
to answer any questions.
    Thank you.
    [The statement of Timothy Nuvangyaoma follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. That was well done, right on the 5-minute mark. 
[Laughter.]
    Next we have Chairman Rambler.
                              ----------                              

                                           Thursday, March 7, 2019.

                        SAN CARLOS APACHE TRIBE


                                WITNESS

TERRY RAMBLER, CHAIRMAN, SAN CARLOS APACHE TRIBE
    Mr. Rambler. Good morning. My name is Terry Rambler, 
chairman of the San Carlos Apache Tribe, over 16,000 tribal 
members strong. I appreciate the opportunity to testify today.
    We humbly request your help on two dire public safety needs 
on the San Carlos Apache Reservation, which is over 1.8 million 
acres. One, the need to replace a condemned BIA public safety 
facility called Building 86, which houses our police department 
and tribal courts, with a permanent facility. And two, the need 
to increase funding to hire more police officer personnel.
    I would like to ask Alejandro Benally, Sr., our chief of 
police, if he could stand and be recognized.
    Ms. McCollum. Good to see you, Chief.
    Mr. Joyce. Thank you, Chief.
    Mr. Rambler. Chief Benally and his officers risk their 
lives daily to make our community safer. They put in 12-hour 
shifts and often work overtime. They typically patrol the 
reservation alone without backup and respond to more than 80 
calls a day for help.
    Drug traffickers use the highways and roads that cross the 
reservation as primary routes for drugs. Four weeks ago, an 
Interior opiate task force brought BIA special agents, drug 
enforcement officers, and BLM rangers to the reservation to 
target drug traffickers. The 9-day operation resulted in the 
seizure of 416 grams of meth and 18 Federal indictments.
    Federal agents temporarily assisted our tribal officers on 
calls for service unrelated to drugs. One agent was shocked by 
the number of calls involving violence and commented to Chief 
Benally that his squad of 29 is doing the work of 100 officers.
    Lack of staffing is only part of the problem. Their jobs 
are nearly impossible due to the lack of a functioning 
facility. The BIA built Building 86 many decades ago to house 
the police, investigative, and court operations on the 
reservation. The BIA owns Building 86 and had the 
responsibility to maintain it.
    In the 1990s, the tribe entered into a BIA 638 contract for 
police services. Due to severe structural deficiencies of 
Building 86 and its location in a monsoon flood plain, BIA 
condemned it in 2009 and tried to hand us the keys. BIA 
renovated a nearby Federal building and moved its investigators 
there. However, BIA left the tribe's 638 police force and our 
tribal courts in this condemned building.
    It was not until 6 years later that the BIA finally moved 
our police and courts out of the condemned building and into a 
modular with the promise to permanently replace the facility. 
The BIA modular was designed to be a temporary classroom. It is 
not a place that should house public safety personnel.
    When Chief Benally starts his day, he walks into an office 
with an open crack in the wall where he can see outside. The 
generator routinely malfunctions and doesn't provide AC in 
parts of the modular, which makes for intolerable conditions in 
the scorching heat of the Sonoran Desert.
    Water service routinely does not work, and the restrooms 
and kitchen are out of service. The flimsy floors do not 
support the weight of our safes that hold cash, drugs, and 
other evidence. The back door is broken and has to be propped 
open with a rock, creating serious safety concerns.
    The ground beneath the BIA fuel tanks is eroding, creating 
difficulties for officers when filling up police vehicles with 
gas. I could go on and on and on. Here are photos of some of 
these deficiencies.
    Representative O'Halleran visited the modular last August. 
During the visit, the water was out, so no one could use the 
restroom. Often, the sewage overflows, causing a stench and 
health risks. There are portable toilets outside, but the 100 
degree, 120 degree heat makes them unbearable.
    While the congressman was talking with our chief judge, the 
power went out, and we had to complete the meeting using phone 
flashlights. No justice system can function without a usable 
facility. The time is long overdue to permanently replace 
Building 86.
    In conclusion, the tribe requests the following. One, we 
urge you to provide allocated funding to replace BIA police and 
court facilities condemned over 10 years ago on reservations 
with high crime rates and where these functions are currently 
housed in temporary modulars originally designed to be 
classrooms.
    Two, to help address severe tribal police staffing needs, 
we urge you to increase funding for this staffing to $450 
million and prioritize reservations suffering from the highest 
crime rates in the country.
    And I thank you for the opportunity to testify. I thank 
Darren Benjamin for coming to San Carlos and seeing firsthand 
our issues. And I invite the committee to San Carlos out in 
Arizona. Today, it is swimming pool weather. [Laughter.]
    [The statement of Terry Rambler follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you very much for your offer.
    Lastly, we will hear from President Nez.
                              ----------                              

                                           Thursday, March 7, 2019.

                             NAVAJO NATION


                                WITNESS

JONATHAN NEZ, PRESIDENT, NAVAJO NATION
    Mr. Nez [Speaking Native language.]
    Good morning, Chairwoman McCollum, Ranking Member Joyce, 
and members of the subcommittee. My name is Jonathan Nez, and I 
am the president of the Navajo Nation.
    And I am joined with me today with the Navajo Nation vice 
president, Myron Lizer, who is seated behind me, and many of 
our Navajo Nation citizens.
    I appreciate this opportunity to provide testimony on our 
public safety concerns. I thank the subcommittee for working on 
a bipartisan basis to increase funding for Indian programs 
these past couple of years.
    Public safety is one of our priorities. You know, public 
safety, the system as a whole is not just about police 
officers. It also includes our attorneys, Navajo Nation 
Department of Justice, our prosecutors, our courts as well, and 
let us not forget our behavioral and mental health services as 
a whole, you know?
    Today, we are asking for support, but there is a bigger 
public safety system that we should all keep in mind today. Our 
public safety division includes the criminal investigations, 
department of corrections, our training academy. Let me just 
say that we opened our new training academy. It was idle for 
over 10 years, and we finally brought our training academy back 
to the Navajo Nation. And let me just announce, too, that our 
first time we brought this training center back, training 
academy back to Navajo, we had 12 new Navajo officers who 
graduated. And 2 weeks ago, another 16 officers graduated.
    So another 28 officers on the street. So with more police 
officers, we need assistance for helping the Navajo Nation keep 
their officers on the Navajo Nation. It seems where tribal 
communities are training for police officers out there, we 
bring them on and other departments around our reservations, 
you know, they have a higher salary, and they go to those 
higher salaries. And we ask here if we can help increase the 
salary for our tribal police officers.
    And we also have seven police districts throughout the 
Navajo Nation. Every year, we request funding increases, and 
even with the small improvements, it does not meet the demands. 
We estimate that it would take at least $74 million in 
additional funding per year to ensure proper law enforcement 
and judicial services.
    Recent FBI and Navajo Division of Public Safety data 
suggest that violent crime is on the rise in the Navajo Nation, 
and it is no different than other nations, as was mentioned by 
our--excuse me, by our tribal leaders this morning. From 2010 
to 2016, over 44 percent of the calls to our Division of Public 
Safety involved violent crimes.
    Navajo Criminal investigations responds to approximately 30 
to 50 homicides per year, which represents a rate that is about 
4 times the national average. In responding to criminal 
activity, there are fewer than 205 patrol officers, 27 criminal 
investigators, and 4 internal investigators for entire Navajo 
Nation and the size of West Virginia, as they say, with about 
174,000 people on the Navajo Nation, and that fluctuates. You 
know, a lot of our citizens work off the nation.
    We have 13.4 patrol officers per 10,000 citizens, which is 
less than the national average of 24 officers per 10,000. We 
would have to hire 115 more patrol officers and 30 more 
criminal investigators to close the gap.
    In 2018, the Navajo Nation police department responded to 
over 248,000 service calls and made about 27,000 arrests. The 
deficit in police officers and the vast travel distance, 27,000 
square miles of Navajo land, increases our response times, 
allowing more bad actors to evade crime.
    Also, police vehicles are subject to wear and tear. The 
Navajo police department has about 254 vehicles, and 86 have 
more than 150,000 miles.
    Gathering and analyzing criminal evidence is also 
difficult. We have no funding to hire medical examiners. 
Deceased individuals are transported long distance to State 
autopsy facilities. We have no crime lab. Evidence for Federal 
crimes are submitted the Federal crime lab, but there is no lab 
facility for a case that is purely under Navajo jurisdiction.
    Navajo also operates 6 adult detention facilities with 345 
beds and 4 juvenile detention facilities with 98 beds.
    So Navajo also has one supreme court and 11 judicial 
districts. You know, just to quickly highlight, we have only 14 
prosecutors to handle all these cases. As you can see, we have 
many more challenges. We did submit our written testimony. I 
ran out of time, but that is included in our written testimony.
    And they all--I ask this committee to pay attention to our 
public safety concerns, which are likely similar to many other 
Indian tribes, as was presented this morning. The Federal 
Government has a responsibility under our Treaty of 1868 and a 
trust obligation to protect and assist the nation, all tribal 
nations, securing and developing our people, land, and 
resources.
    Thank you.
    [The statement of Jonathan Nez follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Joyce. Thank you. Thank you for your testimony. Those 
statistics are staggering.
    I will start off with my colleague, Mrs. Watson Coleman. Do 
you have any questions?
    Mrs. Watson Coleman. Thank you. I do. Thank you.
    This is for--I think this is for Mr.--I don't dare try to 
say your name. [Laughter.]
    Mr. Nuvangyaoma. Nuvangyaoma.
    Mr. Joyce. There you go.
    Mrs. Watson Coleman. I guess this is kind of for all. First 
of all, this is a water remediation issue. Is that--am I 
talking to the right person?
    Mr. Nuvangyaoma. Right. We are trying to mitigate some of 
the arsenic issues in our water at this time.
    Mrs. Watson Coleman. OK. Where is the funding coming from 
for the work that you are currently doing and have been doing?
    Mr. Nuvangyaoma. We received some funding as late as last 
year from the IHS. So they are providing $14 million towards 
this, with direct input from the Hopi Tribe of $1 million to 
look at trying to draw in some power to power the pumps to push 
the water out to the affected villages.
    Mrs. Watson Coleman. So the proposal for remediating this 
issue right now, did I get it right, is to get the proper 
water, drinking water to the residents, but not to sort of 
facilities like schools and things like that?
    Mr. Nuvangyaoma. Right. It will draw the line out to the 
villages that are mainly affected with this.
    Mrs. Watson Coleman. And that is if you get the $20 
million?
    Mr. Nuvangyaoma. Correct.
    Mrs. Watson Coleman. So what would it cost to be able to 
bring drinkable water into those facilities?
    Mr. Nuvangyaoma. And that is what we are looking for, 
additional funding from appropriations would help pull in some 
of this water. Currently, the schools operate on their own. So 
it is a high cost to the schools, and whenever there is a 
malfunction with the water system, they actually have igloos of 
water set up in the schools. So if they have issues like that, 
the children, of course, and staff and everybody engaged with 
the school, has a resource for clean water.
    If I could add to that also, most of our community drink 
tap water, which is laced with arsenic. Those that are able to, 
buy their own water, which gets costly. And water shouldn't be 
a luxury. It should be a necessary resource for everybody.
    Mrs. Watson Coleman. We agree. We agree. And to the rest of 
you, my understanding is that the issue of public safety on the 
reservations is a very important issue from structures to the 
number of people that you can hire to work in that capacity 
from lawyers to judges to police officers. And this seems to be 
something that you all shared.
    Mr. Nuvangyaoma. Yes.
    Mrs. Watson Coleman. And so when you are asking for this 
$74 million, Mr. Nez, President Nez, are you talking about what 
the Indian nations need in order to upgrade its public safety 
system, or are you talking just about what the Navajo Tribe 
needs?
    Mr. Nez. Yes, well, thank you for that question, 
Representative Coleman, Chairwoman, members of the 
subcommittee. Seventy-four million is just for the Navajo 
Nation to be close to the level of providing those public 
safety services for our Navajo people. And that is just the 
bare minimum.
    You know, throughout Indian Country, we are talking about 
into the hundreds of millions of dollars, maybe even the 
billions of dollars. As I was saying earlier, public safety, 
the public safety system as a whole needs to be looked at in 
that way, and that includes the judges, the courts, 
prosecutors, and even behavioral and mental health.
    Mrs. Watson Coleman. Just one follow-up. Could you tell me 
the population of the Navajo?
    Mr. Nez. Wow, that is a good question. You know, we have 
close to 200,000 at times living on our nation. We estimated 
last census 350,000 to 500,000 Navajos all over the world. We 
are all over the world, you know? And some of these tribes have 
some of our members working for them. So maybe I will throw a 
pitch in today. Are you guys ready to come home and help the 
Navajo Nation?
    But we have a big nation. Twenty-seven thousand square 
miles, as I said earlier, the size of the State of West 
Virginia now.
    Mrs. Watson Coleman. Thank you very much. Thank you so 
much.
    Mr. Joyce. You are welcome. Ms. Pingree, do you have any 
questions?
    Ms. Pingree. I am set, but thank you so much for your 
testimony. I really do appreciate that you are here with us.
    Mr. Joyce. Madam Chair.
    Ms. McCollum. Complications of arsenic poisoning include 
cancer, liver disease, diabetes, nervous system complications, 
loss of sensation in the limbs and hearing problems, and 
digestive difficulties. And you have people who are drinking 
water that they know is laced with asbestos.
    So all the pipes that had the asbestos in it, were all the 
pipes put in by the Federal Government?
    Mr. Nuvangyaoma. To my knowledge, they were.
    Ms. McCollum. To your knowledge.
    Mr. Nuvangyaoma. Yes, ma'am.
    Ms. McCollum. And the Federal Government knows that, in my 
opinion, it is knowingly morally wrong to have people drinking 
poison. It is going to contribute to the cost of what the 
Federal Government has as its trust and treaty responsibility 
to provide healthcare, and the pipes were put in what year 
again?
    Mr. Nuvangyaoma. We are looking at as early as the 1960s.
    Ms. McCollum. 1960s, and they have failed to replace them.
    Mr. Nuvangyaoma. They haven't had any work done on them, 
yes, ma'am.
    Ms. McCollum. Interesting. Do you know if those pipes, as 
with lead pipes, they can extrude some plastic or something to 
put in the pipe to kind of block the asbestos from coming out? 
Have they talked about--I don't know if that is possible. I am 
not an engineer. I am not trying to play, you know, a stump or 
a ``got you'' question. But have they ever talked about other 
things, or is this full replacement?
    Mr. Nuvangyaoma. I thank you for your question, and I was 
just going to respond with that. I am not an engineer either, 
and since I have been in the office, I haven't heard anything 
of any kind of mitigation concerning lining it with any other 
material to try to mitigate some of the arsenic.
    There have been talks about filtration systems. However, 
the cost on that is pretty enormous, and having to change out 
the actual filters themselves will, you know, continue to cost.
    So in order to fully mitigate this, we are looking at just 
rehashing all the piping that needs to be taken care of, and we 
are talking about a pretty big project. And there is everything 
in place. Again, the wells have already been drilled. It is 
just a matter of getting the infrastructure in the places.
    So I would welcome you to come out to Hopi and visit where 
we are at because we are challenged geographically. We live on 
high mesas. So it is not as easy----
    Ms. McCollum. I have been out there, but this is the first 
time I have heard this.
    Mr. Nuvangyaoma. Oh, OK. Well, I am glad we could let you 
know.
    Ms. McCollum. And that, to our point, is why we are doing 
the testimony the way that we are in blocks, so that we can 
really delve into things. And we have your full written 
testimony on all of the other things you care about, but this 
has given this committee an opportunity to hear something new.
    So I thank you, and believe me, I don't think you just have 
my attention. I think you have everybody's attention.
    Mr. Nuvangyaoma. And I thank the subcommittee as well.
    Ms. McCollum. So thank you. Mr. O'Halleran has been talking 
about what he saw in Arizona. So he came up, ``Do you know what 
is going on?''
    Ms. Pingree. And now we have seen the pictures----
    Ms. McCollum. Because he is in the picture, so I know he 
was really there.
    You said in your written testimony that the BIA has on its 
own just stopped moving forward with doing any remediation, 
stopped facilities replacement--the DOJ, excuse me, stopped 
facility funding on replacements of tribal justice buildings, 
and they are very aware of the backlog. Is that a Department of 
Justice issue as well as a BIA issue?
    Because we can do some things in our account, but they also 
have responsibility in their account, and we have the ability 
to speak to each other about these issues. So how much of 
this--and you can get back to us--is in DOJ?
    Mr. Rambler. I think the last time came from BIA for public 
safety facility construction was back in 2009 under the ARRA 
funding. But other than that, it has been DOJ, but it bounces 
back and forth. And when we have meetings, they blame each 
other.
    Ms. McCollum. Oh, wonderful.
    Mr. Rambler. So I think it is on the Federal Government's 
responsibility to make sure that tribes do get these fundings 
and that I think everybody knows that the tribes are the most 
administratively burdened organization on this world. And so 
when we get bounced around like that, it makes it even harder 
to fill the needs of our people.
    Ms. McCollum. OK. Well, we are going to look into shared 
responsibility because our allocation hasn't been going up.
    I have been out to the Navajo Reservation. You folks do a 
magnificent job training, and we need to make sure that you 
have all the tools that you need to keep the recruitment. So 
thank you for bringing that to our attention. And that means 
not only personnel, the other supportive things that you need, 
a crime lab and the rest, but also that you have our support on 
trying to solve this.
    So thank you.
    Mr. Nez. If I may, Madam Chair?
    Mr. Joyce. You may.
    Mr. Nez. Thank you. And we appreciate you all coming out to 
the Navajo Nation. I know many of the House committee members I 
think two Congresses ago came out to the Navajo Nation, 
experienced our bumpy roads, school buses that travel through 
those communities and those rough conditions.
    And we are under a state of emergency right now on the 
Navajo Nation, and our police officers, our first responders 
are doing the best that they can. And this is another reason 
why we are wanting to advocate for our public safety personnel 
and getting them the resources needed.
    They go above and beyond. They have been 24/7, helping 
grandmas and our elderlies that are out in the rural area that 
have 3 feet of snow. We had high records of snow in Arizona a 
couple of weeks ago, and they are doing their very best that 
they can to reach out to those high-risk individuals or elderly 
and those that can't help themselves.
    And we are also asking our folks to volunteer, to get out 
and help each other as well, and that is what we are trying to 
reteach many of our members. So I appreciate, Chairperson 
McCollum and subcommittee, for the hearing today. It will 
provide us an opportunity to give you some real-life situations 
that we deal with on a daily basis.
    Thank you.
    Mr. Joyce. We appreciate your testimony.
    I am not an engineer either, and I don't pretend to play 
one on TV. But I know one thing they do, and it depends on the 
size of your water lines. In the City of Cleveland, they would 
go through with an auger and then would back-spray it with 
concrete in the line. One, because they had a buildup of 
whatever it is that is in the lines.
    But two, I don't know if there is a way to do it. I don't 
think you can necessarily stick a plastic one inside of it, but 
certainly something we can look into. For 25 years before I got 
here, I was in law enforcement. So I got to tell you I was 
talking to the chief, when I wanted to know what was going on. 
If I wanted to know about the budget or the politics of an 
office, you would see the chief. But if you wanted to know what 
is going on in the field, you would go talk to the officers. 
But it looks like you do both, and there is certainly an 
intimidating figure there.
    Part of the discussion and testimony last year from you, 
Chairman Rambler, was the fact that you had mentioned that in 
2018 we appropriated $218 million to focus on detention 
centers. We continue that in 2019 for the same level, but 
without the focus being on detention centers.
    In response to your testimony last year, we put in that 
connection to address--the need to replace your police station. 
Have you talked to BIA leadership about the change in 
congressional intent for 2019? And if so, what did they tell 
you?
    Mr. Rambler. I think right now they are prioritizing the 
detention facilities, and we want more priority on the police 
and the court facilities and to also include the additional 
money that we are asking for not only for us, but our sisters 
and brothers across the United States.
    Mr. Joyce. Were they to be separate and distinct 
facilities, or can the police department be located inside of a 
detention center?
    Mr. Rambler. It can be all inclusive.
    Mr. Joyce. But there has been no funding or no work done on 
either the detention center or the police station?
    Mr. Rambler. Well, we have a detention facility that is at 
one point in time used to be adequate, but now because of the 
demand, it needs to be enlarged. But we did get a CTAS grant to 
design a facility. So we have designed a facility. We just 
don't have the construction money to build that facility.
    Mr. Joyce. I got it. President Nez, you brought up the 
differential between you are doing all this training, and you 
are losing the people that you train.
    Mr. Nez. Yes, sir.
    Mr. Joyce. Having worked in the public sector with 
prosecutors, just about the time they were worthwhile, there is 
a law firm that came and grabbed them. What is the differential 
between your ability to pay and what is being paid out in the 
community?
    Mr. Nez. Oh, we are right now with the appropriations that 
are appropriated each year, it is at a low rate than other 
police departments surrounding our nation. And we have been 
utilizing some of those additional funds to help supplement 
that.
    But once that additional funding runs out, we are going to 
be pretty much forced into using the general funds, and for the 
Navajo Nation and I want to say as well as the Hopi Nation 
here, the uncertainty of some of our coal-fired power plants in 
the region, the Navajo generating station is one. If that were 
to shut down, that would affect the coal mine that we get 
revenue from, the Peabody coal mine.
    And if those two closures happen, Navajo is looking at 
about a $30 million to $50 million decrease of our general fund 
dollars. And so it is going to be hard to find additional 
dollars to help supplement that higher pay raise for our public 
safety personnel. And that is just not police officers. It is 
also correctional officers as well, prosecutors. And so that is 
the reason why we are all here today is to see, you know?
    And then we also brought out the point of this treaty 
obligation as well, and one of those is public safety and also 
education. But I think if we are to step back and look at the 
bigger picture in tribes, how can the Federal Government help 
nations to help themselves is the bigger goal. I think a 
different plan of diversifying our economy would help Indian 
nations throughout the country. And for us, I think to resume 
and maybe even renewable energy to bring some of those dollars 
that we may lose in the future.
    Thank you, sir.
    Mr. Joyce. Thank you. Thank you all for your testimony and 
your traveling here today to be before us and I look forward to 
working with you on your matters going forward.
    Thank you.
    Ms. McCollum. Thank you. Mr. Nez, the gentleman over here 
handles EPA, and I would like you to update us on the Gold King 
Mine. If the two of you, if you could talk to him off to the 
side?
    Thank you.
    Mr. Nez. Thank you.
    Ms. McCollum. Thank you.
    Mr. Joyce. Thanks again.
    [Pause.]
    Ms. Pingree. We are ready for our next panel. Thank you, 
all.
    [Pause.]
    Ms. Pingree. You are in the panel after this one. So it is 
Julian Bear Runner, Rodney Bordeaux, Ella Robertson, and 
Mulan--do you want to say your first name?
    Ms. Dana. Maulian.
    Ms. Pingree. Maulian?
    Ms. Dana. Maulian. Yes, perfect.
    Ms. Pingree. I should get the one from Maine right, anyway. 
Maulian. [Laughter.]
    Great. Thank you very much.
    Let us go ahead and start with President Bear Runner.
                              ----------                              

                                           Thursday, March 7, 2019.

                           OGLALA SIOUX TRIBE


                                WITNESS

JULIAN BEAR RUNNER, PRESIDENT, OGLALA SIOUX TRIBE
    Mr. Bear Runner. Thank you, ma'am.
    My name is Julian Bear Runner. I am one of the youngest 
leaders in the history of my nation. I come from the Oglala 
Sioux Tribe----
    Ms. McCollum. Sir, is the red light on on the microphone?
    Mr. Bear Runner. Yes. Yes, ma'am.
    Ms. McCollum. You have a wonderfully soft voice.
    Mr. Bear Runner. OK. Is that better?
    Ms. Pingree. Yes.
    Mr. Bear Runner. OK. Thank you.
    My name is Julian Bear Runner. Like I said before, I am one 
of the youngest leaders in the history of my nation. I come 
from the Oglala Sioux Tribe in South Dakota, and you know, in 
the history, I know a few of you have come out to our country 
and visited.
    And you know, being one of the youngest leaders, our 
struggles have always been the same. Our numbers have always 
been the same, but our population has grown. And the disparity 
of our problems is growing, you know? And so I am here today to 
ask for additional funding, for more funding to meet the needs 
of our population and our people.
    Specifically, for our law enforcement, we do have a huge 
growing meth epidemic in Indian Country. You know, and we 
have--we are so spread out within our country, and our response 
time for our law enforcement, you know, we have 56 officers, 
and that is from the chief to the most junior officer that we 
have available. With a population of 40,000 people, you know, 
it is--we are stretching our officers pretty thin. And they are 
underpaid, they are overworked, and the need is crucial.
    I have worked for law enforcement before, and there are 
times when you know you are fighting with three or four people 
that you are trying to gain control of, and your nearest backup 
is over 45 minutes away sometimes. And that 45 minutes seems to 
be for a lifetime, and it is really difficult.
    You know, we need additional personnel. We need additional 
facilities. We did recently have a facility built, and that is 
in our furthest southwest corner of our reservation. But coming 
from a place the size of Rhode Island, the northern--the 
northeastern boundary of our reservation is 2\1/2\ hours away.
    Also working for our ambulance service, it is difficult for 
them, too. It puts their safety at risk. You know, sometimes 
they will have a combative patient, and you know, the nearest 
officer is a minimum of 25 to 30 minutes away. And it 
jeopardizes our medical personnel, you know?
    And all these issues are factoring, you know, all factor 
together all the way down to our roads. These officers, their 
vehicles are being damaged, you know, because we don't have 
enough funding repair the roads. And it is just very 
disheartening. But as a young leader, you know, I am looking to 
make large advancements within my nation, you know, 
technological advances to bring my people into the 21st 
century, which is going to be a huge improvement.
    But I can't do it on my own. You know, we need the funding. 
We need the help to make this possible. And it is just hard. 
You know, it is really hard to have a grandma and grandpa over 
here suffering, you know, and we can't get them the services 
that everyone is required.
    And most recently, you know, we had--I, as a president, 
come across a man lying in the middle of the road, you know? 
And I called 911 for help, and I am left as the leader to deal 
with the situation because law enforcement is 25 to 30 minutes 
away. They are dealing with other problems.
    And you know, one, it is a safety risk, but you know, it is 
very hard being the leader, having to--which is no problem, no 
problem to me to step in and assist where I can. But we need 
the help. We need the funding. We need to be able to hire and 
retain these individuals.
    You know, we send our--the BIA creates a lot of red tape. 
They want certification. And for me, I felt like it infringes 
on our self-determination. You know, we have to abide by BIA 
standards. So we send our people to train with the BIA in New 
Mexico, you know, and most of our staff are recruited straight 
out of the academy. So they don't even come home, but yet we 
devoted the time and effort into assisting them to gain their 
certification.
    So I thank you for listening.
    [The statement of Julian Bear Runner follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much for your testimony.
    President Bordeaux.
                              ----------                              

                                           Thursday, March 7, 2019.

                          ROSEBUD SIOUX TRIBE


                                WITNESS

RODNEY BORDEAUX, PRESIDENT, ROSEBUD SIOUX TRIBE
    Mr. Bordeaux. Good morning, Chairwoman McCollum, Ranking 
Member Joyce, and members of the subcommittee. On behalf of the 
Rosebud Sioux Tribe, I would like to thank you for the 
opportunity to share our tribal priorities in public safety and 
justice.
    One of the primary responsibilities of the Rosebud Sioux 
tribal government and the United States Government is to 
provide public safety and justice services to members of the 
public. However, this responsibility has been neglected. 
Documentation exists that illustrates the fact that tribal 
courts and law enforcement agencies have been historically 
underfunded by the Federal Government to the extent that 
severely limits our ability to ensure safety and justice.
    This is especially disheartening, especially because Native 
Americans are the victims of violence at the rate two times the 
national average. A report issued by Congress and the BIA in 
2016 indicated that the annual estimated need for public safety 
and justice programs in Indian Country is $1 billion for law 
enforcement programs, $222 million for detention, and $1 
billion for tribal courts.
    Additionally, we are requesting an increase of funding for 
BIA law enforcement and detention by at least $2 million over 
the 2018--$200 million, I am sorry, over the 2018 funding level 
of $373 million.
    The Rosebud Sioux Tribe law enforcement services responds 
to over 18,500 calls for service every year. Our law 
enforcement services serves an area of approximately 1 million 
acres, or roughly 1,560 square miles with only 25 patrol 
officers and 5 criminal investigators. The national average of 
officer-to-person ratio is 3.5 officers for every 1,000 people. 
Whereas on the Rosebud, the officer-to-person ratio is 1 
officer per 1,000.
    An increase in funding will be utilized to hire at least 20 
more officers and acquire additional 20 vehicles. The 
additional officers and patrol units will significantly reduce 
the response time and provide our law enforcement services 
personnel with more time to investigate open cases.
    The Rosebud Sioux tribal court was established in 1975 and 
is a court of general jurisdiction. Statistics provided by our 
court handled 5,096 new criminal cases in 2018. Due to the 
ongoing meth epidemic plaguing not only Rosebud Reservation, 
the entire nation, those numbers will continue to increase, and 
the amount of these cases require adequate staffing to ensure 
everyone has an equal chance at justice.
    In addition to the funding needed to ensure the adequate 
level of court personnel, the Rosebud Sioux Tribe needs a new 
courthouse or a justice center. Repairs to the existing 
courthouse to ensure the continuity of service currently 
includes a new roof, three air conditioners that were just 
crowded in. There is just not enough room in there.
    Our corrections. Rosebud Sioux Tribe adult correction 
facility is a 220-bed facility. The facility reports that 60 
percent of the inmates they house are being held for meth-
related charges.
    The adult correctional facility averages about 220 bookings 
per month. Most inmates need mental health treatment, substance 
abuse treatment, physical health education. There is also a 
dire need for substance abuse, as well detox services not--
currently not provided by the Indian Health Service or anyone.
    The ACF, the adult correctional facility is short staff and 
needs 10 more additional correctional officers. The facility 
currently operates with 4 to 5 officers per shift, with actual 
need of 10 to 12 officers. It is not uncommon for 4 to 5 
officers in our detention facility to approximately oversee 120 
inmates.
    If all positions were filled at the facility, they would 
have 53 employees that would consist of 7 administrative-level 
positions, 4 sergeants, 36 correctional officers, 3 cooks, and 
a few maintenance officers. The facility presently operates 
with 26 COs and 10 vacancies due to lack of funding. The ratio 
of COs to inmates is a security concern, and there is a need of 
additional funding of about $600,000.
    I want to briefly touch on tribal roads. Quality roads are 
critical to the component of ensuring public safety. According 
to the Office of Inspector General at the Department of 
Transportation, only 17 percent of tribal roads are deemed 
acceptable by the BIA, more than 60 percent of tribal roads 
remain unpaved, and 27 percent of bridges are structurally 
deficient.
    It is vital that the recent increase in tribal 
transportation funding--oh, sorry. Wow, that happened fast.
    Ms. Pingree. Do you want to just wrap up with a couple more 
sentences?
    Mr. Bordeaux. Yes, I just wanted to, in closing, we need to 
enact legislation that provides for advance appropriations so 
we are forward funded. So that we are not caught up in this 
game, like this recent shutdown really caused havoc on our 
reservations as well as Indian Country in general and the 
Nation. And it just caused a lot of problems.
    Basically, the main thing is our treaty rights. We need to 
make sure that, you know, we are fighting all our treaty rights 
all the time as you get in Congress, and we are just asking 
that they be upheld.
    Thank you.
    [The statement of Rodney Bordeaux follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you. And thank you for being here today.
    Chairwoman Robertson.
                              ----------                              

                                           Thursday, March 7, 2019.

                           SISSETON WAHPETON


                                WITNESS

ELLA ROBERTSON, CHAIRWOMAN, SISSETON WAHPETON
    Ms. Robertson. Good morning, Chairwoman McCollum. My name 
is Ella Robertson. I am the chairwoman of the Sisseton Wahpeton 
Oyate, second chairwoman in our history.
    I am wearing red today in honor of Savanna Greywind and 
recognizing--sorry. And recognizing missing and murdered 
indigenous women across Indian Country and bringing to light 
the importance of safety in our tribal communities. I am 
pleased to testify at this important hearing on fiscal year 
2020 appropriations.
    The construction of our justice center is our highest and 
most important priority. At the Sisseton Wahpeton Oyate, we 
have experienced serious violent crime, drug crime, and 
juvenile delinquency. The Governors of North and South Dakota 
have recognized the importance of our justice center, and so do 
our congressional delegations.
    The SWO justice center will enhance the public safety of 
the Lake Traverse Reservation and the surrounding areas for all 
of our people, Indian and non-Indian alike. I quote Governor 
Burgum when I say that the SWO justice center ``will enhance 
regional law enforcement, criminal justice, and the safety of 
our citizens.''
    From fiscal year 2018, the Sisseton Wahpeton Oyate received 
a grant of $4.875 million for construction of an adult 
detention center. For fiscal year 2020, we urgently need to 
move forward with funding for detention of the most serious 
tribal offenders with TLOA's enhanced sentencing authority, 
appropriate BIA detention staff for our new facility to be 
constructed, and our drug and alcohol rehabilitation to treat 
adult and juvenile alcohol and drug offenders.
    And there is rising crime in our community. The FBI reports 
that violent crime in the United States was about 383 per 
100,000. The South Dakota crime rate was up 2.7 percent. In 
North Dakota, the crime rate was up 11.6 percent. And South 
Dakota's AG says there is a meth epidemic across the Nation. It 
affects the reservations. We need to do everything we can for 
prevention and treatment.
    The FBI says methamphetamine abuse has been rising in 
Indian reservations, correlating to an increase in violence. 
And we have seen an increase in violent crime in all the Indian 
reservations throughout the State, as President Bordeaux 
testified.
    Governor Noem says South Dakota has grown increasingly 
unsafe as the growth of violence has outstripped the growth of 
the population. Drug crime offenses in South Dakota grew 222 
percent over the last 10 years. And the Governor has pledged to 
fight drug crime.
    At Sisseton Wahpeton Oyate, we have been continuing serious 
increase in drug-related crime and violence, and we are 
committed to fighting. This year, we need more help to build 
our comprehensive justice center. For fiscal year 2020, the 
Sisseton Wahpeton Oyate urgently needs $4 million in additional 
funding for secure cells for the most serious offenders 
incarcerated under the TLOA Act enhanced tribal sentencing 
authority. We need $2 million for BIA detention staff, and we 
need $4.84 million for our alcohol and drug rehabilitation 
center.
    Our tribe is compliant with the enhanced TLOA sentencing 
requirements. We are ready to deal with serious tribal 
offenders, including rapists, serious violent crime 
recidivists, and drug dealers. We need long-term secure bed 
space.
    Congress should increase BIA detention staff to provide 
detention officers for newly constructed tribal detention 
facilities. Our new treatment and recovery support center is 
the tribe's highest priority for health. Drug and alcohol 
offenders are typically recidivist, so addressing the 
underlying causes of serious crime is an important avenue to 
restore community wellness.
    And so I just want to add a couple of comments to that. In 
speaking with our probation officer and our parole officer, we 
do have a parole program that is unique in the United States in 
that our parole officer has dual jurisdiction in the State and 
the tribe. So people are really watching what we are doing with 
our program, and we are very serious about helping our tribal 
members.
    And we take--we look at it holistically because it is not 
just about incarceration. It is also about getting help for our 
tribal members with rehabilitation, with drug treatment. As 
President Bordeaux stated, we are in need of a detox facility, 
long-term treatment center. So there is many needs that we have 
on the reservation.
    And in building this justice center, we have put $4 million 
of our own money into this project, and so we are committed to 
public safety in our community.
    Thank you.
    [The statement of Ella Robertson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much.
    Ambassador Dana.
                              ----------                              

                                           Thursday, March 7, 2019.

                            PENOBSCOT NATION


                                WITNESS

MAULIAN DANA, AMBASSADOR, PENOBSCOT NATION
    Ms. Dana. Chairwoman McCollum, Ranking Member Joyce, and 
members of the subcommittee, thank you for allowing me to 
testify today.
    Thank you also to Ms. Chellie Pingree for always taking the 
time to learn our issues and advocate for the tribal nations 
located in Maine.
    The Penobscot Nation has approximately 2,400 citizens and 
over 123,000 acres of land. We are unique in that a significant 
portion of our land consists of about 200 islands located 
within approximately 80 miles of the Penobscot River. Our main 
community and seat of government is located on the largest 
island called Indian Island.
    We have lived on our current lands for at least 6,000 
years. We are a close-knit community that tries to take care of 
each other, but our biggest public welfare and safety issue 
right now is an opioid drug epidemic that is tearing up our 
community and devastating families.
    Our drug epidemic is part of a larger statewide opioid 
epidemic. Nearly one person a day died in Maine of a drug 
overdose in 2018. One in four deaths in Maine now involve 
heroin or morphine.
    The statewide epidemic has been trickling down to the 
Penobscot Nation. Eighty-seven percent of our child welfare 
cases within the last 3 years involve parental opioid abuse. 
The drug incidents on our reservation went up by 150 percent 
from 2017, and we have seen a 300 percent increase in drug 
overdoses.
    The most notable story involved a woman with two young 
children who was arrested for felony drug charges and spent 
time in jail. When she was released, she was home only a few 
days before she overdosed on heroin. In that instance, she was 
revived by Narcan, and we were able to get her into a substance 
abuse program for a short time. But unfortunately, in January 
she overdosed and died in her home with her two children asleep 
in their bedrooms.
    These incidents used to be rare in our community, but they 
are starting to become prevalent. We have pulled together all 
of our service departments, including law enforcement, social 
services, housing, healthcare, and others, and decided that we 
needed to take a holistic approach and try and tackle this 
issue. We developed a Healing to Wellness Court Program, which 
has been our most successful tool to combat this epidemic.
    This court program involves collaboration between 10 tribal 
departments that work together to develop a treatment and 
wellness plan for each participant. Individuals are referred to 
the program through our criminal or juvenile justice systems or 
through our child custody or abuse proceedings.
    Our tribal court performs the administrative components of 
this program, and our tribal health clinic performs the medical 
aspects. Our health clinic provides primary care services 
onsite and access to specialty care services via the Indian 
Health Service Purchased and Referred Care Program.
    Thirty-nine individuals have successfully graduated from 
our Healing to Wellness Court Program, and only two graduates 
have reoffended, and they have reentered the program.
    So the program works once we are able to get individuals 
into the program. In fact, the success is now receiving 
recognition from the Maine State court and the Federal U.S. 
attorney's office. Our biggest problem is a shortage of 
funding, which is incredibly frustrating, given that the costs 
of this program, $7,500 per individual per year, are 
substantially less than the cost of incarceration, which costs 
$38,000 per individual per year.
    There is no Federal funding that we are aware of 
specifically targeted towards these types of court programs. We 
do our best to cobble together our various Federal funding so 
that we can develop a comprehensive, coordinated, and balanced 
strategy for combating this drug epidemic.
    Our healing to wellness court relies on funding from the 
BIA's public justice and safety programs and human services 
programs. Additionally, we rely on funding from the Indian 
Health Service to perform the medical treatment component of 
our program. This is our core foundational funding.
    We then apply for discretionary grants from the Department 
of Justice and the Substance Abuse and Mental Health Services 
Administration. However, while this funding allows us to 
provide treatment to the individual program participant, the 
funding cannot be used for court core personnel.
    Healing to wellness courts work, and significant strides 
can be made to combat the drug problems we face if the 
following can happen. We need an increase in funding for our 
tribal court. We cannot operate a healing to wellness court 
without judges, essential personnel, and an adequate 
administrative process.
    We need continued increases in funding for IHS Purchased 
and Referred Care Program. Our healthcare providers now rely 
heavily on alternative treatments for pain management from 
offsite providers, such as physical therapy, to reduce reliance 
on chronic opioid abuse. However, these services are 
significantly more expensive than previous pharmaceutical 
treatment.
    There needs to be an increase in funding for BIA drug 
investigators. We have been trying to participate in the Maine 
Drug Enforcement Agency, but in order to do so, we need to 
provide a drug agent to the agency. We don't have one and 
cannot afford one.
    There needs to be funding at IHS for recovery coaches or 
counselors to guide the success of those individuals who 
graduate.
    Lastly, as the Penobscot Nation battles the ongoing drug 
epidemic, we are faced with the problem of how to address the 
significant level of trauma, especially on families, 
particularly on children. There needs to be some Federal 
funding available to help these youth and stabilize families.
    Thank you for allowing me to testify today.
    [The statement of Maulian Dana follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much for your time. Perfect 
timing. [Laughter.]
    I know from all of this experience it is not easy to get 
all that you all have to say into a short period of time.
    Ms. Dana. I had a lot.
    Ms. Pingree. Mr. Joyce, do you have any questions?
    Mr. Joyce. Thank you. I appreciate all of you coming today, 
and I certainly--you heard my background. I certainly 
appreciate that justice costs money and we need to put the 
money into it.
    I do want to follow up with Chairman Bordeaux, not 
necessarily on point, but following up on Ambassador Dana's 
point about healthcare being part of the process. Your hospital 
on the reservation had some accreditation issues. Is that 
getting any better for you?
    Mr. Bordeaux. It is an annual thing. One part of the 
hospital gets better, the emergency and out-rooms have gotten a 
lot better. But the funding level just, it is just terrible. We 
just can't get any doctors. Attracting doctors to the Rosebud 
Reservation is pretty remote in terms of the other tribes in 
South Dakota.
    But yes, we are coming up for another review here this 
year, and we are getting ready for that. So the ER part of it 
was pretty bad, though.
    Mr. Joyce. Good luck on that issue.
    I have no further questions. I yield back.
    Ms. Pingree. Chairwoman McCollum.
    Ms. McCollum. Thank you.
    The Honorable Bear Runner, you were very humble in 
introducing yourself. I want to thank you for your infantry 
service to our country. And when you were speaking about being 
on the roadside and helping someone, you are a lab technician, 
which means that you have spent a little time around medical. 
They were very fortunate to have you as the person by the 
roadside.
    I did a little looking at what EMTs, EMSs get paid, and I 
am going to slide this over, and you can show it to folks. You 
are surrounded by States. Minnesota pays the highest. Nebraska 
pays the second. Then Iowa and North Dakota. And even Wyoming. 
It is only Montana that touches your border that pays the same, 
and that isn't the tribal wage. This is just the average public 
wage.
    If we don't get the wages right, we can't keep recruitment 
up. But if you don't have safe roads to drive on and the 
equipment, and as Rosebud had in their testimony, three 
ambulances, for the size of Rhode Island, one is probably doing 
transport.
    Mr. Bear Runner. Correct.
    Ms. McCollum. Only two ambulances. So people are waiting 
for ambulances. The stress that those people face, who have 
gone into this field to help, whether it is law enforcement, 
victim advocacy. The stress that these individuals are dealing 
with is phenomenal, and we are truly fortunate to have people 
in Indian Country that wake up every day and do these jobs, but 
I am just going to share this with you.
    When we have discussions with the Bureau of Indian Affairs 
and others that touch the financing on here, they also need to 
be advocating for you because they work for you.
    So, with that, I am just profoundly grateful for your 
testimony. And with that, I yield back.
    Ms. Pingree. Thank you.
    Mr. Kilmer.
    Mr. Kilmer. Thank you, Madam Chair.
    I just want to express gratitude to each of you for coming 
and testifying and sharing your stories. I particularly am 
grateful for continuing to highlight the murdered and missing 
indigenous women and girls. We heard some testimony on that 
yesterday. I just think it is horrific, and I think we have to 
both shine a greater spotlight on it, make sure that those who 
are working in this arena have the data and the resources and, 
hopefully, the solutions that they need to address it.
    So thank you for shining a light on it.
    Ms. Pingree. Thank you. Thank you to all of you for your 
testimony.
    And I echo what my colleagues have already said, and we are 
very pleased to have someone here from my home State. We are 
very proud of our tribes and of some of the innovative work you 
have been doing, that the tribe has been doing, given such 
limited resources that you all really struggle with. So thank 
you for doing that.
    I had a chance to talk with you a little bit yesterday and 
other tribal members, and I was really impressed by some of the 
work you discussed about both dealing with the family trauma, 
which is, you know, such a big issue, and helping kids. And one 
of the things that was brought up was that while there is some 
funding once people need the treatment, how do we do more 
prevention work?
    And can you talk a little bit about some of the interesting 
work that is being done in the community and in the schools?
    Ms. Dana. Yes, thank you so much for your question.
    So we do get the SAMHSA funding, and that goes into our 
healthcare systems and the individuals already in treatment. 
And we have a youth program that you met some of our council 
people yesterday that work in that program, and we have really 
been able to incorporate a lot of cultural practices. We have 
received grants to build birch bark canoes, and our people are 
historically canoers. We have competed in the Indigenous Games 
many times.
    So we are finding if we can get to children as a preventive 
tool in this whole crisis and give them things to do. You know, 
I heard a statistic recently that the most dangerous hours of 
the day for children are between 3:00 p.m. and 6:00 p.m. So 
getting them after school between--you know, before dinnertime 
and when they may be unsupervised.
    And we have really great programs, but it is very, very 
hard to identify sources of support for those programs. So I 
really think that if we take an approach that we want to get 
these kids before they are turning to drugs and alcohol, that 
is where a lot of our focus needs to be.
    Ms. Pingree. I am really appreciative of how the tribe 
comes together as a community and uses traditions from the 
community to engage people at all levels. Of course, we are 
always very proud of birch bark canoes in the State of Maine.
    Ms. Dana. Absolutely.
    Ms. Pingree. Secondly, just quickly, because I know 
sometimes it is harder for my colleagues to understand the real 
challenges that Maine tribes face because of the Indian land 
claims settlement, and we talked a little bit about VAWA and 
how important that is, particularly in many of the issues we 
have already talked about here. But how, that happens in Maine 
because of the land claims settlement and issues that we are 
constantly trying to figure out how to resolve.
    Ms. Dana. Yes, so that is incredibly timely because I 
believe VAWA hearings are happening as we speak or very, very 
soon. And the--we are a tribe that has a settlement agreement 
with the State, and it is really we maintain that we never gave 
up our sovereign rights to be a federally recognized Indian 
tribe. But it has really impeded a lot on our access to Federal 
acts and to be covered underneath them. And unfortunately, VAWA 
is one that we have been excluded from.
    So as we move forward, we really need to be identified in 
some way in that legislation. We have--our biggest issue is 
that we need to be able to prosecute non-Native offenders on 
the reservation in our tribal court.
    We have 91 cases right now in our domestic violence 
program, and a lot of women don't want to move forward with 
their cases on their perpetrators because going through the 
State courts, and we have very little success there, it is kind 
of revictimizing them all over again. So VAWA protections are 
critically important for our tribe.
    Ms. Pingree. Great. Well, thank you to everyone on the 
panel, and I yield back to the chair.
    Ms. McCollum. Mr. Kilmer, are you going to be here for the 
next panel? Would you like to introduce them?
    Mr. Kilmer. That is OK. I have to step out.
    Ms. McCollum. I have to step out shortly after Mrs. 
Lawrence comes as well.
    So I would like the next panel to come up. Thank you so 
much, Mr. Kilmer.
    You are doing good things, too. Cheryle Kennedy, 
Confederated Tribes of Grand Ronde Community of Oregon; Rick 
Peterson, chairman of the Red Cliff Band of the Superior 
Chippewa; David Z. Bean, vice chair, Puyallup Tribe; and 
President Jefferson Keel from the National Congress of American 
Indians. Welcome to all of you.
    [Pause.]
    Ms. McCollum. We are going to submit some additional 
testimony in from the Honorable Julian Bear Runner, and without 
any objection?
    Mr. Joyce. None.
    Ms. McCollum. Thank you. So ordered.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. To this panel, one of my colleagues should be 
coming in to switch with me soon, if she is able to. I mean no 
disrespect by stepping out. These panels have been a 
fascinating day and a half. I have this afternoon still to go, 
and everything very impactful that you are sharing with us to 
help us do a better job.
    So, Ms. Kennedy, if you would please lead this panel off? 
Welcome.
                              ----------                              

                                           Thursday, March 7, 2019.

       THE CONFEDERATED TRIBES OF GRAND RONDE COMMUNITY OF OREGON


                                WITNESS

CHERYLE A. KENNEDY, CHAIRWOMAN, THE CONFEDERATED TRIBES OF GRAND RONDE 
    COMMUNITY OF OREGON
    Ms. Kennedy. Thank you.
    Good morning, everyone. My name is Cheryle Kennedy. I 
chairwoman of the Confederated Tribes of Grand Ronde in Oregon.
    I want to thank the Chair McCollum and the distinguished 
members of this committee for your time and your attention to 
the issues that we have today.
    I have submitted written testimony that you have on record. 
I will be talking and presenting oral testimony as well, and 
that is what I will concentrate on today.
    I just wanted to let you know who we are as a people. The 
Confederated Tribes of Grand Ronde has suffered severe 
injustices. Back in the treaty-making era in the 1850s, the 
Government approached us and entered into seven treaties. We 
have seven ratified treaties.
    We are a strong people. We occupied the area of western 
Oregon, a vast land area, a land that was rich in all kinds of 
resources, natural resources. We had big game, all kind of 
game, fish, clean rivers, gold, all of the shorelines of the 
Pacific Ocean. We had people who knew how to take care of the 
land. As you know, sometimes wildfires get away. We know how to 
control that.
    But I wanted you to know that through that treaty-making 
era, we also then in exchange for our land, we prepaid for 
certain things through those treaty obligations, and those were 
to have a homeland. They were to have health, education. We 
were to have a place where we could live and raise our 
families, a place where we could be--remain self-sufficient.
    However, about less than 100 years after we were relocated 
to the Grand Ronde Indian Reservation in western Oregon, the 
Government decided that the policy for dealing with Indians was 
to terminate them. We were terminated under the Western Oregon 
Termination Act.
    We then were left homeless. We were left--we knew who we 
were. I was terminated. I lived during that time in the '50s, 
and our identity was taken. We did not have the same standing 
as other tribes throughout the United States.
    So just letting you know about those promises that were 
made in our treaties, treaties that healthcare would be there, 
that we would live safely, that we would be able to subsist off 
our land. All of those were gone.
    We fought for recognition. We were restored in 1983, and we 
started nation building. And in those efforts of nation 
building, we were not afforded certain other rights and 
privileges through funding mechanisms to assist us. We never 
received one dollar from law enforcement from the BIA even to 
today. We bear that on ourselves because we want law and order 
in our area.
    Our budget that we put forward is $1.1 million. We pay out 
of our own coffers 70 percent of that. The others by grants. 
Grants don't work for tribes. They have expiration dates. They 
have competitiveness about them. They have elements of it that 
won't be funded the next year. So it is not ongoing.
    I wanted to take the time to talk about how we can secure 
funding to address law enforcement. I also would be remiss if I 
didn't mention violence against Native American women funding. 
We need that. It must happen. It has got to be on the front 
burner of all of our mind on how we can address those issues. 
Tribes don't have dollars for that. Grants are periodically put 
out there. They are insufficient. We need direct funding to 
tribes.
    I want to thank the committee for looking at an issue 
concerning terminated tribes that happened during the fiscal 
year 2018. In it, there was a direction given to the BIA to 
look at the law enforcement funding of all tribes and to see 
how they ranked and what could be done about it.
    We participated and met with the BIA. However, no report 
has come out yet, and we stand ready to assist in any way that 
we can. So wanted to mention that.
    In the past, in my career life, I was a health executive 
director for over 30 years. So I know the needs of healthcare 
in Indian Country. We must have those needs. There was a recent 
GAO report that was published that you are probably aware of. 
In it, it talks about the levels of funding for Medicaid, 
Medicare, the VA, and Indian Health Service.
    In it, the lowest funded is tribes, Indian Health Service. 
We must have full funding. We have the United States Commission 
on Civil Rights report that was submitted to you. It lays out 
those same parameters and says the most underfunded are Native 
American tribes of the United States. That has got to be 
rectified.
    Before I conclude, I must say that we are a tribe who 
relies upon fish. There are insufficient funds for fish 
protection and fish passage. We know that there are a number of 
agencies who have pieces of funds----
    Ms. McCollum. Ms. Kennedy, I am going to have to ask you to 
wrap up.
    Ms. Kennedy. OK. Well, I thank you for the time that you 
have given me. I appreciate all of the tribal leaders that have 
come here and for your time and attention. I would be willing 
to answer any question that you might have.
    Thank you.
    [The statement of Cheryle Kennedy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. I am dealing with an issue in my 
office right now.
    So, Mr. Peterson, welcome.
                              ----------                              

                                           Thursday, March 7, 2019.

                RED CLIFF BAND OF LAKE SUPERIOR CHIPPEWA


                                WITNESS

RICK PETERSON, CHAIRMAN, RED CLIFF BAND OF LAKE SUPERIOR CHIPPEWA
    Mr. Peterson. Thank you. Good morning.
    I also would like to thank the committee, Chair McCollum, 
for the opportunity to come here today, halfway across the 
country in what I consider a heat wave here. [Laughter.]
    Ms. McCollum. I am with you.
    Mr. Peterson. I am here today primarily to advocate and to 
stress the need of our tribe for the BIA to increase the level 
of funding for our law enforcement. As I sat here today, I 
heard several other tribes that have the same issue we have in 
terms of being underfunded.
    Our police department, although we are not a huge 
reservation, we have the highest crime rate, pushed primarily 
by the meth epidemic within our community. We are allocated 
every year by the BIA a total of $160,000, and that is supposed 
to pay the wages and benefits and vehicle maintenance and 
everything for a law enforcement agency of five police 
officers, and we have two staff people.
    I don't know how to do that. I can't. I have spoken with 
the BIA about why this is. And it is even mandated by the 638 
contract per the BIA that tribes pay their tribal police 
officers the equivalent of a BIA Federal officer. That is 
mandated.
    We had an audit last year that by the BIA, and we were--
that was actually a finding that we did not pay our officers 
the equivalent of what their Federal officers make. I don't 
know how to do that with $160,000.
    We do have other funding, but as the Honorable Ms. Kennedy 
here said, it is grants. Grants have an expiration date, and 
you cannot depend upon grants to build a foundation for public 
safety within a community, Native or non-Native. We need to 
know definitively what we are working with, and we need to have 
the funding that allows us to fight these drug epidemic and the 
associated crime that comes with it. And we must also be able 
to have the funds to--that allows our officers to eradicate it.
    Our police department, I can't say enough about our 
officers. They--like I have heard several leaders say today, 
they are overworked. They are underpaid. I came here today. I 
couldn't put it in a written testimony, but we have letters of 
support from the county district attorney and the county 
sheriff. They don't understand why we are so underfunded, and 
there is no excuse for it.
    And when we don't have officers on the street because we 
can't pay them, that falls onto the county, which is--and this 
has actually happened where we have called for assistance, and 
it has taken an hour and a half for a county officer to come 
there.
    It is something that just boggles my mind that I have to 
come here today to ask this committee that question. How do I 
do this on $160,000? I have spoken with the BIA, especially 
about the audit finding, and a couple of them were sympathetic 
and aware that it is an issue. But one of them told me I needed 
to go lobby elsewhere. So here I am. Here I am.
    We need help. Our police department is not only in need of 
these funds, we will be nonexistent very soon if we do not get 
them.
    I brought our tribal police chief here with me today. That 
is the first time I have ever seen him in a suit. But I brought 
him with me here today not only in terms to help answer any 
questions you may have, but to allow this committee and 
everybody else to see that these are real people that are 
committing to going above and beyond, fighting the crime and 
helping us eradicate this drug epidemic and do what we have to 
do to take care of our children, our families, our elders, and 
live a life that we feel we deserve.
    Thank you.
    [The statement of Rick Peterson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence [presiding]. Thank you so much.
    Our next speaker will be David Bean, vice president of--Mr. 
Bean, yes. Please speak.
                              ----------                              

                                           Thursday, March 7, 2019.

                             PUYALLUP TRIBE


                                WITNESS

DAVID Z. BEAN, VICE CHAIRMAN, PUYALLUP TRIBE
    Mr. Bean. [Speaking Native language.]
    Good day, honorable friends and relatives. We raise our 
hands to you, thanking you for this opportunity to provide 
testimony here today.
    My name is David Bean. I am the vice chairman of the Tribal 
Council of the Puyallup Tribe of Indians.
    Our nation upholds the sovereign responsibility of self-
determination and self-governance for the benefit of 5,427 
Puyallup tribal members and the 25,000-plus members from 
approximately 355 federally recognized tribes who utilize our 
services.
    And I want to echo the sentiments of Chairwoman Kennedy. 
You know, our ancestors, they signed a treaty in 1854. And when 
they signed that treaty, our ancestors were looking out for 
future generations. They ceded 100 percent of their lands for 
what they believed in return for 100 percent services, to be 
able to hunt and fish and protect our natural resources, to 
protect our way of life. And sadly, you know, it remains a 
battle today to continue those practices.
    Puyallup Reservation is located in urbanized Seattle/Tacoma 
area of the State of Washington. We have a checkerboard of 
tribal lands, Indian-owned fee land and non-Indian owned fee 
land, including parts of six different municipalities--Tacoma, 
Fife, Milton, Puyallup, Edgewood, and Federal Way.
    Public safety and justice is crucial for the intermixing of 
jurisdictions, but it is important to note that public safety 
and justice is interwoven in everything the tribe does, not 
just those appropriation line-items that specifically say it. 
There is justice in upholding our responsibility to manage the 
lands, the fish, and wildlife.
    Justice requires us to take care of our children, our 
elders, and everyone in between through our healthcare system. 
We cannot talk about public safety without thinking about the 
crumbling infrastructure and roads and bridges.
    We cannot talk about justice without thinking of the 
missing and murdered indigenous women. You know, the Seattle 
Indian Health Board recently conducted a study, with Seattle 
being number one and Tacoma being number six with respect to 
missing and murdered indigenous women.
    We cannot talk about the justice system without noting how 
important education is for keeping kids on the right path 
instead of going into the justice system.
    These Federal appropriations hold up and support whole 
communities, not just court systems, jails, and other 
individual programs. But these individual programs are 
important pieces of the overall picture.
    Tribal and BIA detention and correction funding is critical 
to us, and there is simply not enough of it. We constructed a 
28-bed adult corrections facility a few years back. And when we 
submitted our Public Law 93-638 contract request to the BIA to 
operate it, the agreed-upon estimated cost of operating the 
facility was $2.6 million. The BIA has only funded less than 
$750,000 annually. We receive less than 25 percent of what it 
takes to fully operate that corrections facility.
    In this context, we are concerned with the administration's 
repeated requests to reduce appropriations for BIA public 
safety and justice, including detention and corrections. This 
funding is already not sufficient to allow the BIA to fund 
programs at true need.
    We appreciate the subcommittee's increase of $2.5 million 
for fiscal year 2019 and urge you to continue bringing this 
funding closer to where it needs to be. In addition, we operate 
a tribal court program through a Public Law 93-638 contract 
with the BIA. Our base funding for this program has remained at 
$200,000 annually since fiscal year 2015. Like the detention 
and corrections funding, this amount represents only a small 
amount of the tribe's needs to fully operate the tribal court 
program.
    We have had to allocate almost $2 million each year from 
tribal funds to run a self-determination program, and the BIA 
is only allocating 10 percent of that amount. We thank the 
subcommittee for its efforts to reject the administration's 
past request to reduce appropriations for this important 
program by $8 million.
    You instead increased it by $1.6 million in fiscal year 
2019 appropriations, and we thank you and ask that you continue 
to support increased appropriations for tribal courts. Again, 
these programs are crucial, as are the related appropriations 
topics tribes and tribal organizations have traveled from 
across the country to discuss with you.
    We understand that the Northwest Indian Fish Commission has 
testified, and we understand that Chairman Allen has testified 
on behalf of the Pacific salmon. And the Puyallup Tribe 
endorses and supports those comments submitted by those 
agencies.
    We thank you for your work in support of the Puyallup Tribe 
and Indian Country.
    Again [speaking Native language]. We raise our hands, 
thanking you for this opportunity to testify here today.
    [The statement of David Bean follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence. Thank you so much.
    Our last speaker in this group is Jefferson Keel, president 
of the National Council of American Indians.
                              ----------                              

                                           Thursday, March 7, 2019.

                 NATIONAL CONGRESS OF AMERICAN INDIANS


                                WITNESS

JEFFERSON KEEL, PRESIDENT, NATIONAL CONGRESS OF AMERICAN INDIANS
    Mr. Keel. Thank you, Madam Chair.
    Mrs. Lawrence. Thank you, Mr. Keel.
    Mr. Keel. Committee members, thank you for allowing me this 
time to come and visit with you.
    My name is Jefferson Keel. I am the lieutenant governor of 
the Chickasaw Nation, tribe of about 63,000 tribal members, and 
I am currently serving as the president of the National 
Congress of American Indians. This is my third term as the 
president of NCAI, and I am happy to be here.
    NCAI's requests are rooted in the treaties and agreements 
that our ancestors made with the United States Government. 
However, a recent assessment from the U.S. Civil Rights 
Commission has found that Federal funding for Native American 
programs across the Government remains grossly inadequate to 
meet, excuse me, the most basic needs that the Federal 
Government is obligated to provide.
    Tribal leaders urge--well, tribal leaders have known this 
for decades, and we urge Congress to fully fund the U.S. 
Government's treaty and statutory obligations. NCAI thanks the 
members of this subcommittee who requested the update to A 
Quiet Crisis. The update found that in the past 15 years--thank 
you. In the past 15 years, efforts undertaken by the Federal 
Government have resulted in minor improvements and in some ways 
has lost ground.
    While Congress has dealt with a spending environment 
hampered by an austere fiscal policy, including sequestration 
and tight limits on discretionary accounts, the Federal trust 
and treaty obligations were no less impaired. The fact that 
these solemn agreements that are funded in the Federal budget 
have been subject to political impasses, including the recent 
35-day Government shutdown, highlights the need for solutions 
to protect vital governmental services from interruptions.
    The Indian Health Service and Bureau of Indian Affairs 
provide core governmental services for tribal nations, 
including hospitals, schools, law enforcement, child welfare 
programs, social services, and many more. For many tribal 
nations, most governmental services are funded by Federal 
sources.
    In addition to our appropriations request, NCAI urges 
Congress to fund BIA and IHS through advance appropriations to 
protect tribal governments and citizens from future shutdowns, 
as well as cash flow problems that regularly occur at the start 
of the fiscal year.
    NCAI chose public safety and justice programs to focus on 
today because it is one of the most fundamental aspects of the 
Federal Government's trust responsibility. In 2018, the U.S. 
Commission on Civil Rights found that there continues to be a 
systematic underfunding of tribal law enforcement and criminal 
justice systems, as well as structural barriers in the funding 
and operation of criminal justice systems in Indian Country.
    Those undermine public safety. Tribal justice systems 
simply need the resources to put their tools to work so they 
can protect women, children, and families; address substance 
abuse; rehabilitate first-time offenders; and put serious 
criminals behind bars. The BIA submitted a report to Congress 
in 2017 estimating that to provide a minimum base level of 
service to all federally recognized tribes $1 billion is needed 
for tribal law enforcement, $1 billion is needed for tribal 
courts, and $228 million is needed to adequately fund existing 
detention centers.
    Based on recent appropriation levels, BIA is generally 
funding tribal law enforcement at about 20 percent of estimated 
need, tribal detention at about 40 percent of need, and tribal 
courts at 3 percent of estimated need.
    NCAI requests a total of $83 million for tribal courts, 
including those in the Public Law 280 district jurisdictions. 
The BIA estimates that full funding for tribal courts would 
cost $1 billion--that is with a ``b''--for us. You know, for we 
are not even talking about thousands anymore.
    NCAI also recommends an increase to BIA law enforcement of 
$200 million, for a total of $573 million. As further rationale 
for advance appropriations for BIA, during the shutdown, many 
law enforcement personnel were working without pay. It made for 
terrible morale, as you might imagine. We heard that just in 
that short amount of time, six officers resigned. They said 
they couldn't even afford the commute to work.
    And these people are very hard to replace, as you have 
heard from tribal leaders before me. These families couldn't 
handle the uncertainty. Officers on the beat reported an 
impression that there was an uptick in crime. They had 75 
missing persons reports. They had to try to track these people 
down, but victim service specialists weren't there to help. 
More people would have been able to help cops on the ground.
    Mrs. Lawrence. Mr. Keel, your time is up. I am going to let 
you finish your statement.
    Mr. Keel. Well, that is fine.
    Mrs. Lawrence. OK, good.
    Mr. Keel. I am good. Thank you very much for holding this.
    [The statement of Jefferson Keel follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence. OK. Thank you.
    At this time, I will take any questions from the panel.
    Mr. Kilmer. Thank you. Right here.
    Mrs. Lawrence. OK. Go ahead, please.
    Mr. Kilmer. Thank you.
    Thanks to all of you for being with us. I appreciate your 
leadership and your testimony.
    Vice Chair Bean, I recognize the value of the investments 
that the Puyallup Tribe has made in your correctional facility 
and tribal court system, what that has meant to public safety. 
I remember when you testified, I now can't remember if it was a 
year ago or 2 years ago, when you said if you had known that 
the BIA wasn't going to uphold its financial commitments, the 
tribe would have probably made a different decision there.
    I know that there is chronic underfunding of the BIA's 
tribal courts and law enforcement programs, and I think that is 
something that this committee absolutely has to address. I want 
to get your sense--so on one hand, part of that is increasing 
those pots of money, but are there other steps that this 
committee ought to be taking to ensure that the BIA is fully 
supporting its 638 contract commitments to the Puyallup Tribe 
and others?
    Mr. Bean. You know, I think you are on the right path. I 
mean, it is bridging that gap. I mean, I don't think there is 
any other--anything that can be done other than bridging that 
gap.
    Tribes are incredibly resourceful, and we know how to 
stretch a dollar. We have had to stretch our dollars, and you 
know, we have had to come back here hat in hand. It feels like 
begging for what the Federal Government promised us, you know, 
when those treaties were signed.
    So bridging that gap between the actual need and the actual 
funding is, I think, a great start. So thank you for that 
question.
    Mr. Kilmer. Thank you.
    Can I ask one more? Is that all right?
    Mrs. Lawrence. Yes.
    Mr. Kilmer. President Keel, thank you for being with us, 
and I appreciate you highlighting the update of the Quiet 
Crisis report. I think that provides a roadmap for our 
committee.
    In your written testimony, you mention the EPA's Tribal 
General Assistance Program and how those dollars can help build 
some capacity to help tribal communities address sometimes some 
unique environmental priorities. I want to get your sense of 
how this committee can help build on the success of that 
program, and I wonder if that success could be replicated 
across other Federal programs, too?
    Mr. Keel. Well, thank you for that question.
    All agencies in the Federal Government, you know, there 
is--as you have heard, tribal nations ceded over about a half a 
billion acres of land in exchange for services and things that 
were supposed to be provided by the United States of America in 
treaties. The United States demands that other nations, that 
treaties around the world are honored. We simply ask that the 
United States honor its own treaties, treaties that we have 
made with the tribal nations.
    In terms of funding not just EPA, but all agencies across 
the Federal Government, it seems that there is a lot of money 
that is allocated or appropriated for different tribal nations' 
needs across the Federal Government, but they are in silos. 
They are located in different places, and it is very difficult 
for tribes to access a lot of those pools of money because if 
tribes don't have grant--really skilled grant writers, they are 
left out of the process.
    If they don't have really skilled technical advisers in 
many ways, even the EPA and those things, then they are left 
out of the process. The fact is many tribes cannot afford those 
technical advisers, those grant writers, because they don't 
have the resources. Some tribes do. Others do not.
    But in order to replicate that, I think you would have to 
come--you would sit down with tribal nations across the country 
that have expertise in this. I would ask that you bring them 
together in one place and share that knowledge with some of the 
congressional committees so that you can get a feel for where 
we are and how we can move forward. And NCAI would be happy to 
help you facilitate some of those discussions.
    Mr. Kilmer. Thank you. Thanks so much.
    Mrs. Lawrence. Thank you.
    Mr. Joyce, you have some questions?
    Mr. Joyce. Thank you, Madam Chair.
    Chairwoman Kennedy, I appreciate you bringing up the GAO 
report about healthcare funding. This subcommittee actually 
commissioned that report last year.
    Ms. Kennedy. That is wonderful. Thank you.
    Mr. Joyce. It is nice to have to shine a light on the 
disparity for the Indian Health Service, and the Federal 
Government has committed to the groups, and we shouldn't be 
picking winners or losers. We should be taking care of the 
problem. So I appreciate you bringing that up.
    But I wanted to ask President Keel, one of the witnesses we 
had yesterday talked about the fact that this opioid crisis is 
really a trauma crisis and that if the opioids were gone, there 
would still be these underlying causes, that it would be 
replaced by something else because we are not doing enough to 
address the underlying causes.
    Do you feel you could expound on that at all?
    Mr. Keel. Well, I think when you talk about the underlying 
causes with poverty, there is a lot of--a lot can be said for 
poverty. Poverty breeds a lot of other types of actions. You 
know, opioids, we have dealt with. We have dealt with crisis 
and trauma in Native American communities throughout our 
history.
    Mr. Joyce. I believe that is how it was labeled, a trauma 
crisis.
    Mr. Keel. I believe it is. You know, 20 years ago, we were 
talking about a fetal alcohol syndrome. Then we moved on to 
methamphetamines a few years ago. Now we are talking about 
opioids and prescription medications and those things. It still 
leave trauma because those families that are--that fall victim 
to these, they still have to deal with the aftermath.
    We have children now that are growing up being raised by 
their grandparents because their parents simply are not there, 
or they are addicted. And in fact, in some areas, we see 
children as early as elementary school bringing drugs to school 
or being tested positive for meth or opioids or other types of 
drugs.
    And so it is traumatic because, you know, when you take a 
child to the emergency room because they are having some kind 
of difficulty, it is traumatic for the whole family.
    Mr. Joyce. Right.
    Mr. Keel. And so how do we deal with that? You know, if we 
were somehow to be able to eradicate drugs and those things 
from our communities, we still have to deal with the poverty 
and all the other things that have been left behind. And it 
is--it is a traumatic experience.
    Veterans, something we haven't talked about, but today, 
there is two words that should never be used in the same 
sentence, and that is ``homeless'' and ``veterans,'' you know? 
It should not be, but it is.
    And today, many of our veterans are on the street. They are 
addicted. They have addictions, and they have this trauma. They 
are dealing with wounds that we can't see. So there is many, 
many other levels and types of trauma that we have to deal 
with.
    I thank you for your interest and thank you for allowing me 
that.
    Mr. Joyce. I thank all of you and thank Chairman Peterson 
for his service, too.
    Thank you. No further questions. I yield back.
    Mrs. Lawrence. Thank you.
    I just have a quick question. A couple of the members of 
the panel referred to the civil rights report, and tell me how 
the civil rights laws, that are not adequately being applied or 
that you feel there is more we need to do to ensure that we are 
appropriating correctly to the tribes.
    Mr. Keel. Well, civil rights, in many Native communities, 
we--law enforcement, lack of law enforcement always is a 
problem when we talk about civil rights because in many Native 
communities, we have non-Native perpetrators who cannot be--we 
can't try them in tribal courts. And so we believe that is a 
civil rights violation.
    If someone--if a tribal member goes outside here and 
commits a crime, they are subject to the jurisdiction, the 
local jurisdiction here. If someone comes on the reservation 
and commits a crime, they are not subject to--if they are not 
Natives, they are not subject to the tribal court jurisdiction. 
And so there is a problem there that needs to be resolved.
    We have looked at it, and it has been ongoing for years. 
There are gangs and other people who will--other perpetrators 
who will bring drugs and alcohol and other types of illicit 
practices onto the reservations because they know they can't 
be--they are not subject to the jurisdiction.
    And so there is many types of those activities that are 
taking place in our communities. We simply want the right to be 
able to protect our own in our communities, and we want the 
ability to put those criminals behind bars, try them in tribal 
court.
    You know, I served on the Tribal Law and Order Commission 
several years ago, and there was a judge that came and 
testified to us. He was a law professor at the time. And he 
said, as a judge, as a municipal judge, I can go and sit down 
in this court and try cases and all that stuff. And he said my 
cases can go all the way up to the Supreme Court and be 
sanctioned. But if I take that, just move from this step, take 
this thing, this nametag away and call it municipal court, 
change it to tribal court, now I am no longer--I am no longer 
valid, you know? I am not qualified.
    So it doesn't make sense, and that is what he said. So when 
we talk about civil rights, there has been many, many studies. 
We know that many times there is a level of prejudice in many 
areas, many communities that exist today, bias. People don't 
like to talk about it, but many tribal members will be treated 
differently if they are outside in the community than they 
would if they were arrested by their own police.
    Mrs. Lawrence. Thank you all so much. I want to thank each 
member for your testimony today.
    And we will now assemble the next panel. Thank you all so 
much.
    [Pause.]
    Mrs. Lawrence. We have Genevieve Jackson, Carrie Billy, and 
Angelique Albert.
    Thank you all for coming. We will start with Ms. Genevieve 
Jackson.
    Ms. Jackson. Genevieve Jackson.
    Mrs. Lawrence. Yes.
                              ----------                              

                                           Thursday, March 7, 2019.

                 DINE BI OLTA SCHOOL BOARD ASSOCIATION


                                WITNESS

GENEVIEVE JACKSON, PRESIDENT, DINE BI OLTA SCHOOL BOARD ASSOCIATION
    Ms. Jackson. Thank you very much. And I want to say thanks 
for giving us this time to address you all.
    I am president of the Dine Bi Olta School Board 
Association, which is comprised of 279 school board members on 
the Navajo Nation, which comprises 45 percent of the Bureau of 
Indian Education schools. As a former teacher, educator, 
administrator, school board member, county commissioner, and 
Navajo Nation Council delegate, I have been here to DC many 
times, and I lend my voice in support of all of my brothers and 
sisters who are testifying here today regarding the chronic 
underfunding in all areas of our lives.
    And but today, I will speak only to the education portion 
since I am president of the school board, and I will do this on 
bullet point to save time.
    And the first one I want to address is the Navajo--the 
Kempthrone settlement agreement that the Navajo Nation took to 
court several years ago and made the settlement where under 95-
561, the authorized Indian education line offices work with 66 
BIE-funded schools and 8 residential/dormitory programs. And 
since that reorganization of 2014, the ELOs are nonexistent, 
leaving questions of who is to work with schools and supervise 
the performance of school principals in all areas of finance 
and H.R. and personnel and so forth?
    And my first one, the first bullet point is the Every 
Student Succeed Act. I am on that negotiated rulemaking 
committee. We are meeting next week in Phoenix to complete our 
task, and it is our last meeting. And we are making changes and 
recommendations to that committee, and we hope that it will be 
honored--those amendments and recommendations will be honored 
by everyone here who is involved in that work.
    And then the next one is the BIA administrative program 
costs. The ISEP program adjustment fund should not be used to 
fund BIE staff positions. The Education and Program Enhancement 
Account should be funded under education program management, 
not under the elementary and the secondary program's forward-
funded activity.
    And then the BIE established with the OMB an agency 
priority goal to convert four BIE-operated schools to be 
operated, and this contradicts longstanding policy that it is 
up to the tribes themselves who determine whether they want to 
be tribally operated or either a BIE or BIA program. And we 
request the full funding in the amount of $81 million for 
fiscal year 2020.
    And we also agree with the language contained in the House 
report and Senate report calling on the Department of Interior 
to develop a long-range comprehensive school construction and 
maintenance plan, which is lacking today.
    The BIA reorganization that we are concerned about, and it 
continues to reorganize in a manner that ignores statutory 
requirements contained in 25 U.S.C. 2006 and 25 U.S.C. 2009. 
The GAO has published reports about the problems that are 
created for schools by having administrative functions located 
within the BIA instead of the BIE for service-level agreements 
entered in agreement between the BIA and the BIE in October 
2013 violate the law.
    And then I will address the fiscal year 2020 budget request 
very briefly. We request full funding to the equivalent of 
fiscal year 2018 enacted levels as below--the Indian School 
Equalization Program. And I won't go through the funds since 
that will be time consuming, but we are concerned about that, 
and also the engine--I can't speak. I am so nervous. I am 
trying to stay within 5 minutes.
    Mrs. Lawrence. Oh, don't be nervous.
    Ms. Jackson. Education program enhancements, tribal 
education department, student transportation, early childhood, 
tribal grant support cost, school facilities and construction, 
facilities operations personnel, facilities maintenance, 
education, contract support cost, our juvenile detention 
center. We have only one, which is in operation on the Navajo 
Nation. And when we are the largest Indian nation in the United 
States, I mean, that is inexcusable. Johnson O'Malley 
assistance programs, tribal technical colleges.
    And I just want to say that Dine Bi Olta School Board 
Association strongly opposes the funding cuts in the fiscal 
year 2019 President's budget and strongly requests the U.S. 
Congress and its Appropriations Committees of the House and 
Senate to restore all BIE school funding amounts to fiscal year 
2018 enacted level for fiscal year 2020.
    And I also want to then----
    Mrs. Lawrence. Your time is up.
    Ms. Jackson. OK.
    [The statement of Genevieve Jackson follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence. Thank you.
    Our next speaker will be Carrie Billy, please. Thank you.
                              ----------                              

                                           Thursday, March 7, 2019.

              AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM


                                WITNESS

CARRIE L. BILLY, PRESIDENT, AMERICAN INDIAN HIGHER EDUCATION CONSORTIUM
    Ms. Billy. Madam Chair and members of the subcommittee and 
staff, on behalf of the American Indian Higher Education 
Consortium, which comprises the Nation's 37 tribal colleges, 
thank you for all that you have done for tribal colleges and, 
just as important, thank you for your faith in the tribal 
colleges and the potential that higher education holds for 
transforming Indian Country and building a better future for 
our tribes, our lands, and our children.
    Last year, this subcommittee included a desperately needed 
increase of about $6 million for TCU operations. The final 2019 
agreement fell short, but please continue to support tribal 
colleges. Every $1 invested in TCUs returns at least $6 to the 
Federal Government in just 1 year. So the more you put in, the 
more that comes back to the Federal Government.
    Indian tribes in our 16 rural States have an even higher 
rate of return. This year, we are celebrating the 40th 
anniversary of the Tribal College Act. In four decades, our 
colleges have never been fully funded, but we are close, and we 
don't give up.
    TCUs take their little payments, and they work big 
miracles. Increase the payment, and the miracles will compound. 
And we are not even asking for that much more. We just need an 
increase of $11 million in fiscal year 2020 to fully fund the 
tribal colleges at about $8,000 per student.
    One factor driving the need for the increase is the growing 
number of tribal colleges. In the past several years, we have 
had four new colleges, and soon at least three more could join. 
In addition to the growth, the need is simply overwhelming. 
Take infrastructure. One tribal college, Ilisagvik College, 
pays more for Internet access than any other college in the 
country. It also has the slowest Internet access of any college 
in the country, 6 megabits per second.
    In fact, although most tribal colleges have OK Internet 
access, average connectivity at 236 megabits per second doesn't 
even come close to the average for other community colleges, 
which is 513 megabits, or to the--much less to the average of 
4-year colleges, which is 3.5 gigabits per second. Yet TCUs are 
held to the same accountability measures as other colleges.
    Food insecurity and homelessness are real at tribal 
colleges. Many of our colleges can't afford dorms. So students 
often sleep in their cars during the week. It is not 
comfortable, but it saves 100 to 200 miles a day. That is a lot 
of gas money or money to buy food. Hundreds of tribal college 
students face the same dilemma every day. Do I eat or buy gas 
to drive to campus?
    TCUs do what they can. Sinte Gleska offers free breakfast 
and lunch. Little Big Horn College gives students free 
cafeteria meals. Sitting Bull College runs a monthly food 
pantry. Faculty and staff even donate their own food and leave 
cans of soup in the student lounge. They do this because they 
know that students cannot learn if they are worried about their 
next meal.
    All of this comes out of the operating budgets of the 
tribal colleges or the pockets of faculty and staff. Yet TCUs 
continue to perform miracles, saving our languages, creating 
new jobs, and training teachers and more. Only about 200 Creek 
speakers remain on the Muskogee Creek Nation. Most are elderly.
    So the College of Muskogee Nation developed Native Language 
Certificate Program. Now young college students are giving 
their language new life, finding a new way to speak Creek by 
infusing daily conversation with Creek words and slang. It is 
the cool new way to speak, and it is restoring identity. It is 
saving a nation.
    Salish Kootenai College and Navajo Tech are leading the 
tribal colleges in job creation, which is the only way to end 
generational poverty on our reservations. SKC and its partners, 
including the tribe and Northrop Grumman, are training students 
to build advanced materials for the Air Force and NASA.
    When the college realized the incoming students couldn't do 
the STEM courses they needed, the college started a high school 
STEM academy. Now young students attend their high school half 
the day and spend the other half learning math and science at 
SKC.
    In the early 1970s, only five tribal members from Turtle 
Mountain Chippewa Reservation had college degrees. The tribe 
established Turtle Mountain Community College. Now thousands of 
tribal members have college degrees. And of the 350 teachers in 
and on the reservation, about 300 are Native. That is the power 
of tribal education.
    Our detailed funding requests are in our written testimony. 
So I am not going to go over them, although we do have a new 
request for a never-funded facilities program. So please take a 
look at that.
    The bottom for operating funding is that we are asking for 
only $11 million more. Think how many teachers, Native language 
speakers, healthcare professionals, and innovators we can 
create. It is possible, and you can do it, and tribal colleges 
will help.
    Thank you.
    [The statement of Carrie Billy follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence. Great. And within your time, great 
presentation.
    Our last speaker will be Ms. Albert.
                              ----------                              

                                           Thursday, March 7, 2019.

                    AMERICAN INDIAN GRADUATE CENTER


                                WITNESS

ANGELIQUE ALBERT, EXECUTIVE DIRECTOR, AMERICAN INDIAN GRADUATE CENTER
    Ms. Albert. Wow, how do I follow that? [Laughter.]
    Good day, Madam Chair, Ranking Member Joyce, and the rest 
of the distinguished members of the subcommittee.
    [Speaking Native language.]
    My name is Angelique Albert. I am a member of the 
Confederated Salish and Kootenai Tribes of northwest Montana. I 
have worked in Indian Country for 25 years in various 
capacities.
    I am honored to present testimony to you today as the 
executive director of the American Indian Graduate Center. I am 
here today to request the continued and increased funding for 
the Bureau of Indian Education's Special Higher Education 
Program, which I call SHEP, and the Science Post Graduate 
Scholarship Fund, SPGSF.
    I am also here to express gratitude for your continued 
support of these vitally important programs in the past and 
share with you the impacts of both. Whether you measure success 
of a higher education program through educational indicators, 
return on investment, or the lives transformed, these 
programs--these programs, these specific programs have produced 
results second to none. Graduation rates and attainment are two 
educational indicators I would like to take a moment to 
discuss.
    The National Center for Educational Statistics indicates 
graduation rates for American Indian students pursuing 
bachelor's degree is 39 percent. Data analytics of our first 4 
years of the SPGSF program show an unprecedented graduation 
rate of 95 percent.
    When you look at educational attainment, the Center for 
Native American Youth report Native students attain master's 
degree or higher at 2.1 percent, compared to the general 
population of 9.2 percent. This means that a mere 2.1 percent 
of our students have the professional degrees needed to excel 
in industries across this Nation and our tribal nations.
    I am happy to tell you that the SHEP funding is responsible 
for funding over 1,700 Ph.D.s and 1,300 law degrees. These are 
only two examples of the professional degrees funded through 
SHEP.
    This year, AIGC had an economic impact study conducted and 
are pleased to report the return on investment of our 
scholarship programs is an impressive 16.3 percent. 
Additionally, the study shows the annual rate of return for 
investment--rate of return for taxpayers is a phenomenal 27.2 
percent. I could go on about the significance of these numbers, 
but I will only say that the SHEP and SPGSF programs are 
clearly a sound investment.
    Investing for fiscal reasons is only one half of the story. 
The true impact lies in the stories and lives of the 
individuals and communities transformed. Alumni for the SHEP 
and SPGSF programs span over 500 tribes in all 50 States. They 
have given back through public and private sectors, with a high 
number returning to their tribal communities to serve their 
tribal nations.
    I am always touched to come to DC to see the number of 
alumni who have chosen public service as their career. I was 
also extremely moved this year to learn that someone I admire 
deeply for their legacy and continued contributions to tribal 
higher education is a SHEP fellow.
    In speaking to Mr. Rick Williams, he indicated he credits 
his service and career to receiving SHEP funding, of which he 
said, ``That single event changed my life beyond all 
imagination.'' His legacy of serving Native students is due in 
part to the support of one of these programs.
    The SHEP and SPGSF programs provide scholarship awards 
ranging from $1,000 to $30,000, with the average award being 
$5,000. As tuition costs for graduate school at a public 
university average in excess of $30,000 per year, funding from 
these programs clearly do not eliminate the student's 
obligation to pay for their own education. The funding 
generally reduces the burden of student debt they take on in 
pursuit of their academic goals.
    AIGC has an immense amount of gratitude for the 
subcommittee's past support of the SHEP and SPGSF programs. We 
also recognize the fiscal challenges that control the 
subcommittee's actions this year. However, I would like to 
respectfully request funding for the SHEP program to increase 
to $3.4 million and the SPGSF program to increase to $3.2 
million, allowing the ability to modestly scale these programs 
and provide the much-needed intellectual capital for our tribal 
nations.
    Education is essential and a sound investment. Education 
transforms the lives of the students, but ultimately, the lives 
of our entire community.
    Thank you for your thoughtful consideration.
    [Speaking Native language.]
    [The statement of Angelique Albert follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mrs. Lawrence. Thank you so much.
    I have a couple questions, and then I will give it to you, 
Mr. Joyce. I have a question. How many tribal colleges do we 
have currently?
    Ms. Billy. There are 37 tribal colleges in 16 States, but 
they operate 75 sites throughout Indian Country.
    Mrs. Lawrence. Sixteen sites, but 75----
    Ms. Billy. Thirty-seven tribal colleges, and they operate 
75 sites and campuses.
    Mrs. Lawrence. OK. And you were very clear, $11 million 
would be needed, and $11 million would answer what concerns?
    Ms. Billy. An $11 million increase would fully fund at the 
authorized level the tribal colleges--most of the tribal 
colleges are funded at about $7,285 per Indian student. So they 
are funded based on a formula. And if we added $11 million, it 
would fully fund them to the level that is authorized in the 
law and help to stabilize their operations.
    Mrs. Lawrence. OK. The dorms issue that you brought up, 
would that fall under this $11 million?
    Ms. Billy. If the tribal colleges could stretch the money 
that far, but they--and they put some operating money into--
well, all their maintenance comes out of and security comes out 
of that fund, their operating funds. But for new construction, 
they usually seek other sources, and there just aren't that 
many.
    Mrs. Lawrence. Yes. Mr. Joyce.
    Mr. Joyce. Thank you, Madam Chair.
    I want to thank all of you for coming and I appreciate your 
testimony. We have come a long way. Certainly education is the 
key to all children growing up and having more opportunities 
and better lives. So I am with you completely, and I appreciate 
your coming here today.
    Mrs. Lawrence. I want to thank all of the witnesses who 
came today, and we really do appreciate this information as we 
take on our task as appropriators.
    This session is adjourned, and the subcommittee will return 
at 1:00 for the afternoon session.
    Thank you all so much.

                                           Thursday, March 7, 2019.

                           AFTERNOON SESSION



              NATIONAL INDIAN EDUCATION ASSOCIATION (NIEA)

                                WITNESS

DIANA COURNOYER, INTERIM EXECUTIVE DIRECTOR, NATIONAL INDIAN EDUCATION 
    ASSOCIATION (NIEA)
    Ms. McCollum [presiding]. Good afternoon, and welcome back 
to our last public witness hearing covering tribal governments 
under the jurisdiction of the Interior, Environment 
Appropriations Subcommittee. I have to say this has been full 
of excellent conversations, excellent testimony. We have 
learned a lot, and so I am very appreciative of everyone being 
here.
    We have heard about our failed trust and treaty obligations 
in regards to lands, trust, and natural resources, the impacts 
that climate change is having on Native Americans. We heard 
about public safety and justice needs this morning and the 
challenges facing the Bureau of Indian Education schools. We 
begin this afternoon's hearing with the last panel with a topic 
that is still education focused, moving to tribal government 
and then human services.
    As I mentioned yesterday at the start of the hearing, this 
is the first time we have organized witnesses according to 
topic testimony. And we would very much appreciate your 
feedback on how you think it went and how we can improve the 
process for next year.
    As we begin, I would like to go over the hearing logistics 
again. We are going to have each panel, and the first panel is 
right here ready to go. And we are going to have each witness 
for 5 minutes to present their testimony. We are going to use a 
timer to track the time. When the light turns yellow, you will 
have a minute left, and when it turns red, we would like you to 
conclude your remarks if you would, please. I am going to 
lightly tap the gavel. I don't mean to be rude, but I know 
everybody in this room has other appointments on their schedule 
and people have planned accordingly to the slots we have.
    If votes are called during the hearing, and that is very 
unlikely, but if it does happen we will let you know. And then 
we will take a brief recess for members to vote, and then we 
will return back to where we left off. But it looks like we are 
good. And we aren't going to have votes until 4:00 or 4:30, so 
it looks great. Witnesses are asked to stay close to the 
hearing room in case that does happen, though, so that we can 
return right away.
    I would like also to remind those in the hearing room that 
there are committee rules, and they prohibit the use of cameras 
and audio equipment during the hearing by any individuals 
without a House-issued press credential or House Members' 
personal staff.
    And with that, I would like to turn to my good friend, Mr. 
Stewart, for any opening remarks he might have.
    Mr. Stewart. Thank you, Madam Chair, and I will be brief 
knowing that we want to get right to work. Thank you for 
continuing these important hearings to get input from our 
tribal leaders on what is obviously a wide array of programs 
under this subcommittee's jurisdiction. An especially warm 
welcome to the distinguished leaders, the tribal elders as they 
will be here testifying today, including some from the Ute 
Tribe in Utah. My great State was proudly named after the great 
Ute Tribe. We have other tribal entities there as well.
    But it is important to me, it is important to the West. 
But, frankly, as you have made the point, Madam Chair, this is 
a responsibility that is important to all of Congress. We have 
a special responsibility in our relationship with the tribes in 
honoring the tribal trust and the treaties. This isn't just 
something that is important to individuals in the West or other 
pockets around the country.
    So we look forward to listening and to learning from you, 
hearing what is on your mind, and maybe just a bit of 
housekeeping if you will, and that is my apologies in advance 
to some of those who will be testifying today. And as the 
chairwoman has pointed out, many of us sit on other committees, 
and we are going to be bouncing back and forth. Please don't 
take that as any indication that we are not interested. We 
clearly are. We will have your written testimonies and other 
ways of communicating with you. And we look forward to and are 
grateful for you being here, and we will spend as much as we 
possibly can and look forward to that.
    Thank you. I yield back.
    Ms. McCollum. Thank you. Mr. Amodei, anything you would 
like to add?
    Mr. Amodei. Madam Chair, I would just like to associate 
myself with your remarks and those of my colleague from the Bee 
Hive State, and I yield back.
    Ms. McCollum. Thank you. We are going to first hear from 
Diana Cournoyer. I might not have said your name totally right. 
Please correct it for the record if I did not pronounce it 
right. The interim executive director for the National Indian 
Education Association. Welcome.
    Ms. Cournoyer. Diana Cournoyer.
    Thank you, Chairwoman, members of the subcommittee. I want 
to thank you again for this opportunity to provide testimony on 
behalf of the National Indian Education Association.
    NIEA is the most inclusive national organization advocating 
for culturally-relevant educational opportunities for American 
Indian, Alaska Native, and native Hawaiians. Each day our 
organization equips tribal leaders, educators, and advocates to 
prepare the over 650,000 native students across the Nation for 
success in the classroom and beyond.
    Native education is a bipartisan effort. We understand 
this. It is a Federal trust responsibility to tribal nations, 
and I thank you for making that comment at the beginning. NIEA 
thanks the subcommittee for this ongoing commitment to 
fulfilling this constitutional responsibility by rejecting 
severe cuts proposed for native education programs and services 
in fiscal year 2019. In particular, we appreciate the 
subcommittee's oversight of BIE programs and services for 
native students as well as the $238.3 million investment in 
construction for safe and healthy schools for native students 
in fiscal year 2019.
    As the subcommittee considers funding levels for the 
upcoming fiscal year, Congress must continue to invest in and 
oversee BIE programs to ensure native students have access to 
resources necessary to thrive. From competitive salaries for 
highly-effective, culturally-competent educators through the 
Indian Schools Equalization Program, to technological 
infrastructure of a modern classroom, to native language and 
culture-based programs, Federal appropriations are vital to 
ensuring equity for the only students to which the Federal 
government has a direct responsibility--native students.
    NIEA urges you to continue your commitment to native 
students by fully funding native education within the BIE in 
fiscal year 2020 appropriations. As the subcommittee considers 
appropriations for fiscal year 2020, NIEA urges Congress to 
consider the full scope of need for education programs in the 
Department of Interior through the BIE and the BIA.
    Three of NIEA's key appropriations priorities for fiscal 
year 2020 are: Bureau-funded schools must be appropriated $430 
million for urgent school construction and repair. NIEA 
appreciates the recent steps to address this critical 
infrastructure need in BIE schools through education 
construction in fiscal year 2018-2019 appropriations. Despite 
these strides forward, funding continues to fall short of the 
full need, slowing progress in the three remaining schools from 
2004 school construction list and 10 schools from the 2016 
construction list.
    In 2016, the Office of the Inspector General at the 
Department of Interior found that it would cost $430 million to 
address immediate facility repairs in the BIE. In addition, 
that report estimated over $1.3 billion in overall need for 
education construction at the BIE schools. Though current 
funding levels fail to fully address the $634 million need, the 
need for construction and repair in BIE schools is too great to 
wait for a possible infrastructure package without ongoing 
funding to address construction needs. In addition, seven 
schools on the 2016 construction list have yet to receive these 
funds for design and construction.
    The Indian School Equalization Program should be fully 
funded at $431 million for fiscal year 2020. And finally, NIEA 
requests that Congress invest $35 million to develop 
assessments for the Bureau-funded school under the Every 
Student Succeeds Act.
    Like you, NIEA is concerned about BIE accountability. Over 
the past year we have reached out to Secretary Zinke, the 
Bureau of Indian Affairs, and the Bureau of Indian Education 
regarding outstanding requests from Congress contained in 
previous appropriation reports. We look forward to working with 
the subcommittee to ensure that native students have access to 
highly-effective, culturally-relevant education programs no 
matter where they attend school.
    In conclusion, healthy education systems are key to 
thriving tribal nations and communities. Though tribal leaders 
and legislators juggle a number of priorities, don't forget 
that education is also one of them. Appropriations have the 
potential to promote equity and ensure access to excellent 
education options which prepare native students to thrive. NIEA 
urges Congress to uphold the Federal trust responsibility by 
fully funding key programs that support effective and 
culturally-appropriate native education programs.
    Thank you.
    [The statement of Diana Cournoyer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Marlene Watashe. Please for the 
record introduce yourself [off audio].
    Ms. Watashe. Yes.
    Ms. McCollum. Yes.
                              ----------                              

                                           Thursday, March 7, 2019.

                     DINE GRANT SCHOOLS ASSOCIATION


                                WITNESS

MARLENE WATASHE, PRESIDENT, DINE GRANT SCHOOLS ASSOCIATION
    Ms. Watashe. OK. Thank you, Madam Chair and members of the 
subcommittee. My name is Marlene Watashe. I am the president of 
the Dine Grant School Association, DGSA. DGSA is comprised of 
school boards of seven Bureau of Indian Education-funded 
schools which operate under the Tribally-Controlled Schools 
Act, Public Law 100-297. Our member schools are located on the 
Navajo Nation Reservation in New Mexico and Arizona.
    The Indian School Equalization Program formula is the core 
budget account for educational and residential programs for the 
BIE elementary and secondary schools and dormitories. We 
appreciate that Congress has provided program increases in this 
area the past several fiscal years. For most BIE-funded 
schools, a chronic shortfall in the other key school accounts 
has a negative impact on ISEP formula funding because ISEP 
formula funds are often diverted to make up the shortfalls in 
other accounts, such as facilities operation and maintenance 
when a tribe or tribal school board has no other source of 
funding to cover these shortfalls. This means fewer funds are 
available for instructional activities. We are tremendously 
grateful that Congress has increased funding for these critical 
accounts so ISEP formula funds can be used for its intended 
purpose.
    The $1.28 million program increase for a total of $404.2 
million that Congress provided in fiscal year 2019 from 2018 
was very helpful. However, the total amount still does not 
acknowledge the shortfall that has been building up for many 
years. Therefore, we respectfully request an additional 
increase in ISEP formula funding for fiscal year 2020.

                       TRIBAL GRANT SUPPORT COSTS

    Since the 1988 Elementary and Secondary Education Act 
Reauthorization, tribally-operated elementary and secondary 
schools have received funding for the administrative expenses 
incurred for the operation of BIE-funded schools through an 
administrative cost grant, now called tribal grant support 
costs. These funds are used for essential services such as 
grant contract administration, program funding and development, 
required annual audit, and other overhead expenses. We would 
like to express our appreciation for this subcommittee's 
commitment to fully funding tribal grant support costs and 
express support for its continuation in fiscal year 2020.
    The early childhood and family development budget category, 
commonly referred to as the FACE Program, is designed to, one, 
strengthen family/school/community relations; two, increase 
parent participation in education; and three, support parents 
in their role as the child's first and most important teacher. 
Many of DGSA's member schools run successful FACE programs. 
There is a marked academic difference in outcomes for children 
who have access to a FACE Program and those who do not. 
Further, these programs strengthen families and communities and 
help increase parent engagement.
    We respectfully ask that the subcommittee continue to 
reject any administrative proposal to zero out this vital 
program and to continue to provide adequate funding to support 
the FACE Program in fiscal year 2020.

                            ROAD MAINTENANCE

    This subcommittee have highlighted the poor conditions and 
backlog of deferred maintenance of unimproved roads and bridges 
in Indian Country that are used by school buses to transport 
students. We would like to thank the subcommittee for 
attempting to hold the BIA accountable and for providing 
additional funding directed to these school routes. We 
respectfully request that the subcommittee increase funding 
directed to these school bus routes for fiscal year 2020 and 
continue your effort to hold the BIA accountable.
    I appreciate the opportunity to provide this testimony. 
Thank you.
    [The statement of Marlene Watashe follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Maxine Coho, vice president of 
Ramah Navajo School Board, Inc. Thank you for being here.
    Ms. Coho. Thank you.
                              ----------                              

                                           Thursday, March 7, 2019.

                    RAMAH NAVAJO SCHOOL BOARD, INC.


                                WITNESS

MAXINE COHO, VICE PRESIDENT, RAMAH NAVAJO SCHOOL BOARD, INC.
    Ms. Coho. Good afternoon, honorable chairwoman and 
subcommittee members. I am Maxine Coho, the vice president for 
the Ramah Navajo School Board. On behalf of the Ramah Navajo 
School Board, Ramah Navajo community, thank you for giving us 
this opportunity to give our oral testimony.
    I want to focus my remarks today on our facilities. We 
appreciate that the facilities operation and maintenance budget 
have seen some increases in recent years. While the recent 
increases for these budget categories are important 
improvements, we note that the fiscal year 2017 budget 
justification points out that the amount requested would only 
fund 78 percent of the calculated facilities operation and 
maintenance across BIE-funded schools.
    Neither the fiscal year 2018 budget justification nor the 
fiscal year 2019 budget justification bothered to provide an 
estimate for what full funding would be. Additionally, 
continuing resolutions and government shutdowns make it much 
more difficult to manage these facilities efficiently and 
effectively. Deferred maintenance and inadequate facility 
conditions directly affect our student learning opportunities. 
At Ramah Navajo on the Ramah Navajo Reservation, our library, 
our kindergarten, and our gymnasium have all suffered impacts 
from leaking roofs, and we lack funding to take action to 
address these problems, which could possibly cause serious 
health and safety problems for our students and teachers and 
community. And I often wonder how this is going to affect our 
community, our students, and our parents in the future.
    At Ramah, due to the black mold, we had to close our 
library and kindergarten and move them to portable buildings, 
which provides very limited space for a library, and those 
portable buildings do not have lightning protection. Pine Hill 
Schools are on the highest peak in our area, and lightning has 
hit our antenna, our water treatment, and this is a serious 
safety concern. The BIA does not want to invest resources for 
lightning protection on these portable buildings.
    Our gymnasium remains in use. Fiberglass ceiling tiles have 
deteriorated from water damage, and we now have concerns 
because the students breathe the dust from these tiles. We host 
sporting events in our gymnasium, and the condition is very 
damaging to our reputation. Ramah Navajo was the first to 
operate a school under the Indian Self-Determination Act. This 
is a proud history for the Ramah Navajo community. But when 
students and parents from other schools see the condition in 
our gymnasium, it is very embarrassing to our students, our 
parents, and our community.
    We believe this is having a negative impact on our 
enrollment. Parents don't want to send their kids to a school 
facility that is deteriorating and in very bad conditions. 
Additionally, the New Mexico Athletic Association reported to 
our school that they were very concerned about the health and 
safety issues at our gymnasium, and requested we address these 
problems.
    We at the Ramah Navajo understand we are not the only BIE-
funded school with deteriorating facilities. The Department of 
Interior budget justification indicates that 1 out of every 3 
BIE-funded schools is in poor condition. As a result, many BIE-
funded schools are written up for health and safety violations, 
but there is no funding to make the needed changes.
    The subcommittee is fully aware of the close relationship 
between poor facility conditions and poor student and staff 
performance. That inadequate learning environment in many BIE 
schools put our native students at an unfair advantage. The 
schools are then blamed for low academic performance. We 
respectfully ask the subcommittee to provide full, consistent 
funding for facility operation and facility maintenance.
    According to the Department of Interior, the backlog is as 
high $1.3 billion. The BIE stated that the next step is to 
develop a long-term construction plan that will address the 
needs of the BIE-funded schools determined to be in poor 
condition. We respectfully request that Congress and the 
Administration consult with tribes when developing this long-
term school replacement and repair plan.
    We are grateful for your leadership in addressing the BIE 
facilities and addressing our outdated and poor condition 
schools that are very dangerous to our students and our staff 
and our community. Given the state of school facilities across 
the BIE system, we ask the subcommittee to continue increasing 
school construction and replacement funds. And thank you for 
giving us this opportunity to make our oral testimony [speaking 
Native language].
    [The statement of Maxine Coho follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Forty years.
    Ms. Watashe. Yes.
    Ms. McCollum. Independent school district. I saw that in 
the testimony. Pretty amazing.
    Russ McDonald.
    Mr. McDonald. Yes.
    Ms. McCollum. I saw that that is what you prefer to be 
called, and I remember that from last time. Welcome. United 
Tribes Tech College. Good to have you here.
                              ----------                              

                                           Thursday, March 7, 2019.

                    UNITED TRIBES TECHNICAL COLLEGE


                                WITNESS

LEANDER ``RUSS'' MCDONALD, PRESIDENT, UNITED TRIBES TECHNICAL COLLEGE
    Mr. McDonald. Thank you to the subcommittee and thank you, 
Madam Chair, for allowing me to share a few words. My name is 
Leander McDonald. I am an enrolled member of the Spirit Lake 
Dakota Nation, and a proud descendant of the Sahnish, Hidatsa, 
and Hunkpapa people. I am president of the United Tribes 
Technical College located in Bismarck, North Dakota. We are 
thankful for the opportunity to present and thankful for your 
efforts for passing the fiscal year 2019 budget as we now 
prepare for fiscal year 2020.
    I also want to thank you, Madam Chair, for your opening 
statements yesterday regarding trust responsibility, and also 
Mr. Stewart's comments this afternoon.
    United Tribes Technical College is celebrating 50 years of 
educational service, 25 years as a 1994 land grant institution, 
and 37 years of accreditation by the Higher Learning 
Commission. With a legacy of workforce development and 
employment, training continues through the offering of three 
certificates, five associate applied science, nine associate of 
science, and four bachelor of science degrees.
    BIE funds are essential to the viability of the United 
Tribes core postsecondary, career, and technical education 
programs, and the overall mission as a tribal college and 
university. We serve some of the most impoverished, high-risk 
Indian students from throughout the Nation. Despite such 
challenges, we have consistently had excellent retention and 
placement rates.
    United Tribes is one of the only inter-tribal colleges and 
universities in the Nation. We are governed by the five tribes 
located wholly or in part in the State of North Dakota. We are 
not part of the North Dakota University system, and we do not 
have a tax base. However, we do receive limited State-
appropriated for non-native students. The Federal BIE 
appropriations UTTC receives are critical to the postsecondary 
education of American Indian and Alaska Native students to 
obtain the skills necessary to become employed.
    The funding request for United Tribes for fiscal year 2020 
BIE/BIA are twofold: $10 million for the line item tribal 
technical colleges, which compares to the fiscal year 2019 
enacted level of $7.5 million, and two, establishment of a 
tribally-administered Northern Plains Law Enforcement Center at 
United Tribes Technical College. United Tribes administers our 
BIE funding under the Indian Self-Determination Education 
Assistance Act agreement and has done so for 42 years.
    The United Tribes portion of the tribal technical colleges 
line item should be $6.8 million based on a $10 million 
appropriation. Acquisition of additional base funding is 
critical to our struggle to maintain course offerings and 
services to provide educational services at the same level as 
our State counterparts. Funding for United Tribes Technical 
College is a good investment. We have an unduplicated count of 
525 students in 2017-2018 with 494 of those being degree-
seeking.
    Approximately 84 percent of the 494 degree-seeking 
undergraduate students are low-income and received Pell Grants 
for 2017-2018 academic year. United Tribes had a 2017-2018 
fall-to-fall retention rate of 51 percent, and a 2017 fall-to-
spring semester persistence rate of 75 percent. Using the North 
Dakota State Longitudinal Data System, which tracks graduates 
who gain employment within North Dakota, United Tribes 
graduates attained a placement rate of 64 percent. Note this 
number does not include those who may have been employed 
outside of North Dakota. That system doesn't track those who 
leave the State.
    The fall graduates from December 2017 who are employed in 
North Dakota earned an average of $7,400 in the third quarter 
after they graduated, which averages to about $30,000 annually. 
Campus services include a child development center, family 
literacy program, wellness center, area transportation, K 
though 7 BIE-funded elementary school, tutoring, counseling, 
and single student housing, and campus security. A North Dakota 
State University study reports that the five tribal colleges in 
North Dakota made a direct and secondary economic contribution 
to the State of $192 million in 2016, and United Tribes had a 
$59.6 million direct and secondary economic impact on the 
Bismarck/Mandan communities for the same period.
    A few words on the Northern Plains Indian Law Enforcement 
Academy. The Great Plains Tribal Chairman's Association via 
Resolution 5-1-20-16 requests that the Secretary of Interior 
and the BIA consult with the tribes on the details of a plan 
for establishment of Northern Plains Indian Law Enforcement the 
Academy. Given our established criminal justice programming, 
our tribe's location, and campus resources, we ask that you 
direct the Secretary of Interior and BIA to work with the 
Northern Plains tribes and others to establish an academy to 
better serve the tribes residing in the Northern Tier of the 
United States.
    We recognize collaboration and the sharing of resources 
among tribal, State, and Federal training initiatives, such as 
the proposed Savanna's Act legislation, are critical to 
decreasing criminal activity throughout Indian Country. This 
model, once developed, may allow additional opportunities to 
collaborate on related issues, such as decreasing dangerous 
drug activity and trafficking. The Senate Committee on Indian 
Affairs is holding a field hearing on March 20th on our campus, 
and that is a joint law enforcement activity and the importance 
of collaboration between tribal and non-tribal law enforcement 
agencies.
    United Tribes stands ready to assist educationally by 
ensuring a well-trained law enforcement workforce is available 
to address these social ills should a Northern Plains Law 
Enforcement Academy be considered. We know members of the 
subcommittee have made a point to visit places in Indian 
Country, and we would love to be able to arrange for you to 
visit the United Tribes Technical College campus.
    Thank you for your consideration of the request.
    [The statement of Leander McDonald follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. I haven't been taking the first 
question all the time, but I am on this one. So pre-K is 
something that in our States everybody is talking about. You 
mentioned the FACE Program, and some of you have Head Start, 
and there are different programs out there. Having kids with 
that little bit of extra comfort with going to school or 
feeling confident that they can succeed when they walk in, even 
for kindergarten, can be a huge game changer. Head Start is not 
funded out of this committee. It is out of the Education 
Committee. I realize that.
    But what has been your experience, because you talked about 
the FACE Program, which is a little different because that 
involves parents, and you even have GED available and that. I 
would be interested in knowing what is going on with the 
daycare situation, if you have highly-qualified daycare, if you 
are providing Head Start programming or that at the technical 
college, because you have got me on the buildings. We are 
working on the buildings.
    You know, when a child walks in a building and we say here 
is your opportunity to build for your future, and the building 
is crumbling around them, we send them very mixed messages. 
This is something that our committee is trying to address, but 
we also want to make sure that we have parents who are engaged 
in schools. And with the historic trauma that some parents 
still are facing with schools, I would think being engaged in a 
preschool setting might be a gentle way to kind of get them 
more engaged than just first grade, hit the ground running, and 
this what a school is.
    I am going to talk to my counterpart Chair DeLauro, and she 
is interested in working more in Indian Country. How well are 
your students prepared when they come? What can we do more of 
to make those first couple of years successful so that they are 
excited about learning to read and to do math, and engage their 
parents so that we retain them to graduate from high school and 
go on to the technical college and other colleges? Anybody can 
just jump in.
    Ms. Coho. At the Ramah Navajo School Board, we have a Head 
Start Program, and our Head Start Program, there is a lot of 
parent participation. Parents come into the classroom. They 
have, like, a family-style dinner or lunch or breakfast with 
their kids, so. And they interact with the kids. There is a lot 
of reading. There is a 1-to-1. There is a lot of reading. Then 
the parents are also involved, it is called a parent committee 
where they come together. It is like a school board, almost 
like a school board.
    So the parents come together, and they all serve on a 
committee. They all are involved in the education of their 
kids. And the kids do come. They ride on the bus. They come to 
school. They have teachers that they work closely with, and 
there is a lot of interaction, a lot of reading.
    This is where some of our kids learn how to read, learn how 
to cut papers, learn how to use a pencil, learn how to 
socialize. So there is a lot of parents involved, and even 
parents, we have parents that have through the Head Start 
Program, they have now become teachers. We have parents that 
have served on the parent committees that are now school board 
members, and I am one of those people. I used to belong on the 
committee for the Head Start Program, and now I am a school 
board member.
    So it is not only the children, but it is also the parents, 
too. We have parents that are now certified teachers.
    Ms. McCollum. That is exciting. Anybody else want to----
    Mr. McDonald. I appreciate the discussion, especially on 
our campus we inherited an old fort. And so the Indians took 
over the fort here in Bismarck. [Laughter.]
    But our buildings are 108 years old, and so in our 
buildings just regularly, we have sewer pipes outside and 
conduit for electrical outside because those were added after 
the buildings were built----
    Ms. McCollum. Oh, sure.
    Mr. McDonald [continuing]. You know, for the time period. 
So that is happening. Also is that we have Theodore Jamison 
Elementary School on our campus, and they were identified by 
the Bureau of Indian Education as one of the 71 schools that 
were in need of rehabilitation, that existing facilities had 
outlived their livelihood for the time period.
    Just talk a little bit about daycare is that we a North 
Dakota certified center, so all of our providers are required 
to have that certification. As a result of that certification, 
we are able to obtain State reimbursement to our students, to 
our college students, so their daycare is paid for as a student 
for United Tribes Technical College. And then as far as a 
curriculum for the daycare students is that teaching occurs 
there, and we have an established curriculum for those students 
or the babies that are being provided care, too.
    Ms. McCollum. We have to get the buildings right. We have 
to get the housing for teachers and the roads and all of that 
right. That is all integrated. But this is my chance to take 
your voice and lobby for some more support. It is frustrating 
to me when I hear everybody talk about pre-K, and there is so 
much need in Indian education. You are here advocating for what 
is traditionally in our bill, but I also know what happens 
before that. That student shows up for the first day of ``K 
through 12'' is critically important to the student. So you 
wanted to add something?
    Ms. Watashe. Yes. Thank you, Madam Chair. I am the 
president of the DGSA Association, but I am also a school board 
member for the Ramah Navajo School Board. And for our facility, 
we would like to see more teacher training, more assistance in 
regards to consultants. Right now we have a math consultant 
that comes to our school maybe once a week, and they work with 
the teachers in strategies, provides strategies and 
recommendations and guidance, I guess, in teaching our students 
at the lower level, 3 to 5, with how to learn math. And it is 
all hands-on, fun and games, and that is the way the students 
learn.
    So if we could have more money in areas for consultants, 
for teachers to get that training, then we can, you know, 
enhance those areas--reading, math, science. Even science at 
the lower level would be great, but sometimes we just don't 
have that money. And then with Head Start there are all these 
restrictions, like administrative costs. You can only get so 
much percent, and you can't cram everything in there. So, you 
know, the director can only do, you know, so much with, you 
know, that amount of money, so.
    Ms. McCollum. I will let you have the last word before I 
turn it over to my colleague.
    Ms. Cournoyer. OK. I just want to acknowledge the trauma 
comment, the comment that you made about the healing, and 
reiterate what everyone has said, that it starts at that pre-K 
level. And so Head Start and early learning, investing in Head 
Start/early learning programs, not just on our tribal 
communities, but in our large urban areas that are serving high 
native-populated.
    Ms. McCollum. True, yeah.
    Ms. Cournoyer. Those students go on to public school, but 
we don't have Head Start/early learning opportunities for those 
native students who live in Denver, and Phoenix, and 
Albuquerque. You have to live outside of the area, outside of 
that region or that city area.
    And then to follow up on the teacher training, it is not 
just teacher training opportunities. It is providing 
opportunities to tribal colleges to certify language and 
culture teachers.
    Ms. McCollum. Yeah. Yes.
    Ms. Cournoyer. So that they are going into our Head Start/
early learning opportunities, those programs at the lower 
level, the community education-based level as well, so.
    Ms. McCollum. Well said.
    Ms. Cournoyer. Thank you.
    Ms. McCollum. Mr. Amodei, do you have any thoughts?
    Mr. Amodei. No, Madam Chair. Well, I mean, I thought you 
meant questions. I have some thoughts. [Laughter.]
    Mr. Amodei. I used to. Just out of curiosity, Madam Vice 
President Coho, did you say in your testimony when your gym was 
built?
    Ms. Coho. Our gym was built in 1976.
    Mr. Amodei. OK. And does----
    Ms. Coho. No, 1974. It was in the early 1970s.
    Mr. Amodei. Does the committee have any photos of any of 
your buildings?
    Ms. Coho. Yes, we do. I can----
    Mr. Amodei. OK. If you could provide them at some point in 
time if that is OK. That would be great.
    Ms. Coho. Yes, I will. I will give you those.
    Mr. Amodei. Thank you. I yield back.
    Ms. McCollum. I can show you lots of photos of schools. We 
have to figure this out.
    Mr. Amodei. I would like to see photos of the gym because--
--
    Ms. McCollum. We have to figure this out.
    Ms. Coho. Well, Pine Hill School----
    Ms. McCollum. Here they come.
    Ms. Coho. A State tournament, we are having the State 
tournament, and if you were to come visit our gymnasium, I 
think you would be very, very surprised. I don't know if you 
would want to even stand in there for a minute, but right now 
they are going to cover it. They have our facility maintenance 
guys are going to be covering the ceiling so that they can have 
this tournament.
    Ms. McCollum. Covering a problem does not fix a problem.
    Ms. Coho. Yes.
    Ms. McCollum. I would like to thank you all for your 
testimony. I have your full testimony in the book, and thank 
you for educating the next generation not only for your 
communities, but for our country at large. Thank you.
    Ms. Coho. Thank you.
    Ms. Cournoyer. Thank you.
    Ms. McCollum. And we will have our third panel come 
forward. Pretty shocking what those buildings look like, isn't 
it, Mark?
    Darrell Seki, tribal chairman, Red Lake Band of Chippewa 
Indians; Aaron Payment, chairperson, Sault Ste. Marie Tribe of 
Chippewa Indians; Vice Chair of Standing Rock Sioux Tribe, the 
chairman.
    Mr. Seki. Seki.
    Ms. McCollum. Seki. Did I say it wrong? I am sorry. And 
Jason Schlender. Everybody here? Before the Red Lake chairman 
starts off, I am noticing more and more people asking for the 
Tiwahe program that you are going to be talking about in all 
their testimony, more funding and wanting to see more of it. So 
congratulations on all the hard work the tribe did putting that 
program together.
    Sir, would you lead it off?
    Mr. Seki. Thank you.
                              ----------                              

                                           Thursday, March 7, 2019.

                   RED LAKE BAND OF CHIPPEWA INDIANS


                                WITNESS

HON. DARRELL SEKI, SR., TRIBAL CHAIRMAN, RED LAKE BAND OF CHIPPEWA 
    INDIANS
    Mr. Seki. [Speaking Native language.] Start over?
    Ms. McCollum. Start over. The time is yours.
    Mr. Seki [speaking Native language]. Miigwech. My name is 
Darrell Seki, Sr., chairman of Red Lake Nation. Good afternoon, 
Chairwoman McCollum and all our friends around the table. I am 
here today to talk about five appropriation requests along with 
other requests described in my written testimony. Funding these 
requests would help improve the lives of Red Lake's 12,000-plus 
members and the wellbeing of our 840,000-acre reservation in 
remote northern Minnesota.
    First, we support advanced appropriations for BIA and IHS 
funding. The government shutdown created a cash flow crisis for 
Red Lake. While we decided not to lay off program staff, we had 
to suspend construction work on two fire halls, a dialysis 
treatment center, and an opiate treatment center. Reopening the 
government did not fix our cash flow crisis because it seems 
the Federal bureaucracy has taken an awful long time to release 
our funds.
    Moreover, in our analysis, the final fiscal year 2019 
numbers accepted at Senate funding levels, not the House-passed 
levels. That meant $26.5 million less for the BIA, $99 million 
less for IHS from what the House approved last July. So the 
government shutdown also caused a real loss in much-needed 
funding because the regular appropriations process was upended. 
Please take this in account as you consider the fiscal year 
2020 Interior request.
    Second, we request that you restore all funding cuts 
President Trump proposes for fiscal year 2020 just like you did 
for his fiscal year 2019 budget cuts. Last March, Interior 
associate deputy secretary, Jim Cason and then deputy 
secretary, David Bernhardt attended a tribal Interior budget 
council meeting here in DC I questioned both of them about the 
massive fiscal year 2019 cut they requested for BIA, and I 
asked why BIA was being cut the most, $220 million more, in 
fact, then that National Park Service.
    Mr. Cason responded by saying that some national parks have 
issues with flushing toilets, leaking roofs, and running water. 
Tribal leaders quickly pointed out to Mr. Cason that many 
tribal homes lack flushing toilets, running water, and, much 
worse, even a lack of electricity and heat, threatening the 
lives of our children. If President Trump once again seeks to 
fix bathrooms in parks instead of Indian homes, we will once 
again have to ask you to fix that bankrupt proposal.
    Third, we request that you fully and make permanent and 
expand BIA's Tiwahe recidivism reduction initiatives. Tiwahe 
addresses many vital needs in our community. It has helped 
strengthen our youth suicide prevention efforts. I am happy to 
report we had zero youth suicides last year, a huge improvement 
from our high suicide rates in the previous years. Tiwahe has 
made it possible for our children's healing center to implement 
a 24/7 youth residential treatment program for rehabilitative 
mental health and substance abuse services. Tiwahe has also 
helped combat tribal members unemployment rates by providing 
classes, training, and workforce development programs to meet 
the welding and certified nursing assistant workforce shortages 
in our region.
    Fourth, we request an additional $20 million in fiscal year 
202 for tribal law enforcement operations in the field, 
regulate law enforcement as it wages a war on drugs. Last year 
we received over 27,904 grams and other drugs valued at over $1 
million. We executed 54 search warrants and made 355 drug-
related arrests. We are holding drug dealers accountable, and 
our crime rates are going down. But we need more resources if 
we are to succeed in stopping the tidal wave of drug crime.
    Fifth, we ask that you direct the BIA to expedite its 
approval and funding of lease agreements for our government 
buildings, that you expressly add funds for BIA leases with 
tribe under 25 U.S.C. 5324. Red Lake has borrowed millions of 
dollars to replace BIA's dilapidated fire halls and law 
enforcement center that the BIA condemned, but would not 
replace. BIA should at least pay a fair, credible lease cost to 
us. By requiring the BIA to quickly and fully fund our proposed 
new lease agreements, we will be able to pay off debt we took 
on to build and maintain buildings that BIA failed to replace.
    In my hand I have the Red Lake Treaty Agreements outlining 
the Federal government's trust responsibility to the tribe. 
Miss, you must continue to enforce these agreements because 
they are very binding. And it is the United States government 
that should take care of what they agreed to bond to the 
tribes.
    Thank you for allowing me to request your support for some 
of our most immediate needs at Red Lake. As you enact our 
fiscal year 2020 appropriations that directly impact my 
constituents. And I say Miigwech to the table here.
    [The statement of Darrell Seki follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you, and you were speaking in your 
mother tongue, and I did not hold that time against you.
    Mr. Seki. OK. [Laughter.]
    Ms. McCollum. But your whole testimony, Mr. Payment, is 
helpful if it is all in English for me.
    Mr. Payment. OK.
    Ms. McCollum. Aaron Payment, chairperson of the Sault Ste. 
Marie Tribe of Chippewa Individuals.
                              ----------                              

                                           Thursday, March 7, 2019.

               SAULT STE. MARIE TRIBE OF CHIPPEWA INDIANS


                                WITNESS

HON. AARON PAYMENT, CHAIRPERSON, SAULT STE. MARIE TRIBE OF CHIPPEWA 
    INDIANS
    Mr. Payment. I will only say one word in Objibwe [speaking 
Native language]. Thank you for hearing from me today. As 
elected chairperson of the Sault Ste. Marie Tribe----
    Ms. McCollum. We want to hear all of it.
    Mr. Payment [speaking Native language]. Thank you for 
hearing from me today. As the elected chairperson of the Sault 
Ste. Marie Tribe of Chippewa Indians, I am speaking on behalf 
of my tribe. A little later I will testify for the Tribal 
Interior Committee as co-chair and co-chair along with Darrell 
for the Midwest Region, and also the National Congress of 
American Indians for which I serve as the first vice president.
    For now I will focus on Federal recognition of tribal 
sovereign rights, Federal treaty and trust obligations to the 
tribes, the need for mandatory funding, and advanced 
appropriations.
    Let me start by noting that every time I meet with 
representative of the Federal government, I explain the meaning 
of the tribal sovereignty treaty rights and the Federal 
government's trust obligation to tribes. When I request funds 
for tribal programs and services, Federal representatives, not 
all, often behave as if I am begging for handouts, reparations, 
or some sort of public welfare for my people. They fail to 
recognize we prepaid in full for what we get.
    My tribe and four other 1836 tribes ceded 14 million acres 
to the Federal government that allowed Michigan to become a 
State. The tribes across the country ceded 500 million acres 
that made America great. Unfortunately the Federal government 
is well aware of its treaty and trust obligations to tribes, 
yet often chooses to ignore these obligations.
    In December of 2018, the U.S. Commission on Civil Rights 
published a Federal study entitled, ``Broken Promises: 
Continuing Federal Funding Shortfall for Native Americans,'' 
which was made widely available throughout the Federal 
government. This study reported the Federal government is not 
meeting its treaty and trust obligations to tribes. Yet the 
study follows up on the ``Quiet Crisis Federal Funding and 
Unmet Needs in Indian Country'' report from way back in 2003. 
These and numerous studies say the same thing, that the Federal 
government has failed to meet its treaty and trust obligations.
    Some enduring needs of adequate appropriations include 
across the country 25.7 percent of American Indian and Alaska 
Native people in the United States live below the poverty level 
compared to 12.4 percent for the general population. 
Unemployment rates in Indian Country average 22 percent. Basic 
living characteristics for Native Americans on Indian lands 
contribute to the Native American health crisis. For example, 
32 percent do not have telephone services, 50 percent live in 
overcrowded homes, 11 percent of native homes lack kitchen 
facilities, 14 percent have no access to electricity, and 12 
percent lack complete plumbing. This data shows why programs, 
like the Home Improvement Program, are so important. Last year 
the President proposed to eliminate the Home Improvement 
Program. Thank you for saving the program. I recommend that 
Congress continue to fully fund the Home Improvement Program.
    Another key program for our tribal people is the Low Income 
Home Energy Assistance Program, or LIHEAP. This program helps 
families keep their homes adequately heated. We have had a 
record cold in the Midwest this year and snow. I believe that 
this program has kept tribal elders and some of our tribal 
children from freezing to death. I urge Congress to fully fund 
LIHEAP.
    Our Head Start Program is essential to meeting the early 
education needs of tribal children. Our Head Start Program has 
not had a base funding increase for 17 years. I strongly 
recommend base funding increases for both Head Start and early 
Head Start as well as funding increases for facilities 
maintenance.
    Our Tribal Court Program, in integral component of our 
tribe's sovereignty, is significantly underfunded as well. In 
fact, the Federal government provides 3.7 percent of the base 
funding needed to operate a tribal court capable of meeting our 
tribe's service population and jurisdictional needs. We 
recommend Congress to fully fund tribal courts base funding 
levels to meeting the budget model provided by the BIA.
    I would be remiss if I didn't reinforce our Chippewa Ottawa 
Resource Authority $500,000 litigation support request as the 
1836 Treaty Tribes approach our treaty consent decree 
negotiations. You are our trustee. You were a party to this 
decree. It is your duty to fund the litigation support for 
litigation for which the Federal government is a party. We have 
tried to get the Department of Interior to request these funds, 
but the Trump Administration simply refuses. I am advised that 
the President proposes and Congress disposes, so I am asking 
you to propose and dispose--well, not dispose once you propose 
it, but to propose your own budget. If the Interior and Trump 
Administration will not, I am asking you to.
    In conclusion, the lack of adequate funding limits our 
tribal governments can provide for their people and prevents 
tribes from lifting themselves from a state of dependence to 
self-determination, self-governance, self-sufficiency, and 
empowerments. To advance this goal, I urge advanced 
appropriations for Federal programs and services impacting 
tribes.
    According to a September 2018 GAO report--it is GAO 18652--
it identifies the challenges of IHS health delivery for 
American Indian and Alaska Natives and how advanced 
appropriations can fix this. Tribes are already faced with 
critically underfunded health general welfare programs. And 
finally, in addition to my request that you institute advanced 
appropriations on federal funding services impacting tribes, I 
request you appropriate funds for those programs and services 
specifically recommended by inter-tribal organizations, like 
the National Congress of American Indians, National Indian 
Health Board, and National Indian Housing Council, and NIEA.
    And then I did bring, and I am not going to go over it, but 
I did bring copies of advanced appropriations detailed 
information for you. Thank you.
    [The statement of Aaron Payment follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. We will enter that for the record.
    [The information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. So Mr. Taken Alive, good to have you here. 
You are next. Vice chairman of Standing Rock Sioux Tribe where 
many of us visited back a while ago. Welcome.
                              ----------                              

                                           Thursday, March 7, 2019.

                       STANDING ROCK SIOUX TRIBE


                                WITNESS

HON. IRA TAKEN ALIVE, VICE CHAIRMAN, STANDING ROCK SIOUX TRIBE
    Mr. Taken Alive. Thank you. Good afternoon, Madam Chair, 
and esteemed members of the committee. My name is Ira Taken 
Alive, and I serve as the vice chairman of the Standing Rock 
Sioux Tribe of North and South Dakota. I bring glad tidings 
from the over 16,000 enrolled Standing Rock tribal members, 
including those who are serving in the United States military 
here and around the world.
    Madam Chair, it is wonderful to see you again. As you had 
mentioned, you had visited Standing Rock back in 2011 with 
Congressman Cole and as well as then Congressman Rick Berg. You 
probably don't recognize me because I had blacker hair then, 
but----[Laughter.]
    Ms. McCollum. My hair was darker, too, but we are not going 
to talk about that. [Laughter.]
    Mr. Taken Alive. That was a remarkable and memorable day 
for us at Standing Rock because we had the opportunity to 
showcase our community development efforts, share our vision, 
and to highlight the critical needs that we have. As you had 
witnessed at Standing Rock, Standing Rock Reservation is a very 
beautiful place. The hills, river valleys, sunrises and sunsets 
can take your breath away, and, of course, the people are 
beautiful as well.
    While you were there, you were able to see not only the 
beauty, but also the significant challenges faced by our 
communities: an unemployment rate above 50 percent, a poverty 
rate that is 3 times that of the national rate, and the sixth 
and seventh poorest counties in the entire Nation. Add to these 
figures, Standing Rock has a median age of 26.9 years old. With 
such a young median age, our population is projected to double 
within the next decade, and certainly as a tribal leader, 
tribal elected official, this is cause for alarm because we 
currently struggle to provide basic services with our 
government services.
    I share this to underscore the importance of funding for 
the BIA, the IHS, and the BIE at Standing Rock. While we have 
very dedicated BIA staff, caring IHS providers, and inspiring 
BIE educators at Standing Rock, there is only so much that can 
be accomplished with limited funding, especially with funding 
that is subject to a Federal government shutdown.
    As an example of how every little bit helps when it comes 
to the funding of BIA, IHS, and BIE, like other communities 
across the Midwest, Standing Rock is battling the scourge of 
methamphetamine and opioid abuse. To help tackle the problem, 
the recently-appointed BIA Office of Justice Services chief of 
police and his crew at Standing Rock focused on roadway traffic 
policing over a 
3-month period from October 2018 to middle of January this past 
January. In that operation, they were able to net over 200 
drug-related arrests, seize large amounts of drugs, and seize 
over $100,000 in cash from these arrests.
    And due to an inadequate number of law enforcement officer 
positions at Standing Rock to patrol our 2.2 million-acre 
reservation over the years, there is a belief, especially among 
non-natives, that there is lawlessness at Standing Rock, and 
that drug trafficking can go unabated. Through the hard work 
and dedication of our law enforcement and the addition of 
several more officers over the past several months, drug 
traffickers now know to steer clear of Standing Rock. This 
addition of several officer positions proves that every little 
bit helps.
    As another example, Madam Chair, as you may know, Standing 
Rock made national news several years due to a heartbreaking 
outbreak of youth suicide and suicide attempts. I had served as 
director of the Standing Rock Wellness Program in 2015 during 
such an outbreak. Thankfully the IHS national office was able 
to provide emergency funding to Standing Rock to respond to the 
crisis and to provide additional supports.
    There is nothing more gut wrenching than to lose our young 
people to suicide. This is why creating a new initiative, like 
the Mental Health Substance Abuse Pilot Program, which 
hopefully will be proposed for fiscal year 2020, that will be 
based on the Special Diabetes Program for Indians, is such a 
great idea. A pilot program of dedicated, targeted funds to 
address these issues will place tribes in the driver's seat 
before these issues become a crisis.
    As has been quipped many times over many years at Standing 
Rock, it is not a coincidence that our greatest challenges and 
greatest needs are what are promised in our treaties with the 
United State. Education, healthcare, infrastructure, and law 
enforcement support are critical to a vibrant economy, trained 
workforce, and, of course, a healthy citizenry.
    Madam Chair, as evidenced by the testimony provided 
yesterday and today by other elected tribal officials, our 
stories of partnership with the Federal government to address 
our community's challenges and needs are based on the 
obligations outlined in our respective treaties with the United 
States. May the record reflect that they are not handouts. May 
the record reflect nor are they welfare benefits. And may the 
record also reflect that they are not reparations.
    At Standing Rock, our 1851 and 1868 treaties are considered 
[speaking Native language], or sacred, because they were forged 
in good fifth, peace, and with the belief in our future 
generations. Whether it is 1851, 1868, or 2020, our treaties 
encompass all that is sacred to us: our lands, our water, our 
healthcare, our safety, and the desire for a good life for 
future generations.
    Madam Chair, I am very grateful for having had this 
opportunity to serve as a witness today [speaking Native 
language]. Please know that you and your colleagues have an 
open invitation to visit Standing Rock again, and by then 
hopefully our 8-foot snow drifts will have been melted. I 
conclude my remarks.
    [The statement of Ira Taken Alive follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. I don't want them to melt too fast. They come 
my way eventually.
    We have the vice chairman of La Courte----
    Mr. Schlender. La Courte Oreilles.
    Ms. McCollum. La Courte Oreilles.
    Mr. Schlender. Yeah.
    Ms. McCollum. It sounds a lot better when you say it. Band 
of Lake Superior Chippewa Indians. Welcome, Vice Chairman.
                              ----------                              

                                           Thursday, March 7, 2019.

       LAC COURTE OREILLES BAND OF LAKE SUPERIOR CHIPPEWA INDIANS


                                WITNESS

HON. JASON SCHLENDER, VICE CHAIRMAN, LAC COURTE OREILLES BAND OF LAKE 
    SUPERIOR CHIPPEWA INDIANS
    Mr. Schlender. [Speaking Native language.] First of all, I 
want to acknowledge Madam Chair McCollum and the members of 
this committee for the opportunity to speak on behalf of La 
Courte Oreilles and other tribes in this country.
    Miigwech to this committee for its substantial efforts to 
protect the interests of LCO, or Las Courte Oreilles, in the 
fiscal year 2019 Interior appropriations, and for once again 
rejecting the President's inadequate budget request for tribal 
programs. Chronic underfunding of tribal programs and treaty 
obligations has taken a toll on our tribe. We urge Congress to 
provide advanced appropriations for BIA and IHS so their 
crucial program are not impacted by government shutdowns or 
delays in funding.
    So you have my testimony for the record. I would like to go 
off and just speak personally as a beneficiary of our treaties 
that we have signed with the United States. And for Las Courte 
Oreilles, we have significant treaties signed in 1837, 1842, 
and 1854, of which I am a beneficiary of. I am also a 
beneficiary of all of the leadership that has come before you 
to request the necessary funding in order to run our programs.
    One of the huge issues that we have in Indian Country is 
the opioid epidemic. The opioid epidemic is ravaging Indian 
Country as you have heard, but the true center of it is on the 
historical trauma that impacts tribal communities and this 
country. The day I arrived here in Washington, DC, I spent 6 
hours in our museum, the National Museum of the American 
Indian, and I spent another 4 hours in the Museum of the 
African-American Culture and Museum. And it reminded me of the 
tragedies that have happened in this country. It reminded me of 
the trust obligation, you know, that the United States has with 
tribes.
    So with that, trauma-informed care is needed, and so I 
request for increased funding for behavioral health to 
implement preventative measures to battle addiction, 
depression, suicide, diabetes, and heart disease. Our children 
need those necessary programs in order to fulfill their purpose 
in life. We do need facilities for recovery as well, and so 
that is why the necessary request or the request for necessary 
increased funding for our Indian Child Welfare Act, which 
provides child protective services, neonatal services, foster 
care, are crucial for our community.
    In addition to that, the Bureau of Indian Education is also 
in dire need of an increase of funding, especially for our ISEP 
formula, which was mentioned in the prior testimony, our FACE 
Program. Also, the construction costs and contract support is 
desperately needed. We need those programs and the necessary 
funding in order to keep our teachers at a competitive wage 
because we lose them to public schools. And so with that, more 
programs can also be implemented. In our community, culture-
based programming is what is paramount for us. It is what has 
kept us alive from the beginning. You know, through everything 
that tribal people have endured, our culture and our language 
has been there for us and has kept us alive and kept us 
standing upright.
    So with that, I would also request that, in addition to our 
educational obligations, that we include roads and housing 
improvement programs, the Tiwahe Initiative, which includes 
tribal courts and job placement and training. Also in addition 
to that is the wildlife and parks, for more funding for water 
quality initiatives and law enforcement and biological services 
so that we can determine what a safe harvest level is for our 
people in our communities. In addition to that, go back to 
education with Title 3 funding, which is Part A and Part F, 
which is due to sunset in 2020, we just ask that not be done, 
and that funding for charter schools be directly funded as 
well.
    Also, I would also ask for this committee to support 
Abigail Echo-Hawk in her efforts to create additional 
mechanisms to attract missing and murdered indigenous women 
across this country. As I mentioned before, our culture is the 
cure for many of our social ills, but we strive on our partners 
and our treaties respecting their responsibility and honoring 
their part as well.
    So I close with this comment and this statement from 
Supreme Court Justice Hugo Black: ``Great nations like great 
men should keep their word.'' But I only want to add that great 
nations like great men and women should keep their word as 
well. And that is a testament to all the women that have been 
recently elected to Congress. We acknowledge them, and we say 
Miigwech to the two ladies, Sharice Davids and to Deb Haaland, 
for their recent appointments.
    Miigwech [speaking Native language].
    [The statement of Jason Schlender follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Amodei.
    Mr. Amodei. I yield back, Madam Chair.
    Ms. McCollum. Thank you. In yesterday's testimony I 
mentioned Congresswoman Haaland and Congresswoman Davids, and I 
was talking to them on the floor after I left in between the 
testimony yesterday. They have access to everything. They have 
been tuning in on and off in their offices in between their 
committee assignments. And I couldn't be more excited, I 
couldn't be happier than to have their voices at the table.
    Mr. Schlender. Absolutely.
    Ms. McCollum. And Ms. Haaland's role as the new co-chair of 
the Native American Caucus, as I stepped aside for that great 
honor of having her take on that is just absolutely amazing. So 
their voices are going to be very involved as we put this 
together, so thank you.
    And, Chairman, Mr. Trump's budget when it comes to Indian 
affairs appropriations is not popular with this committee. 
Unless he, you know, gives us an A-plus budget this time for 
tribal affairs, you will see the House step forward and do 
everything that we can to do right by our Native American 
brothers and sisters.
    I would like to take an opportunity with you gentleman 
here. As I was reading through all the testimony, the Tiwahe 
Program came up a lot, which I got to know well when visiting 
the chairman up at Red Lake. It deals with an integration of 
many things, and other tribes are saying they would like to 
have a pilot or they would like to do something similar. And 
for me, the core of it was children because the out-of-home 
placements that the chairman has shared with us was 
heartbreaking. All of you have brought up children in different 
ways, whether it is child protective services or whatever.
    Just for a second, let's focus on the most vulnerable among 
us who are sometimes our elders, but quite often are children. 
What are the one or two things that you think if we got right, 
as we put this through, could really be impactful for the next 
generation? We have to work on the generations here and their 
healing and their job opportunities, but all of us want to get 
it right for the next generation. Any top priorities within the 
child protection area?
    Mr. Schlender. If I may just for a minute just to kind of 
elaborate on our child protective services, which is within our 
Indian child welfare department. So our department is in dire 
need. Our department is understaffed, you know, and we have 
just so much need there, you know. So with an increased funding 
amount, we can get a larger staff. We can also increase the 
capacity for foster care and other things so our children can 
be surrounded by relatives and family, that they don't have to 
be, you know, separated from them or anything like that because 
that is what is the desperately----
    Ms. McCollum. [Off audio.]
    Mr. Schlender. Yeah, right, and increases to that, it just 
adds to the trauma that is already there.
    Mr. Payment. Just real quickly, I had the pleasure of 
testifying on Heidi Heitkamp's bill for the Child Commission. 
And so I would say that getting that fully functioning and up 
and running and accountable back to you to get reports across 
the spectrum. The challenge for Indian children is that our 
funding is piecemealed across budgets. And so the intent of the 
Child Commission was to get a good picture of the state of 
Indian affairs as it relates to our kids, our future 
generations. So I would say bringing that back and asking for 
accountability and reports back from that committee.
    Mr. Seki. My answer to that is, you know, I know you talked 
about the Tiwahe Initiative. The Tiwahe Initiative, you know, 
we have courts, but what helps Tiwahe is that the parents, you 
know, they get their kids back. The families get back together 
after they lost their children. What really helps is to 
continue to fund these programs that helps our native children.
    The other thing is the court system. We need immediate 
family to be considered to take the kids when they take the 
kids away from them. The grandparents, you know, the immediate 
family should get them instead of sending them out to non-
native families for the kids because our kids are very 
important in our nation, our Indian Country, because they are 
our next generation. And someday they will be sitting here 
talking to your replacements or whoever comes there.
    And education is very important, to educate our youth, to 
understand, and also the culture we have, they got to 
understand our culture. They got to speak our language and all 
that because everything is important on this table here for our 
families, all the way to elders, women, men, the younger 
generation that is coming, all these initiatives that we need. 
We got to protect our children. Children are very important to 
everyone.
    Mr. Taken Alive. Thank you for the question, Madam Chair. 
At Standing Rock we have the benefit of having the State border 
of North Dakota and South Dakota straddle our reservation. And 
there is a stark difference in the access to quality healthcare 
that the expansion of the Medicare Program has had. For 
instance, in North Dakota where the State has elected to expand 
Medicaid, you see children having greater access to basic 
services such as dental care, and including mental health care, 
so. And South Dakota has yet to embrace that, and there is 
definitely a difference.
    So certainly we have IHS to provide healthcare services on 
the reservation, but to have that extra resource for our 
families and for our children to tap into certainly enhances 
that care.
    Ms. McCollum. Thank you. Thank you, gentlemen. Thank you 
for your thoughtful testimony. Miigwech.
    Mr. Amodei, would you like to introduce the next set, and I 
will help you out. It is Assiniboine.
    Mr. Amodei. Well, with that offer, Madam Chair, I would 
respectfully decline because I don't want these people to hate 
me----[Laughter.]
    Ms. McCollum. No, they won't----
    Mr. Amodei [continuing]. For not doing the job of that.
    Ms. McCollum. They will not hate you. I used to go fishing 
around Fort Peck. So the next panel, you can do it.
    Mr. Amodei. Yeah, this looks pretty good.
    Ms. McCollum. Go ahead.
    Mr. Amodei. For the next panel, tribal government and human 
resources. Mr. Chairman Azure. I am Amadelli, too, so come on 
up. [Laughter.]
    Chief William Harris. I like the last three. Sorry about 
that, Mr. Chairman. Chairman Luke Duncan and Secretary Casey 
Mitchell. Madam Chair, I would like to, since you asked me to 
do this, I would like to yield back to you to correctly 
pronounce the names of the tribes, please, since you are the 
leader of the band here. [Laughter.]
    Thank you, and I yield back.
    Ms. McCollum. Good afternoon, gentlemen. We will start the 
clock at 5 minutes, and I know some of you came in afterwards. 
When it goes to yellow it is about a minute left, and we would 
ask you to be prepared to conclude your remarks. Welcome, and 
we will start out with the chairman of the Assiniboine Sioux 
Tribes of the Fort Peck Reservation.
    Voice. [Off audio.]
    Ms. McCollum. Oh, I am sorry. You are right and I am wrong.
                              ----------                              

                                           Thursday, March 7, 2019.

       ASSINIBOINE AND SIOUX TRIBES OF THE FORT PECK RESERVATION


                                WITNESS

HON. FLOYD G. AZURE, CHAIRMAN, ASSINIBOINE AND SIOUX TRIBES OF THE FORT 
    PECK RESERVATION
    Mr. Azure. Thank you very much. I am Floyd Azure, chairman 
of the Assiniboine and Sioux Tribes of Fort Peck Reservation. I 
would like to thank the subcommittee for the opportunity to 
present this testimony.
    I grew up on the Fort Peck Indian Reservation. I started my 
business and I raised my family on the Fort Peck Reservation. I 
love my home. I love my people who have entrusted me with their 
future. There is no place I would choose to live than the land 
my ancestors preserved for us.
    My people are facing challenges that for many communities 
are just abstract news stories. Their father is found 
overdosed. A child was taken from her parents. A mother commits 
suicide. But in my community these are not abstract news 
stories. Each of these tragedies is personal to me because I 
grew up with these people and their families, and, yes, because 
they trust me with their futures.
    In my house, it is not only I who bears the burdens of 
these tragedies. My wife, Geri, has been a kindergarten teacher 
in the Poplar School for almost 30 years now. She is one of the 
many unsung heroes throughout Indian Country who is making sure 
that no matter what is happening in a child's home life, when 
he or she comes to school they are safe. Because of Geri and 
people like her, I think Indian Country has a lot to celebrate.
    At Fort Peck, like many tribal communities across the 
Plains, we are celebrating our basketball teams. I am so proud 
of our Poplar Indians who are the 2019 Northern V Division 
champions. The last time this happened was 35 years ago.
    Ms. McCollum. Thirty-five years.
    Mr. Azure. But last night they began their successful bid 
for the State championship. They won their first game. It was 
great. And I can say as a politician, it is quite a sacrifice 
to be here with you this week and not home with this team 
cheering them on. I got a cousin that is on the team, a young 
cousin who is playing, so I cheer him on.
    This is a school that 10 years ago we had a CD identified 
suicide cluster. Five of our children in middle school 
committed suicide and 20 more 7th and 8th graders tried. The 
children who are playing in the State basketball tournament 
this week are the peers of the children who took their lives. 
Notwithstanding the pain and grief that they had seen and 
experienced in their young lives, they made a different choice. 
They chose to work to play a sport for the joy and for the love 
of our community. Whatever made these children get up and keep 
going to school, making their grades and going to practice, is 
what we need more of.
    I wish I could say that this week I will go home and it 
will be a Hollywood movie and all will be right, but that will 
not be the case. Our children will go home to a community that 
is overrun with drugs. This last summer we had a rash of drug 
overdoses, including two fatal overdoses in one month. Every 
month a child is born testing positive for meth or some other 
drug. We have entire families that are using from grandmothers 
to grandchildren. This level of social dysfunction is no doubt 
the cause of the high suicide rate in our communities.
    I wish I could say that this plague has passed over Fort 
Peck and that we found the magic bullet to stop this tragedy. 
But just last summer, Michel Lee, a 13-year-old boy, took his 
life. This boy was, really this baby, really had a family that 
loved him. He played sports and he was determined to go to 
college. In many people's minds, he had so much promise, but 
something happened and we lost this child. Who knows what we as 
a tribe lost because this young man lost hope and took his own 
life? I can only tell you that it is time that we stop burying 
our children and start working together to combat this tragedy.
    We would urge the subcommittee to continue to emphasize the 
need for additional mental health and substance abuse 
treatment. In particular, we support the effort to develop a 
special behavioral pilot program to combat behavioral mental 
health issues in a holistic and culturally-appropriate way. If 
the Poplar basketball team's success this year teaches us 
anything, it is that our children are resilient. We cannot give 
up on them. We need to have hope, and we need to fund the 
programs that will give them the tools they need to live a 
healthy lifestyle.
    I want to thank the committee for the time. Thank you very 
much. I appreciate it.
    [The statement of Floyd Azure follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Mr. Harris.
                              ----------                              

                                           Thursday, March 7, 2019.

                         CATAWBA INDIAN NATION


                                WITNESS

HON. WILLIAM HARRIS, CHIEF, CATAWBA INDIAN NATION
    Mr. Harris. Good to see you again. It is good to be before 
this committee. Thank you, Chairwoman McCollum, Ranking Member 
Joyce, and members of the subcommittee for the opportunity to 
testify on critical funding needs for American Indian and 
Alaska Native programs under your jurisdiction.
    The people of the Catawba Indian Nation thank you for your 
hard work on behalf of Indian Country and for inviting tribal 
leaders to submit witness testimony on their communities' 
behalf. My name is William Harris. I am the chief of the 
Catawba Nation, the only federally-recognized tribe in the 
State of South Carolina. And like our traditional pottery, the 
Catawba have been created from southern soil to be shaped and 
fired over time by unimaginable hardships, and now stand tall 
as a living testament to our ancestors and to our nation and 
the land we call home.
    To advance the socioeconomic development and wellbeing of 
Catawba and other communities, I offer the following budget 
recommendations for the fiscal year 2020. Increase support for 
non-gaming tribes. As a sovereign nation and industrious 
people, we are committed to achieving economic self-
sufficiency. For the Catawba Nation, this goal is immeasurably 
complicated by the terms of our 1993 settlement act with a 
State that inhibits meaningful tribal economic development. For 
example, our tribe is currently prohibited from establishing 
gaming operations on tribal lands, but we are allowed to 
operate two bingo halls, neither of which ever turned out a 
marginal profit due to the fact that the State was taking 10 
percent straight off the top.
    So it our hope to come back to Congress and ask for 
amendments to our settlement agreement that will restore some 
of lost sovereignty and free up social potential. In the 
interim, we continue to explore innovative avenues for economic 
growth. We urge Congress to invest in economic development 
programs for non-gaming tribes to further the Federal 
government's policy of promoting tribal self-determination and 
economic self-sufficiency.
    Expanded access to investment opportunities in Indian 
Country. Given adequate support and the appropriate resources, 
the majority of tribes would likely become, assuming they are 
not already, significant contributors to their local and 
regional communities. Tribes are economic engines of the 
tourism industry, renewable energies, and small business 
commercial services, among many others. However, limited access 
to capital and investment financing remain substantial barriers 
in Indian Country. We struggle with uniquely burdensome Federal 
regulations, poor infrastructure, and other issues that limit 
their economies from flourishing.
    It is important to create avenues for investment funds, 
financial resources, and business models that are mutually 
advantageous to the tribes and potential partners for economic 
advancement, stability, and diversification. We encourage 
Congress to provide increased support for investment 
opportunities in Indian Country for the 2020 fiscal year 
budget.
    Connect tribal communities to the local and regional 
economy. Increase BIA roads construction and maintenance 
funding. Adequate and well-maintained roads are essential to 
connecting tribal members, businesses, and partners with 
economic opportunities both on and off the reservation. The 
quality of road work network is often used to access local 
development and the capacity of a region to support economic 
development. If we were to evaluate the roads on our 
reservation as well as across Indian Country, many investors 
would find the infrastructure conditions to pose a business 
risk. Unsafe and undeveloped roadways discourage from 
partnering with tribal communities. They also contribute to 
lost employment opportunities because companies hesitate to 
operate businesses in an area that lacks the necessary 
infrastructure to efficiently move people and products between 
different markets.
    Funding for the BIA roads maintenance projects--excuse me--
has been level funded at about $30 million for several fiscal 
years despite the accumulation of over $490 million in backlog 
needs. Our reservation, for example, has 33 miles of roads 
included on the BIA roads inventory. Maintaining these road 
costs is $215,000 annually. We receive $25,000--thank you--in 
Federal assistance. As a small non-gaming tribal community, we 
need to be able to rely on our roads for economic growth. We 
urge Congress to provide $50 million for the BIA Road 
Maintenance Program to protect the health, safety, and welfare 
of Indian Country.
    Provide advanced appropriations for the Indian Health 
Services. The United States has a trust responsibility to 
provide for Indian healthcare, yet decades of underfunding and 
under resourcing IHS has contributed to a severe healthcare 
crisis across Indian Country. Full advanced appropriations of 
the IHS could promote greater stability and services, medical 
personnel recruitment and retention among the facilities. It 
would also provide IHS with the ability to address the Veterans 
Affairs Administration. So I encourage Congress to provide 
advanced appropriations for the IHS in 2020.
    Ms. McCollum. Thank you.
    Mr. Harris. But thank you for the opportunity of being here 
today.
    [The statement of William Harris follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Luke Duncan, chairman of the Ute 
Indian Tribe. Welcome, sir.
                              ----------                              

                                           Thursday, March 7, 2019.

                            UTE INDIAN TRIBE


                                WITNESS

HON. LUKE DUNCAN, CHAIRMAN, UTE INDIAN TRIBE
    Mr. Duncan. Thank you. Thank you. Good afternoon, Madam 
Chair, and members of the subcommittee. My name is Luke Duncan. 
I am the chairman of the Ute Indian Business Committee in 
northeastern Utah, Ute Indian Tribe, and I thank you all for 
the opportunity on behalf of my people, the Ute people. Thank 
you.
    And we ask for your attention to four issues that fall 
under the area of tribal government and human services today. 
These are education, housing, justice services, energy 
development. Of these areas, tribal government and human 
services are directly impacted by your funding decisions.
    Most importantly, the subcommittee must start a new effort 
to prioritize and fund Indian education through tribally-run 
schools. We ask that you remove the moratorium on Bureau of 
Indian Education funding for new schools and create a new 
source of funding for tribally-run schools. This funding is 
needed to fulfill the United States treaty and trust 
responsibility for the education of our youth.
    Currently, 2 percent of our tribal youth go to public or 
State public schools, and only 8 percent go to BIE schools, 
which are boarding schools. No matter what school they go to, 
100 percent of our youth are taught according to Federal and 
State standards. We on the reservation, we started a charter 
school, and we all know that the funding goes directly to the 
States from BIE, and from there, there is a headcount of our 
native students, and the funding all goes to there. And we have 
witnessed on our reservation where a lot of our children after 
the headcount is taken, they are moved away from the majority 
of students. They end up in our charter school that we 
established on the reservation, and they end up there.
    It is a self-paced school, and our school on the 
reservation is not just for tribal members. There are non-
tribal members there as well that graduate with our students. 
And like I always say and proud to say, we are the warriors, 
and when they graduate, the non-natives, they are warriors, 
too, when they leave our school. And I am glad to say that just 
last weekend, our team, our ladies'-girls' team, won State, and 
we are very proud of them.
    But I think it is very important. Almost all our children 
go to State schools and are taught Federal and State standards. 
These State schools are modern-day boarding schools to us. This 
unlawful delegation of Federal treaty and trust responsibility 
to States reaches State school budgets, as I mentioned. The 
States even keep the funding after our children are removed and 
sent home for whatever reasons,--behavior problems, whatever 
they come up with and they are removed. Children are constantly 
called in with their parents and try to address the issue, and 
in the end, they end up leaving.
    Aside from BIE's limited budget, all Federal funding for 
the education of tribal youth goes to States, as I mentioned. 
The Federal government must stop funding States to educate our 
youth according to State standards. It is very important now to 
our people, and I live on the reservation, and we do not want 
them to get further away from the culture as it did in the 
boarding school era. We want them to know who they are. We have 
lost enough of our children that way. Identity is lost, and we 
don't want to do that anymore. So we are asking today that the 
funding be increased for tribally-owned schools. And also with 
that I would like to say that, yes, they could be funded 
through the BIE and for tribal schools only.
    Also the tribe, we had a justice center that was outdated 
and condemned more or less about 10 years ago. The tribe put 
money into a new center, almost $36 million of our own funds to 
build one, and it was built, and it sits on the reservation 
now. And, you know, the BIE is more or less controlling that 
now because we don't have the funding to run that, enough 
funding. So we would like to ask for additional funding to help 
us with that.
    And also one issue I would like to bring up is housing. As 
we all know, you know, we have the housing problems on the 
reservations, and we have three or four generations under one 
roof. We would like to see that increased to where our homes 
can be built there for our people.
    And finally, we would like to ask your support for Indian 
energy development on the reservations. We are an energy tribe, 
and we ask you to protect funding for the Department of 
Energy's Tribal Energy Loan Guarantee Program. This is the only 
Federal program that help tribes access capital for commercial-
scaled energy products. Despite this energy dominance agenda, 
the President has eliminated this program, or trying to, and we 
ask you to support us and keep that there, if you would.
    I would like to say at this time thank you very much for 
allowing me to testify in front of you. Thank you.
    [The statement of Luke Duncan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Welcome.
                              ----------                              

                                           Thursday, March 7, 2019.

                            NEZ PERCE TRIBE


                                WITNESS

HON. CASEY MITCHELL, SECRETARY, NEZ PERCE TRIBE
    Mr. Mitchell. Thank you. Good afternoon, Madam Chair, and 
members of this subcommittee. I am Casey Mitchell, secretary of 
the Nez Perce Tribal Executive Committee. Thank you for the 
opportunity to provide testimony on behalf of the Nimiipuu 
people.
    I want to begin my remarks by acknowledging the invaluable 
work of this subcommittee. I express our deep gratitude for 
your efforts to advocate for increased appropriations for many 
years on a bipartisan basis to the multitude of programs in 
your jurisdiction which tribal nations administer and benefit 
from. Funding increases to tribal programs included in the 
final fiscal year 2019 Consolidated Appropriations Act build on 
increases you have helped secure for Indian Country in fiscal 
years 2017, 2018. [speaking Native language]. Thank you.
    I also want to add the voice of the Nez Perce Tribe to 
those of other tribal leaders who have expressed support for 
continuing to increase funding in fiscal year 2020 for tribal 
programs at BIA, IHS, EPA, and Fish and Wildlife, also your 
work, Madam Chair, with others to provide advanced 
appropriations for BIA and IHS. Urging you to continue to fund 
programs in the Interior and Environment bill at current levels 
that we anticipate the Administration's budget request will 
propose to eliminate. Continue to fully fund contract support 
costs, keeping funding for the Special Diabetes Program for 
Indians mandatory rather than discretionary, and keeping 
harmful riders out of appropriations bills.
    The Nez Perce Tribe does a tremendous amount of work 
administering programs of the BIA and IHS and EPA through 638 
programs and direct services. I would like to briefly describe 
some of these programs and interactions with agencies under 
this committee's jurisdiction.
    Law enforcement and social services are two of the larger 
departments of the tribe. However, funding for these programs 
is lacking. Currently the tribe has substantially subsidized 
our law enforcement program to ensure services are provided 
throughout the reservation. More monies are needed in these 
areas. Much of my work for the tribe has been in fisheries 
resource management. BIA natural resource tribal priority 
allocation and endangered species program funding has been key 
for our work related to Chinook salmon and steelhead.
    The BIA Rights Protection Implementation Account supports 
our exercise of treaty reserved off-reservation hunting, 
fishing, gathering, and our monitoring of fish harvests. In 
addition to BIA programs, the tribe operates a healthcare 
clinic on the reservation in Lapwai and a satellite facility in 
Kamiah that provides services for over 4,000 patients. This 
computes to over 40,000 medical provider visits.
    The tribe's funding through EPA comes from a variety of 
programs. A number of these programs have been funded at the 
same levels for several years, and the tribe recommends 
increases to them in fiscal year 2020. The Nimiipuu are river 
and salmon people. Since time immemorial we have fished the 
Columbia and Snake Rivers. The tribe requests that this 
subcommittee continue to fund EPA's Columbia River Basin 
Restoration Program. We recommend no less than $1 million 
provided in fiscal year 2019 be appropriated in fiscal year 
2020. We hope, however, that that number can be substantially 
increased.
    We also work with Fish and Wildlife Service to operate the 
Kooskia National Fish Hatchery and to co-manage Dworshak 
National Fish Hatchery. Also, the State and Tribal Wildlife 
Grants Program has enabled the tribe to monitor gray wolves, 
conduct research on big horn sheep and condor habitat, and 
conserve rare plants. It is important that the tribal share of 
these competitive grants be increased.
    The Nez Perce Tribe Reservation encompasses 11 national 
forests. We work with both the Forest Service and the Bureau of 
Land Management on the management of these treaty-reserved 
resources, such as big horn sheep within the tribe's aboriginal 
territories on these lands. As you can see, the work of the Nez 
Perce tribe with these agencies benefits 18,000 tribal and non-
tribal citizens who reside within the Nez Perce Reservation. 
These resources, such as air, land, the water, the four-legged 
and the winged creatures are sacred.
    The U.S. has a trust obligation to protect and preserve 
these through adequate funding, and in my language [speaking 
Native language]. I just want to say [speaking Native 
language]. Thanks a lot, and I want to refer back to a 
statement you made, Madam Chair. You know, all of us want to 
get it right for the next generation. I believe we all sitting 
in these seats and at this table are here because we want to be 
and that people believe in us to make that choice for them, not 
only our people, but, you know, all the programs and services 
that this subcommittee does as well.
    There was mentioned before that, you know, soon we will be 
the ancestors, and are our future children going to say that 
our ancestors made the good choice for me like our ancestors 
made good choices for us to be here today. So thank you, Madam 
Chair, and [speaking Native language].
    [The statement of Casey Mitchell follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. McCollum. Thank you. Mr. Joyce.
    Mr. Joyce. Thank you all for being here. I certainly 
appreciate your astute leadership on behalf of your tribes. We 
both realize the importance of making sure that we try to get 
the funding to meet your needs, so I don't have any questions. 
I just want to thank everyone for being here.
    Ms. McCollum. Thank you. I do have a question. In your 
testimony you talk about rural water----
    Mr. Azure. Yes.
    Ms. McCollum [continuing]. Which is also funded in another 
committee which I managed to get myself on. And all of Indian 
Country, I mean, if we looked at your budget, it comes out of 
so many different lines.
    Mr. Azure. Yeah.
    Ms. McCollum. Would you take a moment and elaborate a 
little more on your rural water comments that are in your 
testimony so it is on the record publicly?
    Mr. Azure. Our rural water program is awesome----
    Ms. McCollum. The mike.
    Mr. Azure. Oh, sorry. Our rural water project is awesome. 
We have just about completed it. There are about 2 to 3 years 
left in it. We have been working very hard, very diligently on 
it. We service everyone in northeastern Montana, probably from 
Glasgow, Montana all the way to the North Dakota/Montana 
border, also from the Missouri River north to the Canadian 
border. It is not only on our reservation. We service outside 
communities also, like Culbertson, Glasgow, Nashua.
    And it has provided the Fort Peck Tribes with excellent 
water because prior to that our water was contaminated by the 
oil industry, and that was in our groundwater. We had a dam put 
on our Poplar River, which is one of the main rivers that run 
from Canada to Poplar, right by Poplar, and that there has now 
got a coal-fired power plant on it which was built back in the 
80s, and it slows the water down considerably. We have the Milk 
River that runs on the west side of our reservation which is 
going to be crossed shortly here if it goes through the KXL 
Pipeline, which will also cross the Missouri River which is 
where we get our water right now.
    We are adamantly opposing that. We want them to redirect 
it, and if that goes, we will have no more fresh water sources. 
Oil does not float. It sinks. We have no idea how they would 
clean it up. It not only would affect our drinking water for 
all those 30,000-plus people that we supply water to right now, 
but it will also affect the irrigation systems that we have, 
not only that is on our reservation, but south of the Missouri 
River on the other side off the reservation. Those people also 
irrigate, and it will also harm them.
    I am adamant about this. I always feel that we are always 
overlooked. It has always been like that. We have never, ever 
been consulted on it. It came forward later. We have had 
numerous visit with KXL-TransCanada. They have been basically 
giving us a commercial, is what I call it, of how they are 
going to do this and what they are going to do, not really 
addressing our needs or our requests. We have requested 
numerous times to have information from them on how they came 
about with the science backing them on the Missouri River 
because we disagree with it because the river that they are 
using is nothing like the Missouri River. And the place that 
they put it is nothing like where they had any other pipeline 
going through.
    So that is where we are right now, and that there is one 
thing that I think that we should take another look at.
    Ms. McCollum. Well, one of the reasons why I asked is my 
grandfather was from the Sidney/Fairview area. I spent a lot of 
time up and around there, and I know how special the water is 
and the fish that we pulled out of there.
    Mr. Azure. Oh yeah.
    Ms. McCollum. So I thank you for your comments. It is very 
dear to my heart, the water that you are talking about.
    Mr. Azure. Yes, thank you.
    Ms. McCollum. The other question I have, you mentioned the 
number of children that are being tested positive for drugs, 
basically upon delivery. Is there anything that the Bureau is 
doing with identifying early interventions, because there could 
be interventions to help these children as they develop or work 
with family on that? I mean, they are tested. They know when 
they are born. Is there any follow-up that the Bureau is 
offering the tribe?
    Mr. Harris. No.
    Ms. McCollum. None.
    Mr. Azure. We are working on something right now where we 
can try and keep that family together, and I want to thank you 
for the expanded Medicaid and Medicare. It has been an absolute 
help on our reservation. And through that we have identified a 
rehab facility in Seattle, Washington, where they will take the 
whole family and help them rehabilitate themselves with that, 
including they will put the child back with the family and the 
mother, and they will take the whole family. And that there, I 
believe, is for a year.
    But we would have never, ever been able to do that without 
the funds we get from the Medicaid and Medicare third party 
billing expansion. That there has been awesome for the Fort 
Peck Tribes. I got individuals in my administration, in my 
offices that basically would have been considered disabled if 
they weren't able to take advantage of that. One of them had 
two knee replacements. One of them had one knee replacement. 
And right now they are back at work, which is great not only 
for us, but for the State of Montana because disability 
payments come out of the State of Montana. So I want to thank 
you very much for that.
    Ms. McCollum. Well, thank you. Thank you for sharing. Could 
you give me an example or two, Mr. Mitchell, Mr. Harris? You 
both mentioned environmental protections and that. We have 
heard a little bit about the tribal priority allocation, and 
that there are not enough dollars to go around. What are some 
of the things that you would do if you had increased funding 
for some of the environmental work that you would like to do? 
Anybody who would like to comment on that. Some things that 
would be targeted with more dollars for environmental 
intervention.
    Mr. Harris. I know for Catawba, and I will only speak for 
Catawba, currently right now our water is being on our 
reservation from a local city, and what we had an episode that 
happened that took us about a year and a half to get rectified. 
The water they were putting through their system was not 
meeting our standards, which is, you know, we can do equal to 
or better than. And so we spent a lot of dollars trying to get 
that water level to acceptability, and with that we weren't 
able to do that.
    So what we are looking at now is trying to find fresh water 
wells on our reservation that will allow us to test those sites 
and see if we can get that water and be self-sufficient and get 
it away from the city.
    Ms. McCollum. Anybody else on any environmental projects?
    Mr. Duncan. For the Nez Perce Tribe, you know, the funding 
comes from a variety of programs, you know, the Clean Water 
Act, Indian General Assistance Program, Tribal Brownsfields 
Program, underground storage, Clean Air Act, Region 10 
pesticides, circuit rider programs, as well as others. You 
know, these programs have helped the Nez Perce Tribe 
tremendously in our environmental protection.
    For us it would be also the water system there has been 
some water quality standards that have been suggested to our 
area that are well below what our fish consumption rate may be 
for tribes. So, you know, some of the water quality standards 
have been suggested that are just not adequate for what the 
tribe's standards are.
    Ms. McCollum. Anything else you would like to add on the 
environment?
    Mr. Duncan. Yes. Right now, you know, our water system on 
the reservation, you know, it is not adequate. And your 
question, yes, we would increase our staff to make sure 
everything is placed. We are kind of getting to that point 
where we are looking at an outdated water system for all our 
people, and that serves all of the reservation and non-members 
as well. So that is what we do.
    And also in the area of air EPA, right now, you know, we 
are an oil and energy tribe, and we have been having problem 
with the ozone layer, and we do have departments that are 
dealing with that. But we have been meeting with the EPA and 
trying to work out something with the EPA, and they promised 
us, you know, with the FHIP Program and to get us on a national 
FHIP, but it has been a drag, drag, drag.
    It is time consuming, so, you know, we have met with them 
again here today. And, you know, hopefully we will get that in 
place to get something in place for us. And our tribe, because 
we are a non-gaming tribe, Utah will never be that. But, you 
know, our existence is on oil and gas. We have been in oil and 
gas for 70 years now, and that is what we would do. We would 
add additional staff with that. Thank you.
    Ms. McCollum. Well, thank you. Thank you, gentlemen, and I 
will let Ms. Pingree call up the next panel, and I have to 
leave. And I just want to thank everybody for their 
participation. This was amazing, and you have helped us hone in 
our budget better. Thank you.
    Voice. Thank you.
    Ms. Pingree. [presiding.] Great. Very nice to have you all 
here. I am Chellie Pingree. I represent Maine, so we have had a 
visit from one of our tribes earlier today, and we are very 
happy to have all of you here today. And let's start with Dr. 
Payment.
                                           Thursday, March 7, 2019.

                     TRIBAL INTERIOR BUDGET COUNCIL


                                WITNESS

HON. AARON PAYMENT, MIDWEST REGION CO-CHAIR, TRIBAL INTERIOR BUDGET 
    COUNCIL
    Mr. Payment. I want to thank the committee again for 
holding this hearing for tribal witnesses. Again, my name is 
Aaron Payment. I testified a little bit earlier. In addition to 
serving as chairperson of my tribe, again, I serve as the 
Midwest region co-chair for the Tribal Interior Budget 
Committee and first vice president of the National Congress for 
American Indians.
    As background, TIBC provides a forum for the BIA budget 
government-to-government consultation with statutory authority 
that originated in the Indian Self-Determination and Education 
Act. Today I will talk about the ways the subcommittee could 
incorporate the information from the BIA budget formulation 
process in your work.
    The budget formulation and consultation process is critical 
to identifying potential efficiencies, while at the same time 
ensuring the Federal government uphold its solemn treaty and 
trust obligations to Indian Country. As part of the fiscal year 
2020 budget consultation process, tribes from each of the BIA 
regions across the country completed a survey to outline which 
10 budget line items they would prefer to provide increased 
funding to and why. The results of this process showed that the 
BIA social services, ICWA, tribal court, aid to tribal 
governments, scholarships and education, criminal 
investigations and policy, road maintenance, housing and home 
improvement program, Johnson-O'Malley, detentions and 
corrections, and welfare assistance made up the top 11. This 
oral testimony will address some of these issues, but not all, 
but it is in my written testimony.
    In human services, the Social Services Program provides the 
only BIA and tribal-specific funding available to child protect 
services for both Indian children and adults in Indian Country. 
Native American families are exposed to domestic violence and 
child endangerment situations at a higher rate than in non-
native communities. These disparities are related to problems 
of poverty, violence, and substance and child abuse. In 3 of 
the past 5 years of budget formulation, tribes have identified 
social services as the top program area in BIA needing 
increases. The Social Services Program is drastically 
underfunded, and tribal programs, families, and children suffer 
as a result.
    Another important human services program is ICWA funding, 
which is the foundation of most tribal child welfare programs. 
In order for native children and families to receive the best 
possible services in tribal and State systems and allow tribes 
to assist State agencies and courts, adequate funding must be 
provided to tribal governments to support their child welfare 
programs. We recommend that ICWA on and near reservation 
program appropriations receive at least $20 million, and an 
additional $5 million for the off-reservation ICWA 
implementation which has never been funded.
    The last program I will address is the welfare assistance 
line item which provides five important forms of funding to 
American Indian and Alaska Native families: general assistance, 
child assistance, non-medical institution or custodial care of 
adults, burial assistance, and emergency assistance. Child 
welfare programs and social services agencies need to have 
these resources necessary to support families in times of 
crisis and uncertainty.
    In our written testimony, we have included much more 
detail. I also want to emphasize that it is so important that 
the BIA and IHS receive advanced appropriations to provide 
budget certainty.
    We appreciate the work of this committee, and I want to 
thank you for protecting our treaty and trust obligations in 
the Federal appropriations process. Thank you.
    [The statement of Aaron Payment follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you. Thank you very much. And we will go 
ahead with Ms. Martin.
                              ----------                              

                                           Thursday, March 7, 2019.

               NATIONAL INDIAN CHILD WELFARE ASSOCIATION


                                WITNESS

AURENE MARTIN, BOARD MEMBER, NATIONAL INDIAN CHILD WELFARE ASSOCIATION
    Ms. Martin. Good afternoon. Thank you for the opportunity 
to be here today. My name is Aurene Martin. I am a member of 
the Bad River Band of Lake Superior Objibwe, and I am here on 
behalf of the National Indian Child Welfare Association. I am 
on their board of directors.
    The National Indian Child Welfare Association, or NICWA, is 
a national American Indian and Alaska Native organization with 
over 25 years of experience in public policy development 
related to native children and families. Our mission is 
twofold. First, we try to address the issues of child abuse and 
neglect through training, policy development, research, and 
community development. Our other main goal is to support 
compliance with the Indian Child Welfare Act.
    The primary focus of my testimony today will be BIA 
programs serving native children and families, and so it is 
going to actually dovetail well with Aaron's testimony. Before 
I go into my comments, though, I would like to thank the 
committee and its staff for their--I am trying to suck up----
    [Laughter.]
    Ms. Pingree. Go ahead. It is good.
    Ms. Martin [continuing]. For your support of child welfare 
and social service programs for Indian tribes. Without your 
support, the situation would be so much worse, and I do really 
appreciate your efforts to help Indian Country.
    So as Aaron discussed, native children are placed in foster 
care at a much higher rate than those children in the general 
population. And, in fact, in some States the level is 10 times 
as many children. Yet tribal governments are some of the most 
underfunded when it comes to programs that deal with these 
issues. And in some situations, they don't have any direct 
access at all and have to go through States for funding. Some 
examples of that are the Social Services Block Grant, Medicaid, 
and the Mental Health Block Grant.
    We also know and studies have shown that the surest way to 
reduce the number of children in the child welfare system is to 
have full capacity to treat the children while they are still 
in the home, but also when they are in State care. And although 
Federal law recognizes that tribe's rights, their inherent 
sovereign rights, to intervene in child welfare cases and to 
provide services for their children, with the lack of funding 
it makes it extremely difficult to enforce your rights or to 
provide basic services. So it is for these reasons that we 
provide our recommendations.
    I am only going to talk about three. We have got additional 
recommendations in our written testimony. But our priority 
recommendation is that Indian Child Protection and Family 
Violence Prevention Act grant programs--that is a mouthful--be 
funded at $43 million. And this act, Indian Child Protection 
and Family Violence Prevention Act, was enacted in 1990 to 
address the lack of reporting, investigation, and treatment, 
and prevention of child abuse in Indian Country.
    It sought to do two things, one, to identify incidents of 
abuse and family violence in Indian Country and to reduce those 
incidents, and also to provide funds for mental health 
treatment for victims of abuse and family violence. It created 
mandatory reporting requirements and required background checks 
for professionals that deal with native children, and it has 
been pretty successful in addressing those incidents. However, 
the other main goal of the act was to provide funding for abuse 
prevention and mental health treatment for native families, 
particularly children who have been abused, and that has never 
been funded. And we feel that particularly right now with all 
of the attention on VAWA and domestic violence, that the 
children who are the victims of these situations as well 
receive treatment.
    Our other request, or second request, is to fund ICWA 
programs both on and off reservation. The on-reservation ICWA 
funding was originally intended to help tribes provide basic 
social services for ICWA cases, and it has been successful, but 
it is woefully underfunded. And so it is funded at about $19 
million right now, and almost every tribe receives it. However, 
over two-thirds of the tribes receive less than $30,000, and 
with that $30,000, the list of things that they have to do is 
long. They have to provide child protective services, family 
reunification and rehabilitation services. They have to provide 
case management. They have to recruit and retain foster care 
families and provide adoption services. And that is not even 
money for one full-time position.
    Additionally, off-reservation ICWA programs provide the 
same services as an on-reservation ICWA program, but they have 
not been funded for a number of years. With 67 percent of the 
native population living off reservation, we feel it is vitally 
important to provide those services.
    I will sum up. We know that prevention, intervention, and 
treatment of childhood trauma saves not only lives, but money, 
because children who experience violence are more likely to 
have problems and end up in the system later. So that is the 
reason for the recommendations, and I thank you for the 
opportunity to testify.
    [The statement of Aurene Martin follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. That is great. Thank you very much. Mr. Black.
                              ----------                              

                                           Thursday, March 7, 2019.

                   NAVAJO-HOPI LAND COMMISSION OFFICE


                                WITNESS

ROBERT BLACK, JR., EXECUTIVE DIRECTOR, NAVAJO-HOPI LAND COMMISSION 
    OFFICE
    Mr. Black [speaking Native language]. Good afternoon. My 
name is Robert Black, Jr. I serve as the executive director for 
the Navajo-Hopi Indian Land Commission. I was recently 
appointed by the Navajo Nation president, Jonathan Nez. I also 
want to introduce myself in my Navajo clanship protocol 
[speaking Native language]. And thank you for the introduction.
    Chairwoman McCollum, Ranking Member Joyce, members of the 
subcommittee, thank you for this opportunity to testify on 
behalf of the Navajo-Hopi Land Commission Office of the Navajo 
Nation. We thank the subcommittee for its commitment to 
bringing a humane end to the tragedy of Navajo relocation. We 
are deeply appreciative of the subcommittee's 2015 visit to the 
Navajo Nation to witness firsthand the effects of relocation.
    We are also thankful for the increased funding that the 
subcommittee provided which accelerated the process whereby the 
Office of Navajo-Hope Indian Relocation provides homes to 
Navajo relocatees. In addition, we thank the subcommittee for 
hosting a roundtable last June to discuss the remaining 
obligations of ONHIR.
    We continue to believe that the United States made a 
commitment to provide infrastructure for the people who are 
relocated and that this promise had remained unfilled. However, 
one idea that came out of the roundtable could make a big 
difference. ONHIR is authorized to call upon any department or 
agency of the United States to assist in carrying out the 
relocation plan.
    In the Commission's 1983 report and plan update, the Agency 
stated its intention to initiate coordination efforts to 
establish joint governmental agency involvement for future 
relocation to deal with such areas as employment, roads, 
utilities, and like areas of need. However, there has been 
insufficient involvement by other agencies with the funding 
necessary to fulfill Congress' promises. If other resources can 
be brought to bear, much can be accomplished. We, therefore, 
urge the subcommittee to include language in their 
appropriations report supporting this multi-agency approach.
    We must also note that there are a couple hundred Navajos 
who can potentially appeal their negative determinations. A 
number of them will succeed, so additional housing will still 
need to be constructed. If these appeals reveal any concerns 
with the eligibility determination process, those concerns will 
also need to be addressed.
    The Padres Mesa Demonstration Ranch has been a success and 
must be protected through any ONHIR transition. Padres Mesa has 
taught relocatees the benefits of cattle management, range 
management, and beef/cattle marketing to produce a brand know 
as Navajo beef, which is recognized for its quality and 
generates nearly twice the economic return as the families 
previously realized.
    In 1966, commissioner of Indian Affairs, Robert Bennett, 
imposed a development freeze that lasted for 40 years, 
devastating a 1.6 million-acre area, encompassing nine Navajo 
chapter communities. Going back to the War on Poverty and the 
Great Society Program, and continuing through numerous Federal 
economic and anti-poverty initiatives, as well as programs 
directed at Indians, in particular, this area was ineligible 
for aid. For the former Bennett Freeze Area to recover, there 
must be a sustained development program.
    The Nation fully supports the need for an independent and 
adequate audit of ONHIR, which Interior has suggested it would 
undertake. The Navajo Nation strongly encourages that any audit 
include assessments of the relocation houses and relocatee 
facilities that ONHIR built. The Nation and ONHIR have long 
disagreed over the workmanship of those homes and facilities. 
We believe that the best way to resolve those issues is with an 
independent audit to ensure that the relocatees who receive 
shoddy houses and facilities can have them repaired.
    The Navajo Nation understands that ONHIR has remained open 
for longer than the Federal government originally expected, but 
that is the fault of the Nation nor the relocatee families who 
still not received the full benefit of the promises that were 
made for them to leave their lands. The Navajo Nation is deeply 
appreciative of the support and compassion of the subcommittee, 
and we request that this subcommittee continue to work and 
advocate for the United States to honor its commitments.
    Thank you for this opportunity to testify [speaking Native 
language].
    [The statement of Robert Black follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Ms. Pingree. Thank you very much. Mr. Joyce, any questions 
or thoughts?
    Mr. Joyce. Thank you very much, Madam Chair. I don't 
necessarily have any questions. I hear what you have to say. I 
appreciate the opportunity to spend the last 2 days listening 
to dozens of witnesses who have testified about the IHS, BIA, 
BIE, and our failure to live up to our treaties and obligations 
and our need to do so. I am sure my colleagues would agree to 
work on the rest of our committee and the rest of our body here 
in the House to do what is necessary in the Interior bill this 
year to take care of it, as best we can.
    As you know we are always hamstrung by the amount of money 
we can get, but I know that our chairwoman is in there fighting 
hard to get us a bigger number than we even had last year so it 
can be distributed accordingly. So thank you all because I know 
you have come from a long way to be here, and I certainly 
appreciate your taking the time to teach us of our failures.
    Ms. Pingree. Yes, thank you, and I would certainly echo 
that. As you heard, the chair had to pop over to one of her 
other committees, but I concur with everything Mr. Joyce had to 
say, and do believe we are going to work hard to try to 
increase the funding levels. The testimony that we have had and 
that you have been a part of over the last couple of days is 
just a constant reminder of how we're not meeting our treaty 
obligations. And, we don't want to be the people responsible 
for allowing that to continue.
    I just wanted to point out, too, I really appreciate the 
work you are doing on childhood trauma and family separation. I 
have learned a lot from some of the work that has been going on 
in Maine and people really digging into their past about what 
challenges they face personally being separated at a young age. 
It is just clear this country has made so many mistakes along 
the way. Let's try to help people, work through it in their own 
lives, but also just make sure we stop making those horrible 
mistakes again.
    Thank you very much on behalf of the committee for being 
here. I think we are going to adjourn with you guys, so thanks 
for wrapping it all up and doing such a nice job.
    Mr. Joyce. Thank you.
    Ms. Pingree. This committee is adjourned.

                                         Wednesday, March 27, 2019.

                              MEMBERS' DAY

    Ms. McCollum [presiding]. Good afternoon. The hearing will 
come to order. Welcome, members of Congress, to the witness 
hearing for the Interior, Environment Appropriations 
Subcommittee. Today we hear from members of Congress on 
pressing issues ranging from Indian Country funding, to Great 
Lakes restoration, to the clean up of abandoned coal mines. 
Members testifying today represent the interests of both 
Republicans and Democrats from diverse States and a broad range 
of ecosystems.
    Before I begin, I will touch briefly on hearing logistics. 
I would like to remind those in the audience that committee 
rules prohibit use of cameras and audio equipment during a 
hearing by individuals without House-issued press credentials 
or an official staff credential from a member that is present 
at this table.
    Each witness will have 5 minutes to present their 
testimony, and we will be using a timer to keep us on track. 
After we hear each testimony, members will have an opportunity 
to ask questions. And with that, I turn to my friend, my 
colleague, my ranking member, Mr. Joyce, for any of his 
remarks.
    Mr. Joyce. Thank you, Madam Chair, and thank you for 
continuing this important hearing to get input from our 
colleagues on programs in this bill that are important both in 
their districts and across the Nation. I applaud my colleagues 
for bringing the voices of their constituents to this hearing 
today. We pledge to do what we can to try and be helpful in the 
coming weeks and months as I work with my chair and the rest of 
my colleagues on the subcommittee to pass this bill. I yield 
back.
    Ms. McCollum. Thank you so much, Mr. Joyce. I would like to 
turn to my chairman from the Defense Committee, Mr. Visclosky 
from Indiana. And we are interesting in hearing your public 
testimony. Thank you for being here.
                              ----------                              

                                         Wednesday, March 27, 2019.

                                WITNESS

HON. PETER J. VISCLOSKY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    INDIANA
    Mr. Visclosky. Thank you very much. The first thing I want 
to do profoundly is to thank both you and the ranking member, 
Mr. Joyce, for your efforts on behalf of the Indiana Dunes 
National Lakeshore. You ensured passage of legislation that 
provided the first national park for the State of Indiana, and 
I deeply appreciate that in the consolidated act you provided 
for the welfare of my congressional district. I deeply 
appreciate your help and the members of this subcommittee.
    Secondly, relative to parks, as you are well aware, the 
deferred maintenance backlog is about $11.9 billion and would 
encourage you to every extent possible to ensure robust 
funding. The second priority relates to the Agency for a Toxic 
Substances and Disease Registry, which essentially has been, 
even for a number of years, which given the rate of inflation 
means they have had a decrease. The President has exacerbated 
it in his budget request, and, again, would ask that you pay 
special attention to that account.
    And finally, the third relates to chemicals, PFOS and PFOA. 
The chairwoman is very familiar with this. We have had a number 
of hearings, and we are looking for cooperation between the 
Department of Defense, EPA, and the setting of standards, and 
know that we will have that cooperation. And I thank you for 
that.
    Ms. McCollum. Thank you very much, Mr. Visclosky, for your 
remarks, and I appreciate you bringing up PFOS and PFOA as 
well. This committee will be looking at that. Mr. Joyce.
    Mr. Joyce. I appreciate being brought up to speed on the 
matter with the Department of Defense. I am not as 
knowledgeable as you both are, but I look forward to helping 
any way I can. Thank you, sir.
    Mr. Visclosky. Thank you very much.
    Ms. McCollum. I hope to get out to the Indiana Dunes 
National Park at some point.
    We did have assigned times for folks, but I think we can 
take members as they are here. Mr. Posey, please come up, and 
we will change that nameplate out for you, sir.
                              ----------                              

                                         Wednesday, March 27, 2019.

                                WITNESS

HON. BILL POSEY, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF FLORIDA
    Mr. Posey. Well, thank you, very much, Madam Chair and 
Ranking Member, for having us today and actually listening to 
the concerns of members. So much appreciate it.
    This request is for a national priority, but it is also 
very close to home. Our district is bounded on the east by the 
Indian River Lagoon. The Indian River Lagoon is North America's 
most biodiverse estuary. The lagoon is home to over 4,000 
animal and plant species, including manatees, dolphins, sea 
turtles, and several species of sea grass. As the name implies, 
our estuary is a lagoon, meaning it is an estuary separated 
from the ocean by barrier islands.
    Inlets from the ocean provide an exchange of waters between 
the lagoon and the sea. Our lagoon needs tides and storm rain 
to avoid stagnation. We know that this flushing is limited, 
especially in the northern end of the lagoon. While the lagoon 
is 156 miles long, it is only a half mile to 5 miles maximum in 
width and averages just 3 feet in depth. The lagoon is a 
wonderous nursery for sea life, and its physical features make 
it especially vulnerable to environmental threats.
    We depend on citizens, local, State, and the Federal 
government to protect and restore the functions of our lagoon. 
This objective is not merely aesthetic. A vibrant tourism and 
fishing industry depends on the lagoon. When our lagoon 
suffers, so do people. The struggle to preserve the Indian 
River Lagoon is a fight for our economic sustainability.
    More is at stake. Preserving the natural functions of our 
lagoon is an ethical matter. Our community includes the lagoon, 
and we are part of the lagoon community. Taking care of the 
lagoon not only takes care of us, but it is the right thing to 
do. The story of our district and the Indian River Lagoon plays 
out along our entire national coastline. The entire U.S. 
coastline depends on the health of estuaries. More than half of 
the U.S. population lives in coastal areas, with the coastal 
watershed counties providing an estimated 69 million jobs and 
contributing an estimated $7.9 trillion to the gross domestic 
product annually.
    That is why I partnered with Congresswoman Suzanne Bonamici 
to found the bipartisan Congressional Estuary Caucus to work to 
advance policies that preserve and restore our estuaries, to 
support sustained authorization and funding of the National 
Estuary Program, and to help support other efforts, like 
research and development, that contribute to healthy estuaries. 
I am pleased to be here today as co-chair of the Congressional 
Estuary Caucus and to submit to you a request for funding for 
the National Estuary Program.
    This great program is truly a national response, but it is 
deployed regionally. The NEP is really 28 unique, voluntary 
programs under the Clean Water Act that seek to protect, 
restore, and improve estuaries of national significance. Each 
individual-designated estuary mobilizes its own local community 
in a collaborative, non-regulatory investment strategy that 
meets local needs while contributing to the national 
objectives.
    For every Federal dollar, the designated regional estuary 
programs leverage the Federal participation with $19 in local 
funds to protect and improve coastal environments. And I want 
to repeat that. This is just not, you know, coming and asking 
for funding by the Federal government and not doing their part. 
Nineteen local and other dollars are leveraged for every 
Federal dollar that goes into this to improve our coastal 
environments, our communities, our assets of national 
significance, and, of course, our economies. That is great 
performance for the way we should pursue national programs: 
Federal support with a local delivery system.
    I respectfully ask that as you develop the fiscal year 2020 
Interior, Environmental, and Related Agencies Appropriations 
Act, the Committee will continue to fully fund--not increase--
the National Estuary Program at the authorized level of $750 
million--$750,000--I wish----
    [Laughter.]
    Mr. Posey [continuing]. For each of the 28 estuaries and 
fund the competitive grants program once again at $4 million. 
Thank you for the opportunity to appear before you. I would be 
delighted to answer any questions you have.
    Ms. McCollum. Thank you, sir. We were very disappointed in 
the President's budget with the proposed elimination for the 
National Estuary Program because it is so very important, so I 
really do appreciate your testimony on this. And as Mr. Cole 
says, the President proposes and Congress disposes. As you 
know, we had this in our bill last year under Chairman Calvert.
    Mr. Posey. Exactly the same thing, and tables reversed. 
But, you know, so it has been an interest of both sides of the 
aisle to work on this stuff, and I just really appreciate your 
attention to it.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you, Mr. Posey, and I am well aware of the 
Indian River Lagoon with my parents and brothers having been 
residents of Vero Beach.
    Mr. Posey. Yeah.
    Mr. Joyce. So I have had the opportunity to enjoy it and 
fish. And one day I am going to catch an edible snook in the 
size and slot available. I have never been able to do that, to 
enjoy one, but it is great fishing and a beautiful area. Glad 
to help.
    One question. Are you having a problem with the algal 
blooms?
    Mr. Posey. Oh, heck yes.
    Mr. Joyce. OK.
    Mr. Posey. Every estuary is having a problem with the algae 
blooms, and it is not just in this country. They have 
discovered some of the same algae in South America.
    Mr. Joyce. Right.
    Mr. Posey. Massive fish kills there. We have had them in 
unforeseen proportions previously now. There have been fish 
kills since I was a little boy, you know? And we could see in 
the Indian River Lagoon not just the bottom and not just fish, 
but it was clear enough in most cases to tell what kind of fish 
it was. It was, you know, not too deep, you know?
    Mr. Joyce. Sure.
    Mr. Posey. Now you are lucky to see past the surface, the 
surface runoff of a whole lot of other problems that population 
brings. And it is not something that is easy to get the public 
alerted to unfortunately until it reaches really----
    Ms. McCollum. Right.
    Mr. Posey [continuing]. Almost disastrous consequences. 
Then everybody says, hey, where has everybody been.
    Mr. Joyce. Right.
    Mr. Posey. So, but the Federal government in this funding, 
the National Estuary Program has been vital and very helpful, 
and I am proud of the NEP's participation in all the estuaries. 
And they are all funded the same, you know. Each estuary gets 
the base of $750 is what you have historically done, and then 
the extra is sort of grants based on a competitive basis, but 
based on need. So the worst problem would be first in line to 
get one of the competitive grants, and I think they also look 
at the bang for the buck, you know, what will do the most good.
    Mr. Joyce. Well, the 19-to-1 leverage is certainly----
    Mr. Posey. Huh?
    Mr. Joyce. The 19-to-1 leverage that you enjoy----
    Mr. Posey. Yes.
    Mr. Joyce [continuing]. With the Federal dollars is 
certainly something to be envied. I have no further questions. 
Thank you, Madam Chair.
    Mr. Joyce. Thank you. Mr. Rooney was in my office talking 
about some issues and this came up as well, so I know it has 
broad support in your caucus. Thank you.
    Mr. Posey. Well, great. Well, thank you both so much.
    Ms. McCollum. I see Mr. Gallagher. I am looking around for 
some of the other members. I am not seeing them right now. Mr. 
Gallagher, welcome.
    Mr. Gallagher. Wow. I get to go to the front of the line.
    Ms. McCollum. You bet.
    Mr. Gallagher. Very exciting.
    Ms. McCollum. The world belongs to those who show up on 
time, right?
    Mr. Gallagher. That is right. In Green Bay, Wisconsin, we 
operate by Lombardi time, which is if you are on time, you are 
15 minutes late, so. [Laughter.]
    Ms. McCollum. Yeah. Well, this Vikings fan will not hold it 
against you. [Laughter.]
    Mr. Gallagher. Well, rather than stress our differences, I 
want to talk about something that I am sure we agree upon 
today. [Laughter.]
    Ms. McCollum. My high school team were the South St. Paul 
Packers, so we will leave it at that.
    Mr. Gallagher. OK. Good. So you are a Packers fan in your 
own way.
                              ----------                              

                                         Wednesday, March 27, 2019.

                                WITNESS

HON. MIKE GALLAGHER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    WISCONSIN
    Mr. Gallagher. Well, thank you, Madam Chair and Ranking 
Member Joyce. Thank you for the opportunity to address this 
subcommittee and particularly for your leadership on behalf of 
the Great Lakes. I know you and many others on this 
subcommittee have been tireless advocates for the Great Lakes 
Restoration Initiative. So while I know I will not be saying 
anything new today, please bear with me as I spend a bit of 
time explaining about why I believe this program is so 
important to northeast Wisconsin--my home--and beyond.
    Anyone who has visited the Great Lakes knows they are a 
national treasure. They not only hold over 20 percent of the 
world's fresh water supply, but support thousands of family-
sustaining jobs. Industries from agriculture, to 
transportation, to tourism depend on the health and 
preservation of these waters. These lakes, however, provide for 
more than just our economy. They provide for a way of life.
    Lake Michigan is the backyard of my district. From swimming 
and boating in the summer, to ice fishing in the bitter cold 
winter, Lake Michigan provides countless hours of enjoyment and 
has a special place in the lives of northeast Wisconsinites. 
Given the central role Lake Michigan plays in our community, it 
should be no surprise that Wisconsinites are passionate about 
the health of our waters. We do not take threats to our 
ecosystem lightly. We know all too well that when agricultural 
runoff or chemicals contaminate the waters, they make our lakes 
susceptible to toxic algae outbreaks, which not only damage our 
ecosystem, but our way of life.
    GLRI dollars support projects to counter these threats. In 
northeast Wisconsin, we have seen firsthand how successful 
these projects can be. For example, the Fox River fell victim 
to side effects from the paper manufacturing industry boom. 
PCBs, toxic chemicals used in the paper industry from 1954 to 
1971--I think the ranking member was alive during that period--
I am sorry, Joyce--devastated the river and the economies that 
it supported. Today the Fox River is still considered a GLRI 
area of concern, but because of these dollars and the projects 
they support, we hope to complete the Fox River cleanup next 
year. And I can't emphasize how important that is for my 
district and my hometown. This is a landmark achievement for 
northeast Wisconsin, and it is just one of many examples that 
highlight the significance of GLRI to our waters and 
communities.
    And while we have made progress, we cannot reverse course. 
Eliminating or reducing funding for GLRI would undo years of 
this program's achievements and will create extreme uncertainty 
for the future health of our waters. At a time when we see new 
contaminants, like PFAS, threatening our rivers, streams, and 
lakes, the stakes are simply too high to abandon a program that 
helps safeguard our natural resources.
    What is reassuring to me is that even amidst calls for cuts 
to the GLRI, there is bipartisan support for this important 
initiative. You both are at the leading edge of that, and I am 
proud to work with you, to call my colleagues, and all my other 
colleagues on both sides of the aisle to lead the way for 
continued support of GLRI funding.
    And as we look to the future, we simply must consider how 
we can build on our GLRI investments. And since GLRI funding 
has been flat at $300 million since 2014, this year, I urge the 
subcommittee to include at least--at least--$300 million in 
fiscal year 2020. And this is an important investment that my 
constituents and the health of our waters depend upon. And with 
that, I thank you for your time and I appreciate your 
consideration. Thank you for all the hard work you do.
    Ms. McCollum. Well, thank you very much, Mr. Gallagher. It 
is very timely that you are here. The President's budget for 
GLRI is 90 percent below the fiscal year 2019 enacted, and 90 
percent is a cut that, to me, looks like they are hoping the 
program will shut down, or not be able to be as successful as 
it has. This has been very important to the economy of all the 
Great Lake States.
    Mr. Joyce and I, representing Great Lakes States, we also 
look out for the other regional endeavors, whether they be on 
the East Coast Chesapeake Bay, West Coast Puget Sound. So we 
appreciate you being here. Mr. Joyce, anything you want to add? 
I have Lake Superior.
    Mr. Joyce. We have a lake that is Erie----
    [Laughter.]
    Mr. Joyce [continuing]. And a tower that is terminal. Other 
than that we are doing fine. Mr. Gallagher, I couldn't possibly 
agree with you more that the Great Lakes are a national 
treasure and that we should make an national investment in them 
and continue the national investment to restore them. I don't 
think it is necessarily this presidency. We certainly had 
problems with the last Administration, but it is the people and 
members of this Congress that stood up and supported it, and 
specifically, Madam Chair and this committee putting together 
that funding. And we look forward to doing it again for you.
    Mr. Gallagher. Thank you. Well, no matter who you support 
in the NFC North, we can agree on GLRI and its importance for 
us.
    Ms. McCollum. Absolutely.
    Mr. Gallagher. Thank you.
    Mr. Joyce. Just watch out for the Browns. [Laughter.]
    Ms. McCollum. Mr. Comer, please join us up here. We are 
anxious to hear what you want to share with us.
                              ----------                              

                                         Wednesday, March 27, 2019.

                                WITNESS

HON. JAMES COMER, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    KENTUCKY
    Mr. Comer. Chairwoman McCollum, Ranking Member Joyce, and 
members of the committee, thank you for the opportunity to 
speak with you today. I appreciate the Appropriations Committee 
allowing members from outside the committee to weigh in on 
their funding priorities as you craft next year's fiscal 
appropriations.
    Today I am here to highlight an issue that is a problem 
threatening not just my congressional district, but our entire 
inland waterways system. That threat is Asian carp. As many of 
you know, the term ``Asian carp'' refers to four species of 
non-native fish: bighead, silver, black, and grass carp. These 
species were brought to the United States decades ago, soon 
entered our major waterways, and have since spread to a 
considerable portion of our country's interior river system.
    Lake Barkley and Kentucky Lake in my congressional district 
are home to some of the top outdoor recreational sites in all 
of Kentucky. Boating, camping, fishing, and other activities 
have an estimated $1.2 billion economic impact on the region. 
However, Asian carp threaten that economy. These invasive fish 
are known to jump out of the water at the sound of approaching 
boats, striking boaters and skiers. They also eat the food 
sources of native fish species. All of this is driving boaters 
and fishers away from our region.
    As an example, Asian carp are ruining the annual fishing 
tournaments that draw hundreds of visitors to the area and 
infuse millions of dollars into the local economy. Last year, I 
held a field briefing, an oversight committee field briefing, 
to discuss this subject in Kuttawa, Kentucky. Over 400 
constituents attended and wrote letters to express their 
concern over the destruction caused by Asian carp. The 
community sent a clear message: Asian carp are inflicting 
serious damage on local tourism and threatening our hotels, 
restaurants, bait shops, and numerous other small businesses.
    This is not a problem just in Kentucky. For years funding 
to combat the threat posed by Asian carp has been focused on 
preventing their spread into the Great Lakes with hundreds of 
millions dedicated to stopping their spread. However, little 
funding has been appropriated to controlling and eradicating 
Asian carp where they already are. Lakes and reservoirs 
throughout the Southeast are facing similar threats from Asian 
carp, and members from Kentucky, Tennessee, Mississippi, and 
Alabama all share a growing concern for our waterways.
    State agencies utilize State Aquatic Nuisance Species, or 
ANS, plans to combat the spread of invasive species in their 
waterways. In fiscal year 2018, we appropriated $2 million for 
the U.S. Fish and Wildlife Services to support these plans. 
However, when that funding is distributed amongst the States, 
that comes out to about $47,000 per State. To better support 
State-based efforts, I am asking for a $4.4 million 
appropriation to support State ANS plans. That would allow for 
$100,000 per State.
    In fiscal year 2019, $11 million in U.S. Fish and Wildlife 
Service's funding was dedicated to controlling and eradicating 
Asian carp. My constituents are grateful for that start, but I 
believe we can do more. That is why I request $25 million in 
funding for U.S. Fish and Wildlife Services for carp management 
and report language to clarify that all our Nation's river 
systems are eligible for that funding, not just the Upper 
Mississippi River.
    Again, thank you for your time today. I look forward to 
working with you to fund our ongoing war on carp, and I am 
happy to address any questions you might have. Thank you.
    Ms. McCollum. Thank you, Mr. Comer. I am going over some of 
the funding that was in the 2019 enacted report. We did have 
$11 million that was provided. We did have report language 
which included Mississippi, Ohio River Basins, Kentucky Lake 
Barkley, Tennessee River Systems, the Ohio River Systems, to 
prevent them from getting into the Great Lakes. And that was 
something Mr. McConnell----
    Mr. Comer. Right.
    Ms. McCollum [continuing]. In the Senate was very 
supportive of.
    Mr. Comer. It is a priority for McConnell.
    Ms. McCollum. It is good to have your voice added to this, 
too, in light of the fact that the President has a reduction in 
his budget of 28 percent. I don't mean to put you on the spot, 
but the U.S. Geological Survey is a big partner in this, and we 
also want to make sure that the USGS, funding and research is 
included in that. Would that be something you would be 
supportive of as well?
    Mr. Comer. I would be interested in sitting down and 
talking to them to see what their plan is because, you know, it 
has just been devastating on the region. And even though there 
has been money appropriated in the past, it doesn't seem that 
any of the dollars have made it to Kentucky. The majority, 
almost all the money, has been focused on trying to keep them 
from getting into the Great Lakes, because when you have your 
lakes infested with these fish, you can't imagine. They are 4 
to 8 pounds. They jump out of the water. You can't do skiing. 
And it just has that detrimental effect on the economy. It is a 
safety issue. And if there is any entity that has got a plan 
other than studying it, if they have got a plan to actually do 
something to eradicate it, I am 100 percent for it.
    Ms. McCollum. Well, we are certainly working with USGS on a 
whole variety of things, not just trying to block them from 
going any farther, but also research and eradicating the 
population. So we would be happy to get you some more 
information on that----
    Mr. Comer. Thank you.
    Ms. McCollum [continuing]. Because we really would 
appreciate the support.
    Mr. Comer. Right.
    Ms. McCollum. It is a whole-of-Interior approach----
    Mr. Comer. Absolutely.
    Ms. McCollum [continuing]. On Asian carp, and that also was 
cut in the President's budget, the USGS portion of it. So we 
look forward to working with it. We want to hunt them, kill 
them, and eat them. [Laughter.]
    And Ms. Pingree on our committee wants to cut them up for 
bait now for lobster.
    Mr. Joyce. Lobster.
    Ms. McCollum. What other ideas do you have, Mr. Joyce?
    Mr. Comer. We have a company in Kentucky that is purchasing 
the fish to use as an ingredient in their dog food. It is a 
national dog food company that is using it.
    Mr. Comer. So there are uses for it, and we in Kentucky 
with State and a little Federal dollars have been trying to 
incentivize local fishermen to greatly enhance their fishing of 
the Asian carp to try to get them out of the water. But it is 
not even making a dent in the population.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you. That was one of the questions I was 
going to have is what is the end use for those who are 
fishermen. I agree with you, Mr. Comer. Obviously this is a 
huge problem. Do you think putting a bounty on Asian carp for 
the contract fisheries is the way to go, or do you think that 
there are other approaches that we should take to eradicate 
these fish completely?
    Mr. Comer. Well, I think that would help. We have through 
the Kentucky Fish and Wildlife increased the cost share, so to 
speak, the subsidy, incentive, whatever you want to call it, 
for local fishermen to try to catch more fish. We have three 
main purchasers of the fish now, and human consumption is one 
of them. In fact, there is a restaurant in Paducah, Kentucky 
called the Freight House, and the chef was runner up in the Top 
Chef contest that just recently concluded on TV. And one of her 
main entrees is Asian carp. It is branded as Kentucky blue fin 
I think. [Laughter.]
    It sounds a little more appealing to the palate. But, you 
know, we are trying to find every use possible. There is a 
startup that is looking at using it as an ingredient in organic 
fertilizer. We are just desperate to try to get more commercial 
fishing in there. There are some studies that I think maybe the 
Corps of Engineers is doing to try to have some type of 
mechanism in the water that attracts the fish and to corner it, 
be able to fish them out more.
    But these fish multiply faster than any species I have ever 
seen, and it is just a huge problem. It has been studied for a 
long time, and the residents between the lakes areas are 
getting pretty impatient now, as you can imagine, because of 
the devastation to the local economy.
    Mr. Joyce. Is there a bounty that they are paying now on 
the fish?
    Mr. Comer. Yes. If you catch so much, you are paid per 
pound. They are incentivizing that. They are doing a double. 
Whatever the market rate is, they are adding to that, like an 
incentive.
    Mr. Joyce. So you are taking it to the guy who is making 
the fish meal to put in the dog food and will pay you a dollar 
a pound----
    Mr. Comer. On top of so much a pound, on top of what the 
going rate is. And we are trying to help with the companies 
that are processing the fish, trying to help with their 
markets. Kentucky Economic Development is working very closely. 
The governor and Senator McConnell and my office are in 
constant communication with the processors now because we are 
just trying to do everything possible to get rid of these fish 
out of the waterways.
    Ms. McCollum. Well, let's hope the businesses don't become 
too successful with that.
    Mr. Comer. Well, hey, that is good for me. That would be a 
good end result.
    Ms. McCollum. Well, I think you know that Mr. Joyce and I 
are big fans of not having them come upstream, so we want to do 
everything we can to help you downstream.
    Mr. Comer. Thank you.
    Ms. McCollum. Thank you for coming.
    Mr. Comer. Thank you very much. I appreciate it.
    Ms. McCollum. Please look into the USGS findings.
    Mr. Comer. I will. I will. Thank you.
    Ms. McCollum. Thank you. Congresswoman Haaland. Welcome.
    Ms. Haaland. Thank you.
    Ms. McCollum. We are very excited to have you here at the 
Interior Subcommittee hearing. So please.
    Ms. Haaland. Thank you so much.
                              ----------                              

                                         Wednesday, March 27, 2019.

                                WITNESS

HON. DEBRA A. HAALAND, A REPRESENTATIVE IN CONGRESS FROM THE STATE OF 
    NEW MEXICO
    Ms. Haaland. Thank you. I am very happy to be here. 
Chairwoman McCollum, Ranking Member Joyce, and members of the 
Subcommittee, thank you for this opportunity to speak today 
about some key priorities for the Interior and Environment 
Appropriations bill. It is an honor to be here with all of you.
    My district is blessed with natural beauty--300 days of 
sunshine per year and more--and abundant wind, and I can vouch 
for that specifically. I urge you to support the swift 
transition to clean energy and away from dirty fossil fuels 
that damage public health and our public lands.
    As chairwoman of the Subcommittee on National Parks, 
Forests, and Public Lands, I urge you to fully fund the Land 
and Water Conservation Fund at the newly-reauthorized $900 
million level to conserve irreplaceable lands and improve 
outdoor recreation. We must also support areas where the 
Federal government owns land, including much of New Mexico. I 
urge you to fully fund the Payment in Lieu of Taxes and Secure 
Rural Schools programs, and I am committed to finding a 
permanent SRS, Secure Rural--trying saying that 3 times fast--
Secure Rural Schools Program solution for forest counties.
    As one of the first Native American women elected to 
Congress and co-chair of the Native American Caucus, I urge you 
to address the serious problems indigenous peoples face. The 
funding needs of American Indians and Alaskan Natives on 
reservations and in urban areas must be a priority to begin to 
work towards fully honoring the Federal government's unique 
government-to-government relationship and trust responsibility 
to Indian tribes. This trust responsibility arose from the 
forced surrender and reduction of aboriginal lands to the 
United States, which resulted in a significant loss of life and 
great suffering.
    The U.S. Commission on Civil Rights' Broken Promises report 
analyzes Federal spending on fundamental services for the 
American Indians and Alaska Natives, all of which are required 
by treaties, statutes, and established Federal trust 
agreements. This report details the underfunding and neglect of 
Federal obligations for decades that has gone on, and the 
breach of the U.S. government's trust responsibility. Based on 
this, I will introduce legislation aimed at correcting these 
budgetary shortfalls and reaffirming the trust responsibility 
that we have to tribes.
    One issue I want to highlight is public safety. The 
underfunding of tribal law enforcement and justice systems 
directly contributes to Native Americans experiencing one of 
the Nation's highest rates of crime and victimization in the 
United States. The Department of Justice found that more than 4 
in 5 American Indian/Alaska Native women have experienced 
violence within their lives, and 56.1 percent have experienced 
sexual violence. Additionally, Native Americans are being 
killed in police encounters at a higher rate than any other 
racial or ethnic group.
    The Bureau of Indian Affairs' funding for law enforcement 
is currently at about 20 percent of the overall need, and 
tribal court funding is only a dismal 3 percent of the need. 
And there is no funding available to address the issue of 
missing and murdered indigenous women in urban areas or State 
courts, contributing to the gap in data collection. Healthcare 
is another area where the Federal budgetary shortfall is most 
apparent for Native Americans and Indian tribes.
    Chairwoman McCollum, I appreciate the hard work this 
subcommittee has done to boost funding for the Indian Health 
Service, and I encourage you to continue those efforts. The 
Indian healthcare delivery system still spends only 40 percent 
of the national average per patient, which leaves American 
Indians and Alaska Natives among the most vulnerable 
populations as many basic patient needs are unmet. I urge you 
to make equitable and non-discretionary Federal funding 
available directly to tribal nations to uphold the well-
established government-to-government relationship tribes have 
with the United States, and provide funding for services that 
most Americans have adequate access to, but that American 
Indians and Alaska Natives do not.
    Thank you for the opportunity to testify.
    Ms. McCollum. Thank you, Congresswoman Haaland, and it is 
good to have your voice at the table. A couple of things I 
would touch on that you highlighted so eloquently is how far we 
fall short of public safety in Indian Country. Mr. Joyce and I 
were here. We had public witness day from our tribal nations. 
We heard from them loud and clear about public safety, very, 
very much so, and some of that is in our budget. Some of it is 
in other budgets, and we are working to do what we can in that. 
But the President has not been very helpful in the budget that 
the Administration put forward for the issues that you 
addressed.
    I wanted to just touch on PILT for the record. It used to 
be mandatory funding. They made it discretionary funding and 
put it into the Interior bill. I believe it rightfully belongs 
as mandatory funding and am working as hard as I can with 
colleagues, and would appreciate your support in moving that 
back over to the mandatory funding where it belongs.
    Ms. Haaland. Thank you.
    Ms. McCollum. It is a tax issue. It belongs in the tax 
bill, and that would free up more dollars for Indian Country to 
work on many of the priorities that you laid out as well. I am 
with you on renewable energy, land and water conservation, and 
other things that we are sure to work on. So hopefully we don't 
have too much more in the way of flooding. I know some of the 
tribal nations in Nebraska have been suffering. We heard about 
Pine Ridge. We have been following that, too. So we will work 
with you in your capacity with Mr. Cole as chairs of the Native 
American Caucus as we hear more about the emergency situations 
in those tribal nations.
    Ms. Haaland. Thank you.
    Ms. McCollum. Mr. Joyce.
    Mr. Joyce. Thank you. Ms. Haaland.
    Ms. Haaland. Yes.
    Mr. Joyce. Sincere congratulations on your becoming the 
first of two Native American women who were elected here, and I 
am certainly glad to have you seated at the table. I fully 
recognize that the Federal government has not lived up to their 
end of the obligation to the tribal nations. It is something 
that as somebody from Ohio wasn't necessarily on my screen, if 
you will, when I first got here to Congress. But since then I 
have been on the Interior subcommittee and have followed 
through with the things that have happened in all of Indian 
affairs.
    We are lucky at times because not only do we have the 
chairwoman, but also at one point we had Mr. Cole, Mr. Simpson 
and Mr. Calvert all on the subcommittee at one time. So it was 
an education process. And it is something that we are going to 
continue to do what we can here to make sure that we at least 
have the funding to try to honor those obligations that we have 
already entered into. So please feel free at any time, not just 
member hearing day, but any time we can be of help of reaching 
out, and we are glad to do whatever we can to help you.
    Ms. Haaland. Thank you so much, and I absolutely will. 
Thank you very much.
    Ms. McCollum. Thank you.
    Ms. Haaland. Thank you.
    Ms. McCollum. Well, Mr. Joyce, we have a few other members 
scheduled, but our time changed because of votes, and we have 
their testimony. I would like to enter it into the record. They 
are unable to change their schedules to be here now, and if 
that is OK with you.
    Mr. Joyce. Fine by me.
    Ms. McCollum. Fine? OK. So moved.
    So with that, we will conclude today's hearing from members 
of Congress on the appropriations for Interior, Environment, 
and Related Agencies. Thank you.
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                          [all]

</pre></body></html>
